<html>
<title> - MEDICATION AND PERFORMANCE-ENHANCING DRUGS IN HORSE RACING</title>
<body><pre>[Senate Hearing 112-562]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-562

       MEDICATION AND PERFORMANCE-ENHANCING DRUGS IN HORSE RACING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                  U.S. GOVERNMENT PRINTING OFFICE

76-248 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2012....................................     1
Statement of Senator Udall.......................................     1
Statement of Senator Lautenberg..................................    28
Statement of Senator Thune.......................................    30

                               Witnesses

Barry Irwin, Chief Executive Officer, Team Valor International, 
  LLC............................................................     3
    Prepared statement...........................................     5
Kent Stirling, Executive Director, Florida Horsemen's Benevolent 
  and Protective Association; Chairman, Medication Committee, 
  National Horsemen's Benevolent and Protective Association......    10
    Prepared statement...........................................    13
Jeffrey Gural, Chairman, Newmark Grubb Knight Frank; Chairman and 
  Managing Partner, American Racing and Entertainment, LLC.......    17
    Prepared statement...........................................    21
James Gagliano, President and Chief Operating Officer, The Jockey 
  Club...........................................................    24
    Prepared statement...........................................    26
Matthew Witman, National Director, American Quarter Horse 
  Association....................................................    41
    Prepared statement...........................................    43
Marc S. Paulhus, Former Director, Equine Protection and Vice 
  President, Humane Society......................................    46
    Prepared statement...........................................    49
Edward J. Martin, President and CEO, Association of Racing 
  Commissioners International....................................    51
    Prepared statement...........................................    53
Sheila Lyons, DVM, Founder and Director, The American College of 
  Veterinary Sports Medicine and Rehabilitation..................    56
    Prepared statement...........................................    58

                                Appendix

Response to written questions submitted by Hon. Amy Klobuchar to 
  Edward J. Martin...............................................    81
Response to written questions submitted by Hon. Tom Udall to:
    Barry Irwin..................................................    82
    Kent Stirling................................................    83
    James Gagliano...............................................    97
    Matthew Witman...............................................   102
    Marc S. Paulhus..............................................   104
    Edward J. Martin.............................................   108
    Sheila Lyons.................................................   112
Editorial, published June 16, 2012 from The NY Times, entitled, 
  ``Stronger Medicine for What Ails Horse Racing''...............   116
Multimedia feature dated March 30, 2012 from The New York Times 
  entitled, ``Breakdown--Death and disarray at America's 
  racetracks''...................................................   117
Article dated March 25, 2012 from The New York Times, entitled, 
  ``Mangled Horses, Maimed Jockeys''.............................   117
Article dated April 30, 2012 from The New York Times entitled, 
  ``Big Purses, Sore Horses, and Death''.........................   126
Article dated April 30, 2012 from The New York Times entitled, 
  ``How the Data Was Analyzed''..................................   132
Article dated July 11, 2012 from The New York Times entitled, 
  ``Records Show Triple Crown Contender Had History of Ailments''   133
Article dated August 9, 2012 from Miami New Times entitled, 
  ``Cheaters Prosper at Calder Race Course''.....................   134
Letter dated July 12, 2012 to Hon. John D. Rockefeller IV from 
  Wayne Pacelle, President and CEO, The Humane Society of the 
  United States and Nicolas Dodman, BVMS, DVA, DACVA, DACVB, 
  Leadership Council Member, Humane Society Veterinary Medical 
  Association....................................................   142
Letter dated July 12, 2012 to Hon. John D. Rockefeller IV from 
  Sam Kerr, Interim Executive Director, Bladerunners: National 
  Horse Racing Commission Movement...............................   143
Nancy Perry, Senior Vice President, Government Relations, ASPCA, 
  prepared statement.............................................   147

 
       MEDICATION AND PERFORMANCE-ENHANCING DRUGS IN HORSE RACING

                              ----------                              


                        THURSDAY, JULY 12, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:59 p.m. in Room 
SR-253, Russell Senate Office Building, Hon. Tom Udall, 
presiding.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. The hearing will come to order. And let me, 
first of all, thank you all for being here. And just tell you, 
we have the best intentions around here in terms of organizing 
our committee work with votes. Andwe've ended up now there will 
be a vote going off momentarily. And I will have to get over 
there to vote on these three votes, probably around 2:30.
    So what I'm going to do is give my opening statement and 
then cut it off right promptly at 2:20 wherever we are on the 
witness panels. And then I will come back right after votes. 
It'll probably be right a little bit after 3 o'clock. And then 
we'll complete through both panels and all the questioning, and 
we'll get through it.
    I apologize to you. We thought we had been correct in 
moving it at 2 o'clock, that we weren't going to be interrupted 
in votes. But things just sometimes turn out that way, so thank 
you very much.
    And good afternoon. It's great having you here today.
    And I first want to thank Senator Rockefeller and Senator 
Hutchinson for their support in holding this hearing, and also 
thanks to our very knowledgeable and distinguished panelists 
that we have before us. I'm very much looking forward to the 
testimony.
    Horseracing has a proud heritage. It's a majestic sport, 
but the sport has run off the rails. The chronic abuse of 
horses with painkillers and other drugs is just plain wrong, 
and it's dangerous.
    An injured horse feeling no pain continues to charge down 
the track. This endangers every horse. It endangers every 
rider. And in the long run, it endangers the sport itself.
    Unlike other sports, horseracing lacks a commission or a 
league office that can issue uniform rules. State racing 
commissions routinely impose small fines and short suspensions. 
There is minimal deterrence, and chronic doping continues 
unabated.
    Meanwhile, horseracing enjoys a privilege that no other 
sport does--simulcast gambling across state lines. Congress 
passed the Interstate Horseracing Act of 1978, the IHA, to 
allow betting across state lines for horseracing. This statute 
was amended in 2000 at the request of the racing industry to 
allow Internet and telephone betting. And in 2006 when Congress 
passed legislation to prohibit online gaming, it granted a 
special exemption for horseracing.
    This year, Americans bet over $130 million in wagers 
involving the outcome of a single race, the Kentucky Derby. 
Today, nearly 90 percent of the $11 billion bet annually on 
horseracing is from off-track wagers permitted by the IHA.
    Congress should not tolerate doping and cheating in 
interstate horseracing. But the record is discouraging.
    This great sport has reached a terrible level of corruption 
and exploitation. In a 2006 Federal case involving a 
thoroughbred trainer with ties to organized crime, a judge 
ruled that milkshaking a horse could constitute wire fraud. Yet 
this year, thoroughbred racing celebrated a Kentucky Derby and 
Preakness winner trainer who has racked up numerous medication 
violations, including four for total carbon dioxide or 
milkshaking.
    This year, Federal agents raided two tracks in my home 
State of New Mexico. They arrested trainers with alleged ties 
to the Sinaloa and Zetas drug cartels. According to a warrant, 
one of the accused boasted of fixing the 2010 All-American 
Futurity, one of the richest races in the world.
    Horseracing used to be the number one spectator sport in 
America. That's no longer the case. Attendance is down. With a 
loss of fans comes a loss of revenue, affecting a $40 billion 
industry with 400,000 jobs nationwide.
    In my home state of New Mexico, horseracing is a $400 
million a year industry supporting 10,000 jobs. And I believe, 
as a result of the situation we have here, jobs are at risk.
    Promises of reform have been made and broken many times. 
Congress considered legislation in the 1980s, and industry 
groups insisted that congressional action was not needed. Well, 
it was needed then. And over 30 years later, the need has only 
increased.
    American horseracing stands apart from the rest of the 
world in its permissive medication rules and in its tolerance 
for doping. To tackle these problems affecting this important 
and historic American industry, Congressman Ed Whitfield and I 
introduced the Interstate Horseracing Improvement Act.
    Our legislation would do three things: Number one, ban 
race-day medication and horses from racing under the influence 
of performance enhancing drugs. Number two, kick the cheaters 
out of the sport after three violations of the rules. And 
three, require drug testing of racehorses by independent labs.
    Our bill doesn't create any new Federal bureaucracy. It 
keeps responsibility for enforcing these rules with State 
commissions. In the absence of adequate enforcement, the 
Federal Trade Commission could enforce doping violations and 
could shut down off-track betting.
    Time and again, Congress has passed legislation to expand 
gambling on horseracing, and now it's time to end the abuse. 
It's time to restore integrity to this sport.
    The safety of these majestic animals and their jockeys are 
at stake. So are jobs in places like New Mexico and other 
racing states around the country.
    Those who play fair in the sport should no longer be at the 
mercy of those who do not.
    So thank you again for being here. I'm hopeful that we can 
work together on this. After 30 years of hand wringing and 
talk, it's time for action. It's time to put American 
horseracing back on the right track, no pun intended there.
    Senator Thune is going to join me. I think he is going to 
come in after we finish this series of votes, so let me just 
quickly introduce our first panel here.
    We have our first witness, starting from the left here, Mr. 
Barry Irwin, Chief Executive Officer, Team Valor International. 
He has reported on and written about horseracing for many 
years, and he also owns some very fast horses.
    Mr. Kent Stirling, Executive Director, Florida Horsemen's 
Benevolent and Protective Association; chairman, Medication 
Committee, National Horsemen's Benevolent and Protective 
Association.
    Mr. Jeffrey Gural, Chairman, Newmark Grubb Knight Frank; 
Chairman and Managing Partner, American Racing and 
Entertainment, LLC.
    And Mr. Jim Gagliano, President of the Jockey Club.
    So welcome.
    And, Mr. Irwin, please you begin.
    I want to tell all the witnesses, all of your statements 
that you have there today will be submitted formally in the 
record. You should not feel that you in any way have to read 
your statement. But you can proceed reading from the statement 
or however you wish to proceed. We're going to try to work 
through here with roughly 5-minute statements on each of you. 
And when we hit 2:20, you'll see me just take a quick recess.
    So please, Mr. Irwin, please begin.
    Please turn on your mike there. There you go. Everybody can 
hear you now.
    Mr. Irwin. Thank you.
    Senator Udall. Just ignore all those bells.

 STATEMENT OF BARRY IRWIN, CHIEF EXECUTIVE OFFICER, TEAM VALOR 
                       INTERNATIONAL, LLC

    Mr. Irwin. Senator Udall, members of the Committee, good 
afternoon and thank you for the opportunity to speak at this 
important hearing.
    My name is Barry Irwin. I am Chief Executive Officer of 
Team Valor International, LLC. For the last 26 years, I have 
operated a stable of thoroughbred horses that compete in races 
all over the world. We have our own physical barn just up the 
road in Elkton, Maryland, where we stable between 30 and 35 
horses.
    We also have horses that regularly race in England, France, 
Germany, Italy, as well as South Africa. Horses racing in our 
name and colors have won many important races throughout the 
world, most recognizably the Kentucky Derby last year with a 
horse named Animal Kingdom.
    Animal Kingdom is a good example of how I choose to run my 
operation. His sire was bred in Brazil. I bought him for a 
client. His dam was bred in Germany. I bought her at a sale in 
Germany and raced her in America.
    Animal Kingdom was bred by my partnership. He was offered 
for sale at Keeneland, a public auction, where I bought him and 
formed a syndicate to race him.
    So we had a hand in acquiring the sire and the dam. We bred 
Animal Kingdom, and we still race him.
    I prefer to buy and breed from stock prospected in foreign 
countries where horses do not race on drugs and generally 
represent generations of ancestors that did not race on drugs.
    Horseracing is in crisis. The public perceives racing to be 
out of control. Our image can be resuscitated, but before we 
can offer a race day program worthy of public trust, steps need 
to be taken to improve the integrity of the game. The Federal 
Government can help.
    Horseracing is a sport. It began when an owner thought his 
horse was faster than another fellow's. To settle it, a race 
was held.
    It came to pass that if these contests were sufficiently 
appealing, interest could be generated from the public, which 
would attend and bet on the outcome. If enough contests were 
arranged, a racing association could be formed to regularly 
offer races.
    Benefits for the public included new jobs and taxes that 
could be levied by governments. In order for governments to 
justify taxing bets on races, States set up commissions to 
safeguard the integrity of the sport.
    This is the basis of racing as we know it today, but the 
grand bargain has been broken. State governments have let down 
their constituents.
    For racing to thrive, it must give the public enough 
confidence to place a bet. State commissions must guarantee a 
sport that is conducted on a level playing field. Because 
commissions fail at this, the fabric of the sport has 
unraveled, and the public has lost faith in our product.
    Before the public can be won back, our industry must be 
able to improve its product. The steps that need to be taken, 
however, seem beyond the grasp of the State racing commissions. 
This is why we need Federal assistance.
    Racing has two drug problems, one of its own making, 
another foisted upon it. Some 40 years ago, State commissions 
were sold a rotten bill of goods by the name of ``permissive 
medication,'' a failed experiment that has served to devalue 
our horses and bloodlines and to isolate us among all major 
racing centers of the world.
    Just as insidious is a group of cheaters that have hurt the 
sports image and tied racing commissions in knots. State racing 
commissions, with few exceptions, do a lousy job of identifying 
cheaters, investigating them, and adjudicating them. Reasons 
include lack of will, lack of sufficient funding, lack of 
qualified personnel, and failure to prevail in court against 
cheaters.
    So cheaters cheat. Sometimes they get caught. But too many 
that do wriggle off the hook by hiring private sector defenders 
that beat their civil service counterparts.
    We need new and tougher Federal law to rid our sports of 
miscreants.
    Adding to the confusion is that since race day drugs were 
legalized in 1970, the public cannot distinguish between 
positives for therapeutic medications and ones considered to be 
illegal. As a result, the public cannot tell the good guys from 
the bad guys.
    Making matters worse is an absence of cooperation or 
uniformity between the states. Instead, we have a crazy quilt 
of drug rules that differ from state to state. This causes 
confusion for innocent trainers and regularly leads to positive 
tests that could have been avoided if uniformity of rules 
existed on a national level.
    States are more interested in maximizing tax revenue than 
providing a level playing field. Much of what ails horseracing 
and prevents the industry from being able to right itself can 
be blamed directly on a lack of uniform rules. But some states 
like it this way.
    States are in competition with each other. Racetracks are 
in direct competition with racetracks in other states for top 
horses. So trainers place states against one another, lobbying 
for more lax drug rules. States that appease trainers, get the 
horses. The other states don't.
    It is unfair for states that take a tough approach to drug 
rules to suffer because rival or neighboring states ease their 
rules in order to get trainers to send horses their way.
    I live in Kentucky, the thoroughbred racing and breeding 
capital of America, and our state recently passed a rule that 
will eliminate race day drugs. Kentucky figures to lose 
business because it took a progressive stance.
    It is unfair for Kentucky to lose business and revenue for 
doing the right thing. And it is outrageous for states and 
racetracks that will allow drug use to prosper.
    Each state has serious conflicts of interest that combine 
to weaken racing as a whole. If there was a national policy 
providing uniform drug rules for every racing jurisdiction, all 
states would be on a level playing field, which is as it should 
be.
    Putting horses at risk and mistreating them by juicing them 
with drugs is no way for states to line their coffers, for 
racetracks to improve their bottom line, or for trainers to 
make a better living.
    We need to stop drugging thoroughbred racehorses in order 
to make them the beast of burden that will carry our industry 
on its back. We should be celebrating this glorious athlete, 
not trashing it.
    [The prepared statement of Mr. Irwin follows:]

      Prepared Statement of Barry Irwin, Chief Executive Officer, 
                     Team Valor International, LLC
    Horse racing in the United States is in crisis. The public 
perception of racing is that of an industry out of control. Racing's 
image can be resuscitated and successfully marketed anew. Before the 
industry is able to properly present a race day program worthy of the 
public's trust, however, certain steps need to be taken to improve the 
integrity of the game. And that is where the Federal government can 
help.
    Horse racing is a sport. It began simply enough with an owner 
thinking his horse was faster than another fellow's horse. To settle 
the dispute, a race was held. It came to pass that if these contests 
were sufficiently appealing, interest could be generated from the 
public, which would attend races and bet on the outcome. If enough 
contests were arranged, a racing association could be established to 
regularly offer races. Benefits to the public included the addition of 
jobs to the workforce and taxes that could be levied by governments. In 
order for governmental bodies to justify taxing money bet on races, 
states set up commissions to safeguard the public by insuring the 
integrity of the sport. This is the basis of horse racing as we know it 
today.
    But the grand bargain has been broken. Actually, it has been 
shattered. The state governments have let down their constituents.
    For the enterprise to thrive in a manner that gives the public 
confidence to place bets, racing commissions appointed by governors of 
states that conduct horse racing must do an adequate job in making sure 
the sport is played on a level field.
    Because many racing commissions do not do a good job, the fabric of 
the sport is unraveling and the public has lost faith in the quality of 
the product.
    Before the public's interest in horse racing can be reignited, the 
industry must be able to improve the product it offers. The steps that 
need to be taken, however, seem beyond the grasp of the state racing 
commissions. This is why our industry needs Federal assistance.
    State racing commissions, with few exceptions, do an inadequate job 
of identifying cheaters, investigating them, policing them and 
adjudicating them. Reasons include lack of will, lack of sufficient 
funding, lack of qualified personnel and failure to prevail in court 
against cheaters. So cheaters cheat, sometimes they get caught and many 
times when they do, they wriggle off the hook by hiring private sector 
defenders that are better lawyers than their civil service 
counterparts.
    Adding to the confusion is that since race day drugs were legalized 
in 1970, the public has had a difficult time drawing a distinction 
between drug positives for so-called therapeutic medications, versus 
ones considered to be illegal. As a result the public cannot tell the 
difference between the good guys and the bad guys.
    Making matters worse is an absence of cooperation, uniformity or 
coordination between the states. There is a crazy quilt pattern in 
which rules relating to improper drug use differ from state to state. 
This causes confusion among trainers, both the innocents and the cheats 
alike, and regularly leads to positive drug tests that could have been 
avoided if uniformity of rules existed on a national level.
    It is endemic to horse racing as in other contests of speed from 
cycling to human racing that a certain number of participants are going 
to seek ways to take unfair advantage of their opponents by illegally 
using performance enhancing drugs.
    In human sports the World Anti-Doping Association (WADA) has a set 
of elaborate rules and guidelines under which races are conducted. 
Horse racing has no comparable body. Horse racing has no central 
control with real authority for anything, other than The Jockey Club, 
which is charged with registering the breed in the Stud Book.
    Although the United States is not a member, horse racing has its 
own world-wide authority on drugs and medication, called the 
International Federation of Horseracing Authorities (IFHA). The IFHA 
rules are very strict. They do not allow race day medication and they 
have established drug testing programs that insure compliance.
    For the United States not to be in compliance with IFHA rules is a 
show of arrogance that has called into question the credibility of the 
performance of American horses. It is imperative to have as part of any 
new law our compliance with the IFHA rules, so that America is a 
legitimate member in good standing with the rest of the horse racing 
world.
    When this is done, the thoroughbred breeding industry, which 
employs more than 100,000 agricultural workers, will expand its 
international market. Then, for the first time, our Thoroughbred races 
will have credibility with fans and bettors around the world. This is 
good business.
    The vast majority of trainers and veterinarians that participate in 
horse racing are honest, law-abiding citizens that love their animals, 
respect their clients and devote every waking hour to their sport.
    But there are and always will be those few rotten apples that want 
to cheat. In horse racing there is a clear pattern showing that these 
trainers are chronic cheaters, because even when they are caught and 
adjudicated, they invariably turn out to be repeat offenders. And, 
under the current law and state-by-state system, cheaters have been 
successful not only in tilting the playing field to their advantage, 
but by and large have been just as successful in skirting the law.
    Where racing has failed miserably in dealing with these miscreants 
is that they have been unable to root the repeat offenders from the 
game.
    For a long, long time, the prevailing feeling among those charged 
with operating horse racing was that it was a bad idea to publicly 
identify cheaters, based on a notion that negative publicity would only 
serve to hurt the sport.
    This attitude reached a crescendo in California between 1994 and 
2004 when the administrative head of the horse racing board 
circumvented the spirit and letter of the law by cutting deals behind 
closed doors with drug abusers, which had the chilling impact of 
sending exactly the wrong message to trainers with a bent for taking an 
edge. Trainers soon figured out that a small fine or slap on the wrist 
was a good trade off for being able to continue cheating with their 
horses.
    In California, a climate for trainers that wanted to cheat was 
created by the racing commission. Sadly, this important state continues 
to suffer from it even today.
    Just this year, when the trainer of the Kentucky Derby and 
Preakness Stakes winner was suspended and fined for a third violation 
for the same offense, the commission failed to bring the full force of 
the law to bear against the horseman, who was preparing to start his 
horse in the Belmont Stakes and possibly become the first winner since 
1978 of the Triple Crown.
    A deal was struck between the trainer and the racing commission 
prior to the final hearing, in which the officer in charge appeared to 
very nearly exonerate the trainer, although recommending a suspension 
and fine.
    The head of the racing commission, a gubernatorial appointee, 
exhibited exactly how much of a conflict of interest he had, when he 
wished the trainer the best of luck in the Triple Crown, because he 
perceived that a Triple Crown win would be a feather in the cap of the 
state, as well as being good for local business. The political 
appointee expected to experience ``great, great enjoyment in seeing 
those connections bring home the Triple Crown.'' After the hearing, a 
commission-generated press release bent over backwards to put the 
offending trainer in the best possible light.
    There is no precedent I know of in any other sport where a 
participant is fined and suspended for cheating for a third time for 
the same offense and then sent on his way with good luck wishes and the 
prospects of bringing glory to the jurisdiction.
    The Olympic sports of cycling and track and field have 
organizations that conduct the sport on a national level and maintain 
tight control by paying strict attention to WADA's guidelines and 
implementing them in a serious manner to bolster the integrity of their 
sport. Drugs used on racehorses are banned for humans by WADA, which 
also regularly conducts out-of-competition testing, a practice that 
horse racing has been reluctant to embrace, but one which is mandatory 
for catching cheaters, because some drugs are given to horses several 
weeks or even months prior to races.
    In the United States, horse racing has a set of rules and a racing 
commission in each state that conducts racing. There is no single 
national body; there is no uniformity and precious little understanding 
of the powerful impact of certain drugs that in some states are 
considered legal, safe and beneficial for the horses and the sport.
    A problem exists with the structure of racing in the United States, 
because state racing commissions basically are more interested in 
maximizing tax revenue than in providing a level playing field. They 
have a huge conflict of interest and they abuse their position.
    It behooves each state to attract the best horses to make races 
more interesting for horseplayers betting their racetracks at off-track 
sites. Trainers realize this and play the states against each other and 
only race in states that allow them to use the drugs and medication 
under the most permissive rules.
    New York, for example, was the last state trying to maintain strict 
drug laws, but trainers moved their horses to other states and brought 
New York racing to its knees. Once New York cried uncle and changed its 
rules to allow certain drugs, the trainers returned to race there.
    States compete with each other by lowering the bar on drugs. States 
with the most permissive drug rules win this game. This vicious cycle 
can be terminated by establishing uniform national guidelines that 
would end the competitive struggle of the states by establishing a 
level playing field that will benefit bettors and the welfare of the 
horse. It will allow the state to concentrate on doing its real job, 
which is to safeguard the health of the horse and provide the best 
sport possible for its constituents.
    States, by and large, have taken a position, propagated by 
organizations made up of horse trainers and veterinarians, that the use 
of so-called legal therapeutic drugs allow horses to run more often, 
insuring larger fields, which in theory generates more tax revenue 
because gamblers bet more money on large fields.
    Unless a horseman began training more than 40 years ago, he has 
practiced his trade only during an era when drugs have been a major 
part of horse racing. Because of this, trainers to a much greater 
extent than at any time in the history of sport rely on veterinarians. 
Vets used to be consultants; today some of them are as involved in the 
training of a horse as much as the trainer itself.
    Contrast this with a 78-year-old horseman I employ in South Africa 
that in 7 years has never sent me a vet bill, instead relying on old 
fashioned horsemanship to work through problems. He not only is one of 
the most successful trainers in the history of the world, but also 
mentored one of the most successful trainers currently plying his trade 
on an international scale.
    Currently in the United States, at least two so-called legal drugs 
are abused by horse trainers. They are Salix, a diuretic, and 
Ventipulmin, a bronchodilator. Both are considered to be illegal by 
WADA for use in human athletes. The first is not allowed, for one 
reason, because it can mask or interfere with testing for illegal 
drugs. Veterinarians and trainers like to discount this notion, saying 
that this may have been true in an earlier era, but that testing 
methods have improved so much that this is no longer the case. Yet WADA 
considers it significant enough to make it part of its drug guidelines.
    As for Ventipulmin (clenbuterol), WADA recognizes that it is used 
for respiratory ailments, but also is fully aware that the main reason 
athletes want to use it is that it acts like a steroid in adding muscle 
mass. Horse trainers know this as well, which is why they like to use 
it. Veterinarians insist that its main use is as a valuable tool in 
treating respiratory problems.
    State racing commissions on a daily basis have their hands full. 
Because Salix is approved for use on race day and used by about 95 
percent of all racehorses nationwide, they need to keep close tabs on 
this drug. They also test for levels on a myriad of other drugs. 
Additionally they have to be on the lookout for illegal drugs (drugs 
not approved for use). In many states they also test for levels of 
TCO<INF>2</INF> (total carbon dioxide.)
    In a situation without parallel in any other sport, 95 percent or 
more of all racehorses competing in every race in the United States are 
drugged with Salix. The justification offered by trainers and 
veterinarians is that about 5 percent of horses experience Exercise 
Induced Pulmonary Hemorrhaging. How can any sport, at any level from 
grade school through college and into the professional level justify 
the drugging of 95 percent of its athletes in order to prevent the 
possible adverse impact from an exercise induced insult that might 
occur among 5 percent of the players? This is the tail wagging the dog.
    How would any parent feel about having to medicate 95 percent of 
their children before a game or match because 5 percent of the other 
children might suffer from some malady? Very few I would imagine. A 
better response would be to keep those 5 percent of children on the 
bench where they belong! Not all children are allowed to play all 
sports because of medical issues. This is a normal practice in a caring 
society.
    If we need to drug 95 percent of our athletes just to be able to 
present a day's racing, I humbly suggest to you that racing is not 
viable as a sport. But I firmly believe that racing can be conducted 
drug free and would in fact thrive in the absence of race day drugs. 
Proponents of race day drugs will point to the ``science'' that they 
claim supports the use of Salix for example. First of all, many of 
these same people are the very ones that laugh when the word 
``science'' is trotted out to support the theory of global warming. One 
can find a doctor or a scientist to support or denounce any point of 
view.
    But in the instance of Salix, I will be the first to admit that 
while it does have serious side effects, it is an effective drug. But 
whether the science is correct or not and whether the drug works or not 
is not the issue. The issue is that healthy horses should not and do 
not need to race on drugs. The rest of the world gets along without it 
just fine. America is the odd man out in this regard and our image as 
breeders and caretakers of horses has suffered around the globe because 
of it.
    Racing in the United States, not unlike some other sports, has been 
and is currently plagued by participants that consistently circumvent 
the rules of the game by cheating. Their preferred method is 
administering drugs or foreign substances.
    There are four basic ways to enhance the performance of a horse 
illegally. They are managing pain, adding muscle mass, increasing 
oxygen delivery and buffering lactic acid. Pain can be managed by using 
drugs and substances to mask soreness. Muscle mass can be added by 
using animal or synthetic steroids or Ventipulmin. Oxygen can be 
increased by administering drugs originally developed for humans to 
enhance the production of red blood cells. Lactic acid can be buffered 
by administering substances into the system in various forms from tubes 
through the nostrils directly into the digestive system to a paste 
introduced through the mouth.
    A horse that runs pain free, has more muscle definition, gets more 
oxygen and has its lactic acid buffered, runs faster than its rivals, 
because its skeletal structure feels fine, its body is stronger, it has 
more oxygen to be able to run faster and farther and the build up of 
lactic acid is delayed so that it doesn't get tired. This is the gold 
standard of cheating.
    Horses that are not healthy and are illegally treated with drugs to 
make them feel no pain are candidates to over-extend themselves and 
suffer catastrophic injury as a result of trusting the integrity of 
their own bones and sinew. If a horse's pain is not masked, the animal 
will protect itself. Illegal drug use can make a horse vulnerable to 
death.
    There also is a Pandora's Box of drugs that are suspected to be in 
use, but are not readily identifiable, because they are unknown or not 
enough is known about them. Falling under this class would be so-called 
designer drugs of the ilk made famous in the BALCO scandal, in which 
synthetic drugs are created that offer the same benefits as known 
drugs, but have a molecular structure that has been altered to make 
their detection difficult to identify.
    In this same Pandora's Box are surely other drugs developed for 
human beings that are so new or in experimental stages of development 
that racing officials are unaware of their existence.
    In recent times, two pain killers have found their way into the 
general news stream, one of which comes from a frog and another from a 
sea snail. It is obvious that the number of ways to cheat and the 
availability of products to be employed for cheating are never going to 
dry up, nor are those unscrupulous individuals that will make these 
substances available to horse trainers or veterinarians. That is the 
given.
    This is exactly why those trainers and veterinarians that 
chronically look for an edge over their honest rivals need to be 
identified, prosecuted and sent packing.
    The reason some trainers have become chronic cheaters is that 
illegal drugs work. And once a cheating trainer has experienced amazing 
success by cheating with illegal substances, they develop self doubt 
that anything natural they can do will never match the power of illegal 
drugs. That is why, try as they might, trainers that become hooked on 
the power of drugs find it difficult to get the monkey off their back.
    Cheaters will always be a step ahead of law enforcement. But if the 
FBI were brought into the equation and stiffer penalties for cheaters 
were enacted, this would provide a provocative deterrent to stop some 
would-be rule breakers.
    The FBI, by employing investigative methods used in its crusade 
against members of organized crime, should be able to get to the bottom 
of the illegal drug trade and usage in the tiny world of horse racing. 
This would be a welcome addition to our industry.
    The challenges presented to racing commissions from these various 
corners cannot be minimized. In some cases, the most effective way to 
deal with the problem is not through testing, because a lab can only 
test for what it is specifically looking for. The best way is through 
good old fashioned police work, the kind specialized in by the FBI.
    Right now, horse racing in the United States is out of step with 
the major racing centers throughout the world, where racing on drugs on 
race day is not allowed. It is allowed in America because of our 
structure of each state being in charge of the sport in its own locale. 
In these locales, racing associations, horsemen and veterinarians have 
successfully lobbied for the use of drugs, convincing the states that 
the use of drugs will allow horses to race more often, thereby 
generating more revenue for the states and creating more jobs for 
residents.
    This, in the face of plenty of evidence to the contrary that shows 
since the introduction of race day meds that the number of starts per 
animal has steadily decreased.
    And this, in spite of the fact that companies that conduct public 
auctions for the sale of horses in Europe could be on the verge of 
downgrading the quality of races in the United States in their sales 
catalogues because races in this country are the only ones listed in 
which the participants race on drugs.
    All of the arguments on behalf of horsemen, racing associations and 
veterinarians that racing on drugs is required for the health of a 
racehorse is refuted on a daily basis by the same type of horses racing 
medication free on the race courses of Europe and the United Kingdom. 
And make no mistake, the top-rated horses in the world compete in these 
countries, not in the United States.
    Racing horses is meant to be a sport. The reason racing 
associations can hold races and conduct betting on racing is due to the 
fact that it is a sport. Racing is not meant to be a provider of jobs 
or a vehicle to beef up the coffers of state governments.
    Racing can provide jobs and tax revenue. But, ultimately, it can 
only do that if it is a sport first. And by the act of racing horses on 
drugs, it renders it not a sport, because no enterprise that presents 
racing with horses that are drugged can by any definition be classified 
as a sport.
    If we do not stop drugging our horses, we do not have a viable 
sport. And if we do not have a viable sport, the public will not watch 
it and will not bet on it and there will be a loss of jobs and tax 
revenue.
    No sport, no trust. No trust, no support from the public.
    The racing industry has been unable to regulate itself, mostly 
because there is no national cohesiveness. The system of individual 
state-operated commissions has been a failure because of the conflicted 
nature of the political appointees that run the show.
    Racing jurisdictions were sold a bill of goods by some well-meaning 
veterinarians in the 1970s that truly believed these drugs would help 
the sport to grow and thrive. They were wrong and some will freely 
admit it today. They only proceeded to lead us down a path that has 
devalued and diminished our once proud American-bred horse that had 
been the envy of the world in the 1970s, the last time we saw Triple 
Crown winners like Secretariat, Seattle Slew and Affirmed.
    Horse racing needs some assistance from the Federal government that 
will aid the industry in ridding the sport of drugs on race day.
    First, a national drug policy needs to be instituted in which no 
drugs are allowed to be used on race day. An organization needs to be 
named by the Federal government that has the power to set threshold 
limits on therapeutic medications.
    Secondly, the Federal government should pass legislation to 
strengthen the hand of racing against drug abusers found guilty of 
breaking the law. This legislation must be strong enough to be a better 
deterrent than the ones now on the books and it must include expulsion 
from the sport of those parties found guilty for multiple offenses. The 
chronic cheaters must be rooted out of the game, because they are 
criminals that have put the entire industry in jeopardy with the public 
and have abused their right to due process by making a mockery of the 
system.
    The Federal Government, through the Interstate Horseracing Act of 
1978 has the standing to help horse racing by amending the law.
    I daresay a majority of those people that derive their livelihood 
from horse racing live in mortal fear of a Washington-based politician 
tampering with the IHA. These people would rather deal with the devil 
they know, no matter how debilitating and frustrating it is.
    My response to them is as follows: racing is fighting for its very 
survival right now and because of that, I would gladly risk opening up 
the IHA to amendments on the chance that something beneficial might 
arise from it, because the sport is heading to extinction as it now 
stands. People in horse racing by their very nature are gamblers. I am 
willing to gamble that something good can come out of amending the law 
in hopes for a better future.

    Senator Udall. Thank you very much for that testimony, Mr. 
Irwin.
    And, Mr. Stirling, you can proceed now.

        STATEMENT OF KENT STIRLING, EXECUTIVE DIRECTOR,

          FLORIDA HORSEMEN'S BENEVOLENT AND PROTECTIVE

          ASSOCIATION; CHAIRMAN, MEDICATION COMMITTEE,

   NATIONAL HORSEMEN'S BENEVOLENT AND PROTECTIVE ASSOCIATION

    Mr. Stirling. My name is Kent Stirling. I am the Chairman 
of the Medication Commission of the National Horseman's 
Benevolent and Protection Association. With over 30,000 members 
in the United States and Canada, the National HBPA is the 
largest organization in the United States representing owners 
and trainers of thoroughbred racehorses. I am also the 
Executive Director of the Florida HBPA. And before that, I 
trained horses for 20 years.
    I appreciate very much the opportunity to appear before 
this committee on behalf of the National HBPA and its members 
to give testimony on the use of performance enhancing drugs in 
American thoroughbred horseracing.
    Let me start by stating unequivocally the national HBPA's 
position on performance enhancing drugs: Owners and trainers 
who cheat by administering drugs that have no legitimate use in 
horses in an attempt to win races should be kicked out of 
racing.
    The use of drugs like snake venom and recently reported 
opiates made from a South American frog skin is doping, plain 
and simple. Doping should be severely penalized by State 
regulatory authorities.
    But let me quickly add, data compiled by State racing 
authorities shows conclusively that doping of thoroughbred 
racehorses in the United States is rare.
    As you may know, after each thoroughbred horserace, State 
racing commissions test at least two horses in every race, the 
winner and another selected by the State's stewards, usually 
the second place finisher or a beaten favorite. That's a 25 
percent sample of all horses racing in the United States.
    Over the 3-year period from 2009 through 2011, there were 
nearly 300,000 post-race tests of blood and urine. Only 82 were 
positive for drugs that had no business being in a horse other 
than to enhance performance or to cheat.
    To put it plainly, more than 99.9 percent of all tests were 
negative for doping substances. During that same 3-year period, 
on average, 5,800 trainers were licensed annually by State 
racing authorities. On average, 12 trainers per year were 
guilty of illegally doping horses, according to State 
regulatory data. That means that more than 99.8 percent of all 
trainers did not dope horses.
    These statistics should be the envy of every other sport 
that tests for drugs, like professional football, baseball, 
cycling, to name but a few. Horseracing in the United States 
spends about $35 million a year on its drug-testing program. 
That contrasts with the World Anti-Doping Agency, which 
earmarks an annual $1.6 million for testing in human sports.
    Despite objective evidence demonstrating there is no 
widespread misuse of drugs in thoroughbred racing, many 
industry voices, perhaps motivated by sensational and 
inaccurate media reports, have called for a ban on all raceday 
medication. Those who do so labor under the belief that race-
day medication is routinely permitted and that it causes 
injuries to horses. That's not true.
    The only race-day medication allowed in the United States, 
with minor exception, is Lasix, a safe and effective 
therapeutic drug that has been used for 40 years to help 
prevent horses from bleeding in their lungs during a race. And 
Lasix's use is clearly noted in every racetrack daily program 
by a capital ``L'' next to the horse's name.
    Unfortunately, Lasix has been swept up in media claims of 
illegal doping. Lasix has become the poster child for those who 
are arguing in favor of a ban on all medications and has 
obscured some basic scientific and medical facts about Lasix, 
including the following: racing hard causes nearly all horses 
to bleed in their lungs, some more severely than others. 
Bleeding robs horses of oxygen, causes progressive and 
irreversible scarring in the lungs, makes breathing more 
difficult, and can cause instant death on the racetrack.
    Lasix prevents and lessens bleeding and is the only 
medication that does so. It is safe and has been used 
effectively for nearly 40 years. Its use does not prevent the 
post-race detection of other drugs.
    Lasix is not performance enhancing. It does not make a 
horse run faster than its God-given natural talent. On the 
other hand, bleeding in the lungs does make a horse run slower 
and may stop a horse outright.
    Lasix has never caused a horse to be injured when racing. 
However, horses racing without Lasix have collapsed and died 
from acute pulmonary bleeding causing injuries to fallen 
jockeys.
    Opponents of race day Lasix do not dispute its 
effectiveness in preventing pulmonary hemorrhaging in horses, 
nor could they credibly do so. A landmark 2009 study in South 
Africa of 167 thoroughbred horses and racetrack conditions, 
funded in great part by the United States Jockey Club and other 
international organizations, conclusively proved the 
effectiveness of Lasix in preventing and lessening the severity 
of pulmonary bleeding.
    Though this definitive study proved once and for all to all 
doubters that Lasix is efficacious in treating pulmonary 
bleeding, some countries in Europe and Asia opted not to change 
their policy of no Lasix on race day, because doing so would 
involve significant regulatory expenses.
    Critics of Lasix say administering it on race day creates a 
bad impression because it appears horses are being illegally 
drugged. If there is a perception problem created by the public 
not knowing why Lasix is necessary for horses welfare, it 
should be dealt with by educating the public and not by an 
inhumane policy of withholding treatment.
    Race day use of Lasix should not be confused with lawful 
therapeutic medication used in training in the days and weeks 
before a race. Common remedies including anti-inflammatory 
medication to ease sore muscles, much like we use aspirin, 
Advil and Aleve for our aches and pains.
    State racing commissions set regulatory threshold levels in 
post-race tests for that sort of therapeutic medication to 
ensure residual levels from training use have no effect on race 
day. Without such threshold levels------
    Senator Udall. I apologize. We'll come back and you can 
start a paragraph or two before, but I'm going to have to--
they've notified me, if I don't get to the floor, they're going 
to close the vote.
    Mr. Stirling. Yes, Sir.
    Senator Udall. So I apologize to all of you. I'll be back 
here, probably just a little bit after 3 o'clock.
    But the staff here will keep you notified. Thank you.
    The Committee is in recess.
    [Recess.]
    Senator Udall. The Committee will come back into session, 
and let me just welcome Senator Lautenberg.
    He showed me a figure about New Jersey and horses, which 
was an impressive one.
    Senator Lautenberg, we're right in the middle of this panel 
and so we're going to roll on through this panel, and then 
we'll get directly into questions. And I hope if you have an 
opening statement, you'll give it then too.
    Mr. Irwin has already testified. We're almost through with 
Mr. Stirling, but I wanted to give him a chance to kind of sum 
up and get through his testimony. And then we'll proceed with 
the rest of the panel.
    Thank you for your indulgence. We were held up a little bit 
by a normal Senate tradition of recognizing Senators and the 
numbers of votes. And I didn't realize that would happen.
    Senator Collins from Maine had taken 5,000 votes, so that's 
a tradition we recognize. It took us a little bit longer.
    But thank you very much for indulging us and for being 
here. And I'm still very excited about hearing the testimony 
and the discussion. Thank you.
    Mr. Stirling. Thank you, sir.
    Critics of Lasix say administering it on race day creates a 
bad public impression because it appears horses are being 
illegally drugged. If there's a perception problem created by 
the public not knowing why Lasix is necessary for horses' 
welfare, it should be dealt with by educating the public and 
not by an inhumane policy of withholding treatment.
    Race day use of Lasix should not be confused with lawful 
therapeutic medication used in training in the days and weeks 
before a race.
    Common remedies include anti-inflammatory medication to 
ease sore muscles, much like we use aspirin, Advil and Aleve 
for our aches and pains.
    State racing commissions set regulatory threshold levels 
and post-race tests for that sort of therapeutic medication to 
ensure residual levels from training use have no effect on race 
day.
    Without such threshold levels, post-race testing would 
result in many false positives because of the extreme 
sensitivity of modern testing equipment, which can detect 
concentrations smaller than one-trillionth of a gram.
    Proponents of a ban on all medication point to Europe and 
Asia as places where horses are drug-free. That's both 
inaccurate and misleading.
    Horses training in other countries like England, Ireland, 
Japan, Australia, use the same therapeutic medication, 
including Lasix and the anti-inflammatories used by American 
horsemen.
    Those countries, too, have a race day threshold level that 
must be followed to ensure there is no effective training 
medication on race day, just like the U.S.
    The main difference between the United States and Europe is 
that we allow Lasix on race day. Europe does not.
    Considering the welfare of horses, it makes little sense to 
use Lasix in training to stop harmful bleeding in horses' lungs 
as Europe does, but not use it on race day as we do in America, 
Canada, and South America.
    In closing, I wanted to restate the National HBPA's 
opposition to the use of performance enhancing drugs. They have 
no place in horseracing. Offenders should be severely penalized 
and kicked out of the business.
    Thank you.
    [The prepared statement of Mr. Stirling follows:]

   Prepared Statement of Kent Stirling, Executive Director, Florida 
Horsemen's Benevolent and Protective Association; Chairman, Medication 
  Committee, National Horsemen's Benevolent and Protective Association
    Mr. Chairman and other distinguished members of the Committee, I 
appreciate having this opportunity to testify today on behalf of the 
National Horsemen's Benevolent and Protective Association (``NHBPA''). 
The NHBPA has been representing the interests of thoroughbred horse 
owners and trainers racing in North America since 1940. There are over 
30,000 owner and trainer members of the NHBPA throughout the United 
States and Canada focused on a twofold common goal: safe and fair horse 
racing on all levels and an unwavering commitment to the well being of 
race horses. From 2009 through 2011 owners spent over $2 billion to 
purchase race horses. They spent on average an additional $25,000 
annually for the training and care of each horse.
    The NHBPA has 30 affiliates across the United States and Canada, 
including: Alabama, Arizona, Arkansas, Canada, Charles Town, WV, 
Colorado, Finger Lakes, NY, Florida, Idaho, Illinois, Indiana, Iowa, 
Kentucky, Louisiana, Michigan, Minnesota, Montana, Mountaineer Park, 
WV, Nebraska, New England, New Mexico, Ohio, Oklahoma, Ontario, Oregon, 
Pennsylvania, Tampa Bay, FL, Texas, Virginia and Washington. Membership 
is open without restriction to all owners and trainers licensed by 
state racing authorities. The leadership of the NHBPA and its 
affiliates is democratically elected by the members.
    Other organizations that purport to speak for thoroughbred owners 
and trainers are not as representative or as inclusive as the NHBPA. 
The Jockey Club, headquartered in New York, is an invitation only 
organization that has approximately 100 members. The Thoroughbred 
Owners & Breeders Association (``TOBA''), located in Kentucky, has 
about 2,500 members, most of whom are horse breeders.
    The NHBPA believes it helpful to unequivocally state its position 
on the use of performance enhancing drugs in horse racing. Owners and 
trainers who cheat by administering drugs that have no legitimate use 
in horses in an attempt to win races should be kicked out of horse 
racing. Dermorphin, an opiate like substance derived from the skin of a 
South American frog that has been the subject of recent publicity, is 
one such drug. Using dermorphin is doping and all doping should be 
penalized severely.
    However, the NHBPA does not oppose the controlled use of truly 
therapeutic medication that has long been used in horse racing to treat 
injuries and infirmities. Medication, like furosemide (commonly called 
``Lasix'') that acts to prevent pulmonary hemorrhaging (``bleeding in 
the lungs'') during racing, is necessary to keep a horse healthy. Lasix 
use is not doping, and no one can reasonably conclude otherwise. It has 
been routinely administered by veterinarians for the past 40 years in 
their treatment of horses and is noted beside a horse's name in racing 
programs as L for racing with ``Lasix''.
    The NHBPA strongly takes issue with on-going misstatements in the 
public media regarding the alleged misuse of racing medication in the 
horse racing industry. A feature article in the March 25, 2012 New York 
Times (``NYT''), ``Mangled Horses, Maimed Jockeys; A Nationwide Toll,'' 
lumped everything together and claimed there was rampant illegal use of 
drugs in horse racing that was causing injuries to both horses and 
jockeys. The NYT reported from 2009 through 2011 trainers were ``caught 
illegally drugging horses 3,800 times, a figure that vastly understates 
the problem because only a small percentage of horses are actually 
tested.'' The article cited this as evidence of regulatory failure by 
the states to stop ``cheating.''
    The NYT's article prompted a call by some for Federal regulation of 
the use of medication in horse racing and others for a ban on all 
medication including Lasix. However, an analysis of regulatory data in 
thoroughbred racing states shows the NYT's assertions are badly flawed 
and seriously misleading. Likewise, the call for a medication ban is 
premised on misconceptions by industry participants who put their own 
agenda ahead of the welfare of horses and jockeys.
    From 2009 through 2011, the average field size in 139,920 
thoroughbred races run throughout the United States was 8.17 horses. 
Because at least two horses in every race, the winner and another horse 
selected by the stewards, are routinely tested for drugs nearly 25 
percent of all horses (2 out of every 8) were tested. Statistically 
speaking, that is a representative sample of all horses racing in the 
3-year period. At the outset it is thus fair to say the NYT was wrong 
in claiming post race testing ``vastly understates'' the extent of 
``cheating.''
    What then were the results of drug testing in the NYT's three year 
period? Do they show rampant ``illegal drugging''? The answer is a 
resounding no. Based on data maintained by state racing commissions and 
compiled by the Association of Racing Commissioners International, 
99.27 percent of 279,922 post race tests were negative for drug use. 
Those percentages are not by any stretch of the imagination evidence of 
rampant drug use. They should be the envy of every other sport that 
tests for drugs.
    Horse racing in the United States spends about $35 million a year 
on drug testing. The Association of Racing Commissioners International 
notes the World Anti-doping Agency, which conducts testing in other 
sports, in contrast earmarks $1.6 million per year for testing fees. 
Laboratories conducting testing for the horse racing industry include 
those at the University of California/Davis, the University of Florida, 
the University of Illinois, Iowa State University, Louisiana State 
University, West Chester University, and Morrisville State College. 
Also involved are private ISO accredited laboratories like Dalare 
Associates (Philadelphia, PA), HFL Sport Science (Lexington, KY), and 
Truesdail Labs (Tustin, CA).
    Granted in the 3 years surveyed by the news article there were 
positive post race test results, but only about half the 3,800 claimed 
by the NYT. Even so, nearly all were for drug concentrations above 
regulatory levels of permitted therapeutic medication, like common 
anti-inflammatory drugs (e.g., phenylbutazone or ``bute'') similar to 
Aspirin, Advil, and Aleve taken by humans.
    Only a handful of drug test positives (82 out of 279,922 tests, or 
less than 3/100ths of 1 percent) were for illegal substances like 
dermorphin generally having no purpose other than cheating, and only a 
handful of trainers were responsible for those positives. Specifically, 
during the 3-year period on average 5,800 thoroughbred horse trainers 
were licensed annually by state regulators. Only 12 trainers (2/10ths 
of 1 percent of all trainers) ``doped'' horses, according to regulatory 
data.
    The following chart summarizes the drug testing results for the 
period 2009-2011. Class 1 and 2 positives are ``cheater'' drugs or 
``doping'' classified as such by the Association of Racing 
Commissioners International. Those drugs have the highest potential for 
affecting performance and have no generally accepted medical use in 
race horses. Class 3, 4, 5, and Lasix positives, on the other hand, 
generally indicate overdoses of therapeutic medication. Therapeutics 
are permitted in race horses and have little or no likelihood of 
affecting performance. Threshold limits for therapeutics are set by 
state regulation with the intent that on race day no horse should be 
under the direct influence of therapeutic medication, except for the 
permitted race day use of Lasix.

                                                                 Racing Medication Data
                                                                        2009-2011

                                                           Avg.                                                                                      %
             State                 Races       Starts      Field  Drug tests   Class 1   Class 2   Class 3   Class 4   Class 5   Lasix   %  Neg.   Pos.

AZ                                   4,888        38,993    7.97       9,776         0         3         6        42         0       0     99.48    0.52
AR                                   1,526        14,058    9.21       3,052         0         0         0        13         0       5     99.42    0.58
CA                                  13,369       100,656    7.52      26,738         0         0        38       130         0       0     99.38    0.62
DE                                   2,901        21,799    7.51       5,802         0         0         4        28         1       0     99.44    0.56
FL                                   9,872        86,116    8.72      19,744         0        14        38        95        15       0     99.18    0.82
IA                                   1,838        14,112    7.67       3,676         2         0         1         1         0       0     99.90    0.10
IL                                   6,797        54,573    8.02      13,594         0         0        22        26         1      10     99.57    0.43
IN                                   3,343        28,701    8.58       6,686         1         0         6        20         0       8     99.48    0.52
KY                                   6,439        56,568    8.78      12,986         1         7        32        82        32       7     98.80    1.20
LA                                  10,337        94,178    9.11      20,674         0         0        26       237         1      11     98.70    1.30
MA                                   2,518        19,768    7.85       5,036         0         3         7         2         0       0     99.77    0.23
MD                                   4,178        31,966    7.65       8,356         0         2         8        19         3       3     99.59    0.41
MI                                   1,315         9,316    7.08       2,630         0         0         0        12         0       0     99.55    0.45
MN                                   1,392        10,790    7.75       27,84         0         3        13       163         0       1     93.60    6.40
ND                                     205         1,550    7.56         410         0         0         0        18         0       1     95.70    4.30
NE                                   2,491        20,399    8.18       4,982         2         0        26        59         0       0     98.30    1.70
NH                                                                                   0         0         0         1         0       0
NJ                                   3,105        25,083    8.07       6,210         0         0         4         3         0       0     99.89    0.11
NM                                   5,180        43,302    8.35      10,360         1         2         7        13         0       2     99.76    0.24
NV                                     131           664    5.06         236         0         0         0         2         0       0     99.30    0.70
NY                                  11,256        87,317    7.75      22,512         0         2        15        14         0       4     99.85    0.15
OH                                   7,876        60,915    7.73      15,752         0         5        25       113        34       4     98.90    1.10
OK                                   3,466        32,869    9.48       6,932         2         0         0        17         2       1     99.69    0.31
OR                                   2,196        16,014    7.29       4,392         0         0         1        33         0       0     99.30    0.70
PA                                  13,568       10,9878    8.09      27,136         8         9        22       194         5       1     99.20    0.80
SD                                                                                   0         0         0         3         0       0
TX                                   3,538        31,227    8.82       7,076         1        12        12        46         8      12     98.80    1.20
VA                                   1,210        10,213    8.44       2,420         0         1         5        10         0       0     99.30    0.70
WA                                   2,538        17,887    7.04       5,076         0         0         0         3         0       1     99.93    0.07
WV                                  12,433       105,470    8.48      24,866         0         1         9        84         0       0     99.63    0.37
WY                                      14           113    8.07          28         0         0         0         1         0       0     96.43    3.57
Total                              139,920     1,144,495    8.17     279,922        18        64       327     1,484       102      71     99.27    0.73


    Clearly the above state racing commission data disproves the NYT's 
dramatic allegations of widespread drug misuse. It also demonstrates 
that race day administration of Lasix is well regulated, with only 71 
instances (2/100ths of 1 percent) in the 3-year period where Lasix was 
administered in an incorrect dosage or too close to post time. Even so, 
to avoid the appearance of any impropriety the National HBPA believes 
only state regulatory veterinarians, and not private veterinarians, 
should be permitted to administer lasix on race day.
    Unfortunately, Lasix is being swept up in the media hysteria over 
alleged doping of horses with illegal drugs, aided and abetted by 
organizations that should know better. This has obscured some basic 
scientific and medical facts supporting continued use of Lasix:

  <bullet> The extreme physical stress of hard running causes nearly 
        all horses to bleed in their lungs, some more severely than 
        others. Bleeding robs horses of oxygen, causes progressive and 
        irreversible scarring in the lungs, makes breathing more 
        difficult, and can cause instant death on the race track.

  <bullet> Nearly all bleeding remains internal and is only detectable 
        by endoscopic examination. Detection by an externally visible 
        nose bleed is the rare exception, but is usually the standard 
        in other countries in Europe and Asia for determining whether a 
        horse is a ``bleeder.''

  <bullet> Lasix prevents and lessens bleeding. It is safe and has been 
        used effectively for nearly forty years. Its use does not 
        prevent the post-race detection of other drugs.

  <bullet> Lasix is not performance enhancing. It does not make a horse 
        run faster than its natural talent. On the other hand, bleeding 
        does make a horse run slower and can stop a horse outright.

    The NYT piece also claimed drug use is the main cause of horse 
injuries in races. Based on a purported analysis of Equibase charts the 
NYT reported an ``incident rate'' of 5.2 per thousand starts for 2009-
2011, which included both quarter horses and thoroughbreds. A 
subsequent Thoroughbred Times analysis of the same charts found a 4.03 
per thousand incident rate for thoroughbreds.
    Once again the facts are other than what the NYT asserted. In 2009-
2011, the data shows an overall drug positive rate of 1.8 per thousand 
starts. Assuming for the sake of discussion the highly doubtful and 
unsupported premise that all drug use, whether illegal or therapeutic, 
causes injuries and fatalities the ``incident rate'' in the 3-year 
period should be closer to 1.8, and not 4.03 or 5.2 per thousand 
starts, depending on which analysis, if any, is correct. Simply put, 
the actual data suggests something beside drug use is primarily 
responsible for racing injuries. For that reason the horse racing 
industry is conducting scientific research and analysis on racing 
surfaces to better understand the role surfaces play in racing injuries 
in order to further improve the safety of horse racing for both horses 
and jockeys.
    The NYT and many of those industry voices calling for a ban on race 
day medication appear to labor under the misconception that race day 
medication, in addition to Lasix, is routinely permitted in numerous 
racing jurisdictions. The NYT says ``horses are permitted to run on 
some dose of pain medication, usually bute.'' But that is not true. The 
``some dose'' the NYT article hangs its hat on is not active 
medication, but rather a trace regulatory threshold limit set for post 
race test screening purposes. Thresholds are set to make sure lawful 
therapeutic medication used during training in the days that precede a 
race has no pharmacologic effect on race day.
    For example, in Virginia the current threshold for phenylbutazone 
(``bute'') is 2 micrograms per milliliter of plasma in post race 
testing. On race day that small concentration has no medicinal effect 
on a horse and a test showing that amount or less is regarded as 
negative. However, the increasing sensitivity of drug testing equipment 
makes threshold limits like this necessary to avoid having positive 
test results based upon residual concentrations of therapeutic 
medication lawfully administered in training that have no effect on 
race day. ``Zero tolerance'' testing without threshold screening limits 
results in false positives.
    The NYT compounded its error by implying an increase in racing 
fatalities at Colonial Downs in 2005 was caused by the Virginia Racing 
Commission increasing the bute threshold from 2 to 5 micrograms. But a 
study conducted with the assistance of the Virginia Racing Commission 
demonstrated there was no statistically significant difference in 
fatality rates tied to bute threshold levels.
    Proponents of a ban on medication point to Britain as an example 
the United States should emulate. The NYT claims ``breakdown rates are 
half of what they are in the United States [and] horses may not race on 
any drugs.'' None of that is true. According to the British Horseracing 
Authority (``BHA''), the central body that regulates racing in Britain, 
the fatality rate in 2011 was about 2 in every thousand starts. In the 
United States the Jockey Club calculated a 2011 fatality rate of 1.88 
per thousand starts. Both rates include steeplechase racing.
    Furthermore, horsemen in England are allowed to and do administer 
the same therapeutic medication used by American horsemen, including 
bute and Lasix. But on race day, like American horses (except for 
lasix), those in England may not compete under the influence of active 
medication. Like the U.S. the BHA uses threshold screening levels, in 
its case levels for 22 therapeutic drugs established by the 
International Federation of Horseracing Authorities, and post race 
testing to ensure that is so. The following chart, comparing 3 years of 
post race testing in England (based on the most recent data published 
by BHA) with the most recent U.S data compiled by the Association of 
Racing Commissioners International, shows no significant difference in 
drug positive results between the two countries. Both are essentially 
drug free.


               Starts      Tests     Negative tests      Positive tests

Britain         286,343    27,753             99.84%        0.16% (44)
 (2006-08)
United        1,144,495   279,922             99.27%        0.73% (2066)
 States
 (2009-11)


    The slight variance between countries may be accounted for by the 
fact that less than 10 percent of British starters are tested while the 
U.S. tests nearly 25 percent of all starters, and the U.S. has four 
times the number of starts. Also, the British select a horse for post 
race testing subjectively based on performance in a race or 
``intelligence'' available to the race stewards. In the U.S. selection 
in each race of two horses for testing is more or less random at the 
outset. In Britain only urine is routinely tested while in the U.S. 
both urine and blood are examined, with blood being the more accurate 
indicator of the presence of medication.
    The main difference in medication policy between the United States 
and Britain (as well as the rest of Europe) is the use of Lasix. In 
Britain Lasix is used in daily training to prevent or lessen pulmonary 
hemorrhaging, but not on race day. From a horse welfare standpoint that 
makes no sense. No one disputes that Lasix prevents rather than causes 
injuries or fatalities in race horses, and thereby protects jockeys as 
well.
    We conclude by stating our position regarding regulation of racing 
medication:

  (A)  The National HBPA's focus has always been, and remains, the 
        health and safety of the horse, the safety of the jockey, and 
        the safety of all individuals coming into contact with the 
        horse (e. g. grooms, hot walkers, trainers and veterinarians).

  (B)  The National HBPA believes a truly independent Racing Medication 
        and Testing Consortium (``RMTC'') of industry stakeholders 
        (including NHBPA, the Jockey Club, and TOBA, among others) not 
        dominated by any individual organization, with input from 
        appropriate medical and veterinary professional bodies such as 
        the American Association of Equine Practitioners, must be the 
        final evaluator of medical and veterinary science.

  (C)  RMTC approved medication rules should be reviewed by the 
        Association of Racing Commissioners International on behalf of 
        state racing commissions, and following an evaluation based on 
        science and medical research with all industry stakeholders 
        being heard, the rules should be adopted or rejected by a 
        majority vote.

  (D)  The resultant Uniform National Medication Rules should be 
        implemented by means of a National Compact among the states, 
        and not imposed by the Federal Government, which has no 
        experience or expertise in horse racing.

  (E)  Uniform National Medication Rules must be based solely on 
        published scientifically determined regulatory thresholds, with 
        published scientifically determined withdrawal time guidelines, 
        all based on and supported by data published in the scientific 
        literature.

  (F)  RMTC and ISO-17025 accredited laboratories should perform all 
        medication testing.

  (G)  Repeat offenders should be severely penalized, including 
        permanent exclusion from the industry.

    For further information:

    Phil Hanrahan
    CEO
    National HBPA

    Senator Udall. Mr. Stirling, thank you very much for your 
testimony.
    And we'll proceed now with Mr. Gural.

         STATEMENT OF JEFFREY GURAL, CHAIRMAN, NEWMARK

           GRUBB KNIGHT FRANK; CHAIRMAN AND MANAGING

        PARTNER, AMERICAN RACING AND ENTERTAINMENT, LLC

    Mr. Gural. Thank you. My name is Jeff Gural. I grew up on 
Long Island and started attending racetracks as a teenager over 
50 years ago. I currently own two standardbred breeding farms, 
one in Upstate New York and the other in northeast 
Pennsylvania.
    Together I have approximately 40 broodmares and yearlings 
and weanlings and all of that stuff. And I also have interest 
in about 15 racehorses that are currently racing or trying to 
race, I guess.
    But if that wasn't bad enough, 6 years ago I got into the 
racetrack ownership business and reopened two bankrupt 
racetracks in Upstate New York, which are now operating as 
racinos with harness racing and slot machines.
    At the end of last year, I headed up a group of investors 
that leased the Meadowlands Racetrack from the State of New 
Jersey with the hope of, hopefully, revitalizing the sport 
there, as the Meadowlands is still considered the number one 
standardbred track in North America and probably the world.
    Before discussing the medication problem, I thought the 
Committee should be aware of the fact that the current business 
model for horseracing almost guarantees a bleak future for the 
sport, as we do almost everything wrong as a business.
    Some examples are: We have no marketable stars because any 
horse that excels at 3 and creates some hype is almost always 
retired as soon as possible to the breeding shed. Occasionally, 
a filly, like Zenyatta, will race an extra year, but it's very 
hard to market a spectator sport that does not have marketable 
stars.
    It would be as if the NBA asked Lebron James to retire; the 
NFL asking Tom Brady to retire in his prime; and, in baseball, 
if they asked their current rookie sensations Mike Trout and 
Bryce Harper to retire in a year or two. Obviously, from a 
marketing standpoint, it is the exact opposite of what any 
other industry does.
    Another area in which we have a problem, we have no season 
other than the 5 weeks of the Triple Crown for thoroughbreds. 
Quite a few standardbred tracks race year-round in front of a 
handful of people. By racing year-round, we fail to capture the 
excitement that other sports have when opening day arrives and 
it ends with the Super Bowl or the World Series.
    With the exception of the three most successful tracks, 
Saratoga, Keeneland and Del Mar, most other tracks have no 
beginning and no end.
    Three, and a major problem, despite receiving hundreds of 
millions of dollars from other forms of gambling to supplement 
our purses, virtually none of that money is spent marketing the 
sport or paying for additional drug testing.
    While I believe the great majority of the horseman would 
gladly agree to take 5 percent of this money and use it for 
marketing and additional drug testing, their leaders seem to be 
opposed and, as a result, nothing gets done.
    Since the average age of our customers is 52 and 2 percent 
of our fans die each year, not spending some of the slots money 
on marketing to attract younger people is very shortsighted. 
Where would NASCAR be if they didn't spend money on marketing?
    Last, before I get to the drug issue, our biggest 
customers, from a betting standpoint, typically do not wager at 
or with a racetrack. These customers typically wager with 
either offshore or small companies with a computer in Oregon, 
because those companies can afford to give their customers back 
generous rebates.
    In the past, this money was bet at a racetrack and the 
track and horseman typically shared a 20 percent commission. 
Today, the track only receives between 3 and 7 percent of 
wagers from big betters.
    In essence, the track has the cost of putting on the races 
and maintaining the facilities, and their biggest customers, in 
many cases, are actually at the track with a cell phone betting 
elsewhere. It would be the equivalent of someone going to a 
movie theater, watching the movie, and paying someone else the 
cost of admission.
    The last problem relates to the medication issue, which is 
the reason I was asked to come here. While standardbred racing 
does not have the problem that other breeds have as far as 
fatal injuries, both on and off the track, due to the fact that 
standardbreds always have two feet on the ground and a sturdier 
breed.
    I believe in the last 5 years, in my tracks, there have 
been less than five fatalities, most of which were heart 
attacks or some other ailment.
    The big problem we do have in standardbred racing, however, 
is we have the perception, rightly or wrongly, that any trainer 
who wins consistently is probably using some sort of illegal 
medication or ``juice,'' as it is called.
    I think the best way to explain this in laymen's terms is 
to describe what happened when I took over operating the 
Meadowlands at the end of last year.
    In an effort to show my customers that I was very serious 
about this issue, I sat down with my racing staff and went over 
a list of all of the trainers who had applied to race at the 
Meadowlands, in order to determine which ones were suitable to 
participate and which trainers would hurt my business if I 
allowed them to participate.
    Together we reviewed a list of fines and suspensions for 
all of the trainers applying to race and took into account 
other factors as well. When there was a gray area, we typically 
put the trainer on probation with the understanding that any 
new violation relating to illegal medication would be grounds 
for being added to our list of excluded participants.
    One of the trainers that we elected to exclude was a 
gentleman from California named Luis Pena. In reviewing Mr. 
Pena's record, we discovered that he had 12 fines or 
suspensions back to 1991. It was also noted that Mr. Pena had 
trained horses in California from 1991 to 2009, and during that 
18-year period, his average yearly winnings were approximately 
$400,000. And at no time did the horses that he trained win 
over more than $950,000.
    Mr. Pena moved his training operation to New Jersey at the 
beginning of 2010 and arrived on the scene with no horses. And, 
amazingly, by the end of the year, his horses had won 
$7,263,000, and he was the leading training at the Meadowlands, 
Yonkers, Pocono Downs, and Chester, all four of the major 
racetracks in the Northeast.
    In 2011, he, once again, duplicated this amazing feat and 
his horses won $7,120,000.
    In essence, Mr. Pena had gone from a run-of-the-mill 
trainer in California for 20 years to the greatest trainer that 
ever lived, since no trainer had ever been close to being the 
leading trainer at all four area tracks.
    Horses claimed by Mr. Pena often improved 2 seconds 
overnight. And it was fairly common to see the comment ``first 
time, Pena'' in the newspapers or by the handicappers.
    Mr. Pena sued us and asked the court for a temporary 
restraining order on the grounds that our decision to bar him 
was a violation of his due process rights under the 14th 
Amendment of the United States Constitution. Fortunately, the 
courts ruled in our favor and affirmed our rights of exclusion.
    Our legal fees to defend this action came to about $65,000, 
and many people were surprised that we won.
    Not surprisingly, Mr. Pena continued to be allowed to race 
at the other three racetracks in the area.
    I actually agreed to meet with Mr. Pena to discuss the 
situation in late May when I learned that the New York State 
Racing and Wagering Board had suspended him for illegally 
drugging horses in nearly 700 races in New York State with more 
than 1,700 equine drug violations.
    Initially, I thought I was vindicated in my decision. But, 
shockingly, over the next few days, I was contacted by various 
people in the industry, who I respected, advising me that if 
the same standards that Mr. Pena was being suspended for were 
to be applied to all of the other trainers at the Meadowlands, 
there would probably not be enough horses left to race, as a 
vast majority of the trainers were also in violation of some of 
these rules.
    It should be noted that while that may sound like Mr. Pena 
is a victim, that is not the case. For example, one of the 
drugs he used, Factrel, off-label on many occasions, is a drug 
used to enhance ovulation in cows. The only reason to give such 
a drug to a gelding, apparently, would be produce a small 
increase in testosterone designed to make the horse feel better 
for racing--in other words, to cheat.
    Mr. Pena or his vet in many cases injected some horses with 
up to five different medications within 24 hours of a race. 
When I investigated further, I discovered that the rules of 
which drugs are allowable and when are different in every 
state.
    New York uses specific time requirements for various 
medications while Pennsylvania, New Jersey, and Delaware only 
use recommended withdrawal times. I reached out to Ed Martin at 
ARCI and, with his help, we arranged a meeting at the 
Meadowlands in June with all of the regulators from these four 
states. We invited some respected veterinarians and a handful 
of trainers to discuss the problem.
    Clearly, with different rules in every state, it is 
possible that a trainer can make a mistake, but why should the 
rules be different in all four states?
    It was agreed by the regulators that they would try to work 
together to come up with a uniform standard, but everyone 
agreed that getting anything done would be difficult and 
require public hearings, comments, et cetera, and no one was 
quite sure whether we would be able to accomplish our goal.
    I checked back and so far nothing has gotten done. But I 
saw Ed a little while ago, and he thinks that we are moving in 
the right direction.
    The other thing you should be aware of is that when someone 
is caught cheating, the penalties in most cases are a joke. It 
is not uncommon for a trainer to receive a suspension; get a 
stay as a result of an appeal; if need be, go to court to get a 
stay; and, finally, 2 or 3 years later, agree to accept a 6-
month suspension provided it can begin in November and end in 
April, allowing the trainer to simply go down to Florida, avoid 
the cold winter in the Northeast and train newly purchased 
yearlings.
    Occasionally, the trainer will simply take his 6 months and 
go on vacation. The horses he was training were put in his 
assistant trainer's name for the winter, so, in essence, there 
are no penalties at all, other than a forced vacation in 
Florida or cruise on the Mediterranean.
    In any case, standardbred racing does have a problem, and 
one suggestion that I've heard is to send a message to the 
states that Congress would like to see the states adopt the 
interstate compact concept, which would allow all of the states 
to use the same rules and regulations.
    Unfortunately, in states like New York, it would be almost 
impossible to pass this, since the leader of the horsemen's 
association, Joe Faraldo, has made it clear that he is opposed 
to this approach.
    He is also opposed to the use of out-of-competition 
testing, which is important because most standardbreds are 
trained on farms, and that would allow inspectors to visit the 
farms where the horses are stabled.
    I'm hopeful that Governor Cuomo, who has taken a strong 
interest in this matter, as a result of the breakdowns at NYRA, 
will get the state to agree to pass this legislation. And I'm 
confident that the Governor takes this matter seriously.
    In short, our industry needs change, if we're going to 
survive long-term. And because, unlike other sports, we have no 
commissioner to set the rules, the fact is medication, both 
legal and illegal, appear to be so much more prevalent than in 
other racing jurisdictions, that without an interstate compact, 
it would seem that the next logical thing must be for the 
Federal Government to take this over so that the rules are the 
same in every state.
    For me, other than family, there is no bigger thrill than 
winning a race and going to the track with friends. I would 
hate to see the sport I love die, but we need a new business 
plan, and we need to eliminate the chemists if we are going to 
survive and protect the tens of thousands of jobs that rely on 
the industry's long-term survival.
    Thank you.
    [The prepared statement of Mr. Gural follows:]

  Prepared Statement of Jeffrey Gural, Chairman, Newmark Grubb Knight 
       Frank; Chairman and Managing Partner, American Racing and 
                           Entertainment, LLC
    Thank you for inviting me. My name is Jeffrey Gural. I grew up Long 
Island and started attending racetracks as a teenager over 50 years 
ago. I currently own two standardbred breeding farms; one in Upstate 
New York and the other in Northeast Pennsylvania. Together I have 
approximately 40 broodmares. I also have interests in about 15 race 
horses and 6 years ago I reopened two bankrupt racetracks in Upstate 
New York which are now operating as racinos.
    At the end of last year I headed up a group of investors that 
leased the Meadowlands Racetrack from the state with the intention of 
hopefully revitalizing the sport there as the Meadowlands is still 
considered the number one standardbred racetrack in North America and 
probably the world. Before discussing the medication problem, I thought 
you should be aware of the fact that the current business model for 
horse racing almost guarantees a bleak future for the sport as we do 
almost everything wrong. Some examples are as follows:

  1.  We have no marketable stars because any horse that excels at 
        three and creates some hype is almost always retired as soon as 
        possible to the breeding shed. Occasionally a filly like 
        Zenyatta will race an extra year but it is very hard to market 
        a spectator sport that does not have marketable stars. It would 
        be as if the NBA asked Lebron James to retire, the NFL asking 
        Tom Brady to retire in his prime and in baseball if they asked 
        their current rookie sensations Mike Trout and Bryce Harper to 
        retire in a year or two. Obviously from a marketing standpoint 
        it is the exact opposite of what any other industry does.

  2.  We have no season other than the 5-weeks of the Triple Crown for 
        thoroughbreds. Quite a few standardbred tracks race year round 
        in front of a handful of people. By racing year round we fail 
        to capture the excitement that other sports have when opening 
        day arrives and it ends with the Super Bowl or the World 
        Series. With the exception of the three most successful tracks, 
        Saratoga, Keenland and Delmar most other tracks have no 
        beginning and no end.

  3.  Despite receiving hundreds of millions of dollars from other 
        forms of gambling to supplement our purses virtually none of 
        that money is spent marketing the sport or paying for 
        additional drug testing. While I believe the great majority of 
        the horsemen would gladly agree to take 5 percent of this money 
        and use it for marketing and additional drug testing their 
        leaders seem to be opposed and as a result nothing gets done. 
        Since the average age of our customers is 52 and 2 percent of 
        our fans die each year not spending some of the slots money on 
        marketing to attract younger people is very short sited. Where 
        would NASCAR be if they didn't spend money on marketing?

  4.  Our biggest customers from a betting standpoint typically do not 
        wager at or with a racetrack. These customers typically wager 
        with either off shore or small companies with a computer in 
        Oregon because those companies can afford to give their 
        customers back generous rebates. In the past this money was bet 
        at a racetrack and the track and the horsemen typically shared 
        a 20 percent commission. Today the track only receives between 
        3 percent and 7 percent of wages from big bettors. In essence, 
        the track has the costs of putting on the races and maintaining 
        the facilities and their biggest customers in many cases are 
        actually at the track with a cell phone betting elsewhere. It 
        would be the equivalent of someone going to a movie theater, 
        watching the movie and paying someone else the cost of 
        admission.

  5.  The last problem relates to the medication issue which is the 
        reason I was asked to come here today. While standardbred 
        racing does not have the problem that the other breeds have as 
        far as fatal injuries both on and off the track due to the fact 
        that standardbreds always have two feet on the ground and are a 
        sturdier breed. I believe in the last 5 years at my tracks 
        there have been less than five fatalities most of which were 
        heart attacks or some other ailment. The big problem we do have 
        is the perception rightly or wrongly that any trainer who wins 
        consistently is probably using some sort of illegal medication 
        or juice as it is called. I think the best way to explain this 
        in layman's terms is to describe what happened when I took over 
        operating the Meadowlands at the end of last year. In an effort 
        to show my customers that I was very serious about this issue I 
        sat down with my racing staff and went over a list of all of 
        the trainers who had applied to race at the Meadowlands in 
        order to determine which ones were suitable to participate and 
        which trainers would hurt my business if I allowed them to 
        participate. Together we reviewed a list of fines and 
        suspensions for all of the trainers applying to race and also 
        took into account other factors as well. When it was a gray 
        area we typically put the trainers on probation with the 
        understanding that any new violation relating to illegal 
        medication would be grounds for being added to our list of 
        excluded participants. One of the trainers that we elected to 
        exclude was a gentleman from California named Louis Pena. In 
        reviewing Mr. Pena's record we discovered that he had 12 fines 
        and or suspensions dating back to 1991. It was also noted that 
        Mr. Pena had trained horses in California from 1991to 2009 and 
        during that 18 years his average yearly winnings were 
        approximately $400,000 and in no time did the horses that he 
        trained ever win more than $950,000. Mr. Pena moved his 
        training operation to New Jersey at the beginning of 2010 and 
        arrived on the scene with no horses and amazingly by the end of 
        the year his horses had won $7,263,295 and he was the leading 
        trainer at the Meadowlands, Yonkers, Pocono Downs and Chester. 
        In 2011 he once again duplicated this amazing feat and his 
        horses won $7,120,984. In essence Mr. Pena had gone from a run 
        of the mill trainer in California to the greatest trainer that 
        ever lived since no trainer had ever been close to being the 
        leading trainer at all four area tracks. Horses claimed by Mr. 
        Pena often improved 2 seconds overnight. Mr. Pena sued and 
        asked the court for a temporary restraining order on the 
        grounds that our decision to bar him was a violation of his due 
        process rights under the 14th amendment of the United States 
        Constitution. Fortunately, the courts ruled in our favor and 
        affirmed our rights of exclusion. Our legal fees to defend this 
        action came to about $65,000 and many people were surprised 
        that we won. Mr. Pena continued to be allowed to race at the 
        other three area tracks. I had actually agreed to meet with Mr. 
        Pena to discuss the situation in late May when I learned that 
        the New York State Racing and Wagering Board had suspended him 
        for illegally drugging horses in nearly 700 races in New York 
        State and more than 1,700 equine drug violations. Initially I 
        thought I was vindicated in my decision but shockingly over the 
        next few days I was contacted by various people in the industry 
        who I respected advising me that if the same standards that Mr. 
        Pena was being suspended for were applied to all of the other 
        trainers at the Meadowlands there would probably not be enough 
        horses left to race as a vast majority of the trainers were 
        also in violation of some of these rules. It should be noted 
        that while that may sound like Mr. Pena is a victim that is not 
        the case. For example; one of the drugs he used, Factrel``off 
        label on many occasions'' is a drug used to enhance ovulation 
        in cows. The only reason to give such a drug to a gelding 
        apparently would be to produce a small increase in testosterone 
        designed to make the horse ``feel better'' for racing. In other 
        words to cheat. Mr. Pena or his vet in many cases injected some 
        horses with up to five different medications within 24 hours of 
        a race. When I investigated further I discovered that the rules 
        of which drugs are allowable and when are different in every 
        state. New York uses specific time requirements for various 
        medications while Pennsylvania, New Jersey and Delaware only 
        use recommended withdrawal times. I reached out to Ed Martin at 
        ARCI and with his help we arranged a meeting at the Meadowlands 
        in June with all of the regulators from these four states, 
        along with some respected veterinarians and a handful of 
        trainers to discuss the problem. Clearly with different rules 
        in every state it is possible that a trainer could make a 
        mistake but why should the rules be different. It was agreed by 
        the regulators that they would try to work together to come up 
        with uniform standards but everyone agreed that getting 
        anything done would be difficult and require public hearings, 
        comments, etc. and no one was quite sure whether we would be 
        able to accomplish our goal. I checked back and as expected 
        nothing has gotten done.

    The other thing you should be aware of is that even when someone is 
caught cheating the penalties in most cases is a joke. It is not 
uncommon for a trainer to receive a suspension, get a stay as a result 
of an appeal, if need be go to court to get a stay and finally two or 3 
years later agree to accept a 6-month suspension provided it can begin 
in November and end in April allowing the trainer to simply go down to 
Florida and avoid the cold winters in the Northeast and train newly 
purchased yearlings on a farm. Occasionally the trainer will simply 
take 6 months and go on vacation. The horses he was training are put in 
the assistant trainer's name for the winter so in essence there are no 
penalties at all other than a forced vacation in Florida or a cruise in 
the Mediterranean.
    In any case, standardbred racing does have a problem and one 
suggestion that I have heard is to send a message to the states that 
Congress would like to see the states adopt the Interstate Compact 
Concept which would allow all of the states to use the same rules and 
regulations. Unfortunately, in states like New York it would be almost 
impossible to pass since the leader of the horsemen,Joe Faraldo had 
made it clear that he is opposed to this approach. He is also opposed 
to the use of out of competition testing which would allow inspectors 
to visit the farms where the horses are stabled in order to determine 
if there are any rules being violated. I am hopeful that Governor Cuomo 
who has taken a strong interest in this matter as a result of the many 
breakdowns in the thoroughbred racing will get the state to agree to 
pass legislation allowing New York to join in the Interstate Compact. I 
am confident that Governor Cuomo takes this matter very seriously and I 
am cautiously optimistic that over the next few months we will see 
legislation to address the problems.
    In short, our industry needs change if we are going to survive long 
term and because unlike other sports we have no commissioner to set the 
rules. The fact is medications both legal and illegal appear to be so 
much more prevalent than in other racing jurisdictions and without an 
Interstate Compact it would seem that the next logical thing would be 
for the Federal Government to take this over so that the rules are the 
same in every state. For me, other than family, there is no bigger 
thrill than winning a race and going to the track with friends. I would 
hate to see the sport I love die but we need a new business plan and we 
need to eliminate the chemists if we are going to survive and protect 
the tens of thousands of jobs that rely on this industry's long term 
survival.

    Senator Udall. Thank you.
    Mr. Gagliano, please proceed.

            STATEMENT OF JAMES GAGLIANO, PRESIDENT 
          AND CHIEF OPERATING OFFICER, THE JOCKEY CLUB

    Mr. Gagliano. Mr. Chairman, Senator, on behalf of the 
stewards of The Jockey Club, I thank you for this opportunity 
to testify today.
    My written testimony provides several documents that paint 
a clear picture showing The Jockey Club's deep commitment to 
its core belief: Horses should compete only when they are free 
from the influence of medication.
    The Committee obviously shares that view. Shared views give 
us the opportunity to work together to achieve an important 
goal.
    As you saw in my written testimony, in 2001, The Jockey 
Club retained McKinsey & Company to study our sport. One of 
McKinsey's core findings was that animal safety, welfare, and 
medication are among the most consistent concerns expressed by 
the public and one of the factors in the sport's steady decline 
of its customer base.
    A very important initiative of The Jockey Club was its 
drafting last year of the Reformed Racing Medication Rules. The 
rules were announced at The Jockey Club's Roundtable Conference 
in Saratoga Springs last August and updated earlier this year.
    The proposed rules provide for new medication 
categorizations, clearly defined regulatory limits, 
dramatically enhanced and remodeled penalties, and heightened 
testing. This includes out-of-competition testing, such as that 
used in track and field and cycling, two other sports that have 
battled similar problems with performance-enhancing drugs.
    The proposed penalty system is cumulative. It increases 
fines, disqualifications, and suspensions, and provides for 
lifetime bans for repeat offenders.
    The Jockey Club considers the reform rules necessary to 
clean up racing. We work vigorously to promote their adoption 
in all 30 states with commissions and other industry bodies.
    The proposed rules would prohibit the performance-enhancing 
drug called Lasix, which is certainly a hot button issue. Lasix 
is injected into virtually every horse running in the United 
States shortly before competition, whether or not there is any 
medical reason. The rest of the world bans the use of Lasix on 
race day, with rare exception.
    In another critical Jockey Club initiative, 2 months ago, 
we created an advocacy website called cleanhorseracing.org. It 
focuses solely on medication rule reform and offers news, 
scientific studies, and commentaries. It also makes it easy for 
readers to petition State racing commissions to adopt the 
Jockey Club's proposed reform medication rules.
    Over the last few years, there has been some progress. Some 
regulations have been improved and made more uniform across 
racing jurisdictions. For example, anabolic steroids are 
virtually banned across all pari-mutuel states.
    Kentucky is on the road to eliminating the use of Lasix, as 
was discussed earlier. New Mexico and California now more 
strictly regulate Clenbuterol. And the Jockey Club has actively 
supported all of these efforts.
    But that is not enough. The time has come to act. 
Regulations vary too widely in racing States. There is no 
central authority or set rules. Rigorous enforcement is 
lacking.
    The Jockey Club will support any reasonable means to adopt, 
implement, and enforce its proposed reform racing medication 
rules, or something very close to it. That includes support by 
state-by-state adoption, the interstate racing compacts, or by 
Federal legislation.
    The Jockey Club has carefully studied the proposed 
Interstate Horseracing Improvement Act, and we applaud its very 
important goals. We also have some areas of concern.
    First, the definition of performance-enhancing drugs is too 
vague, unscientific, and fails to differentiate between truly 
therapeutic drugs administered only for therapeutic reasons, 
and drugs with no use except performance enhancement.
    The reform racing medication rules, on the other hand, 
classify 25, but only 25, therapeutic drugs for use, and only 
if they are withdrawn well before a race. This is based on 
significant veterinary consensus. All other medications are 
always prohibited.
    Second, that those requirements that violations be known 
introduces a new, unnecessary, and unduly high prosecutorial 
standard of proof in proceeding against trainers who violate 
the law.
    Third, the bill creates a right of private action. We 
believe this medication issue is about regulation and 
enforcement. Private litigation only will serve, in our view, 
to distract from achieving this law's goal.
    Fourth, it is our respectful recommendation that the bill 
not be adopted through an amendment on the Interstate 
Horseracing Act. Instead, it should be undertaken on a 
standalone basis. Otherwise, we believe that crucial 
medications issues will have a much more difficult chance of 
gaining consensus and potentially will get lost in a welter of 
unrelated issues.
    Last, the penalties in the bill may not go far enough. And 
I'll end my oral testimony with a real-time, real-life example.
    No doubt you all heard or read about the recent outbreak of 
test positives for dermorphin, a drug that is 40 times more 
powerful than morphine.
    Our rules, the reform racing medication rules, would 
trigger a minimum fine for the trainer that is 7\1/2\ times 
greater than, and a minimum suspension that is twice as long, 
as what the bill would allow.
    We think substantial penalties along with a coordinated 
prosecution are necessary to have a real effect on medication 
misuse in horseracing.
    So again, thank you for the opportunity to appear before 
you today. We are pleased to devote our time, our energy, and 
our insights to a cooperative effort to reform racing's 
medication rules, however that is done best.
    Thank you.
    [The prepared statement of Mr. Gagliano follows:]

            Prepared Statement of James Gagliano, President 
              and Chief Operating Officer, The Jockey Club
    As the President and Chief Operating Officer of The Jockey Club, I 
welcome the opportunity to participate in today's hearing on 
``Medication and Performance-Enhancing Drugs in Horse Racing.'' We 
appreciate the Committee's attention to issues that we view as 
critically important to our industry.
    The Jockey Club has voiced its concern that the improper use and 
overuse of medication in racing endangers our human and equine 
athletes, threatens the integrity of our sport and erodes consumer 
confidence in our game. We strongly believe that our sport needs 
uniform rules, tough new penalties, and effective enforcement to ensure 
clean competition and improvements in racing safety. This is consistent 
with our core belief that horses should compete only when they are free 
from the influence of medication.
    In this testimony, we will briefly describe the role of The Jockey 
Club in the Thoroughbred industry and the major initiatives spearheaded 
by The Jockey Club to improve the health and safety of jockeys and 
Thoroughbreds, as well as to comment on efforts to bring forward 
improved medication rules, standards and penalties.
    The Jockey Club is the breed registry for Thoroughbreds in North 
America. The organization was formed in 1894 to maintain the integrity 
of The American Stud Book and ensure that all foals are the descendants 
of a sire (father) and dam (mother) that were registered Thoroughbreds. 
To register a Thoroughbred in North America, breeders must comply with 
the rules of registration as set forth in the Principal Rules and 
Requirements of The American Stud Book. You can learn more about The 
Jockey Club here: jockeyclub.com.
    Over many years, The Jockey Club has devoted significant 
resources--financial, technological and human--to equine medication and 
drug testing issues. Our efforts have included:

  <bullet>  The Jockey Club funded ``Building a World-Class Drug 
        Detection System for the Racing Industry,'' a benchmark study 
        conducted by McKinsey & Company in 1991 that is still used as a 
        primary planning document for North American drug labs.

  <bullet>  Since its formation in 2008, The Jockey Club's Thoroughbred 
        Safety Committee has issued numerous recommendations to state 
        racing commissions regarding the adoption of rules related to 
        medication and drug testing (jockeyclub.com/tsc.asp), several 
        of which have been adopted and incorporated into regulation, 
        racetrack ``house rules'' or national standards.

  <bullet>  The Jockey Club engaged McKinsey & Company in 2011 to study 
        the Thoroughbred racing and breeding industry (``Driving 
        Sustainable Growth for Thoroughbred Racing and Breeding''), 
        which led The Jockey Club to undertake several medication-and 
        safety-related initiatives. Those initiatives include the 
        creation of the Reformed Racing Medication Rules 
        (jockeyclub.com/pdfs/reformed
        _rules.pdf) and the launch of two websites: an advocacy website 
        for medication reform, (cleanhorseracing.org), which includes a 
        series of essays and statements from The Jockey Club, several 
        of which are attached to this letter, and a searchable online 
        database of rulings on Thoroughbred trainers from racing 
        regulatory authorities, (thoroughbredrulings.com).

  <bullet>  The Jockey Club has also funded the Racing Medication and 
        Testing Consortium's Drug Testing Initiative, an industry-led 
        effort to set laboratory standards and accreditation criteria 
        (jockeyclub.com/mediacenter.asp?story=349).

    The Jockey Club has also developed and promoted many initiatives 
that improve the safety and welfare of Thoroughbred horses and jockeys 
during racing as well as the proper treatment and care of Thoroughbreds 
following the conclusion of their racing or breeding careers. 
Specifically:

  <bullet>  The Jockey Club has developed and maintained the Equine 
        Injury Database, the Jockey Health Information System 
        (jockeyclub.com/safetyinitiatives.asp) and the pre-race 
        examination software module (jockeyclub.com/mediaCenter
        .asp?story=428).

  <bullet>  The Jockey Club has developed the Jockey Injury Database, 
        maintained by the Jockeys' Guild (jockeysguild.com/
        pressreleases.html).

  <bullet>  The Jockey Club has conducted biannual Welfare and Safety 
        of the Racehorse Summits (grayson-jockeyclub.org/
        summitDisplay.asp).

  <bullet>  The Jockey Club has established the Thoroughbred Incentive 
        Program, Thoroughbred Connect, the Retirement Checkoff Program 
        and Tattoo Identification Services (tjctip.com, 
        thoroughbredconnect.com, registry.jockeyclub.com).

  <bullet>  The Jockey Club has contributed to the work of the 
        Thoroughbred Aftercare Alliance Foundation Inc. 
        (thoroughbredaftercare.com).

    These significant activities demonstrate progress in improving the 
safety and integrity of the sport of Thoroughbred racing. In addition 
to the much-needed ban on anabolic steroids a few years ago, we also 
have seen evidence of state regulatory authorities' efforts toward 
reform, in particular Kentucky's movement to eliminate Lasix in some 
races and New Mexico and California regulators' tightening rules on the 
use of Clenbuterol.
    But the changes have not been fast or comprehensive enough in The 
Jockey Club's view.
    For that reason, The Jockey Club drafted last year, and revised 
earlier this year, a document called, ``Reformed Racing Medication 
Rules,'' with the goal of having it serve as the basis for new 
regulations and laws. This effort was undertaken with the input and 
guidance of a broad range of industry stakeholders, including 
regulators, trainers, breeders, owners, veterinarians, track operators 
and bettors.
    Since that time, The Jockey Club has actively advocated for the 
adoption of the Reformed Racing Medication Rules by the state racing 
commissions in the states that conduct pari-mutuel racing and has 
promoted it through the media and our advocacy website, 
cleanhorseracing.org.
    In addition, it is the position of The Jockey Club that we will 
support the adoption of the Reformed Racing Medication Rules as a 
Federal law if an inter-state compact or action by states continues to 
prove unattainable.
    On the matter of the Interstate Horseracing Improvement Act, The 
Jockey Club has carefully studied this proposed legislation. The Jockey 
Club applauds the goals and effort to coalesce very complex subjects 
into a unified law. We wish to point out, however, areas of concern to 
The Jockey Club.
    First, the bill's definition of ``performance-enhancing drug'' is 
extremely vague and is overly broad, encompassing almost anything, and 
seeking the technically impossible ``zero tolerance.''
    By contrast, the Reformed Racing Medication Rules strictly prohibit 
all medications except for just 25 appropriate therapeutic drugs 
allowed for use but withdrawn well before a race.
    Second, the bill contains prohibitions only against ``knowingly'' 
providing horses with performance-enhancing drugs. This would introduce 
a new and extremely high prosecutorial hurdle that currently does not 
exist in racing. The Reformed Racing Medication Rules adopt the current 
standard of the strict liability of the trainer, the responsible party. 
We believe this will be far more effective.
    Third, the bill includes a right of private action. We believe the 
medication issue is a regulatory one and that private litigation will 
serve only as a significant distraction from achieving the aims of this 
law.
    Fourth, the bill seeks to achieve its ends by amending the 
Interstate Horseracing Act. We believe this will engender significant 
resistance by many industry stakeholders. We urge that if uniform 
medication reform is enacted at the Federal level, it is undertaken on 
a stand-alone basis, and with a comprehensive funding solution and a 
coordinated prosecution structure.
    Lastly, we are concerned that the penalties of the bill do not go 
far enough in some cases. In fact, there is a timely example that 
concisely illustrates this point:
    Under the Reformed Racing Medication Rules, the recent outbreak of 
Dermorphin positives (a drug 40 times more powerful than morphine) 
would have triggered a minimum fine for the trainer seven and one-half 
times larger than the bill's and a minimum suspension twice greater 
than the bill's.
    The Jockey Club's determination to enhance the welfare and safety 
of horses and riders is longstanding and well documented. We will 
continue to devote our human, financial and technological resources 
toward improving the safety and welfare of Thoroughbreds and their 
riders. We look forward to working with this Committee and other state 
or Federal agencies or lawmakers interested in reform.
    Thank you again for the opportunity to share The Jockey Club's 
perspective on important issues that have direct impact on the future 
of Thoroughbred racing.

                                         James L. Gagliano,
                             President and Chief Operating Officer.

    Senator Udall. Thank you.
    And, Senator Lautenberg, I'm ready to allow you to speak.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    And welcome to the witnesses.
    And Mr. Gural, I want you to know that this was a very 
generous Chairman, in terms of allotting you time to make the 
presentation. It was worthwhile hearing, but usually the hammer 
comes down at an earlier time.
    So we welcome you, in particular, because we've known each 
other indirectly for a lot of years.
    And I thank all of you for the work that you are doing.
    And I appreciate, Mr. Chairman, that you've called this 
hearing on horseracing, an issue important to the country and 
to my home state of New Jersey, as you've heard. It's critical 
that we find a solution to the widespread problem of 
performance-enhancing drugs in horseracing.
    In New Jersey, our state animal is the horse. And we're 
proud of our four racetracks in Freehold, Atlantic City, 
Monmouth, and the Meadowlands.
    And people are kind of struck when New Jersey, as the most 
densely populated state in the country, with over 9 million 
people, to know that we have more horses per square mile than 
any other state in the country. So it's just people are 
crowded; apparently, there's room for horses. But it works out 
very well.
    And horseracing in my home state generates $780 million 
each year, provides upwards of 7,000 jobs. Americans have been 
racing horses for more than 200 years. And for the most part, 
they have done so without the use of performance-enhancing 
drugs.
    In recent years, however, increased drug use has emerged as 
a serious problem. It needs to be addressed. The New York Times 
reports now that an average of 24 horses die each week at 
racetracks. And in 2009, trainers were caught doping horses 
3,800 times. So there's lots of monkey business going around 
with the horses.
    And since the thoroughbred filly Eight Belles broke her 
ankle at the 2008 Kentucky Derby and needed to be euthanized on 
the spot, the industry has promised to get its act together and 
make the sport safer. But despite promises and assurances, 
state and industry groups have been unable to come together to 
develop consistent and effective regulation. And a patchwork of 
state regulations continues to undermine safety.
    The fact is, some states, like New Jersey, have strong 
regulations in place to ensure the safety and integrity of 
horseracing. But those states are effectively punished when 
other jurisdictions have less regulatory commitment that lures 
more racing business to their states.
    So to avoid this race to the bottom, it's crucial that we 
work together to provide safety and consistency across the 
country.
    And we've heard the witnesses' statements, Mr. Chairman. 
They're important, and we look forward to having a chance to 
ask some questions.
    Senator Udall. Would you please proceed with your 
questions, Senator Lautenberg?
    Senator Lautenberg. Thank you.
    Mr. Gural, as the owner and operator of Meadowlands 
racetrack, you've taken steps to ensure that trainers with 
dubious backgrounds--you went into some detail--do not race at 
Meadowland. Yet, in other states, trainers with long histories 
of misconduct are allowed to train and race horses. Could a 
nationwide ban from the sport be appropriate for these repeat 
offenders?
    Mr. Gural. I think everyone would like to see that. I think 
the problem is that they're usually one step ahead of the 
testing labs, so it's difficult to catch them by using drug 
testing.
    And frankly, the method that I've used, which is using my 
right of exclusion, is probably the best way to go.
    But you run the risk of getting sued. And the right of 
exclusion is very difficult, because you are making it 
difficult for someone to make a living, so you don't want to be 
wrong.
    So it's tough, but I think the penalties, clearly, when 
someone is caught, that should be the end of it. I mean, it 
shouldn't be three-strikes-and-you're-out. It should be, for a 
serious drug violation, it should be that's it. That should be 
the end of it.
    And frankly, I think the thing that would solve it the best 
would be if we took some of these trainers out in handcuffs, 
because I think if someone was walked out of a barn area in 
handcuffs, that would be the end of drugging, because why would 
anybody do it if they thought they could go to jail?
    Senator Lautenberg. The question about why we couldn't 
create the mold and the penalties for misbehavior, it seems to 
me that logic is on that side there. And it could take some 
adjusting here and there, but it's within our purview to do it. 
And I think that it would be a marked improvement over a 
condition that allows kind of sneaky activities to take over 
and challenge even the results of the race. As well, it's the 
safety of the horses and the jockeys.
    Many states allow some use of painkillers in horses on race 
day. But painkillers can mask injuries and lead to life-
threatening situations for horses and jockeys.
    And, Mr. Irwin, what level of medication should be 
permissible for racing horses?
    Senator Udall. Please turn on your mike there and start 
again.
    Mr. Irwin. I'm not for any kind of race day medication at 
all, and I think that they should back off on the levels even 
for the normal drugs like Butazolidin. And I think they should 
just race as clean as possible on race day.
    That's the way they do it everywhere in the world. I don't 
think we should be any different.
    Senator Lautenberg. Mr. Gural, states like New Jersey, New 
York, have more important horseracing laws on the books than 
many others. What prevents someone from taking their horse out 
of New Jersey, racing it somewhere where the penalties aren't 
as stiff and the laws are more lenient, and attract the 
qualified animals, horses, from leaving the state?
    Mr. Gural. Nothing. I mean, it's not unusual.
    Like I said, I didn't let Pena race, but the other three 
tracks did let him race. You know, there is nothing to prevent.
    Some states reciprocate. If someone gets a suspension in 
New York, it'll be recognized. And sometimes they don't. It's 
hit or miss.
    Senator Lautenberg. So if a law was established across the 
country that the standards had to be the same, we could be 
without these problems constantly confronting us and the damage 
that comes from what I'll call, again, the monkey business.
    Mr. Gural. Yes, no question about it.
    Senator Lautenberg. Mr. Gagliano, a recent article in The 
New York Times suggested that a poison from the backs of South 
American frogs is the latest substance to be used as a 
performance-enhancing drug in horseracing.
    What can we do in science to keep up with horseracing 
drugs, if scientists aren't even sure which illegal substances 
they're looking for? Why should that be such a difficult 
problem?
    Mr. Gagliano. Well, it's certainly a problem that other 
sports have as well. It's trying to stay ahead of the cheaters.
    Research, properly funded research through the drug labs, 
is the solution there, where they have funds necessary to go 
and explore the new and emerging threats, such as the one you 
cited.
    Under our reformed racing medication rules, a requirement 
of any state testing labs would be that they have a research 
component to go and spend the time to explore for those 
emerging threats, like the frog juice that you cited.
    Senator Udall. Thank you very much, Senator Lautenberg.
    And, Mr. Gural, your statement about, if you walked out 
trainers in handcuffs would make a difference I think is very 
appropriate here, because one of the things that we have 
learned, just listening to people in the industry, is it's 
very, very lax in terms of enforcement.
    And what you're really saying is, have some rules, enforce 
them, let people know that cheaters are going to be out of 
there. Three strikes, you're out, that kind of thing.
    So I really believe that you're right on in saying that, 
you know, walking them out in handcuffs will really send a 
strong message. And we need strong, effective enforcement in 
this industry.
    Senator Thune, thank you for joining us. Great to have you 
here.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today, and for 
sharing their insights on this subject.
    I think a lot of people assume that South Dakota's horse 
culture is more confined to ranch horses and rodeo. But 
interestingly enough, my home state is also home to some 
Quarter Horseracing. Divided into 3 weekend stretches, both the 
Stanley County and Brown County fairgrounds host at least a 
couple of dozen races each weekend during the spring.
    And I know it's not as prominent as it is in other parts of 
the country, in states like Kentucky, Florida and California. 
One thing is clear, and that is that everyone involved wants to 
ensure that horses are being treated and cared for in the most 
humane manner possible.
    So I appreciate the hearing. And obviously, the testimony 
being furnished by the panelists here today, and hearing about 
what options might be considered in the future.
    Let me just ask a general question. If it's already been 
asked, I apologize. But with everything else, other things 
being equal, would it be desirable to have a national set of 
standards for performance-enhancing medication? Is that 
something that any of you support?
    Mr. Gagliano. Yes.
    Mr. Gural. Yes.
    Mr. Stirling. Yes.
    Senator Thune. If such as standard is established------
    Senator Udall. All witnesses indicated yes, for the record.
    Senator Thune. I saw some nodding, but thank you for 
pointing that out, Mr. Chairman.
    If such a standard was established, how might enforcement 
be carried out uniformly?
    Mr. Gural. I think the thing that would help us the most, 
if the Federal Government got involved, would be to establish a 
couple of super labs. What we do now is foolish, because every 
state has their own lab. So the resources are being spread out 
too thin.
    If we had a super lab on the West Coast and a super lab on 
the East Coast where they would have more money going to them, 
I think--this is just a money problem. That's why we can't 
catch them. We don't spend enough money.
    Mr. Irwin. I don't think that the answer is a laboratory. 
It doesn't work in cycling, and it doesn't work in track and 
field.
    What works is policing and investigating, because you can 
only test for what you know you're looking for. You can't just 
test for something that's out there that you don't know about.
    So what you need to do is you need to get the FBI or the 
DEA involved, do some good old-fashioned police work, find out 
what some of these drugs are that are being used, and then you 
can test for them.
    Mr. Gural. The problem is, I met with the State police in 
New Jersey. Actually, I have more ability to police than they 
do, because for an organization like the state police, they 
have to have probable cause before they can ask someone to open 
up the trunk of their car to see what's inside. Whereas, it's 
private property, so if someone drives their horse van onto my 
racetrack, I can ask them to open up the trunk of their car.
    So surprisingly, I have more ability to catch somebody than 
the police do. And it's frustrating. But I was shocked. But 
that's the fact in our Constitution, for a policeman to ask you 
to open the trunk of your car, he has to have probable cause 
that you have syringes or illegal medication, whereas I don't 
have to have probable cause. I could just say open the trunk.
    So it's tough. And I agree that drug testing is very 
difficult, because they're always one step ahead of us. But 
I've been told by certain veterinarians, by labs, that if they 
have more money, that they think they could catch these guys.
    The other thing that's frustrating is, nobody ever, you 
know, rats them out. It seems to be, you know, code of conduct 
that says, ``Don't squeal on these guys.'' Everybody watches 
and sees what's going on, but as the owner of a racetrack, when 
I reach out and say tell me, nobody wants to tell you. It's 
really frustrating.
    Senator Thune. Go ahead, Mr. Stirling.
    Mr. Stirling. If I could, yes.
    I think Mr. Gural hit on it before. Obviously, the drug 
labs do the best they can. But when we get somebody, he's 
obviously due his due process, but we have a tendency not to 
throw the book at them. And that's what needs to be done.
    These dermorphins that we were talking about. A person has 
one of those, one strike and you should be out on something 
like that. I mean, we have to crack down on those kind of 
people.
    And when you do that, I strongly believe you'll see less 
and less people trying to have their little chemists on the 
side and trying to beat the system.
    We just don't really take care of the people that do the 
things that should put them out of the business for good. 
They're back in 6 months. They're back in a year.
    Mr. Gagliano. I'd like to add, if I may, onto what Mr. 
Gural said about the labs. We have about 18 labs in this 
country that are forensically testing race results, samples 
from races. Those labs are wildly different at times in their 
cost per sample, which indicates to us that there are different 
standards.
    We, in the rules I cited earlier, would look for all those 
labs to reach a certain level of accreditation that's been set 
by the industry that would be the highest, and based in large 
measure on what was established by WADA. We believe that having 
the labs at that much heightened standard would improve the 
prosecution immensely.
    Mr. Stirling. If I could add on to that, we do have lab 
accreditation. As long as they're accredited internationally, 
the ISO 17025 standards, then they're a pretty credible 
laboratory.
    The problem is, a lot of these laboratories, by statute, 
belong to state universities and things like that. And it's 
going to be really tough to go in there. I mean, it would 
almost take the government to do that, to tell the state 
university they can no longer have that testing lab, because 
many, many of them and some of our biggest labs are located at 
state universities.
    Senator Thune. My time has expired, Mr. Chairman.
    Senator Udall. Thank you, Senator Thune. Thank you very 
much.
    Let me ask about this dermorphin.
    Mr. Stirling, you mentioned it. I think several others have 
mentioned it in their testimony. And you've described how 
States began testing for the syntheticversion of dermorphin. 
This is, it's my understanding, a tree frog extract that is a 
painkiller 40 times more powerful than morphine.
    Should a trainer who gives a racehorse this drug be 
permanently banned from race horsing, from racing horses?
    Mr. Stirling. If you're asking me, yes. Yes.
    Senator Udall. Yes. Mr. Gagliano?
    Mr. Gagliano. I believe so.
    Senator Udall. Mr. Gural?
    Mr. Gural. Absolutely.
    Senator Udall. And, Mr. Irwin?
    Mr. Irwin. I'd say yes. I'd like to know--this is just for 
my own personal edification--from any of the members of the 
panel, have you ever heard of a trainer that was making his 
livelihood as a trainer, that is no longer training because he 
was ``kicked out'' of the sport?
    Senator Udall. That's a question I intended on asking, 
because I've been probing this with everybody. Can somebody 
tell me? A trainer that's ever been kicked out on a permanent 
basis here?
    Anybody, Mr. Gural?
    Mr. Gural. Yes. There've been a couple.
    Senator Udall. There have been a couple, but it's very, 
very rare.
    Mr. Gural. It's very rare. And that's when they get caught 
with like five positives in a week or something, and, 
basically, they make a deal where they surrender their license. 
But there's no way of knowing if they don't have a friend who 
they now get as a beard to front for them.
    It's really tough, and it's discouraging. It has happened, 
but it's rare.
    And in most cases, they surface someplace else, or their 
girlfriend becomes the trainer. We've had that, where we've had 
to actually look at the addresses of the trainer. We'll note 
that we kicked the guy out, and now the girl who lives with him 
is the trainer. So we'll kick her out, too.
    But, you know, it's a lot of work to keep track of that.
    Senator Udall. But can any of you think of a name? Can you 
give me a name?
    This is the thing, I keep searching for a name.
    Mr. Gagliano?
    Mr. Gagliano. I recall some from harness racing, but it was 
quite a while ago. But none in recent memory.
    Mr. Irwin. One would have to look in the harness racing 
hall of fame to find those names.
    Mr. Gural. That's not nice.
    [Laughter.]
    Senator Udall. Mr. Stirling, can you think of anybody? And 
I think that Mr. Gural hits a very important point here, is 
that one state, they're told they can't race for a little bit. 
They just move on to another state and keep on going on.
    The flip side of this to me that's remarkable is the number 
of trainers that have violations that just keep going down the 
road. I think when Mr. Irwin was running a horse in the 
Kentucky Derby, the winner of the Kentucky Derby in 2011, his 
was the only trainer in the entire race that didn't have 
violations.
    Is that correct, Mr. Irwin?
    Mr. Irwin. Yes.
    Senator Udall. I mean, I find that pretty astounding.
    Now, Mr. Stirling, you said that doping is rare, and I had 
the sense you were disagreeing with The New York Times when 
they said in their story that 24 horses a week were dying as a 
result of it.
    Mr. Irwin, do you want to respond to that? I know that you 
felt very strongly about that issue.
    Mr. Irwin. Well, as I said earlier, you can only test for 
what you know. And Mr. Stirling cited some statistics about 
what a clean sport we have because there are so few positives. 
Well, there's probably plenty of positives that we don't know 
about, because we don't know what drugs are being used so we 
can't test for them.
    These are designer drugs that we'll find out about later 
that are being used today but that won't come to the surface 
until later. It's just like the frog thing and the sea snail 
thing from the Great Barrier Reef. These are things that 
underground people know about.
    And the real problem is, is there are too many enablers in 
the world. And as long as there are guys that are cheaters 
there's going to be an appetite for those drugs and treatments, 
and that's the problem.
    So until we actually get rid of these people, we're not 
going to change the culture.
    And as far as how many positives are out there, hidden 
positives that we don't know about, it's just open to 
conjecture.
    Senator Udall. Mr. Gural, your thoughts on not much doping 
going on?
    Mr. Gural. I think there's plenty of doping going on. I 
just think that, like Barry said, no vet is going to give a 
horse a drug if he knows that they're testing for it. So my 
guess is that somebody must have ratted out and gone to a lab 
and said I got this frog juice thing and that's what they're 
using. And lo and behold, when they started to test for it, all 
of the sudden, I saw I think in one Ruidoso Derby or something, 
half the horses that were in the biggest race in New Mexico 
came back positive for this frog juice thing.
    Like in New York there was Afrin. One day they started to 
test for Afrin, and they had 20 positives at one racetrack in 1 
weekend for Afrin. So, obviously, they hadn't been testing for 
Afrin. They decided to test for Afrin, and they came up with 20 
positives.
    So that's what happens. Unless we know what they're using, 
it's very hard to catch them.
    So I disagree. But I'm not an expert in thoroughbred 
racing, so I'm, unfortunately, speaking for standardbred 
racing.
    Mr. Stirling. Senator, if I could clarify?
    Senator Udall. Yes.
    Mr. Stirling. What I'm referring to as doping is the 
dermorphins of the world. That's doping.
    A lot of times in the media you'll see doping is------
    Lasix is doping, Butazolidin and things like that are 
doping just because a horse has an overage. I don't consider 
that doping at all.
    I consider doping somebody that is actually using something 
that should never for any reason be in a horse to try and 
compromise the outcome of a race. To me, that's doping.
    Mr. Irwin. I'd like to say one other thing. The biggest 
drug scandal that we've had in this country in the modern era 
was the BALCO scandal that took place in a Bay Area lab. And 
that went on for a period of, I think it was, like, 8 or 9 
years and the only way they found out about it is somebody sent 
a syringe into a lab. They tested for it, and that's how they 
found out what to test for.
    Once they knew what to test for, that's how they started 
catching these people. When you have a designer drug where they 
just change one element of it then, and it's just like a 
steroid or something like that, it's impossible to catch these 
guys. You have to know what you're testing for.
    Senator Udall. Mr. Stirling, is Clenbuterol, or bute, is 
that doping?
    Mr. Stirling. Clenbuterol? Clenbuterol's probably the best 
drug that's come out in the last 30 years. Unfortunately, it 
has anabolic steroidal properties and people are abusing it. 
And unfortunately, it's going to probably have a much longer 
withdrawal time than it does now because of it being misused.
    But it's probably the best drug that's come out in 30 
years.
    Senator Udall. But you shouldn't have it on race day. You 
shouldn't be injecting------
    Mr. Stirling. Oh, absolutely not. Should absolutely not.
    Senator Udall. Totally cleared through the system------
    Mr. Stirling. The withdrawal time on that is 4 or 5 days 
prior to racing.
    Senator Udall. OK.
    Then, Senator Lautenberg? Senator Lautenberg, I'm going to 
do a couple of rounds with these folks, so I'm happy to have 
you participate with me and then get on with the next panel.
    Senator Lautenberg. Please do. I wanted to stay with you 
and the panel, but I've heard enough to tell me where we ought 
to be going.
    Senator Udall. OK.
    Senator Lautenberg. That it's a sport that's very 
attractive for lots of people and not the least of which is the 
jobs, not the least of which is the revenues for the States and 
the organizations. And if it can be done without harm to the 
individual or the horse, by golly, we ought to do it.
    We ought to make sure that the horse that wins, wins 
because they have the strength and the guidance to do it, not 
pushed by some steroid or whatever it is that they're giving to 
these horses.
    Senator Udall. Well, you know, Senator Lautenberg, you make 
a very good point in terms of the jobs.
    In my opening statement, I talked about nationwide and New 
Mexico the numbers of jobs. And I think these jobs are 
threatened if you have a dirty industry.
    I think in some of the descriptions we've already heard, I 
think we might well hear more, and I hear them privately, the 
industry is on the way down. And some have even used the term a 
``dying industry.'' Well, if you have a dying industry, that 
isn't a growth industry.
    I mean, racing used to be the most popular thing in 
America, in terms of a spectator sport. But it's hurting now.
    And I think the reason for holding this hearing is trying 
to get us to a place that you have honesty, you have integrity 
in the industry, and it can come back.
    You can have all the different forms of bettors. I mean, a 
lot of the big bettors I think have left this industry, the big 
time bettors, because they just don't want to be a part of it.
    So anyway, I'm going to ask a few more questions here.
    Senator Lautenberg. Yes, please.
    Senator Udall. And if you would start thinking of 
questions, just let me know, OK?
    Senator Lautenberg. I may gallop off to another hearing.
    Senator Udall. Well, I don't blame you. I don't blame you. 
It's Thursday, and it's almost 4 o'clock------
    Senator Lautenberg. Or I shouldn't say gallop, Mr. Gural. 
You don't do galloping.
    Mr. Gural. Not in harness racing.
    Senator Udall. I'm going to use a couple of charts here.
    Mr. Gagliano, in April, a track veterinarian testified to a 
congressional committee that trainers frequently asked her to 
provide drugs for improper purposes.
    She also said that if she refuses, the trainers can find 
another track vet or just go online to buy them, some sites 
like horseprerace.com.
    But HorsePreRace is an online Canadian pharmacy that 
advertises anabolic steroids, blood builders, a powerful pain 
killer, much more powerful than morphine.
    And here's a web page for their oral pain peptide, one of 
their best selling products. It sounds a lot like dermorphin to 
me, or frog juice.
    HorsePreRace describes the key features and benefits of 
this drug in the following manner, and you can read it here: 
The oral pain peptide improves the brain levels of endorphins 
to reduce perception of pain and eliminates it. The oral pain 
peptide is most effective given orally 4 to 6 hours before the 
event but can be given 6 to 10 hours out without noticeable 
effects.
    Mr. Gagliano, does an oral pain peptide like this have any 
legitimate use in horseracing, particularly just hours before a 
race?
    Mr. Gagliano. Most certainly not. Certainly not.
    Senator Udall. Should trainers who drug horses with oral 
pain peptides be permanently banned from racing?
    Mr. Gagliano. Not knowing a lot about that specifically, 
but it certainly seems so.
    And let me just draw back to our reform racing medication 
rules, where we authorized the therapeutic use, withdrawn well 
before a race, of just 25 drugs. Everything else is prohibited, 
and this would certainly be prohibited.
    Senator Udall. Mr. Irwin, you previously called for a 
Federal investigation of designer drugs used in horseracing. 
I'd like to ask you about a designer drug.
    Belgium customs agents seized a package of TB-500 destined 
for a cyclist who later admitted using it to promote muscle 
growth to maintain fitness.
    A newspaper account of the incident describes TB-500 as a, 
quote, ``ultramodern doping product.'' There is a California 
company that markets this synthetic peptide for use in 
racehorses. The company website claims that TB-500s greatest 
selling point is that it is, quote, ``100 percent drug free and 
does not swab.''
    This allows the peptide to be used right throughout racing 
spells in both training and competition, completely free of any 
banned substance. This product is apparently so popular that 
other online pharmacies sell cheaper versions of it.
    Mr. Irwin, does a designer drug like TB-500 have any 
legitimate place in horseracing?
    Mr. Irwin. Well, I don't really know if that is a designer 
drug or not. A designer drug is something that mirrors a normal 
drug, and you just change it a little bit to try to get--you 
can't get 100 percent of the same impact as a regular drug but 
you can get pretty close. That's what we learned in the BALCO.
    I'm unfamiliar with this product but, you know, to me, 
there are very few drugs that I think should even be allowed to 
be used the week a horserace is, let alone the day a race is.
    And Mr. Stirling brought up the drug that he seems to like 
a lot, Clenbuterol. There is absolutely no justification for a 
horse, a healthy horse, to be given Clenbuterol, yet a lot of 
modern racehorses get it all the time.
    We need to kick that habit. That's my opinion.
    Senator Udall. And on the issue of designer drugs, do you 
think they should be stopped? Is there a way to stop them?
    Mr. Irwin. Well, as I said, the only way you can do it is 
by police work, or getting tips or something like that. That's 
why I think the FBI and the DEA are probably the best 
qualified.
    State racing commissions, the kind of policing activities 
that they can do, are not very impressive. We need some serious 
help from people that do that for a living.
    Senator Udall. Mr. Stirling, you spoke on a panel with Dr. 
Rich Harden, the equine medical director for the Virginia 
Racing Commission at the HBPA's 2011 summer convention. And Dr. 
Harden described trainers medicatinghorses up to the permitted 
levels to get close to the limit without violating the rules. 
And he stated that a lot of people medicate and train to the 
threshold limits rather than using the threshold limits to 
protect them frominadvertent medication overages.
    He also explained how trainers stack medications to make a 
potent drug cocktail that escapes detection. And he says, 
``We're seeing a lot of combination drugs. We're seeing 
prednisone, a corticosteroid, and we're seeing prednisolone. So 
why do you treat a horse with prednisone and prednisolone? 
Because you're giving them half a dose of each. That gives half 
the level that is showing up in the drug kit tests, and yet the 
horse is getting the benefit of both of them.''
    I think these charts based on a New York Times graphic 
illustrate Dr. Harden's point. A horse received all these 
injections of therapeutic medications in the week before its 
last fatal race. The horse got several types of painkillers 
instead of just one.
    Dr. Sheila Lyons' testimony today argues that disclosing 
veterinary treatments and reporting drug administrations could 
go a long way to preventing this potential type of medication 
abuse.
    Would HBPA support public disclosure of veterinary records 
to prevent medication abuses?
    Mr. Stirling. Well, if we're talking about I'll Have 
Another, then I'm really not familiar with what has been found 
there. But from what I've read, it sounds like it's the 
banamine, butisol, and things like that.
    This horse did compete in two long races--he will never run 
that long again in his life--in a period of 2 weeks and was 
expected to do it again in 3 weeks.
    You're going to have aches and pains. And if we're talking 
bute or banamine, something like that, then I would think, yes, 
he probably would have had some of that. And he wouldn't have 
it anywhere near the race. I mean, you're talking about 
cocktails. You're talking about stacking. That has pretty much 
been stopped in most places.
    Stacking would be giving butisol or banamine at the same 
time and try to get the dual effect.
    And Kentucky was pretty wide open a number of years ago, 
but they've gotten pretty strict in the last number of years.
    Senator Udall. Mr. Irwin, the trainer of your horse in this 
year's Kentucky Derby and the Preakness Stakes was the only 
trainer with no medication violations. But the trainer who won 
those races, Doug O'Neill, has a long history of rule 
violations, including four milkshaking violations.
    Milkshaking involves increasing the horse's total carbon 
dioxide levels to boost endurance.
    Your full written testimony describes the state regulatory 
body as minimizing the negative publicity of enforcing a 
violation, particularly for someone competing for the Triple 
Crown winner.
    Should anyone with multiple milkshaking violations be 
allowed to compete in the first place? How should repeat 
violators be dealt with by state authorities?
    Mr. Irwin. Well, I would like the ``three strikes and 
you're out'' rule. I thought that for this particular trainer, 
that was his third strike.
    Somebody pointed out in The Blood-Horse--I didn't read it--
that it was actually his ``fourth strike.''
    I think the problem here is when you have the whole crazy 
quilt pattern of different rules in each state, that some of 
these violations can take place in different states.
    Like I think the trainer of this horse had some in 
California, and he had another one in Illinois.
    It's up to the state racing commissions to show some 
cohesiveness and bring that together and make some sort of 
adjudication that would be best for the sport.
    For that particular individual, he has had a long history. 
And he certainly would be a candidate for someone that I would 
like to see waved goodbye to, based on his record.
    Senator Udall. Mr. Stirling, the HBPA's position statement 
says that all testing should be performed by Racing Medication 
and Testing Committee, RMTC, and ISO-accredited laboratories. 
How many test labs are RMTC-accredited?
    Mr. Stirling. As Mr. Gagliano says, there are 18 currently, 
I think 19 now with HFL in Kentucky.
    I sit on the Racing Medication Testing board. We thought by 
making them all get internationally accredited they would drop 
off, because we knew 18 was way too many.
    I couldn't give you the exact number now, but I think it's 
getting around nine or 10 that have got themselves 
internationally accredited.
    Senator Udall. And that's out of the total number of how 
many?
    Mr. Stirling. Well, I think 19 is the number on it.
    Mr. Gagliano. But none have gotten to the RMTC 
accreditation level.
    Mr. Stirling. That's what I thought.
    Senator Udall. There are no labs that have gotten to the 
RMTC accreditation level; is that correct, Mr. Gagliano? That 
was a promise that was made earlier by the racing industry.
    Mr. Stirling. I'm not aware of that, and I sit on the 
board, so I should be ashamed, I guess. I don't know that.
    Mr. Gagliano. I think several are in the process of moving 
toward it, but it has certainly been slow.
    Senator Udall. Mr. Gural, a track official who presented to 
the Race Track Industry Program symposium last year described a 
race-tracker telling him that, ``there are people who couldn't 
be hired to sell hot dogs for our company because of their 
past, yet they're allowed to participate in racing.''
    He further explained, and I quote, ``It takes scores of 
rule violations before a trainer gets a 10-year suspension. 
Then the trainer gets a stay, and we see him at the top of the 
standings of a high-profile meet with a near 50 percent win 
percentage.''
    Mr. Gural, you described how you as a track owner 
successfully ruled off a harness trainer from your tracks. 
Could track owners in every state simply rule off certain 
trainers from racing at their tracks? And are there situations 
where this might not be possible with other track operators?
    Mr. Gural. If the property is privately owned, then they 
have the right of exclusion. If it's government-owned, so for 
example, the Meadowlands, until I took over, it was impossible 
for them to rule anybody off, because it's public land. But as 
the lessee, I was able to do it.
    So somebody, like in California, for example, or Churchill 
Downs, or Keeneland, they could do it.
    And almost all the time, the courts have backed it up. 
There have been a couple of questionable decisions, but here in 
New Jersey, we won that.
    And so I think once we won the first case, because it's not 
just him, I have a long list of trainers that are banned, that 
are excluded at my three tracks. So once we won the case with 
Pena, I haven't heard boo from anybody. Whoever is excluded is 
excluded.
    So I think the answer to your question is, as long as it's 
owned privately, you can exclude that person.
    Senator Udall. And when you took that courageous act, it 
cost you a pretty penny, too, didn't it, to do the litigation?
    Mr. Gural. $65,000.
    Senator Udall. Thousands of dollars in legal fees.
    Mr. Gural. Yes, which is why a lot of tracks don't bother, 
because--and had we lost, then where would we have been? We 
would have been in a real mess.
    So we were very fortunate to get a judge who--because a lot 
of times the trainer will get stay. I would say it's more 
uncommon that they don't get a stay. Usually they'll get a 
stay, because judges are sympathetic.
    But in this case, we won the case on the right of 
exclusion.
    Senator Udall. Mr. Gagliano, this chart quotes from Jockey 
Club statements to Congress from 1982 until today. When Members 
of Congress ask about doping problems, the Jockey Club has 
pretty much said the same thing over the years: We do not need 
Federal legislation. We are making progress. Just give us some 
more time.
    Your testimony today states that the Jockey Club would 
support Federal legislation if action by the states continues 
to prove unattainable.
    It seems to me that 30 years is long enough to judge 
whether there is a need for Federal legislation.
    But I would like to ask, in your view, how much more time 
does the racing industry need before Congress should pass 
legislation?
    Mr. Gagliano. Well, as I indicated in my testimony, the 
time to act on all measures is now. We have a sport that we 
have evaluated through McKinsey. And, frankly, through our own 
eyes, that is at a point where it's not a growth industry. And 
there are steps that we need to take.
    And we're proud of our statement here today. We will 
continue our work on a state-by-state basis. And we will also 
lend our support for an interstate compact, if that ends up to 
be the most palatable way to get the reform that we've 
discussed today.
    Senator Udall. And I, Mr. Gagliano, take from your 
testimony today that you support Federal legislation that we 
have before the Committee?
    Mr. Gagliano. What we said very specifically in our 
testimony, both written and verbal, is that we would support 
the use of a Federal mechanism to ensure that the reform racing 
medication rules or something similar would be adopted.
    Senator Udall. Great. Thank you.
    I know we've gone on a bit here, but I very much appreciate 
this panel. I appreciate your testimony here today. And so 
we're going to excuse this first panel and call the second 
panel forward. Thank you.
    While we call the second panel forward, I'm just going to 
introduce them briefly here, as they're getting their seats.
    On the second panel, we have Mr. Matthew Witman, National 
Director, American Quarter Horse Association; Mr. Marc S. 
Paulhus, former Director of Equine Protection, and Vice 
President, Humane Society; Mr. Ed Martin, President and CEO, 
Association of Racing Commissioners International; and Dr. 
Sheila Lyons, DVM, Doctor of Veterinary Medicine, Founder and 
Director of the American College of Veterinary Sports Medicine 
and Rehabilitation, Founder and Director, Homecoming Farm, Inc.
    Let me thank you all for being here today. I know that with 
the break, and with the testimony in the first panel, you've 
waited a lot. And I very much appreciate that.
    And so why don't we start with Mr. Witman, and proceed down 
the line here with testimony.

   STATEMENT OF MATTHEW WITMAN, NATIONAL DIRECTOR, AMERICAN 
                   QUARTER HORSE ASSOCIATION

    Mr. Witman. Mr. Chairman, thank you for the opportunity to 
testify today on behalf of the American Quarter Horse 
Association and our industry.
    My name is Matt Witman. I'm a horseman, National Director 
with the American Quarter Horse Association, Chairman of AQHA's 
Racing Committee and Racing Council.
    The American Quarter Horse Association is the world's 
largest equine breed registry and membership organization, 
having registered nearly 6 million horses, and has a membership 
roster of nearly 300,000 members worldwide.
    Quarter Horses make up approximately 15 percent of horses 
raced in the U.S., and account for about 6 percent of the 
almost $11 billion direct economic impact of racing on the 
United States.
    Slightly more than $301 million was wagered on American 
Quarter Horseracing last year. That's about 2 percent of the 
total handle.
    As a breed registry and membership organization, AQHA is 
dependent upon State racing commissions and the various 
regulatory bodies to enforce the rules of racing, ensure proper 
drug testing procedures are in place at racetracks, and guard 
the integrity of racing for the wagering public.
    AQHA's rules do not supersede State laws or individual 
State racing commission rules. Unfortunately, uniform rules do 
not exist in our sport, and many times, racing jurisdictions 
that are legislated on the State level are vastly different.
    However, American Quarter Horseracing is run under the same 
regulations in each state as other racing breeds, and we are 
working toward uniformity and stricter penalties with these 
jurisdictions.
    As a person who has spent his entire life involved in 
horseracing, I can think of no other time in our sport's 
history that we have come under the amount and type of scrutiny 
that we are experiencing today. That's largely due to many 
articles on horseracing that have sounded an alarm, and where 
American Quarter Horseracing was characterized as an anything-
goes sport, where 2-year-old American Quarter Horses are an 
expendable commodity, owned and trained by those with a win-at-
all-cost attitude.
    That's not the industry I know. And to the American Quarter 
Horse Association, that attitude is unacceptable.
    No one wants to have a horse or jockey die, or have a 
career end as a result of racing, training, inhumane practices, 
or poor stewardship, which would include using illegal and/or 
illicit performance-enhancing drugs. AQHA agrees that one 
incident of illegal doping, or any horse suffering because of 
unscrupulous individuals involved in our industry, is one too 
many.
    And AQHA steadfastly supports efforts to rid the industry 
of drugs being performance enhancing, and most certainly of 
anyone who uses these drugs to harm horses, their riders, or an 
unsuspecting public.
    In October 2008, the AQHA Racing Committee formed the 
Safety and Welfare Subcommittee, now known as the Equine 
Health, Welfare, Integrity, and Research Subcommittee, to 
address issues in the racing industry, and assist tracks, 
horsemen, and racing jurisdictions in identifying the testing 
for illicit substances being used on our horses.
    The Equine Health, Welfare, Integrity, and Research 
Subcommittee is strongly encouraging all AQHA members and 
horsemen to work with their respective racing stewards and 
commissions to adopt model rules and stricter penalties for 
violators.
    In 2012, AQHA's enhancement of penalty rule was modified to 
give AQHA the ability to direct disciplinary action or 
sanctions against individuals coming under racing commission 
jurisdictions. Once disciplinary action is imposed by a racing 
jurisdiction, AQHA now has the ability to level additional 
fines, suspend AQHA membership privileges, and/or suspend 
participation privileges in recognized events.
    In November 2010, AQHA's efforts to test for the use of 
forbidden substances were brought to the forefront when the 
association implemented what it termed ``super testing'' for 
horses entered in that year's Bank of America Racing Challenge 
Championships in New Orleans.
    In the same year, the association brought together a large 
group of industry experts, including horsemen, racing 
officials, and experts on medication and testing to discuss and 
address issues. At the top of the list was the rampant use of 
high doses of Clenbuterol.
    In February 2011, AQHA staff met with track owners, 
breeders, veterinarians, and racing commission staff in 
Southern California to establish the association's policy 
regarding Clenbuterol. The association's recommendation,which 
is provided in our written testimony, has since been adopted by 
several states, including California, New Mexico, Indiana, and 
Oklahoma.
    Owners and trainers of American Quarter Horses have also 
taken it upon themselves to address the issue of illegal doping 
of horses. Several horsemen across the country have obtained 
samples of alleged illegal substances, and submitted them to 
AQHA, or directly to the lab for testing and analysis.
    Samples of dermorphin, a highly potent painkiller derived 
from the skin of South American frogs, were sent to the lab by 
honest horsemen who wanted a level, honest playing field so the 
substance could be identified and a test developed.
    Recognizing that animal welfare is the single most 
important issue facing the equine industry, last February, the 
American Quarter Horse Association executive committee 
established a 14-member animal welfare commission.
    AQHA wants the industry to come together, make significant 
changes, and regulate itself. We know we must do everything we 
can to protect horses, jockeys, the racing public.
    While the industry might have been slow to react, at AQHA, 
we have observed a transformation taking place, where owners 
are demanding a level playing field and the best possible care 
for their horses.
    AQHA is demonstrating its leadership role by urging states 
to adopt stricter guidelines on permitted medications, and 
stronger, more meaningful penalties forindividuals who use 
performance-enhancing drugs. Clearly, more must be done, and is 
being done, not just because we have the public trust at stake, 
but because it's the right thing to do for our horses.
    The American Quarter Horse Association urges stewards and 
state regulation authorities in every jurisdiction to levy the 
maximum penalties allowable against people who are doping 
horses, endangering horses' lives, the lives of the jockeys, 
horsemen, and cheating fans.
    The horseracing industry must come together, and without 
question, adopt the current model rules, and, regardless of 
breed or role in the industry, develop the processes and 
procedures to address the future situations with the strictest 
penalties possible.
    On behalf of almost 300,000 members, and more than 1 
million owners of American Quarter Horses, thank you for the 
opportunity to speak on this issue and provide this testimony.
    [The prepared statement of Mr. Witman follows:]

       Prepared Statement of Matthew Witman, National Director, 
                   American Quarter Horse Association
    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to testify today on behalf of the American Quarter 
Horse Association and our industry.
    My name is Matt Witman, and I am a horseman, AQHA National Director 
and Chairman of AQHA's Racing Committee and Racing Council. I was born 
and raised around racehorses and it has always been a part of my life 
and livelihood. Today, I am here to discuss with you what AQHA is doing 
and what we feel the industry needs to do for the betterment of our 
horses, horsemen, and the trust of our fans.
    The American Quarter Horse Association is the world's largest 
equine breed registry and membership organization, having registered 
nearly six million horses and with a membership roster of nearly 
300,000 members worldwide. The mission of the American Quarter Horse 
Association is to:

  <bullet>  To record and preserve the pedigrees of the American 
        Quarter Horse while maintaining the integrity of the breed.

  <bullet>  To provide beneficial services for its members that enhance 
        and encourage American Quarter Horse ownership and 
        participation.

  <bullet>  To develop diverse educational programs, material and 
        curriculum that will position AQHA as the leading resource 
        organization in the equine industry.

  <bullet>  To generate growth of AQHA membership via the marketing, 
        promotion, advertising and publicity of the American Quarter 
        Horse.

    Located in Amarillo, Texas, AQHA functions as the official 
recordkeeping body of the American Quarter Horse industry. It records 
all American Quarter Horse ownership, processes approved show and race 
results, catalogs performance and produce data on all American Quarter 
Horses, and publicizes the American Quarter Horse industry.
    In addition, AQHA maintains current statistics on ownership in each 
state and country as well as American Quarter Horse population figures.
    As a breed registry and membership organization, AQHA is dependent 
upon state racing commissions and the various regulatory bodies to 
enforce the rules of racing, ensure proper drug testing procedures are 
in place at racetracks and guard the integrity of racing for the 
wagering public. AQHA's rules do not supersede state laws or individual 
state racing commission rules. Unfortunately, uniform rules do not 
exist in our sport and many times, racing jurisdiction that are 
legislated on the state level are vastly different, with no two being 
alike. However, we are working toward uniformity and stricter 
penalties.
    As a person who has spent his entire life involved in horse racing, 
I can think of no other time in our sport's history that we have come 
under the amount and type of scrutiny that we are experiencing today. 
That's largely due to media articles on horse racing, that have sounded 
an alarm and where American Quarter Horse racing was characterized as 
an anything-goes sport, where 2-year-old American Quarter Horses are an 
expendable commodity owned and trained by those with a ``win-at-all-
costs'' attitude. That's not the industry I know and to the American 
Quarter Horse Association that attitude is unacceptable.
    As a person involved in the industry and as a leader within the 
American Quarter Horse Association, I can tell you that American 
Quarter Horse owners look at their horses as extensions of their 
families, with many taking great pride in seeing their prized horses go 
on to enjoy success after their racing careers conclude. To 
characterize the sport as anything less, or to state that owners of the 
breed are uncaring, unsympathetic or uninvolved is irresponsible and 
inaccurate. While there might be some in the racing industry who are 
corrupt, as with any industry, the majority of American Quarter Horse 
owners are honest people who put the best interests of their horses 
first.
    No one wants to have a horse or jockey die, or have a career end as 
a result of racing, training, inhumane practices or poor stewardship, 
which would include using illegal and/or illicit performance-enhancing 
drugs. AQHA agrees that one incident of illegal doping or any horse 
suffering because of unscrupulous individuals involved in our industry, 
is one too many. And AQHA steadfastly supports efforts to rid the 
industry of drugs deemed performance-enhancing and most certainly of 
anyone who uses these drugs to harm horses, their riders or an 
unsuspecting public.
    The American Quarter Horse Association continues its longstanding 
support of the racing industry and its horsemen. This includes racing 
that is clean, fair and provides a great experience for the horse, 
jockey, owner and fan base. AQHA continuously works to ensure not only 
the integrity and welfare of American Quarter Horses, but also the 
integrity and welfare of the entire horse industry.
    Because the welfare of the American Quarter Horse is paramount to 
all other considerations, AQHA's role in preserving the integrity of 
the breed is expanding on a daily basis, and the Association has taken 
a leadership role in numerous areas to improve the welfare of the horse 
regardless of how it is used and enjoyed.
    AQHA advocates for the health and welfare of the racing athlete 
through rules and through financial support of worthy industry 
initiatives. These include support of a racing surface research 
project, support of the industry's Racing Medication and Testing 
Consortium and national movements through Racing Commissioners 
International for uniform medication and model rules.
    In October 2008, the AQHA Racing Committee formed the Safety and 
Welfare subcommittee, now known as the Equine Health, Welfare, 
Integrity and Research subcommittee to address issues in the racing 
industry and assist tracks, horsemen and racing jurisdictions in 
identifying and testing for illicit substances being used in our 
horses. The Equine Health Welfare Integrity and Research subcommittee 
monitors situations and works with state racing jurisdictions involving 
drugs, medications, abuse and other issues concerning American Quarter 
Horse racing. At an appropriate time, the Equine Health, Welfare, 
Integrity and Research Committee can recommend penalties to the AQHA 
Executive Committee against offenders. Those penalties would be 
released and publicized by AQHA.
    The Equine Health, Welfare, Integrity and Research Subcommittee 
also is strongly encouraging all AQHA members and horsemen to work with 
their respective racing stewards and commissions to adopt model rules 
and enhanced penalties for violators.
    In 2012, AQHA's Enhancement of Penalty Rule was modified to give 
AQHA the ability to direct disciplinary action or sanctions against 
individuals coming under racing commission jurisdictions. Once 
disciplinary action is imposed by a racing jurisdiction, AQHA now has 
the ability to levy additional fines, suspend AQHA membership 
privileges and/or suspend participation privileges in recognized 
events. Should the Association exercise this right to enhance a 
penalty, the disciplined individual may request a hearing before a 
hearing committee for the sole purpose of contesting whether AQHA's 
imposed penalty should be enhanced. The finding of a violation by a 
Racing Authority is not subject to review at a hearing and is 
considered final by AQHA.
    Through AQHA's Equine Health, Welfare, Integrity and Research 
Subcommittee, plans are underway to further enhance this rule by 
developing an administrative penalty chart that would improve our 
ability to impose sanctions against violators.
    In November 2010, AQHA's efforts to test for the use of forbidden 
substances were brought to the forefront when the Association 
implemented what it terms ``super testing'' for horses entered in that 
year's Bank of America Racing Challenge Championships in New Orleans. 
That same year, the Association also brought together a large group of 
industry experts, including horsemen, racing officials and experts on 
medication and testing to discuss and address issues. At the top of the 
list of this group was the rampant use of high doses of Clenbuterol, 
which can have a steroidal effect on horses.
    In February 2011, based on information from the November meeting, 
AQHA staff and Executive Committee members met with track owners, 
breeders, veterinarians and racing commission staff in Southern 
California to establish the Association's policy regarding Clenbuterol.
    Specifically, AQHA recommended:

  <bullet> A 30-day withdrawal of clenbuterol prior to a horse 
        competing in a race. This does not ban clenbuterol. It 
        establishes a 30-day prior-to-racing threshold after which 
        clenbuterol cannot be administered. For training purposes and 
        for horses competing beyond the 30-day window, clenbuterol use 
        would still be allowed in racing American Quarter Horses.

  <bullet> Threshold levels could be 200 pg/ml or less in urine and 1-2 
        pg/ml in blood.

    AQHA has spent the last 18 months urging state racing authorities 
to adopt this position with some success. Several states have adopted 
this position or modified their current rule to address this issue. 
Those states include California, New Mexico, Indiana and Oklahoma. 
Other states had existing rules in place regarding Clenbuterol.
    Owners and trainers of American Quarter Horses have also taken it 
upon themselves to address the issue of illegal doping of horses. 
Several horsemen across the country have obtained samples of alleged 
illegal substances and submitted them to AQHA or directly to a lab for 
testing and analysis. AQHA horsemen have been credited by members of 
the industry's Racing Medication Testing Consortium for bringing 
dermorphin, a highly potent painkiller derived from the skin of South 
American frogs to the attention of regulators and pushing for stringent 
testing standards regarding the drug. Samples of dermorphin were sent 
to labs by honest horsemen who wanted a level, honest playing field so 
the substance could be identified and a test developed. If the Federal 
Government wants to help, AQHA would welcome additional funding to help 
identify these drugs and develop tests for them in an attempt to stay 
ahead of people who want to cheat the system.
    Speaking of additional funds, an idea that the Equine Health, 
Welfare, Integrity and Research subcommittee has discussed with owners 
and racetracks is to add an additional fee to starters in particular 
races at time of entry. Funds collected from this fee would be used to 
test all starters in those races or bolster state drug testing in these 
selected races. While the idea is not yet in place, AQHA has received 
positive feedback from horsemen who would support this effort. This is 
the kind of action the industry is initiating on its own.
    The Equine Health, Welfare, Integrity and Research subcommittee 
continues to meet at least once a month on conference calls to address 
the topics under its charter, including developing penalties for people 
who repeatedly violate medication rules and/or who are Class 1 and 
Class 2 first-time offenders.
    Recognizing that animal welfare is the single-most important issue 
facing the equine industry last February, the American Quarter Horse 
Association Executive Committee established a14-member Animal Welfare 
Commission.
    The Animal Welfare Commission's mission is to provide a framework 
for its members to

        (1) Identify issues negatively affecting the welfare of the 
        American Quarter Horse

        (2) Discuss issues, and

        (3) Recommend actions that will help protect the American 
        Quarter Horse from inhumane practices and AQHA and its members 
        from the negative impacts associated with those practices.

    The AQHA Animal Welfare Commission, in an effort to do right by the 
horse, is sharing its discussion, action items and recommendations with 
various industry organizations. While the commission is still in its 
infancy, it represents AQHA's commitment to the horse and is an example 
of how the industry is handling issues as they relate to welfare, 
including illegal doping of horses.
    So with all its efforts to keep racing clean, one might be led to 
believe that AQHA would support the proposed changes to the Interstate 
Horse Racing Act. In fact, AQHA does not support Federal intervention 
and is not in favor of this bill. Instead, AQHA wants the industry to 
come together, make significant changes and regulate itself.
    We know we must do everything we can to protect horses, jockeys and 
the racing public, among others. While the industry might have been 
slow to react, at AQHA we have observed a transformation taking place 
where owners are demanding not only a level playing field but the best 
possible care for their horses. AQHA is demonstrating its leadership 
role by urging states to adopt stricter guidelines on permitted 
medications and stronger, meaningful penalties for individuals who use 
performance-enhancing drugs.
    The industry arrived at its current state over the last several 
decades. Lax oversight, inconsistent rules and non-uniformity all 
played a role in arriving at this point. Despite what some in 
Washington think, the industry has been working diligently to address 
the concerns of Congress and the public. Horse racing is taking all of 
this serious and initiating industry headed reforms. Those reforms 
include establishing goals and deadlines, and bringing about what we 
all agree is much needed change and improvement.
    Clearly more must be done--and is being done not just because we 
have the public trust at stake but because it's the right thing to do 
for our horses. Rules are coming online and violators are being caught. 
Industry-driven initiatives in which we respond quicker to threats and 
find and develop tests for illegal drugs will help. There is nothing in 
the proposed changes to the Interstate Horse Racing Act that would 
provide funds for this type of research. Penalties must be swifter and 
more severe and language proposed in the bill doesn't address new, 
``designer'' drugs properly. Studies on conditionally permitted race-
day medications must be undertaken to properly address therapeutic 
medications. Uniform testing methods and consistent thresholds must be 
established so that participants understand the rules and trust the 
system in place. And, proper funding needs to be in place to oversee 
the industry.
    To underscore our commitment to a cohesive, industry driven effort, 
AQHA is teaming with its counterparts in the both the thoroughbred and 
harness racing industries to bring about reforms and jointly address 
the issues facing horse racing.
    The American Quarter Horse Association urges stewards and state 
racing authorities in every jurisdiction to levy the maximum penalties 
allowable against people who are doping horses, endangering horses' 
lives, the lives of jockeys and horsemen and cheating fans. The horse 
racing industry must come together and without question adopt the 
current model rules, and regardless of breed or role in the industry, 
develop the processes and procedures to address future situations with 
the strictest penalties possible.
    On behalf of almost 300,000 members and more than one million 
owners of American Quarter Horses, thank you for the opportunity to 
speak on this issue and provide this testimony.
    AQHA will continue to do everything it can for the racing industry. 
The issue of illegal drugs and misuse of medications is not about one 
single breed, association or group. It is about an industry that has 
been a part of our culture for hundreds of years. With common sense and 
cooperation, we can restore the public's trust and bring a new 
generation of fans and owners back to racing.

    Senator Udall. Mr. Witman, thank you very much.
    Mr. Paulhus?

         STATEMENT OF MARC S. PAULHUS, FORMER DIRECTOR,

             EQUINE PROTECTION AND VICE PRESIDENT,

                         HUMANE SOCIETY

    Mr. Paulhus. Thank you, Mr. Chairman. My name is Marc 
Paulhus. I'm semi-retired, living on a small horse farm in 
North Carolina. During my professional career, I was the former 
Director of Equine Protection for the Humane Society of the 
United States, and also Vice President. That was quite some 
time ago.
    I'm here today almost as if out of a time warp. Thirty 
years ago, I testified before the Senate Judiciary Committee in 
favor of the Corrupt Horseracing Practices Act, a bill that, 
quite frankly, had many of the same provisions that are in your 
legislation.
    And it addressed a longstanding problem at that time, and a 
problem that was not amenable to a state solution, although 
attempts were made over, and over, and over.
    In fact, Mr. Chairman, I attended more than 20 state racing 
commission hearings in various states, urging stronger rules on 
pre-race medication to protect the horses, going to state after 
state, with vastly different rules, incompatible with trying to 
protect the interests of the horses.
    The Corrupt Racing Practices Act, which was introduced by 
David Pryor at that time, came about as a result of frustrating 
efforts to try to improve the conditions on America's 
racetracks in order to better protect horses, protect jockeys, 
and also to protect the wagering public.
    What we had found is that the individual racing 
commissions, and in fact, all the racing organizations proved 
themselves pretty much incapable of getting together and 
formulating a workable plan that everybody could agree to.
    So the bill that was presented before Congress would have 
unified the drugging rule, established pre-race soundness 
examinations for horses, and introduced new measures to better 
protect and deter the use of illegal race-fixing drugs.
    The problem, of course, came about because, after the era 
when permissive medications were allowed, the number of 
catastrophic breakdowns had more than doubled as a result.
    Now, this makes perfectly good sense if you think about it. 
When we've got injured animals being given powerful painkilling 
drugs to enable them to continue racing and training on pre-
existing injuries, they go out and they simply compound the 
injuries. The legs get weaker, the joints get more and more 
cumulative damage, and eventually you suffer catastrophic 
breakdown.
    If you look at the period before permissive medication was 
allowed vs. afterwards, you see a severalfold increase in the 
number of horses suffering catastrophic injuries. That data is 
available, and I'd be happy to present it to the Committee.
    Right now we're talking about--and this has been something 
that for some bizarre reason, we have come to accept--death on 
the racetrack. When 25 horses a week--an estimated 25 horses a 
week--die on American racetracks, that is unbelievably 
catastrophic. And we sit back and say this is OK, equine 
athletes can die at this rate.
    If one human athlete died in a predictable rate, you know, 
one a month, we would call for a ban on that sport. We would 
automatically step forward and try to reform this to prevent 
such tragedies from occurring.
    But we have little regard for the equine athlete. And they 
can die at phenomenal rates.
    In fact, more than 25 a week die, because some of them limp 
back to the barns, and they're loaded into nice, fancy horse 
trailers, leave the racetrack, never to be heard from again. 
It's more than 25 a week--equine athletes are dying every 
single day all over America.
    In addition to that, there are these lads that are top of 
these horses, these jockeys that go down in these catastrophic 
spills. I was an expert witness in a wrongful death case at 
Pimlico, where the family of Robert Pineda brought suit against 
the Maryland Jockey Club, the Pimlico Race Track, and the 
trainer, the veterinarian, because a horse by the name of Easy 
Edith broke down. And thenseveral horses following Easy Edith 
ran into this horse, a jumble of horses, of human flesh and 
animal flesh, and Robert Pineda died.
    In that particular instance, the case was settled out of 
court. And the very next day, Maryland banned pre-race 
medication.
    It didn't last very long, but it was a step in the right 
direction, an attempt at trying to do something.
    Today, the number of illegal drugs and legal drugs is 
vastly increased over this situation that existed 30 years ago. 
And to speak somewhat to the point, how do we deter the use of 
these illegal substances that laboratories cannot test for 
today? The answer's very simple. Frozen samples.
    A lot of times chemists realize there's something in that 
drug sample. They just don't know what it is. If we required 
those samples, those suspicious samples, to be frozen and set 
aside until new testing methodologies were adopted, we would 
find out. And that would also create deterrent. If the people 
who are using drugs illegally knew that they could be caught a 
year down the road, or even 2 years down the road, it would 
provide a powerful deterrent.
    Now, this has happened in a couple of instances. I remember 
a case of 22 apomorphine positives that occurred one day down 
in Florida when they pulled some frozen samples out of a 
refrigerator and tested using this new test that had come up 
for apomorphine and, all of the sudden, bam, 22 positives in 
one day.
    That resulted in a prohibition against the laboratory 
storing frozen samples. The laboratory director was, in fact, 
fired a few years later.
    That was not the right response in that particular 
situation.
    One of the things that I find most offensive is the new 
terminology for soundness. There is soundness, which is a horse 
that is perfectly sound and not injured in any way. And there 
is racing soundness, which is the condition of the horse after 
we've given it pain-killing drugs and enabled it to pretend to 
be perfectly sound and go out on the racetrack and further 
injure itself.
    Thirty years ago, an attempt was made to forestall Federal 
intervention, and that brought the same groups who are on this 
panel and in this room together 30 years ago. And the 
perception, at that time, was that horse drugging was an image 
problem, and it needed to be dealt with as a PR and marketing 
problem, and, of course, people like myself who felt very much 
that it was a real problem.
    Senator Charles Mathias, who chaired the Judiciary 
Committee, put together a deal. We brokered a deal between The 
Jockey Club, the Humane Society, American Horse Council, a 
number of other major players, including the National 
Association of State Racing Commissions, the progenitor group 
to Racing Commissioners International.
    And we all agreed that the elements of the Federal 
legislation were going to be incorporated by the states. They 
were going to go forward with a no-drug ruleprohibiting all 
substances prior to a race. And so that deal, once brokered, 
ended the Federal legislation.
    Now, the sad truth was that I went, together with a couple 
of other colleagues, to about 20 racing commission meetings 
urging passage of the new uniform drug standard. The Jockey 
Club wasn't there. The HBPA didn't favor it. None of the racing 
organizations that pretend or say that they are in favor of a 
ban on race day medication really gave much effort.
    It was the HBPA, which testified in favor of continuing 
and, in fact, expanding permissive medication rules vs. me and 
a couple of colleagues. I am firmly of the belief that that 
process will continue if we allow this bill to end up in a 
negotiated settlement where the industry is, once again, after 
30, 40 years, given an opportunity to self-regulate.
    They are incapable of doing so, absolutely incapable of 
coming together for the common purpose of protecting horses, 
protecting the integrity of racing.
    The solution to this problem, Mr. Chairman, is before us. 
The solution is the Interstate Horseracing Improvement Act. We 
have to get this passed. It's a very modest proposal to create 
uniform drug rules and uniform penalties to improve the quality 
of laboratory testing that we need and to create a vehicle by 
which all of racing can clean up its image for the long-term.
    I applaud you for introducing this bill and I thank you 
very much.
    [The prepared statement of Mr. Paulhus follows:]

    Prepared Statement of Marc S. Paulhus, Former Director, Equine 
             Protection and Vice President, Humane Society
    My name is Marc Paulhus. I'm semi-retired and living on a small 
horse farm in North Carolina. During my professional career I served as 
Director of Horse Protection and Vice President for the Humane Society 
of the United States (HSUS). I also served on the governing board of 
the American Horse Protection Association. My degree is in Animal 
Science. The care and management of horses is my lifelong passion. I 
genuinely love the sport of horseracing.
    Deja vu all over again! I am here today as if delivered out of a 
deep freeze to continue a mission that commenced more than thirty years 
ago when I appeared before the Senate Judiciary Committee and first 
implored Congress to protect horses, jockeys and the wagering public. 
The vehicle then was the Corrupt Horse Racing Practices Act, a 
comprehensive racing reform bill sponsored by Senator David Pryor. It 
came about after years of failed efforts to persuade state racing 
commissions to end their dangerous experiment with permissive pre-race 
medications and restore some semblance of sanity, integrity and safety 
to the sport.
    So in 1982, I appeared along with colleagues from the American 
Horse Protection Association and reformists from within the racing 
industry urging the Federal Government to step forward and do what the 
individual racing states had proven to be incapable of doing. The 
legislation proposed that the Federal Government adopt and enforce 
uniform rules and uniform penalties, enhanced drug testing 
methodologies, pre-race soundness examinations and measures to better 
deter the use of illegal race-fixing drugs.
    We asked that Congress intervene because the widespread 
legalization of pre-race medications allowed sore and injured horses to 
return prematurely to rigorous training and racing, compounding their 
injuries before they had healed, and more than doubling the rate of 
catastrophic breakdowns. Action was desperately needed because 
horseracing had become the single, most dangerous sport in America with 
horses snapping legs and dying nearly every day before horrified fans 
on racetracks across America. Hundreds died annually right on the track 
but many more horses hobbled back to the barn after workouts or races 
with crippling injuries and debilitating arthritis that ended their 
brief racing careers and sent them to slaughter.
    We begged Congress to act because jockeys were being seriously hurt 
and sometimes killed in single accidents or multiple horse pile-ups 
when a leading horse shattered a foreleg and caused those behind it to 
crash in a jumble of human and animal flesh.
    The Corrupt Horse Racing Practices Act was an appropriate response 
to a crisis that had already claimed too many lives and threatened to 
escalate even further out of control as horse trainers and track 
veterinarians demanded ever more powerful pain-killing drugs, 
corticosteroids, anabolic steroids, diuretics and more. New terminology 
emerged on the backstretch. A horse limping from injuries a day or two 
earlier could be deemed ``racing sound'' after a potent dose of bute or 
a steroid injection directly into a knee joint. Illegal substances, 
always a temptation for the unscrupulous trainer looking for an edge, 
had become ever more sophisticated and difficult to detect. State 
testing laboratories were and are underfunded and ill-equipped to find 
the newest designer drugs or enforce quantitative limits on permissive 
medication. Penalties imposed for the few drug positives actually 
discovered were insignificant to deter future violations.
    The Corrupt Horse Racing Practices Act galvanized the racing 
industry and created a commonality of purpose where none had previously 
existed. All of a sudden, there was recognition of the threat of 
Federal legislation if the industry failed to adequately self-regulate. 
Mind you there was not an industry-wide commitment to solve the drug 
problem. Instead there was a realization that racing had a bad image 
that begged a coordinated lobbying and PR campaign to improve its 
appearance. And those in power in state regulatory bodies and industry 
associations were absolutely determined not to cede any measure of 
control to a new oversight entity.
    Industry alliances were formed, promises were made, a strategy to 
forestall Federal intervention was developed. In the end, Senator 
Charles Mathias, Chair of the Senate Judiciary Committee, brokered a 
deal between all major stakeholders including the Jockey Club, the 
National Association of State Racing Commissioners, the American Horse 
Council, the American Association of Equine Practitioners and The 
Humane Society of the United States, et al. The deal was simple. The 
state regulators and the scions of racing would be given a final chance 
to prevent Federal intervention. But they had to act quickly, they had 
to demonstrate a resolve to work together and better protect the 
horses, jockeys and the wagering public. Senator Mathias warned that 
failure would leave no reasonable option but to place horse racing 
under the direct oversight of the Federal Government. That was thirty 
years ago.
    The issues then were quite the same as the issues are now--only 
today things have gotten so much worse because, despite many years of 
empty promises and seemingly endless analyses, state racing 
jurisdictions have failed to put the safety of the horse and rider 
above petty intramural squabbling and self-interest. They can't agree 
on an industry solution to the medication and drug abuse problem. The 
protective elements of the Federal bill were never adopted by the 
states. Efforts to enact and enforce a strict uniform medication policy 
prohibiting race-day painkillers were short lived and fell apart as one 
racing jurisdiction after another strayed from the uniform policy soon 
after Federal pressure subsided.
    What you will hear from the various leaders in the racing industry 
is that they absolutely agree that there is a ``perception of drug 
abuse'' but that the issue is blown out of proportion. They will tell 
you that their state regulatory mechanisms are working, but they need 
more time and money and perhaps some Federal stimulus dollars. They'll 
tell you they have a plan to phase in reforms over several years so 
that trainers can adjust to the new and stricter rules. They'll say 
that the racing labs will be better funded, ISO accredited, and have to 
meet higher standards of competency with a quality assurance program. 
Some might even believe what they hear and what they say at industry 
conferences and roundtable panels. But for those of us who have been 
around a few years, and heard all this stuff again and again without 
any substantial action over time, it all sounds like a bunch of horse 
manure.
    The truth is that over decades of declining regard for the health 
and safety of racehorses, the industry had come to accept what to 
outsiders remains an unconscionable outrage. The fact that horses are 
dying on American racetracks in record numbers is common knowledge. The 
New York Times reports that an average 24 horses per week die on 
racetracks as a direct result of racing injuries. In any human sport, 
if even one athlete died at predictable intervals, there would be an 
enormous demand that the sport be made safer or the activity ended. Why 
does the racing industry have such callous disregard for the lives of 
these magnificent equine athletes?
    What the racing industry will never admit is that the weekly death 
rate of horses is at least triple the number acknowledged. The vast 
majority of horses injured in training workouts, or horses that are 
pulled up lame before the end of the race, or horses condemned when 
another joint injection simply won't render them ``racing sound'' any 
longer are also horses that are slated to die. They may leave the 
racetrack in a fancy horse van, but you will never hear of them again.
    We can do better. We can save the horses and we can save the racing 
industry, but only if we quit pandering to those who make hollow 
promises of reforms to come. They lack the will and the authority to 
pull it off, and they most certainly lack the determination to 
persevere beyond this immediate threat of Federal intervention.
    Mr. Chairman, let me say that I support all provisions of the 
proposed legislation and I'd be happy to answer any questions you or 
members of the Committee might have to the best of my ability. I would 
definitely recommend requiring the retention of frozen test samples 
that are deemed suspicious by the testing laboratories to enable 
samples to be retested as chemists develop new testing methodologies.
    The solution to racing's image problem is genuine action. The 
solution is Federal intervention. The solution is the Interstate Horse 
Racing Improvement Act.

    Senator Udall. Thank you.
    Mr. Martin?

 STATEMENT OF EDWARD J. MARTIN, PRESIDENT AND CEO, ASSOCIATION 
             OF RACING COMMISSIONERS INTERNATIONAL

    Mr. Martin. Thank you, Senator. I know I've only got 5 
minutes, and if I talk a little fast, I apologize, because 
there's so much to say on this.
    We very much appreciate your interest and the interest of 
this committee, and I think there's general agreement. What 
we're trying to do is we're trying to strengthen the policing 
of racing to better protect our horses and to better protect 
our fans.
    First, let me say that there are drugs in racing in the 
same way there are drugs in humans. Pharmaceutical advancements 
have made treatments possible to address pretty much whatever 
ails us, and it's the same for our animals.
    This is a challenge. Unlike other sports like the Olympics, 
horseracing does not allow participants to compete with 
performance enhancing drugs in their system. There is an 
exception for furosemide. It mitigates the severity of EIPH and 
is regarded by the American Association of Equine Practitioners 
as a good thing for the horse.
    Furosemide can affect performance, and that's why State 
regulators require its use be disclosed and printed in the 
program for the world to see. EIPH is the only condition where 
an exception has been made for race day treatment. And we're in 
the process of reassessing that, to see if there are other 
potential side effects that ought to be considered in whether 
or not we should continue that policy.
    Racing does not allow therapeutics to be in a horse at 
levels that could affect performance, and we do not have a back 
door to enable people to use prohibitive substances like the 
Olympics does.
    They have something called a therapeutic use exemption. 
Now, a lot of people don't know about it because those athletes 
who get it are not disclosed, as they are allowed to compete 
under the influence of prohibited substances.
    We don't allow anything like that in a horserace. We don't 
allow a horse to have an exemption for stimulants, narcotics, 
corticosteroids, hormones, or any of these other things these 
Olympians quietly request exemptions for. Nobody knows about 
that because it's all kept private.
    It doesn't work that way in horseracing. The States do not 
allow performance enhancing therapeutics that nobody knows 
about to be in a horse when it races. And when we find them, 
the trainer is sanctioned.
    It's not a horse doping. It may not even be an attempt to 
cheat, but it is a violation.
    We will argue that horseracing has the most aggressive drug 
testing program of any professional sport. We test for more 
substances at deeper levels than anybody else.
    Of the 320,000-plus biological samples taken from racing 
horses in 2010, 99.5 percent of those were found to have 
contained no foreign or prohibited substances. And when 
something is found, it's usually a legal therapeutic.
    On repeat offenders, how big a problem is it? Well, from 
2000 through 2010, there were 37,382 individuals licensed as 
horse trainers. During those 11 years, there were 47 who had 
had three or more class 1 or 2 violations. That's less than \1/
10\ of 1 percent.
    It's a problem, but it's a small percentage. If you throw 
in class 3 violations, it's still only \1/2\ of 1 percent.
    Now, I think we can agree that there shouldn't be any. 
Every sport has its scoundrels, and they seem to not go away 
sometimes, like Donte Stallworth of the Washington Redskins 
drove drunk and killed a guy. He served 24 days and everyone 
here in D.C. was cheering him when he caught that touchdown 
pass to put the game with Dallas into OT last year.
    The NBA's got them, the NHL, now maybe even cycling with 
Lance Armstrong, and racing has some, too.
    In those 11 years I cited, only 1 percent of all trainers 
had a violation that could be described as a horse doping. Talk 
to anybody in racing and they will say, and we hear a lot of it 
today, we need uniformity. Well, we're all for it. We agree 
with that.
    But uniformity is not going to stop people from trying to 
use new and exotic substances. It's not going to do anything 
about drug money laundering that's been found to occur in the 
unregulated breeding and horse sale industry. And uniformity is 
not going to fund needed investigators or research to develop 
tests for emerging drugs.
    Uniformity may make it easier for honest people to avoid 
tripping a wire and getting a violation, and that's a good 
thing.
    To really protect our horses and those who ride them, it 
might be a good idea to provide more oversight about what is 
going on with these animals leading up to a race, specifically 
the ailments they have, how they are treated, and whether it's 
all appropriate.
    The racing commissions, for the most part, do not have 
jurisdiction over the practice of veterinary medicine. It might 
be a good idea to expand the jurisdiction of the racing 
commissions and give them the resources to do this and to do it 
right.
    With regard to the proposal that's pending before the 
Committee, first we note that the determination of equine 
medication policy is proposed to be put in the hands of the 
Federal Trade Commission. It's an agency whose public affairs 
office has noted to us that there are no veterinarians on-
staff. That would be a major departure from the extensive 
involvement with the veterinary and pharmacological community 
that's involved with development of State rules.
    Second, there's no meaningful funding mechanism for the FTC 
to assume the responsibilities that are envisioned for them.
    And, last, the bill's ``three strikes, you're out'' 
approach applies to all medication rule violations regardless 
of the ability to affect performance.
    Just as one would not remove a driver's license for three 
parking tickets, we would urge that you reconsider that 
language. When I met with your staff in 2011, I was informed 
that you'd like to assist the racing commissions in what 
they're doing.
    We very much appreciate that. To do so, we encourage 
reforms that will generate resources to dedicate investigative 
boots on the ground, ensure the best testing, and support the 
never-ending need for research into new and exotic substances 
that's been articulated by other witnesses today.
    We also encourage proposals to provide dedicated assistance 
from the DEA, the FBI, the FDA, and the DOJ. When a state 
racing commission needs help dealing with substances coming 
across the border or a drug compounding lab generating illegal 
substances that are ending up on the backstretch, it would be 
helpful if these Federal agencies would provide timely 
assistance.
    The states have considerable experience in regulating this 
sport. Certainly, the recent detection of a new substance, 
dermorphin, is indicative of the current system working. But 
after dermorphin, there's going to be something else, 
unfortunately. There always is.
    That challenge will remain, regardless of whether the 
proposed legislation becomes law. Drugs in racing, just like 
drugs in our schools, will not go away without vigilant 
investigation and detection.
    The bill that has been proposed does not deliver the 
resources for that. And in failing to do that, it does not 
address, in my opinion, the problem or the need.
    There are a lot of things that have been said by various 
witnesses here today, Senator, that I'm very much in agreement 
with. And I think that we are certainly willing to try--the 
partnership is between the states and the Federal Government if 
the Federal Government decides to get into this.
    A lot of people talk about the industry making promises. 
I'm not sure the industry can deliver on those promises.
    The state regulators can do what they can do with the funds 
and the resources they have available to them.
    It's kind of like you can only drive the car with as much 
fuel as you have in the tank.
    I appreciate the opportunity to be here. Thank you.
    [The prepared statement of Mr. Martin follows:]

      Prepared Statement of Edward J. Martin, President and CEO, 
           Association of Racing Commissioners International
    Senator Udall, thank you for holding this meeting to examine issues 
surrounding your proposal, Senate Bill 886, and for giving me the 
opportunity to participate.
    The Association of Racing Commissioners International (RCI) is a 
not-for-profit trade association of the government regulators of horse 
and greyhound racing and all associated pari-mutuel wagering. Our 
members include Federal regulatory entities in Canada, Mexico, and 
throughout the Caribbean as well as most state racing commissions in 
the United States and the Mobile County Racing Commission in Alabama.
    RCI works to develop model rules, drug classifications, testing 
laboratory standards, and wagering system technology standards. We also 
provide limited data management and information services to our 
members. Some states, like California, have legislatively incorporated 
by reference portions of the RCI Model Rules into their statutes.
    Horse racing and its associated gambling have historically been 
regulated by the States. Collectively, those states fund and conduct 
the most aggressive drug testing program of any professional sport, 
testing for more substances at deeper levels than anyone else.
    Yes, there are people who cheat--just like in any enterprise. 
Thankfully they are the minority, although the actions of a few can be 
misinterpreted as representative of an entire sport or industry.
    That, I fear is what has happened to racing.
    State racing commissions focus on maintaining a level playing field 
in the race. Even the current policy concerning raceday furosemide 
permits its almost ubiquitous use under controlled circumstances to 
ensure that no one horse is given an unfair advantage over another.
    That is not to say that the overuse of certain medications cannot 
be interpreted as an attempt to cheat--or worse yet--to mask a 
condition that should preclude a horse from participating in a race. 
This is where I believe public policymakers need to focus.
    The substances contained in a horse on raceday are within the 
purview of the racing commissions. In 2010, 320,179 biological samples 
were taken from racing horses and sent to the various laboratories to 
be tested. 99.5 percent of those samples were found to contain no 
foreign or prohibited substance.
    In those relatively rare instances when a violation of a medication 
rule did occur, most were associated with a legal substance 
administered in the normal course of equine care by a licensed 
veterinarian.
    State racing commissions do not have jurisdiction over the practice 
of veterinary medicine. As such, most are not empowered or resourced to 
assess the propriety of veterinary care and treatments given to horses 
in training, particularly those training away from the physical 
locations under the jurisdiction of the racing commission. That 
responsibility often rests with other state entities.
    At the RCI Annual Meeting in Oklahoma City in April, I proposed 
that the jurisdiction of racing commissions be expanded and resources 
provided so there can be a qualified review of treatments given to 
horses. If commissions had the ability to call into question an 
individual's license to practice veterinary medicine in the same way a 
State Veterinary Board can, those who might facilitate the abuse of a 
medication to enable a horse to run that should not be running might 
think twice.
    Racing commissions can take away the racing license, but there is 
nothing preventing a racehorse from being treated by a vet without a 
racing license away from the grounds of the racetrack. The ability to 
take or suspend the vet license could be quite a deterrent.
    There has been much talk about the need for uniformity. While 
uniformity is certainly desirable and RCI will continue to advocate for 
it, I must clearly say that it is not the major challenge facing the 
integrity of racing.
    We certainly understand the temptation to set uniform national 
standards. But we must clearly understand that in so doing nothing will 
be done to address the real need to commit additional resources to 
racing investigations, surveillance, research and testing development.
    Nor will such standards deal with the infiltration into the horse 
breeding business and sales arenas by those connected to the Mexican 
drug cartels as has been recently revealed. The breeding industry and 
associated horse sales do not fall under the jurisdiction of the state 
racing commissions. Given the recent developments concerning the drug 
cartel, this may be an area this committee may want to focus on.
    As the Members of this Committee know well, government finances at 
all levels have been ``challenged'' in these economic times. When I met 
with your staff in 2011, I was informed that you would like to assist 
the racing commissions in what they are doing. We sincerely appreciate 
this.
    To do so, we encourage reforms that will generate funding to 
dedicate investigative ``boots on the ground'', ensure the best 
testing, and support the never-ending need for research necessary to 
detect and confirm the use of new and exotic substances.
    We also encourage proposals to provide dedicated assistance to 
state racing commissions from the DEA, FBI, FDA and DOJ. When a state 
racing commission needs Federal assistance dealing with substances 
coming across the border, or a drug compounding lab generating illegal 
substances that work their way to the racetrack, it would be helpful if 
the Federal agencies empowered to deal with these areas would provide 
timely and aggressive assistance through a dedicated office or unit 
responsible for coordinating these matters with the racing commissions.
    For the better part of the past year two state racing commissions 
quietly assisted the Federal efforts that resulted in the recent 
charges brought against Jose Morales involving the laundering of money 
in Quarter Horse racing. It would be good if the Federal Government 
could reciprocate and pick up the ball when a matter within your 
jurisdiction is brought to you by a state racing commission because it 
impacts things going on in racing.
    As one who managed a state racing commission for 9 years of my 
life, I can report that while trying to stay ahead of those who would 
dope a horse is a never-ending challenge, it is not the only one. In 
New York we investigated and broke the case of the computer hackers who 
compromised the wagering system to turn losing tickets into winning 
tickets. We also launched the investigation that resulted in the New 
York Racing Association having to stand in front of a Federal judge and 
admit to a conspiracy to defraud the government.
    We know this committee will consider the proposal that has been 
embodied in S. 886. While RCI has not yet taken a position on this 
proposal, I must note that we do believe the creation of an Interstate 
Racing Regulatory Compact would be the preferred path to avoid 
government redundancy and associated cost that could result from 
creation or expansion of a Federal agency.
    We believe a compact would advance uniformity by creating a new way 
for state racing commissions to promulgate rules and implement and fund 
regulatory programs. In conjunction with the Council of State 
Governments, RCI has developed recommended state legislation creating 
such a compact. This proposal has received the endorsement of the 
National Council of Legislators from Gaming States, The Jockey Club 
(US), the National HBPA, and the American Association of Equine 
Practitioners. As you know, entry to such a compact can only be 
authorized by state statute. The Commonwealth of Kentucky has passed 
this legislation and statutes enacted in Colorado and Virginia have 
authorized their racing commissions to enter into such a compact once 
created. Five additional states need to enact this legislation before 
the Compact can be created. We have been asked if Congress could 
require or encourage the states to create a compact. We refer that 
question to you.
    Having said this, I would like to make some specific observations 
about the proposal before this committee, S. 886 and ask that you 
consider them before moving forward:

        1. First, we have received questions as to why the 
        determination of equine medication policy in racing is proposed 
        to be assigned to the Federal Trade Commission (FTC).

        State regulators currently rely on the Racing Medication and 
        Testing Consortium, the RCI Regulatory Veterinarian Committee, 
        input from the American Association of Equine Practitioners, 
        and the Veterinary Pharmacology Subcommittee of the RCI Drug 
        Testing Standards and Practices Committee before adopting a 
        public policy that affects the health and wellbeing of racing 
        equines. The FTC traditionally does not handle matters like 
        this. Perhaps the RCI Model Rules could be incorporated by 
        reference if your goal is uniformity of medication policy.

        2. Second, S. 886 outlaws the current raceday use of 
        furosemide, a legal medication intended to mitigate exercise 
        induced pulmonary hemorrhage (EIPH). The current policy, 
        enacted on concerns of equine welfare, was implemented 
        approximately twenty years ago. RCI has opened a reassessment 
        of the issue to determine if the public policy exemption that 
        exists allowing a raceday administration to treat EIPH should 
        continue. The RCI Regulatory Veterinarian Committee is 
        currently assessing issues pertaining to changes in body weight 
        and electrolyte balance resulting from a furosemide 
        administration to determine if there are any adverse effects 
        that might also need to be balanced with concerns over EIPH. 
        The challenge for policymakers, be they state or Federal, must 
        be to make an informed decision on this issue that can be 
        scientifically justified. We appreciate being here with Dr. 
        Lyons. I do note that there are other equally qualified 
        opinions from the veterinary community on this topic who are 
        not here. State regulators are attempting to sort this issue 
        out. In general we do not like the idea of any medication being 
        given a horse on race day. But we must be careful that any 
        public policy change does not adversely affect the health of a 
        generation of horses now racing. S. 886 proposes to decide this 
        issue and we request that your staff share with us any reports 
        the sponsors have based their decision on that have assessed 
        the various research projects that have been done in this area. 
        Perhaps we have yet to see what you have seen.

        There are strong positions on all sides of this issue but we 
        note that there is no requirement that a horse run in a race on 
        furosemide. Later this month, the RCI model rules committee 
        will consider a modification of our Model Rules that would 
        facilitate the creation of lasix-free racing opportunities for 
        those owners who do not believe in its use yet use it anyway.

        3. Third, S. 886 does not contain a sufficient funding 
        mechanism for the FTC to assume the responsibilities you assign 
        to them. In Canada, the Federal agency tasked with the 
        determination and enforcement of racing medication policy and 
        drug testing is the Canadian Pari-Mutuel Agency (CPMA). That 
        agency is funded by an assessment on wagering handle.

        4. Finally, RCI agrees that the current penalty structure 
        should be more progressive than it is now. We are currently 
        working with the Racing Medication and Testing Consortium and 
        the U.S. Jockey Club to reform penalty recommendations to the 
        commissions. S. 886 deploys a ``three strikes, you're out'' 
        approach to all medication rule violations, regardless of 
        whether the medication has any significant ability to affect 
        the performance of a horse. Just as one would not remove a 
        driver's license for three parking tickets, we urge you to 
        reconsider this aspect of S. 886 to differentiate between 
        relatively minor rule violations involving legal substances 
        that are normal for equine care and those that have no business 
        being in a horse, let alone a race horse.

    We welcome this review by the Commerce Committee. This is an issue 
we believe is not adequately understood by racing fans and the general 
public.
    We caution the Committee that these are not simple issues. The 
States have considerable experience in this matter and although you may 
disagree with how a particular issue is handled, the states have worked 
diligently for a long time to balance the health needs of our horses 
and riders, provide an equal playing field necessary for participants 
and fans, and to keep up with and catch those who cheat. Certainly the 
recent detection of a new substance, dermorphin, is indicative of the 
current system working. But after dermorphin there will be something 
else. There always is.
    Thank you for the opportunity to be part of today's discussion.

    Senator Udall. Thank you very much for your testimony.
    Dr. Lyons, please proceed.

          STATEMENT OF SHEILA LYONS, DVM, FOUNDER AND

          DIRECTOR, THE AMERICAN COLLEGE OF VETERINARY

               SPORTS MEDICINE AND REHABILITATION

    Dr. Lyons. Thank you, Chairman Udall, for allowing me to 
testify today. I ask that my full written remarks be included 
in the hearing record.
    If I could be permitted, I would appreciate an opportunity 
to speak to some of the specific points that I've heard in 
testimony earlier today.
    My name is Sheila Lyons, and I'm a veterinarian who 
specializes in equine sports medicine and physical medicine and 
rehabilitation. My private veterinary consulting practice is 
both national and international in scope, which provides me 
with a view of the horseracing industry and the veterinary 
profession that includes distinct regulatory jurisdictions.
    I'm the Founder of the American College of Veterinary 
Sports Medicine and Rehabilitation, and am a Member of the 
American Academy of Physical Medicine and Rehabilitation. My 
patients have included some of the world's best racehorses, but 
I have regularly provided veterinary services to horses at 
every level of this sport for nearly 30 years.
    I see this review of the standards and practice in the 
horseracing industry and for the veterinary profession as 
having lifesaving potential for the horses and riders, and for 
the industry itself. We need this legislation to compel 
compliance with veterinary board regulations.
    The key to understanding the effect of drugs on these 
animals, and the key to answering important questions about 
responsible drug use in horseracing safety and integrity, has 
escaped many recent discussions. It is the context in which a 
drug is used that determines its fate as either appropriate 
therapy or to enable recovery, or is injury-masking and a 
performance enhancing agent.
    The unique authority and privilege that veterinarians have 
to administer, prescribe, and dispense drugs is granted not 
through racing commissions, but through veterinary boards.
    Once licensed, veterinarians are required to strictly 
adhere to the standards of practice that regulate our 
profession. We are required to keep comprehensive patient 
records, which demonstrate adherence to these strictly defined 
standards of practice for each dose of every drug. And we must 
make these records available to our clients upon request.
    But this is not what is happening at these racetracks. And 
this is the real drug problem that underlies the intolerable 
rate of permanent injury and death of racehorses and their 
riders.
    To illustrate this betrayal of standards and practice, 
about 10 years ago, I provided expert witness testimony for a 
state attorney general's office in a case that began with DEA 
violations for a few racetrack veterinarians who had failed to 
maintain proper drug inventory, patient records, and storage 
conditions for controlled substances.
    The veterinarians, in their interview the DEA, reportedly 
defended their suspiciously large purchase history for the 
controlled drug by declaring: racetrack vets are simply drug 
whores for the trainers.
    The asserted that they were not required to have a 
veterinarian-patient relationship, a working diagnosis or a 
record of physical examination, and they stated that they only 
needed to abide by racing industry regulations, because their 
patients were racehorses. They were wrong.
    What followed was a reaction of the racing industry to look 
at the issue. In California, within weeks of the decision, an 
industry association led by a racetrack veterinarian introduced 
legislation proposing that sports horses and their 
veterinarians be exempt from the requirement for meeting these 
strict standards of practice regarding the administration and 
prescription of drugs. Fortunately, it was defeated.
    What this showed is that some of the real clout when it 
comes to getting rid of the illegal, non-therapeutic, use of 
drugs in racehorses lies in the agency that conditionally 
grants licensed veterinarians the authority to prescribe, 
dispense, and administer drugs to horses in the first place.
    If the regulations are enforced by these state veterinary 
boards, we could end all discussion about drugs in sport 
horses, as it would be moot because it could not occur.
    I was disappointed when at the conclusion of your hearing 
in 2008, in response to a final question from a committee 
member, not one member of the panel placed the responsibility 
on the only participant who has the authority to provide the 
drugs in the first place. It is strictly the veterinarian who 
is absolutely and solely responsible. We can say no.
    Instead of abiding by the standards and practice, we have a 
situation where veterinarians and horsemen look to the limits 
set by racing commissions for drug levels and dosing schedules 
as permission to administer them non-herapeutically, and 
outside of the standards and practice that regulate the 
veterinary profession as long as they do not exceed those 
limits.
    Conducting a thorough physical examination of a patient, 
keeping comprehensive medical records in accordance with State 
licensing regulations, having a working diagnosis that must be 
supported by those examination findings, recording a 
therapeutic plan, and reassessing the patient to determine the 
success or failure of these treatments while under a 
veterinarian's care, should all be enforced.
    If these horses are acutely unwell and in need of drug 
therapy, then on this basis alone, they should not be allowed 
to race. And if they are not unwell, they cannot be given 
medication under the law which regulates my profession. Race 
horse is not a diagnosis. And a veterinarian must meet a higher 
standard of care in practice before administering medication.
    I believe that if your committee expands its review to 
include the government oversight that licensing boards are 
designed to provide, it will find a partner in the power it 
seeks to end this practice by enforcing the regulation that 
govern veterinary professions and change the industry as it 
must.
    For over 2 decades, I have provided free veterinary care to 
retired horses that end up in shelters after their racing 
careers are over. And if anyone has any doubt about the long-
term consequences of this non-therapeutic, indiscriminate, 
reckless, and illegal use of drugs in racehorses, I can provide 
records to prove that the evidence is overwhelming that these 
horses are systematically and permanently harmed. And these are 
the lucky one that were not shuttled off to slaughter.
    The solution for these problems is in this legislation. It 
provides the framework for uniform rules and penalties. It 
achieves better compliance and enhanced testing. It reinforces 
the existing regulation of veterinary practice by boards of 
veterinary medicine.
    One suggestion that I have is that we need to require the 
submission in real-time of all veterinary records for horses 
that are attended to in racing jurisdictions. The only way that 
we will know, not only what drugs they received, but whether or 
not these horses had received the necessary physical 
examination, whether or not it's truly therapeutic or injury-
masking, is if we keep all these records on every single horse 
that is licensed as a racehorse in this country.
    It's very easy today to keep a database that can follow 
these horses. And we have to remember that horseracing today is 
a national sport for each individual horse. It's rare today to 
have a horse that races only in one state.
    So this legislation, in my opinion, would provide the 
critical structure for enforcing the standards and practice, 
and so that we can be sure that only appropriate veterinary 
attention in drug use is used.
    And I also fully support that there should be absolutely no 
drugs in effect in that horse's body when it races.
    Thank you.
    [The prepared statement of Dr. Lyons follows:]

  Prepared Statement of Sheila Lyons, DVM, Founder and Director, The 
   American College of Veterinary Sports Medicine and Rehabilitation
    Thank you Chairman Rockefeller, Ranking Member Hutchinson, and 
members of the Committee for allowing me to testify today. I ask that 
my full written remarks be included in the hearing record.
    My name is Sheila Lyons and I am a veterinarian who specializes in 
equine sports medicine and physical medicine and rehabilitation. My 
private veterinary consulting practice is both national and 
international in scope which provides me with a view of the horse 
racing industry and the veterinary profession that includes many 
distinct regulatory jurisdictions. I am the founder of the American 
College of Veterinary Sports Medicine and Rehabilitation, a member of 
The American Academy of Physical Medicine and Rehabilitation, and a 
member of the International Federation of Sports Medicine. My patients 
have included some of the world's best racehorses but I have regularly 
provided veterinary services to horses at every level of this sport for 
nearly thirty years.
    I want to thank Senator Udall and Congressman Whitfield for 
responding to the concerns of the American people regarding horse 
racing safety and integrity. I fully support this legislation and its 
attachment of the condition of drug-free horse racing to the existing 
Interstate Horseracing Act. The Interstate Horseracing Improvement Act 
will save the lives of horses and riders and also protect them from 
permanent injury sustained during both training and racing. This no-
drug rule will promote the public's confidence and the interests of 
ethics and integrity by insisting that the safety of horses and riders 
is paramount in this multibillion dollar Pari-Mutuel industry.
    My experience as a veterinary consultant in other countries reveals 
that when drug use is prohibited during racing, drug abuse also 
declines during training. When drugs cannot be used to mask injury on 
race day it disincentivizes the training of unsound horses. This is in 
contrast to our current system where the recklessly permissive use of 
drugs has encouraged horsemen to drug-to-train and then drug-to-race. 
We need this legislation to end the prevalent injury-masking and 
performance-enhancing drugging of horses because the horse racing 
industry has demonstrated an inability or unwillingness to regulate 
itself. In addition, state veterinary boards often lack the resources, 
mechanisms or will to intervene in areas that come under the 
jurisdiction of horse racing regulators.
    As a veterinarian with broad interest in policies affecting 
racehorse safety, I have witnessed this prolonged drugging debate for 
more than three decades. But these issues are more than academic for me 
as I continuously confront the entrenched racehorse drugging culture on 
behalf of each and every one of my racing patients. Some of the 
questions that have been debated and discussed by horse owners, 
trainers and state racing commissions but obfuscated by vested 
interests for many years include--Is this or that particular drug 
performance-enhancing? What drugs--individually or in combinations--are 
really being used in these horses? Is that one safe at the current 
dosages permitted by racing commissions? What are the risks associated 
with a particular drug or other therapy? Is any drug's use humane? What 
we haven't heard from the horse racing authorities are any realistic 
guiding principles to understanding the effect of drugs on these 
animals which would help to answer these questions about responsible 
drug use and horse racing safety and integrity. Here is one principle I 
would like to offer: It is the context in which a drug is administered 
that determines its fate as either appropriate therapy to enable 
recovery or as an injury-masking or performance-enhancing agent.
    The unique authority and privilege that veterinarians have to 
administer, prescribe and dispense drugs is granted not through racing 
commissions but through licensure by state veterinary boards. Once 
licensed, veterinarians are required by law to strictly adhere to the 
standards of practice that regulate our profession. There are no 
exemptions for veterinarians who work with racehorses. We are required 
by law to keep comprehensive patient records which document adherence 
to these strictly defined standards of practice for every patient, and 
for each dose of every drug. We must also make these records available 
to our clients upon request. But this is not what is happening at these 
race tracks. And this is the real drug problem that underlies the 
intolerable rate of permanent injury and death of racehorses and their 
riders.
    As a pre-veterinary student and throughout veterinary school at 
Tufts I worked at a racetrack in Boston for a veterinarian who had the 
largest practice there. It was my job to stay with his car and take 
drug orders all morning from the horsemen while dispensing medications 
at the trainer's request. The only requests that were to be denied were 
those from clients who had not paid their bills. Then I spent the day 
filling syringes with the requested drugs, I would find the right horse 
and hand the veterinarian the syringes. I had to tell him what was in 
them so that he would know if they had to be injected into the horse's 
muscle or the vein. This colleague later became the president of the 
American Association of Equine Practitioners (``AAEP'') which is the 
largest trade association for equine veterinarians in the world. Of 
historical significance is the fact that this association originally 
formed when a small number of horse racing veterinarians got together 
specifically to provide a united veterinary response to assuage public 
concern about the welfare of horses in racing. The more things change, 
the more they remain the same. This practice of veterinarians 
administering drugs per order of the trainer is still the prevalent 
standard at race tracks in this country.
    In another example which evidences the prevalence of this practice, 
about 10 years ago I provided expert witness testimony for a state 
attorney general's office in a case that began with DEA violations for 
a few race track veterinarians who had failed to maintain proper drug 
inventory, patient records and storage conditions for controlled 
substances. The veterinarians, in their interview with the DEA, 
reportedly defended their suspicious purchase history for the 
controlled drug, by declaring that ``Race track vets are simply drug 
whores for the trainers.'' Contrary to the oath they took as 
veterinarians, they asserted that they were not required to have a 
veterinarian-client-patient relationship, a working diagnosis or a 
record of physical examination and they stated that they only needed to 
abide by racing industry regulations because their patients were race 
horses. They were wrong.
    I was the only veterinarian with expertise in equine sports 
medicine willing to testify on behalf of the Attorney General's 
prosecutor and the State Veterinary Board. I tried to get colleagues to 
help but despite agreeing with the seriousness of the violations of 
standards of practice, not one would publicly take the only 
professionally defensible position because they would not speak out 
against the racing industry's wishes and the veterinary profession's 
commercial interests. Each colleague warned that by doing so I would 
invite professional and political difficulties for myself. What 
followed was a reaction of the racing industry to ``look at the 
issue''. In California, shortly after the decision, an industry 
association led by a race track veterinarian introduced legislation 
proposing that sport horses and their veterinarians be exempted from 
this requirement for meeting the strict standards of practice regarding 
the administration and prescription of drugs. Fortunately it failed. 
What this showed is that some real clout when it comes to getting rid 
of illegal anti-therapeutic and indiscriminate use of drugs in 
racehorses lies in the agency that conditionally grants licensed 
veterinarians the authority to prescribe, dispense and administer drugs 
to horses in the first place. If the regulations are enforced by these 
state veterinary licensing boards, we could end all discussion about 
drugs and racehorses as it would be moot because it could not occur.
    Conducting a thorough physical examination of a patient; keeping 
comprehensive medical records in accordance with state veterinary 
licensing regulations; having a working diagnosis that must be 
supported by examination findings; recording a therapeutic plan; and 
reassessing the patient to determine the success or failure of these 
treatments while under a veterinarian's care should all be enforced. 
And if horses are unwell and in need of drug therapy, then on this 
basis alone, they should not be allowed to race. If they are well, they 
cannot be given medication under the law which regulates my profession. 
``Racehorse'' is not a diagnosis, and a veterinarian must meet a higher 
standard of care in practice before administering medication.
    I once proposed, in a devil's advocacy position, that if at race 
tracks the veterinary profession wishes to waive the condition of 
necessitating the veterinarian-client-patient relationship then we 
should simply designate veterinary technicians to administer drugs at 
the trainers' request and stay out of this non-medical practice, and of 
course, not benefit financially from this ``business''. My colleagues 
disagreed.
    I was disappointed when at the conclusion of your hearing in 2008, 
in response to a final question from a Committee Member, not one member 
of the panel placed the responsibility on the only participant who has 
the authority to provide the drugs in the first place--it is strictly 
the veterinarian who is absolutely and solely responsible. We can say 
no.
    I believe that the Interstate Horseracing Improvement Act will 
support the authority and government oversight that state veterinary 
licensing boards are in place to provide. The solution to ending the 
current industry practice of illegal and indiscriminate drugging of 
racehorses by trainer request is already available through the 
enforcement of regulations that govern the practice of veterinary 
medicine. This legislation provides the essential key to returning the 
absolute authority over the regulation of the practice of veterinary 
medicine squarely back with each state veterinary board by banning all 
drugs during racing and through its condition of uniform and effective 
enforcement through impactful penalties for violators of the no-drug 
rules. In so doing, the current illusion that racing commissions have 
any say whatsoever regarding which drugs a veterinarian may administer 
to a patient will be removed along with any confusion about which 
regulatory authority is in charge. The state veterinary boards will re-
emerge as the effective and sole authorities and regulators over the 
practice of veterinary medicine in each state. These professional 
licensing boards already have Veterinary Practice Acts which clearly 
define and describe the standards of practice. Through their 
enforcement authority over veterinary licensees these state boards will 
ensure that without exception the members of our profession will uphold 
the Veterinarian's Oath and live up to public's expectation for ethics 
and integrity in the practice of veterinary medicine.
    Regulatory agencies are necessary for all sports. But racing 
industry regulations should simply assert a higher or additional 
standard when therapeutic drugs are administered responsibly through 
the authority of licensed veterinarians. Regulations should require 
that if I have a patient that needed, for example, an anti-inflammatory 
and pain killing drug for appropriate medical therapy, as the treating 
veterinarian I should report this treatment along with its therapeutic 
context and this patient should not be allowed to race until the drug 
is out of its system. The patient should also be managed in accordance 
with my prescription until re-examination assures that the horse has 
fully recovered and is safe to resume regular training. What we have 
today is a situation that has run amuck where veterinarians and 
horsemen look to the ``limits'' set by racing commissions for drug 
levels and dosing schedules as permission to administer them, anti-
therapeutically and outside of the standards of licensed veterinary 
practice as long as they do not exceed those limits. This illegal 
practice of drugging horses ``up to the limits'' is killing our horses 
and brings shame to the practice of veterinary medicine. It amounts to 
nothing less than race fixing through animal abuse.
    I propose that we require all licensed veterinarians who work with 
racehorses to submit their veterinary records, in real time, on all 
patients. This data would be stored in such a manner as to fully 
protect confidentiality while enabling regulatory veterinarians access 
to this pertinent medical history for each racehorse. This is essential 
to the regulatory veterinarians' ability to conduct effective pre-race 
examinations in order to assure racing soundness and safety in the 
sport. Currently these veterinarians are operating blindly. Full 
veterinary record disclosure would also enable us to know what drugs 
are being administered and to understand the therapeutic context of all 
treatments.
    Another benefit of this required record keeping would be the 
priceless epidemiological data generated that could begin to answer the 
more important questions of cause and effect, genetics and weakness or 
strength of horses for racing, and we would finally begin to understand 
what impacts equine safety and injury which will enable the development 
of effective solutions which benefit the horses, the owners and 
trainers, the riders, and the industry itself.
    For an industry that was built upon the collection and distribution 
of statistics relating to how fast horses run distances measured in 
fractions of a second and the integration of data related to surface 
conditions and pedigree, the horse racing industry has been curiously 
bad at even agreeing to collect the most important data of all--the 
statistics that relate to the most important factor that affects each 
horse--its health, injuries and success or failure of veterinary 
treatments including medications. Medical science advances through the 
collection of all clinical data on all relevant patients so that 
critical analysis can reveal patterns that speak to our most basic or 
sometimes urgent questions regarding the factors that impact, for 
example, the high injury rate and incidence of catastrophic breakdown 
of these horses. Not only has the industry itself only recently begun 
to collect and share data on fatal breakdowns, but most race track 
practicing veterinarians fail to create or maintain any records 
whatsoever outside of billing records which simply list the drugs 
administered along with the date of service and the payment demand to 
the owner. This violates the standards of practice that veterinarians' 
licenses are conditioned upon. More egregiously, it fails the 
veterinary profession's responsibility to advance its understanding of 
critical equine health related influences, it fails the racing industry 
and it fails the horse itself because without this essential data we 
can never begin to apply principles of science to improve our 
understanding and ability to protect and improve the health and welfare 
of racehorses.
    I have been told by my stakes-horse owning clients that they would 
be inclined to invest more in the industry if we kept the kind of 
records on all horses that I have described so that over time the 
problems that plague the sport and their racing stables could be 
understood and eliminated through science. The best way to never find 
something is to never look for it. Once we start creating and keeping 
all veterinary records on every horse we will have a place to look for 
the answer to the question about what factors influence catastrophic 
breakdown and permanently disabling injuries of these horses.
    I recommend to my racing clients that they race in Europe or 
elsewhere since the USA is the only major racing jurisdiction that 
supports this drug use outside of the standards of licensed veterinary 
practice. I will not allow them in my patients and yet the playing 
field is unreasonably unleveled when they must compete against drugged 
horses. It has been my experience that clients want this better system 
of preparing their horses scientifically and protecting them from the 
abuse of drugs and overtraining. Real sports medicine works. 
Veterinarians can restructure their practices to strictly provide 
services that improve the health, athletic fitness, strength and 
protect racehorses from injury. This approach brings the additional 
benefit of optimized racing performance through true soundness and 
fitness as opposed to the false perception of soundness achieved 
through drug abuse in these athletes. This will only be possible if 
drugs are banned and enforcement is strong to dissuade horsemen and 
veterinarians from the prevalent and unethical injury-masking and 
performance-enhancing drug based practices. The Interstate Horseracing 
Improvement Act will achieve this.
    Through my nonprofit organization, Homecoming Farm, I developed a 
new specialty and offer educational programs through The American 
College of Veterinary Sports Medicine and Rehabilitation 
(ACVSMR<SUP>TM</SUP>) in association with physician colleagues who 
developed the analogous human medical specialty field. Our educational 
programs partner veterinary student interns with equine retirement 
facilities where they provide expert rehabilitation services to the 
horses. This structure enables research and offers priceless education 
to these students. For over two decades I have provided this free 
veterinary care to retired horses that end up in shelters after their 
racing careers are over and if anyone has any doubt about the long term 
consequences of this anti-therapeutic, reckless and illegal use of 
drugs in racehorses, I can provide records to prove that the evidence 
is overwhelming that these horses are systematically and permanently 
harmed. And these are the lucky ones that were not shuttled off to 
slaughter.
    Not long ago I discussed the state of the horse racing industry 
with an owner who has been a great asset to the sport for many years. 
He said that as he saw it, there were only two participants in the 
horse racing industry that had ``skin in the game''. They were the 
horse owners and the race track owners. I agree with his arithmetic 
because I see exactly two participants as well. But these two are 
unique because they have their ``actual skin in the game''. It is the 
horse and its rider. These participants' lives are put in completely 
unnecessary and extreme danger through the indiscriminate use of 
injury-masking and performance-enhancing drugs. If no other voice is 
heard on the need to eliminate drug use in racing through the 
Interstate Horseracing Improvement Act, I think it should be theirs. As 
an expert in the health and welfare of horses and on behalf of my 
patients, I fully support this legislation.
    A few years ago I asked a regulatory veterinarian what the hardest 
part of the job was. My colleague's answer surprised and impacted me. 
She said it was the look of terror on the jockey's face in the moments 
just before the horses are loaded into the starting gate. She said they 
circle their horses directly in front of her while nervously asking 
``Is it OK?'', ``Everything all right?'', while knowing that my 
colleague has the authority to scratch any unsound horse and this is 
the last chance to detect the signs of lameness and perhaps save their 
lives. This veterinarian explained that the riders know full well that 
the horses they are on are often drugged to mask injury and she knows 
it too but the regulatory veterinarians are not given access to this 
critical information and the drugging often falls within permitted use 
under racing commission regulations. Without being able to evaluate the 
horses' soundness while drug free neither veterinarian nor rider can 
confidently identify the horses that have a high risk of breakdown. She 
said that daily occurrence was the hardest part of being a track 
veterinarian.
    Horse racing can be a humane and wonderful sport for the horses and 
for the horsemen. The good news is that the solution to improved health 
and safety is already available to every racehorse in this country. It 
will come when the standards of veterinary practice are adhered to at 
all times by the veterinarians who serve their needs so that racehorse 
describes the type of athletic patients we treat as opposed to a 
diagnosed condition to be treated with drugs. Adherence to these 
standards and appreciation of the benefits of protecting horses from 
injury can only emerge if drugs are banned in horse racing. This change 
can only come through the Interstate Horseracing Improvement Act.
Lasix Drug Use in Race Horses
    Lasix (Salix or furosemide) is a powerful diuretic that is 
administered to racehorses approximately 4 hours before race time. It 
is used as a presumptive aid to prevent hemorrhage in a horse's lung 
when it races. Lasix is banned in all other major international racing 
jurisdictions. This drug is known to have performance-enhancing effects 
on racehorses. Lasix became popular with trainers not because it 
prevents bleeding but because it is recognized as a performance 
enhancing drug.
    While only a small percentage of racehorses have ever been 
definitively diagnosed with severe exercise induced pulmonary 
hemorrhage (``EIPH''), over 98 percent of horses racing in America 
today race on this performance-enhancing drug. Despite its pervasive 
and continuous use, Lasix has not ended EIPH in the small percentage of 
horses that are severely affected.
    The permissive use of Lasix has however, led to an under-reporting 
of the true incidence of this condition. Previously when horses had to 
be examined by regulatory veterinarians to diagnose EIPH in order to be 
permitted to use the performance-enhancing drug, trainers were eager to 
report their horses as bleeders and who could blame them? It was a 
common practice for trainers to illegally take a blood sample from a 
horse and squirt some of this blood up its nostril after speed work 
training to make it appear as if the horse had bled from its lungs. 
Officials upon seeing this evidence would declare the horse a bleeder. 
Today many horses race on the drug and experience EIPH nevertheless, 
but the trainers resist reporting this genuine medical condition to 
authorities because the horse will automatically be placed on the 
regulatory veterinarian's list and be banned from racing and speed work 
until time has passed and official veterinary examination and 
monitoring during training demonstrates fitness to resume racing.
    Lasix has contributed to many racehorse health problems including 
generalized dehydration; electrolyte imbalance and depletion; cardiac 
arrhythmias; cardiac failure; heat stroke and exhaustion, racing 
fatigue and poor performance in some animals yet performance 
enhancement in others. My own pilot study revealed an effect on a 
horse's blood that closely resembles the known effect of erythropoietin 
(``EPO''), the well-known and universally banned performance-enhancing 
drug.
    The evidence that we have clearly shows that in the period 
following the permissive allowance of Lasix and other drugs' 
administration in all USA racehorses, we have seen an undeniable 
decline in general health, racing fitness, soundness and career starts 
for our horses. We have also realized a rapid decline in the 
international perception or reputation of the USA bred and managed 
thoroughbred as breeding stock and as athletes. Our equine ``product'' 
is universally perceived internationally as being inferior, that they 
rely on drugs to train and race, that their race records have little 
meaning due to the use of drugs, and that our thoroughbreds are 
fundamentally and intrinsically unsound.
    EIPH is not a primary disease. It is an event that can occur as a 
consequence of many underlying problems. One undeniable underlying 
cause is upper airway obstruction which can be due to an inherited 
condition called laryngeal hemiplegia (roaring); it can be caused by 
abnormal positioning of the tongue and subsequent displacement of the 
soft palate due to harsh riding and the natural avoidance of a bit; it 
can be the result of lung or bronchial pathologies including infections 
or allergies; it can be caused by lack of cardiovascular fitness and 
generalized fatigue, and is associated with many other conditions 
including musculoskeletal unsoundness and anti-inflammatory drug 
administration. Until the cause of EIPH is recognized and removed, all 
treatments are going to be ineffective. Just as we too often see for 
lameness problems in racehorses--trainers and veterinarians reach for 
drugs to treat the symptoms of disease while abdicating their 
responsibility to determine its cause. I see little chance for the 
incidence of EIPH to be reduced until we observe the legal standards in 
practice for all veterinarians who work with racehorses on behalf of 
the individual horses and in professional compliance as the public 
expects. There is neither a short cut nor an ethical way around the 
appropriate standards of veterinary care applied to each individual 
horse.
    There is more scientific evidence to suggest that Lasix does not 
prevent EIPH in a statistically significant way than there is in 
support of its use as an EIPH preventative. The proposed theory that 
Lasix advocates promote in support of permitting its use in every 
racehorse has been clearly disproved and this has been published in the 
scientific literature. You will find a summary of a scientific paper on 
page 22 of this testimonial record that evidences this scientific 
conclusion.
    There is also abundant professional literature going back at least 
thirty years to document many serious health problems linked to Lasix 
administration. My own review of scientific publications discovered 
over two hundred scientific papers that suggest a link between Lasix 
use and--increased risk of fracture; loss of electrolytes leading to 
cardiac abnormalities and other medical crisis and deaths; pathological 
fatigue and weakness; poor recovery from exercise; and other 
performance affecting or life threatening consequences associated with 
this drug's use. You will find summaries of scientific papers on pages 
20; 21 and 26 of this testimonial record supporting these conclusions.
    Dehydration and the loss of vital electrolytes is the mechanism of 
action of this potent diuretic. But until we keep and analyze all 
veterinary record data on every racehorse, we will never be able to 
know the true statistics related to the causal effect of Lasix on our 
racehorses' deteriorating health and deteriorating performance. Horses 
die of sudden cardiac failure every year, typically following speed 
work exercise or racing but these cases are typically categorized as 
``idiopathic'' which means of undetermined cause and yet neither 
investigations are made, nor statistics kept on the possible 
relationship between Lasix administration and cardiac failure. The 
human and general scientific literature and even the package insert 
that accompanies this drug warn of this potential life threatening 
complication.
    The statistically significant studies that have been conducted and 
published conclude that Lasix is performance-enhancing in horses. You 
will find a summary of a scientific paper on page 18 of this 
testimonial record which revealed this scientific conclusion when it 
evaluated the performance of over 22,500 racehorses.
    Since there are many causes of EIPH there will be no single drug 
type that will provide a cure. In fact the cure may not come in the 
form of a drug at all. We have gone too far down this unproductive and 
unscientific path which has led to the dismal state of safety for 
horses and riders today. The only solution is to return to a well-being 
centered business of horse management, breeding and racing. It will not 
be business as usual and many trainers and owners will not be happy 
with the enforcement of drug regulations that insist upon standards of 
practice being adhered to for management of all racehorses. I believe 
that the true horsemen will rise and prosper in an industry based upon 
the foundation of the horses' optimal health and intrinsic racing 
ability.
Anti-Inflammatory Drugs: Corticosteroids and NSAIDS
    Anti-inflammatory drugs are often administered by veterinarians at 
the trainer's request in order to enable training and racing of unfit 
and unsound horses. These drugs can mask the signs of injury and 
physical instability thus predisposing horses to catastrophic 
breakdown. They should be restricted for use in treating diagnosed 
conditions and used only in accordance with the standards of practice 
and as appropriate and responsible therapy by licensed veterinarians. 
Examples of the most commonly used drugs of this class would include 
NSAIDs such as phenybutazone; Banamine; and cox-2 inhibitors.
    Corticosteroid abuse in racehorses is rampant. These potent anti-
inflammatory and pain reducing drugs can interfere with the body's 
natural ability to heal tissue and remodel bone in response to training 
and racing and their indiscriminate administration by veterinarians and 
trainers often leads to irreparable osteoarthritic damage to the 
horses' joints leaving the horse with permanent lameness. Interference 
with the natural healing process and masking pain has enabled the 
widespread practice of overtraining unsound horses and introduces great 
risk to the horses and riders' safety. Review of postmortem records of 
horses that died in racing often reveals a history of corticosteroid 
induced pathologies.
    I have been a veterinary consultant for numerous racehorse patients 
that have had their joints destroyed not by the sport, but by the 
reckless use of corticosteroid injected directly into acutely or 
chronically damaged joints and tendons. These drugs are administered so 
frequently in many racehorses and with reckless abandon for the welfare 
of the horse that the cartilage erodes and the joints fuse. In some 
patients life threatening metabolic and hormonal abnormalities occur. 
Corticosteroid administration is also associated with the development 
of laminitis in horses. Corticosteroid and Lasix administered together 
as is so often the practice with racehorses can lead to drug-induced 
debilitating or life threatening electrolyte imbalances and loss of 
calcium.
    Typically aged at two to 6 years, racehorses present as young, 
vibrant, physically whole, metabolically active and rapidly developing 
animals with the natural ability to remain healthy and sound. Just 
looking at the rampant unsoundness seen at our race tracks makes it 
clear that our currently permissive and indiscriminate drug use is 
causing great harm. These are not untoward or rare side effects. This 
is precisely what our veterinary education informs us will occur when 
we use these drugs in this indiscriminate and anti-therapeutic way. 
This is the reason that such drugs are restricted for use only by 
licensed veterinarians in the first place. This is also the reason that 
the standards of practice and the Veterinarian's Oath must be honored 
when administering drugs to racehorses.
Veterinary Record Keeping Requirement
    The purpose of a medical record is simple. It is to protect the 
patient. While state veterinary boards define and detail the 
requirements in record keeping for all veterinarians, the principle 
objective is to record all data so that records not only reflect 
objective test results and diagnostic and therapeutic treatments and 
medications, but also assist and reveal the thought process of the 
licensed veterinarian. The fact that few records outside of billing 
records are ever even made for these racehorses betrays the fact that 
many racetrack practicing veterinarians are seemingly not applying a 
clinical thought process to help the horse to recover from illness or 
injury. They simply report the administration of drugs without any 
evidence of a plan or thoughts about the clinician's responsibility to 
always deliver veterinary service to restore or protect their patient's 
health.
    Electronic record keeping can be completed by veterinarians and 
horsemen in just a few minutes a day. The collection, storage and 
transfer of this critical veterinary record data for official use would 
also facilitate its seamless and immediate availability as horses move 
from one race track, state or country to another. This transparency 
would also provide proof to the public that racehorses are being 
treated with the same high standards of veterinary practice that it 
expects through strict adherence to regulations as defined by each 
state's department of professional regulation as a condition of 
veterinary licensing. No examination or diagnosis that supports the 
appropriate choice of a drug? Then no drug administration should appear 
in these records.
    More and more we are discovering that products are readily 
available and are being marketed and sold to racehorse trainers that 
may have evaded official classification as drugs. The requirement of 
keeping complete records on everything administered, fed, or applied by 
any means to a horse would close the current loophole in the detection 
of illicit injury-masking and performance-enhancing substances. 
Everything but ``hay, oats and water'' should be required to be 
recorded in real-time each horse's electronic record. Any evidence of 
the administration of a substance or treatment of any kind that is 
absent from the report should trigger immediate penalties against the 
trainer independent of any positive drug test finding. The strict 
adherence to record keeping requirements should be a condition of the 
trainer and veterinarian's Pari-Mutuel license.
Public Perception and Drugs in Horse Racing
    Horse racing is losing former fans rapidly while gaining few new 
ones. The public's perception and often indeed the reality of horses 
being drugged in order to enable racing can only be removed by banning 
all drugs on race day and in the days leading up to races through a 
zero tolerance in drug testing. In my personal life when I meet people 
who have nothing to do with horse racing, the one question I know I 
will be asked is-why do we allow trainers to drug horses so they can 
race, and why would I be involved in any so-called sport that cares so 
little about the health and safety of the horse?
Transparency
    The uniquely sequestered nature of the back side of a race track 
prevents the public (and state veterinary licensing boards) from seeing 
what goes on behind the guarded stable gates. The only evidence 
available to review in order to decide if the sport of horse racing has 
integrity and treats horses humanely comes when they watch the races. 
The public outcry for reform of this industry is the direct result of 
horrific breakdowns and deaths that have occurred in full public view. 
Also visible is the never ending procession of crippled horses arriving 
at equine shelters that require lifelong care because permanent injury 
leaves them unable to be appreciated by second homes as riding horses.
    The Interstate Horseracing Improvement Act will provide the public 
with assurances that have been long overdue. Assurance that the horses 
are racing without injury-masking and performance-enhancing drugs. 
Assurance that any trainer, owner or veterinarian who violates the 
rules will be swiftly and permanently removed from the sport. Assurance 
that only responsible veterinary services that improve or protect the 
horse will be provided to racehorses and that the state veterinary 
boards are monitoring and enforcing the regulations that define 
standards of practice for veterinarians who work with racehorses 
without interference from racing commissions.
    Businesses including those of horse trainers, that have nothing to 
hide, hide nothing. In addition to the clear benefit to individual 
horse health care and safety, the keeping and continuous review of 
records of the real-time reporting of everything but the proverbial 
``hay, oats and water'' administered to these horses will be essential 
to regaining and nurturing the public trust in horse racing. State 
veterinary boards could also use these records to investigate, enforce 
and oversee the standards of practice for racehorse veterinarians.
A Change in Business
    The sport of horse racing is expensive for any owner and when the 
incentive and ability to acquire, race and drug-abuse lame horses for 
profit is removed the sport will shrink in size but strengthen by 
becoming more appealing for owners who want to become involved in an 
ethical and quality sport and business. This is where the strength and 
future of the industry lies. The cost to breed, train and race horses 
is necessarily high. Risk will always be great. Just as there is a 
significant chance that an impressively bred and extremely expensive 
yearling may never succeed on the track, racehorse owners must also 
accept that the risk of a horse developing unsoundness that may limit 
or end its potential as a racehorse is all part of the sport. Drugging 
it to mask injury and race while unsound will no longer be an option 
for owners and trainers through this important legislation.
    Many trainers and racehorse owners have adapted their business 
model to fit an industry that expects a high turnover of horses with a 
high attrition rate through breakdowns or other career ending injuries. 
They will need to adjust their businesses to value individual horses 
and manage their stables through an expertly guided health and well-
being centered training and racing programs.
    The horse racing industry ultimately exists by agreement of the 
public. They have the right to say no. The public has previously shown 
its willingness and resolve to exercise this right by banning dog 
racing in several states when similar concerns went unaddressed by that 
sport's regulators. Horse racing may be next on the list if meaningful 
reforms and the demand for improved safety are not realized soon.
Breakdown Statistics
    It has been estimated that 24 horses die each week on American race 
tracks. This calculation came from the comprehensive review of official 
racing charts. While this figure is extremely disturbing and 
intolerable in a society that values the humane treatment of animals, 
the numbers are actually much higher. The omission in this statistic 
comes from the fact that many horses suffer catastrophic injury which 
is not fully realized until the horse has returned to its stall 
following training. Many of these fatally injured horses leave the 
track in private vans and they simply go missing from the thoroughbred 
racing database. The record keeping system that I propose would be able 
to collect these statistics by requiring that every horse leaving the 
race track be examined by a regulatory veterinarian. The keeping of 
this data would also serve to alert track officials and the public to 
trainers that have atypically high breakdown rates so they can 
investigate and deal with them.
Enforcement
    Currently the enforcement of racing regulations through an 
inconsistent and irregular system of penalties is wholly insufficient 
and completely ineffective as a means to remove chronic offenders from 
the sport and to act as a deterrent. The Interstate Horseracing 
Improvement Act provides the essential authority to remove the cheaters 
from the sport and to levy significant fines for medication violations.
    Today most trainers are allowed to serve their short suspensions 
for repeat drug violations at their convenience while assistant 
trainers continue to operate their training businesses and race the 
horses without interruption. Horse owners have little incentive to hire 
trainers with clean records because the advantages gained by violating 
the medication regulations seem to outweigh the inconvenience of the 
trainer of record occasionally taking a forced vacation while business 
as usual continues at the track.
    In nearly thirty years of practice I am aware of only three 
veterinarians who have been sanctioned for violations related to the 
drugging of horses with illegal performance-enhancing and injury-
masking medications. Each suspended veterinarian continued to practice 
illegally by treating horses that train at unlicensed training centers 
or simply moved to other racing jurisdictions.
    Referring violators to state and Federal authorities for 
investigation and possible prosecution for crimes will be accommodated 
more easily with the uniform and unambiguous no-drug rule provided by 
this legislation.
    Being a racehorse trainer, owner or veterinarian is not a right but 
a privilege conditioned upon playing by strict rules. Olympic medals in 
equestrian events are revoked when medication violations are 
discovered. In the cases where medals had to be returned that I am 
aware of, the regulators all agreed that the positive ``foreign 
substance'' detected in the horse's drug test could only have been the 
result of innocent contamination and could not have affected the 
outcome of the horse's performance and placing. But the rules are the 
rules and these ethical sportsmen and women accept the severe penalty 
of Olympic Medal revocation because they know it is the only way to 
maintain the integrity of the sport. They accepted the absolute 
responsibility of playing by strict rules when they decided to compete. 
By contrast, drug violations in horse racing accumulate with little or 
no punishment while the monetary gain for winning is much greater than 
in any other equestrian sport.
The Public Ethic
    The moment many racehorses fail to be of business value to their 
owners, they instantly become the burden of the charitable sector. We 
know the public cares about the wellbeing of racehorses because the 
overwhelming demographic that supports equine retirement shelters are 
Americans living on social security or other limited and fixed incomes. 
These ethical people will sacrifice their own needs in order to send a 
donation to a shelter because they want to know that former racehorses 
can have a safe retirement. These good people do not want to ride or 
own a horse, go to the races, or bet on one. But they will send money 
to charities to help buy some hay for former racehorses. To me this 
speaks emphatically to say that the American people care deeply about 
these animals and they want to know that racehorses are safe and well 
cared for. The Interstate Horseracing Improvement Act will give them 
that assurance. It will also ensure that when horses retire from the 
sport they can do so with their bodies intact so they can transition to 
pleasure riding or horse show homes instead of becoming an instant 
public burden.
Considerations for Rules Regarding Drugs and Veterinary Services
  (1)  Require the submission of all veterinary records in real time 
        for all horses from the day they arrive at the track until 
        their retirement from the sport.

  (2)  Require the submission of all care and management records in 
        real time for all horses from the day they arrive at the track 
        until their retirement from the sport. These records would 
        include nutritional supplements, physical therapy services, and 
        essentially anything fed, administered or applied to the horse 
        outside of the proverbial: hay, oats and water.

  (3)  Require all veterinarians to adhere to the standards of practice 
        as defined by their state veterinary licensing board.

  (4)  Revoke the racing commission license for any veterinarian or 
        trainer who fails to submit all records in accordance with 
        these regulations.

  (5)  Require veterinarians to provide copies of complete veterinary 
        records including opinion and advice to each racehorse owner so 
        they can make informed decisions that impact the health and 
        safety of their horses.

  (6)  Ban all drugs at all times (including during training) except 
        those given in a valid therapeutic context.

  (7)  Conduct more out of competition testing.

  (8)  Ban all drugs in racing.

  (9)  Require track veterinarians to examine every horse that leaves 
        the track, except for those officially entered and shipping out 
        for races at other venues.

 (10)  Collect data on attrition to racing due to lameness by keeping 
        records of horses that are removed with career ending injuries 
        in addition to racetrack fatalities.

 (11)  Use a point system for drug penalties for drugs with known 
        therapeutic value and that were properly administered by a 
        veterinarian with a valid veterinarian-client-patient 
        relationship, but do not erase points. Three strikes and a 
        trainer should be out of the industry for life.

 (12)  Permanently revoke the license of any trainer or veterinarian 
        for administering drugs that have no therapeutic use in the 
        horse.

 (13)  Refer veterinarians to state veterinary licensing board 
        authorities for investigation of violation of the standards of 
        care regardless of whether or not such violation was associated 
        with a racing rules violation. Any evidence of drug 
        administration without an examination, diagnosis, record 
        keeping and proper therapeutic context should be reported to 
        state veterinary licensing boards.

 (14)  Ban trainers from the sport for personally administering or 
        keeping any drug that is limited for use only by licensed 
        veterinarians.

 (15)  Do not allow assistant trainers to simply take over for 
        suspended trainers.

 (16)  Publish all statistics in the racing programs for the public's 
        interest. Include breakdown statistics and drug violations 
        along with purse money earned and races won by each trainer.

 (17)  Race Horse Retirement Fund: Collect a percentage of handle; 
        percentage of purse money earned; fees at tattoo/ID; fee at 
        gate card; and fee per start should be entered into an 
        individual retirement account for each horse and made available 
        to accredited equine shelter facilities that provide for the 
        care of these horses when their careers are over. If a jockey 
        earns, on average, $75 per mount fee I think it is fair the 
        horse should earn the same for each start to be put toward its 
        future care and retraining or retirement needs. Each racing 
        jurisdiction should have regional equine shelter farms that are 
        part of the industry and monitored by the owners, trainers, the 
        humane societies, and visible to the public.

 (18)  Invest in the ongoing development of laboratory tests for new 
        and old illegal drugs.

 (19)  Drug test every horse in every race to assure the public of 
        integrity in the sport and to deter cheating.

 (20)  Refer findings of drugs that have no therapeutic use in the 
        horse such as dermorphin to local, state and Federal law 
        enforcement agencies for investigation and prosecution.
                                 ______
                                 

   Scientific Publications In Support of My Testimony On Furosemide 
             (Lasix or Salix) Administration in Race Horses

 (1)  Lasix is Performance-Enhancing: I, II, III, V, VI

 (2)  Lasix is Harmful to the Health and Safety of the Horse in Racing: 
        III, IV, VI, VIII

 (3)  Lasix Use Has Not Ended the Occurrence of Exercise Induced 
        Pulmonary Hemorrhage: V

 (4)  Lasix Increases Risk of Fracture: VIII
                                   I
    J Am Vet Med Assoc. 1999 Sep 1;215(5):670-5.
    Effect of furosemide on performance of Thoroughbreds racing in the 
United States and Canada.
    Gross DK, Morley PS, Hinchcliff KW, Wittum TE.

    Source
    Department of Veterinary Preventive Medicine, College of Veterinary 
Medicine, The Ohio State University, Columbus 43210, USA.

    Abstract
    Objective: To determine the effect of furosemide on performance of 
Thoroughbreds racing on dirt surfaces at tracks in the United States 
and Canada.

    Design: Cross-sectional study.

    Animals: All Thoroughbreds (n = 22,589) that finished a race on 
dirt surfaces at tracks in the United States and Canada between June 28 
and July 13, 1997 in jurisdictions that allowed the use of furosemide.

    Procedure: Race records were analyzed by use of multivariable ANOVA 
procedures and logistic regression analyses to determine the effect of 
furosemide on estimated 6-furlong race time, estimated racing speed, 
race earnings, and finish position. Principal component analysis was 
used to create orthogonal scores from multiple collinear variables for 
inclusion in the models.

    Results: Furosemide was administered to 16,761 (74.2 percent) 
horses. Horses that received furosemide raced faster, earned more 
money, and were more likely to win or finish in the top 3 positions 
than horses that did not. The magnitude of the effect of furosemide on 
estimated 6-furlong race time varied with sex, with the greatest effect 
in males. When comparing horses of the same sex, horses receiving 
furosemide had an estimated 6-furlong race time that ranged from 0.56 
<plus-minus> 0.04 seconds (least-squares mean <plus-minus>SE) to 1.09 
<plus-minus> 0.07 seconds less than that for horses not receiving 
furosemide, a difference equivalent to 3 to 5.5 lengths.

    Conclusions and Clinical Relevance: Because of the pervasive use of 
furosemide and its apparent association with superior performance in 
Thoroughbred racehorses, further consideration of the use of furosemide 
and investigation of its effects in horses is warranted.
    J Am Vet Med Assoc. 1999 Dec 1;215(11):1580; author reply 1580-1.
    PMID: 10476714 [PubMed--indexed for MEDLINE]
                                   II
    Journal of Applied Physiology www.jappl.org
    Journal of Applied Physiology October 1, 1996 vol. 81 no. 4 1550-
1554
    EXERCISE AND MUSCLE
    Furosemide reduces accumulated oxygen deficit in horses during 
brief intense exertion.
    K. W. Hinchcliff,
    K. H. McKeever,
    W. W. Muir, and
    R. A. Sams
    <SUP>+</SUP> Author Affiliations
    <SUP>1</SUP> Exercise Physiology Laboratory, Department of 
Veterinary Clinical Sciences, College of Veterinary Medicine, The Ohio 
State University, Columbus, Ohio 43210-1089
    Submitted 2 January 1996. accepted in final form 7 May 1996.

    Abstract Hinchcliff, K. W., K. H. McKeever, W. W. Muir, and R. A. 
Sams.

    Furosemide reduces accumulated oxygen deficit in horses during 
brief intense exertion. J. Appl. Physiol. 81(4): 1550-1554, 1996.--We 
theorized that furosemide-induced weight reduction would reduce the 
contribution of anaerobic metabolism to energy expenditure of horses 
during intense exertion. The effects of furosemide on accumulated O2 
deficit and plasma lactate concentration of horses during high-
intensity exercise were examined in a three-way balance randomized 
crossover study. Nine horses completed each of three trials: (1) a 
control (C) trial, (2) a furosemide-unloaded (FU) trial in which the 
horse received furosemide 4 h before running, and (3) a furosemide 
weight-loaded (FL) trial during which the horse received furosemide and 
carried weight equal to the weight lost after furosemide 
administration. Horses ran for 2 min at 120 percent maximal O2 
consumption. Furosemide (FU) increased O2 consumption (ml <SUP>.</SUP> 
2 min-1 <SUP>.</SUP> kg-1) compared with C (268 <plus-minus> 9 and 257 
<plus-minus> 9,P < 0.05), whereas FL was not different from C (252 
<plus-minus> 8). Accumulated O2 deficit (ml O2 equivalents/kg) was 
significantly (P < 0.05) lower during FU (81.2 <plus-minus> 12.5), but 
not during FL (96.9 <plus-minus> 12.4), than during C (91.4 
<plus-minus> 11.5). Rate of increase in blood lactate concentration 
(mmol <SUP>.</SUP> 2 min-1 <SUP>.</SUP> kg-1) after FU (0.058 
<plus-minus> 0.001), but not after FL (0.061 <plus-minus> 0.001), was 
significantly (P < 0.05) lower than after C (0.061 <plus-minus> 0.001). 
Furosemide decreased the accumulated O2 deficit and rate of increase in 
blood lactate concentration of horses during brief high-intensity 
exertion. The reduction in accumulated O2 deficit in FU-treated horses 
was attributable to an increase in the mass-specific rate of O2 
consumption during the high-intensity exercise test.
    Footnotes Address for reprint requests: K. W. Hinchcliff, Exercise 
Physiology Laboratory, Dept. of Veterinary Clinical Sciences, College 
of Veterinary Medicine, The Ohio State University, 601 Vernon L. Tharp 
St., Columbus, OH 43210-1089.
    This study was supported by a grant from the Grayson-Jockey Club 
Research Foundation. Present address of K. H. McKeever: Dept. of Animal 
Science, Cook College, Rutgers University, Piscataway, NJ 08855.
                                  III
    Furosemide-induced changes in plasma and blood volume of horses
    K. W. Hinchcliff, K. H. McKeever, W. W. Muir III
    Article first published online: 28 Jun 2008
    DOI: 10.1111/j.1365-2885.1991.tb00855.x
    Issue
    Journal of Veterinary Pharmacology and Therapeutics
    Volume 14, Issue 4, pages 411-417, December 1991
    Additional Information (Show All)

    How to Cite--Hinchcliff, K. W., McKeever, K. H. and Muir, W. W. 
(1991), Furosemide-induced changes in plasma and blood volume of 
horses. Journal of Veterinary Pharmacology and Therapeutics, 14: 411-
417. doi: 10.1111/j.1365-2885.1991.tb00855.x

    Author Information--Department of Veterinary Physiology and 
Pharmacology, and Department of Veterinary Clinical Sciences, College 
of Veterinary Medicine, The Ohio State University, Columbus, OH 43210, 
USA

    Publication History--Issue published online: 28 JUN 2008
    Article first published online: 28 JUN 2008

    Abstract--The effect of furosemide administration (1mg/kg body 
weight, i.v.) on plasma and blood volumes in 6 intact and 4 
splenectomized horses was measured using Evans blue dye dilution, 
hematocrit, and hemoglobin and plasma total solids concentrations. Body 
weight decreased by 33.6<plus-minus>3.3 and 33.7<plus-minus>0.8g/kg 4h 
after furosemide administration to intact and splenectomized mares, 
respectively. Plasma volume, estimated by Evans blue dye dilution, was 
reduced by 8.3<plus-minus>3.3 percent (mean<plus-minus>SE) 4h after 
furosemide administration. The reduction in plasma volume was first 
detectable 5-10 min after furosemide administration and was greatest 
15-30 min (13.0<plus-minus>0.8 percent) after dosing. This study 
demonstrates that furosemide produces significant and rapid reductions 
in plasma volume in horses. These decreases in plasma volume only 
partially resolve 4h after furosemide administration.
                                   IV
    Effects of dehydration on thermoregulatory responses of horses 
during low-intensity exercise
    J. R. Naylor, W. M. Bayly, P. D. Gollnick, G. L. Brengelmann, and 
D. R. Hodgson
    <SUP>+</SUP> Author Affiliations--Department of Veterinary Clinical 
Medicine and Surgery, College of Veterinary Medicine, Washington State 
University, Pullman 99164.

    Abstract--Effects of dehydration on thermoregulatory and metabolic 
responses were studied in six horses during 40 min of exercise 
eliciting approximately 40 percent of maximal O2 consumption and for 30 
min after exercise. Horses were exercised while euhydrated (C), 4 h 
after administration of furosemide (FDH; 1.0 mg/kg i.v.) to induce 
isotonic dehydration, and after 30 h without water (DDH) to induce 
hypertonic dehydration. Cardiac output was significantly lower in FDH 
(144.1 <plus-minus> 8.0 l/min) and in DDH (156.6 <plus-minus> 6.9 l/
min) than in C (173.1 <plus-minus> 6.2 l/min) after 30 min of exercise. 
When DDH, FDH, and C values were compared, dehydration resulted in 
higher temperatures in the middle gluteal muscle (41.9 <plus-minus> 
0.3, 41.1 <plus-minus> 0.2, and 40.6 <plus-minus> 0.2 degrees C, 
respectively) and pulmonary artery (40.8 <plus-minus> 0.3, 40.1 
<plus-minus> 0.2, and 39.7 <plus-minus> 0.2 degrees C, respectively). 
Temperatures in the superficial thoracic vein and subcutaneous sites on 
the neck and back and peak sweating rates on the neck and back were not 
significantly different in DDH and C. In view of higher core 
temperatures during exercise after dehydration and decrease in cardiac 
output without concomitant increases in peripheral temperatures or 
reduced sweating rates, we conclude that the impairment of 
thermoregulation was primarily due to decreased transfer of heat from 
core to periphery.
    Copyright 1993 the American Physiological Society
                                   V
    Review of furosemide in horse racing: its effects and 
regulation<dagger>
    L.R. Soma1, C.E. Uboh2

    Article first published online: 5 JAN 2002
    DOI: 10.1046/j.1365-2885.1998.00132.x
    Blackwell Science Ltd

    Issue
    Journal of Veterinary Pharmacology and Therapeutics
    Volume 21, Issue 3, pages 228-240, June 1998

    How to Cite--Soma, L.R. and Uboh, C.E. (1998), Review of furosemide 
in horse racing: its effects and regulation. Journal of Veterinary 
Pharmacology and Therapeutics, 21: 228-240. doi: 10.1046/j.1365-
2885.1998.00132.x

    Author Information
    1--University of Pennsylvania School of Veterinary Medicine, New 
Bolton Center Campus, Kennett Square, PA,

    2--Pennsylvania Equine Toxicology and Research Laboratory, West 
Chester University, Department of Chemistry, West Chester, PA, USA
    *--Lawrence R. Soma University of Pennsylvania School of Veterinary 
Medicine, New Bolton Center Campus, Kennett Square, PA 19348, USA.

    Publication History
    Issue published online: 5 JAN 2002
    Article first published online: 5 JAN 2002

    Abstract--Furosemide has been used empirically and has been legally 
approved for many years by the U.S. racing industry for the control of 
exercise-induced pulmonary haemorrhage (EIPH) or bleeding. Its use in 
horses for this purpose is highly controversial and has been criticized 
by organizations outside and inside of the racing industry. This review 
concentrates on its renal and extra-renal actions and the possible 
relationship of these actions to the modification of EIPH and changes 
in performance of horses. The existing literature references suggest 
that furosemide has the potential of increasing performance in horses 
without significantly changing the bleeding status. The pulmonary 
capillary transmural pressure in the exercising horse is estimated to 
be over 100 mmHg. The pressure reduction produced by the administration 
of furosemide is not of sufficient magnitude to reduce transmural 
pressures within the capillaries to a level where pressures resulting 
in rupture of the capillaries, and thus haemorrhage, would be 
completely prevented. This is substantiated by clinical observations 
that the administration of furosemide to horses with EIPH may reduce 
haemorrhage but does not completely stop it. The unanswered question is 
whether the improvement of racing times which have been shown in a 
number of studies are due to the reduction in bleeding or to other 
actions of furosemide. This review also discusses the difficulties 
encountered in furosemide regulation, in view of its diuretic actions 
and potential for the reduction in the ability of forensic laboratories 
to detect drugs and medications administered to a horse within days or 
hours before a race. Interactions between nonsteroidal anti-
inflammatory drugs (NSAIDs) and furosemide have also been examined, and 
the results suggest that the effects of prior administration of NSAID 
may partially mitigate the renal and extra-renal effects which may 
contribute to the effects of furosemide on EIPH.
                                   VI
    An unpublished pilot study was conducted to test the hypothesis 
that furosemide administration causes dehydration and increases the 
hematocrit in racehorses. This pilot study is being used for validation 
of my application to carry out a statistically meaningful test of this 
hypothesis and in the collection of other measurable physiological 
parameters involving more than a thousand horses under racing 
conditions in the USA and in multiple racing jurisdictions.
    Author Sheila Lyons DVM, FACVSMR
Hemoconcentration and Oxygen Carrying Capacity Alteration in Race 
        Horses Following Administration of Furosemide Prior to Speed 
        Work
    Abstract: The measurement of packed red blood cell volume (PCV, Hct 
or hematocrit) and plasma osmolality immediately preceding and then 4 
hours after intravenous administration of 250mg furosemide in 12 race 
horses was performed in order to assess the level of dehydration caused 
by this diuretic. The World Anti-Doping Agency (WADA) has established 
blood testing parameters for the indication of performance enhancement 
due to the artificially enhanced oxygen carrying capacity secondary to 
hemoconcentration in human athletes. Diuretics such as furosemide are 
banned by the WADA but artificial hemoconcentration has been achieved 
through the illegal use of EPO, the practice of blood doping, and other 
banned methods and practices. Since horse racing permits the use of 
furosemide, this pilot study was conducted to test the theory that the 
horse racing performance enhancement effect, which has been evidenced 
in the scientific literature for this drug, may be due to dehydration 
and improved oxygen carrying capacity achieved through 
hemoconcentration. The results were an increase in PCV of 6-18 percent 
with a nonlinear increase in plasma osmolality in each of the 12 horses 
tested in this pilot study. The WADA has established the 
hemoconcentration effect of EPO to be in the range of 6-11 percent 
which is considered performance enhancement in human athletics. 
Therefore, it appears through this pilot study that the administration 
of furosemide at the dosages used for horse racing supports a theory of 
performance enhancement through artificially enhanced oxygen carrying 
capacity due to hemoconcentration. A further study involving the 
testing of several thousand racehorses entered in races in multiple 
racing jurisdictions is planned by this investigator and warranted in 
the interest of fairness in horse racing.
                                  VII
    Medicine & Science in Sports & Exercise:
    October 1996--Volume 28--Issue 10--pp 127-134
    ACSM Position Stand: The Female Athlete Triad
    ACSM Position Stand: The Use of Blood Doping as an Ergogenic Aid
    Sawka, Michael N. Ph.D., FACSM, (Chair); Joyner, Michael J. M.D.; 
Miles, D. S. Ph.D., FACSM; Robertson, Robert J. Ph.D., FACSM; Spriet, 
Lawrence L. Ph.D., FACSM; Young, Andrew J. Ph.D., FACSM

    Abstract--Blood doping has been achieved by either infusing red 
blood cells or by administering the drug erythropoietin to artificially 
increase red blood cell mass. Blood doping can improve an athlete's 
ability to perform submaximal and maximal endurance exercise. In 
addition, blood doping can help reduce physiologic strain during 
exercise in the heat and perhaps at altitude. Conversely, blood doping 
is associated with risks that can be serious and impair athletic 
performance. These known risks are amplified by improper medical 
controls, as well as the interaction between dehydration with exercise 
and environmental stress. Finally, the medical risks associated with 
blood doping have been estimated from carefully controlled research 
studies, and the medically unsupervised use of blood doping will 
increase these risks. It is the position of the American College of 
Sports Medicine that any blood doping procedure used in an attempt to 
improve athletic performance is unethical, unfair, and exposes the 
athlete to unwarranted and potentially serious health risks.
                                  VIII
    Fracture risk in patients treated with loop diuretics
    Journal of Internal Medicine
    Volume 259, Issue 1, pages 117-124, January 2006
    1. L. Rejnmark,
    2. P. Vestergaard,
    3. L. Mosekilde

    Article first published online: 29 NOV 2005
    DOI: 10.1111/j.1365-2796.2005.01585.x

    Abstract.
    Background. Loop diuretics (LD) increase renal calcium excretion. 
Discrepant results on associations between LD and fracture risk have 
been reported.

    Objective. To assess the fracture risk in users of LD.

    Design and subjects. A population-based pharmaco-epidemiological 
case-control design with fracture in year 2000 as outcome and use of LD 
during the previous 5 years as exposure variable. We used nationwide 
computerized registers to assess individual use of LD and related these 
data to individual fracture data and information on potential 
confounders. We compared 64 699 cases aged 40 years or more who 
sustained a fracture during year 2000 with 194 111 age-and gender-
matched controls.

    Results. A total of 44 001 subjects used LD. Ever use of LD was 
associated with a crude 51 percent (OR 1.51; 95 percent CI 1.48-1.55) 
increased risk of any fracture and a 72 percent (OR 1.72; 95 percent CI 
1.64-1.81) increased risk of hip fracture. The risk estimates were 
reduced after confounder adjustment, i.e., adjusted risk of any 
fracture was increased by 4 percent (OR 1.04; 95 percent CI 1.01-1.07) 
and risk of hip fracture by 16 percent (OR 1.16; 95 percent CI 1.10-
1.23). In current users, a tendency toward a decreased fracture risk 
with increased dose was observed, whereas in former users risk of 
fracture increased with increased dose. Use of furosemide was 
associated with higher risk estimates than use of bumetanide.

    Conclusion. Treatment with LD affects fracture risk. Special 
attention should be paid to patients in whom treatment with LD is 
initiated or stopped, as they may be at an increased risk of fracture.

    Senator Udall. Thank you.
    And I very much appreciate the panel and all of your 
testimony here today.
    I wanted to, first of all, get back to the dermorphin that 
you all heard about in the previous panel. And I think several 
of you, or one of you, mentioned it. And just to remind you, 
it's a tree frog extract that is a painkiller 40 times more 
powerful than morphine.
    Should a trainer who gives a racehorse this drug be 
permanently be banned from horseracing?
    Mr. Witman. Yes, sir.
    Mr. Paulhus. Absolutely.
    Senator Udall. Mr. Martin?
    Mr. Martin. I kind of like the idea, if a substance, 
whether its dermorphin or something else that can be 
interpreted as abusive to the horse, that person should be 
kicked out.
    Senator Udall. So your answer is a yes.
    Mr. Martin. It's articulated a little differently.OK.
    Senator Udall. OK.
    Please, Dr. Lyons?
    Dr. Lyons. My answer is absolutely. And one point on the 
dermorphin issue, I actually contacted the local DEA 
investigator when that story first broke to simply ask whether 
or not this was something that was coming under their radar, 
and whether this drug was actually something that they had 
regulatory authority over.
    And I believe that they do. They actually need to check 
into the exact chemical structure. But if it turns out that it 
meets the definition of an opiate, then I believe that there 
can be DEA penalties and enforcement as well. So absolutely, 
they should be banned and then tried.
    Senator Udall. OK.
    Dr. Lyons, Hong Kong is often held up as the gold standard 
worldwide for the racing integrity and safety measures, things 
like that. But some of their efforts would be difficult to 
replicate in American racing.
    Your testimony recommends increasing--and I think you said 
it here again today in your oral testimony--increasing vet 
record transparency, which is better in Hong Kong. There you 
can get vet reports online with a horse's past performance 
chart.
    Should this type of disclosure be required for horses 
entered into simulcast races governed by the IHA?
    Dr. Lyons. Absolutely. Thank you, Senator Udall.
    I think that that is essential, if we're to effectively 
regulate safety in horses based on their soundness. We need to 
know what's going on. We need to know what diagnosis has been 
made.
    Senator Udall. Mr. Witman, Clenbuterol, which I think you 
talked about a little bit here. And let me first say I just 
fully support the American Quarter Horse Association's stance 
on Clenbuterol.
    This drug can be therapeutic, but it has been widely 
abused. I mean, I think there's no doubt about that. An out-of-
competition test of Quarter Horses in California found that 100 
percent were on Clenbuterol. Similar tests of thoroughbreds 
found that 58 percent tested positive for Clenbuterol. And we 
all know that's way too many.
    New Mexico now follows the AQHA's recommended 30-day 
withdrawal guideline. But my understanding is that California, 
the first state to implement the AQHA recommendation, has since 
weakened its rule to a 21-day withdrawal guideline for both 
Quarter Horses and thoroughbreds.
    Will other states backslide once public attention has faded 
from this issue? And what can the AQHA do to prevent this from 
happening?
    Mr. Witman. Well, it's my understanding that there is 
virtually no difference between the 30-day rule that they put 
into effect for Quarter Horses and the 21-day rule they put 
into effect for Thoroughbreds. When they did it originally, 
they did it just for us, and then they came back and did it for 
the Thoroughbreds.
    We're still talking about the level of detection as the 
level, which is 1 to 2 pictograms per milliliter. It's my 
understanding that the rule is actually the same. It's just a 
little bit different wording on what the actual withdrawal time 
is.
    Senator Udall. Well, that's encouraging. That's encouraging 
to hear.
    Dr. Lyons, the RCI report titled ``Drugs and Racing 2010: 
The Facts,'' claims that anti-doping standards in horseracing 
are more aggressive than those deployed in the Olympics, and 
that U.S. racing regulators sent 324,215 biological samples to 
a network of professional testing labs that utilize standards 
more stringent than those used for the Olympics.
    You have some familiarity, I know, with drug standards for 
equine sports in the Olympics. Do you agree with the RCI claim 
that anti-doping standards in American horseracing are stricter 
than those used in the Olympics? And is there any credibility 
to the claim that there were only 47 doping violations in 2010.
    Dr. Lyons. Well, on the issue of the comparison between the 
Olympics and our regulations and violations in horseracing, I 
actually just received the standards that will be enforced for 
the London Olympics for all veterinary procedures.
    And not only is it a zero-tolerance for absolutely any drug 
in any one of those horses, but, as a veterinarian, if any 
services need to be provided to these horses, there are 
designated areas. There are monitors in each of thesedesignated 
areas. So not only are veterinarians required to make a record 
of what they're doing, whether or not they had to use the drug 
or what diagnoses is there, but they're actually having their 
place monitored.
    As far as permitting drugs, zero tolerance in the Olympics, 
at least where the horses are concerned.
    So I would disagree with the RCI on that.
    Senator Udall. Mr. Martin, I ask every state racing 
commission what constitutes a total carbon dioxide or 
milkshaking violation in their jurisdiction. And milkshaking 
involves, as you know, and you've heard several times, the 
raising of CO<INF>2</INF> levels to reduce fatigue and boost 
performance.
    And I was surprised to learn that not all states prohibit 
this practice, and not all States have been testing for it. But 
I was even more surprised that some states have a more 
permissive regulatory threshold level for horses that receive 
Lasix compared to those that do not.
    Why is there no specific rule banning milkshaking in at 
least seven states? And why do some states permit horses racing 
on Lasix to have higher TCO levels? For example, 37 millimoles 
without Lasix compared to 39 millimoles with Lasix.
    Mr. Martin. Senator, I can't answer for those specific 
states that have not adopted the RCI Model Rules.
    Senator Udall. Could you answer that for me for the record?
    Mr. Martin. I can't answer that for those specific states 
as to why they've not adopted the RCI Model Rules. I think 
that's a question that they should address.
    The ideal situation will be to have a uniform level at 
which a drug positive is called across the system. We advocate 
for that. We are involved with the Racing Medication and 
Testing Consortium.
    We are supportive of the approach the Jockey Club has 
recommended to two classifications, substances that belong in a 
horse and substances that don't belong in a horse.
    We feel that if we could get all the labs calling positives 
at the same level, and provide consistent guidance, that would 
be a positive thing for the industry. And it would eliminate 
any misunderstanding about what the rules are and whether 
you're tripping the wire or not.
    It doesn't necessarily solve some of the larger resource 
issues, but we do believe that would be an important thing to 
achieve.
    Senator Udall. Mr. Paulhus, claiming races were developed 
to encourage a level playing field, yet claiming races can 
create an incentive to race an injured or compromised horse, 
not in the hope of winning the race, but simply to sell the 
horse to a unwitting buyer.
    Trainer Doug O'Neill was criticized for running an 
apparently injured horse, Burna Dette, for an untimely death in 
a $2,000 claiming race at Los Alamitos. Hereportedly responded 
to race media criticism by saying: ``My owners treat this as a 
business. I love my horses, but they're not pets. We don't have 
the luxury of turning them out for a year. It's better to just 
run them where we think they belong.''
    Should all horses in claiming races be tested for drugs 
rather than just the winner and one other horse? And are other 
rules necessary to prevent claiming races from being used as a 
dumping ground for crippled horses, such as limiting purse 
prizes to the claiming prices of horses in the race?
    Mr. Paulhus. Claiming races account for the majority of 
races at racetracks, and, typically, they're horses of lower 
value and oftentimes with more physical ailments than you'd 
find in your higher grade horses.
    Legal medications, what we're referring to here as 
therapeutic medications, are used to manipulate the performance 
of horses either by the administration or the withdrawal of 
them. Allowing horses to not race with medications can affect 
their performance. They'll do worse. It'll change the odds.
    So, for example, if they're trying to build a horse's 
losing streak and then give it therapeutic medication at a 
later state so that it runs better, that can be a little trick 
that some race fixers have used in the past, and then they bet 
money off track with the bookies.
    My concern is that those horses, the less expensive horses, 
the cheaper horses, are regularly medicated because they're in 
bad shape. And they lose class. They may have start out as a 
good horse, but the repeated insults to thejoints degrades the 
horse's ability, and eventually they just don't run as well. 
You need more and more drugs.
    Senator Udall. Dr. Lyons, do you have any comment on that?
    Dr. Lyons. I would like to see every horse in every race 
tested. So, certainly, I do think that there is more incentive 
for drug abuse in the claiming races. So if that were possible, 
I'd love to see every horse in the race tested.
    Senator Udall. Thank you.
    Please, Mr. Martin?
    Mr. Martin. Senator, I think probably most racing 
commissioners would love to see every horse in the race tested. 
That comes down to a question of resources and appropriation. 
But I do want to echo----
    Senator Udall. Mr. Martin, you mentioned the resources, and 
you're very familiar with this. And I think most of the people 
on both of these panels know this. The states subsidize racing 
to a substantial degree. I mean, I know my home state very 
well--$50 million that goes into the purses.
    Now, if states want to do the policing, want to do the 
things that we heard about today, the enforcement. People 
talked about the FBI and DEA and all of that kind of 
enforcement. They can do what other people have done in 
gambling. As you all know in Las Vegas, Nevada, they have some 
of the toughest regulation, because they put the resources 
behind it.
    And so I just don't buy the resource side of this when you 
have $50 million in subsidies in my small little State of New 
Mexico that you could peel off part of that and then do this 
right. Or bigger states, it's much bigger than this $50 
million, $100 million, $200 million, whatever it is.
    And so I know you criticized earlier in saying, you know, 
well, the bill doesn't do anything about resources. What we're 
trying to do is set a national standard and then put it back on 
the racing commissions and on the states to really do the right 
thing here.
    But you know one of the things I want to say to all of you 
at this hearing, that the other comments that I'm hearing--I 
mean, I'm trying to move forward proactively with a bill that 
would make a difference on this from listening to people in the 
industry.
    But there are a lot of people that say why should the 
Federal Government even be involved in this? I've had Senators 
come up to me and say you mean we did this IHA, and they're 
doing all of this racing, and they're making quite a bit of 
money from it? Why don't we just repeal the IHA and let it go 
back to the states?
    So I think you're going to see some folks coming from that 
direction on you. And the thing that I really want to see, and 
the reason we tried to have very balanced panels here and tried 
to bring all of you in, is to see if we can get some consensus 
and try to move forward to put a good, solid piece of 
legislation in place and send a strong signal, and then let 
your regulators out there that have been doing this for a long 
time take it seriously and actually get it done.
    And I think if we start with those principles of this 
Racing Improvement Act that we've got here--banning race-day 
meds, three strikes and you're out, and making sure that we had 
horses tested--that we would really come a long way toward 
moving down the road of cleaning up the industry, and getting 
us back to the glory days of racing, more people interested, 
more attendance, that kind of thing.
    Do you agree on the subsidies? I mean, there are a lot of 
subsidies, aren't there?
    Mr. Martin. You know, it would be great if the horseracing 
commissions had the ability to control their budgets. They 
unfortunately don't. And they're part of------
    Senator Udall. No, but the governors can work with the 
commission, as you well know, and every one of those states. We 
just saw one of the witnesses here reminded me in the last 
couple of days that New Jersey took the subsidies away and put 
them back down. I think this happened in Atlantic City.
    Governor Christie said we're not going to put our $30 
million in. We're going to give that money to some other thing. 
So you're going to see that kind of thing happening.
    But clearly, most of your regulators, are they not 
appointed by the Governor?
    Mr. Martin. They are, Senator.
    Senator Udall. Yes. And so the Governor working with the 
regulators I think would take a positive step here.
    Mr. Martin. The RCI has endorsed the concept of an 
interstate racing regulatory compact. And in the legislation 
that we've crafted in conjunction with the Council of State 
Governments, there is a funding mechanism by which the 
industry's investments in its integrity can be isolated from 
being shifted and diverted for non-racing integrity purposes.
    Unfortunately, what has happened in some states is the 
industry will pay fees for their regulation. But those fees 
will get diverted for other state purposes. We all realize that 
for government at all levels these have been trying times 
fiscally.
    Unfortunately, the racing commissions sometimes are not at 
the head of the line. So what we've tried to do is come up with 
a proposal, whereas those investments can be isolated.
    There was a situation in New York, Senator, where the 
Thoroughbred horsemen agreed to a per-start fee, $10 for every 
horse they start. And it was going to be used to augment drug 
testing at the lab, buy new equipment, and augment drug 
testing.
    And what happened was is they generated money, and the 
state budget director saw this money coming and decided to take 
an equal amount of the commission's appropriation now that they 
had this revenue. So we've got a whole constituency of horsemen 
who agreed to a new fee for a specific purpose, and it was 
diverted. And I'm sorry, that unfortunately is the reality 
sometimes.
    Senator Udall. Did you finish, Mr. Martin?
    The point I want to make, though, is just again, to make 
sure it's clear, is that there's plenty of money out there that 
is part of the mix, that could be put toward law enforcement, 
toward policing, to making sure that we do the kinds of things 
that folks are talking about here--doing the testing, having 
the people available to do the work that needs to be done to 
clean it up.
    And it may be a difficult decision. But governors, and 
racing commissioners, and the state legislatures need to get 
together and decide that they want to move forward and clean 
the industry up, and really grow the jobs.
    I mean, I think all of us think that these are jobs that 
people appreciate. And we want to bring the level of the 
industry up.
    Do you, Dr. Lyons, want to respond to the comments about 
Lasix? I know there were several comments that were heard, and 
I know that's something in your testimony.
    Dr. Lyons. Thank you, Senator. Yes, I would like to respond 
to that.
    I think this difference of opinion between myself and, 
specifically, Mr. Stirling really represents what I'm up 
against, and what veterinarians are up against when we go to 
work at racetracks.
    Mr. Stirling was a very successful racehorse trainer. And I 
know that he is well regarded in his position as an association 
leader. But Mr. Stirling is not a veterinarian. And I heard him 
testify that Lasix is not performance enhancing, it has never 
harmed a horse, and that it effectively treats exercise-induced 
pulmonary hemorrhage.
    Well, from my perspective as a doctor of veterinary 
medicine, who has treated these horses for nearly 30 years, I 
can tell you that Lasix is performance enhancing. Lasix has 
done a lot of harm to these patients.
    Lasix is a powerful diuretic where the mechanism of action 
is to remove necessary electrolytes from the horse's body. And 
it brings with it water, just by osmosis, through the kidneys. 
So you end up with a diuretic effect.
    So right before these horses go out to compete at the 
highest level of their capability, we are depleting them of 
essential electrolytes. We are dehydrating them. And I found 
over 200 peer-reviewed papers that link the increased risk of 
fracture to Lasix use.
    I did a pilot study myself to just test a hypothesis that 
Lasix was changing the blood test results in these horses. And 
I found a very close parallel between what is reported for the 
effect of EPO on athletes and Lasix.
    There's also a study that was published by researchers at 
New Bolton Center, and I intend to include that paper in the 
complete record at a later date.
    I believe that they studied over 1,000 horses, and they 
reviewed racing records, that it is very clear that it's a 
performance enhancement.
    And as a doctor, to try to manage these horses' health care 
when the trainers are able to indiscriminately, simply request 
the administration of this drug to my patients is a very 
difficult and ongoing battle.
    The other thing is that Lasix does not end the problem of 
exercise-induced pulmonary hemorrhage. EIPH, or bleeding into a 
horse's lungs, it's a symptom. It's a sign. It's not a specific 
disease in and of itself. And it can be caused by many 
different factors.
    So to simply say, ``This horse is a racehorse. A small 
percentage of racehorses have been known to bleed. So 
therefore, I'm just going to empirically decide to give this 
horse this drug,'' is completely against the standards and 
practice that regulate my profession.
    I can't justify it, especially in the fact that it not only 
does not effectively treat a disease that my patient probably 
doesn't even have, but is going to harm my patient at the same 
time.
    But I know that Mr. Stirling, and many of the passionate 
advocates for the continued use of this drug in all horses, 
believe what they're saying.
    But frankly, if a lie is told long enough over and over, it 
begins to sound like the truth. So for nearly 30 years, I have 
had to have these discussions with clients, and have to re-
educate them because the opinion is just not supported by the 
science.
    Senator Udall. You kind of remind me what Mark Twain used 
to say. He said, ``A lie gets halfway around the world before 
the truth puts on its boots.''
    [Laughter.]
    Senator Udall. And we see that a lot in our profession. And 
we see it in a lot of other places.
    So thank you all. We've gone past 5 o'clock. We started you 
at 2 o'clock. I know some folks have planes and everything.
    I think we've worked through an awful lot of the issues 
here.
    And I just want to say again, the reason we tried to have 
two panels and have them be very balanced and come from all 
aspects of the industry was to try to get people together and 
say now is the time to move forward and clean it up.
    And we want to continue to work with you. We're not 
claiming this--I am not an expert in this industry. I'm not an 
expert in terms of what's on the books out there at the state 
level, in every one of these states. But I'd like to see us 
work together to move forward so that this industry can grow, 
so that we can grow the jobs, so that it isn't as many--you 
know, you're not going to hear many folks come in here and say 
this is a dying industry.
    But I think that's what the worry is out there, what people 
talk about to me when I get out there and visit. And these are 
majestic, magnificent creatures. And all the people that work 
around them I think have a great deal of respect for them. And 
we've got to get back to that.
    So thank you very much. Thank you for coming. And the 
hearing is adjourned.
    [Whereupon, at 5:10 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Edward J. Martin
    Question 1. How do commissions internationally deal with the 
patchwork of rules and regulations around the globe for horse racing?
    Answer. There is an International Federation of Horse Racing 
Authorities (IFHA) that advocates for the harmonization of policies 
governing racing and breeding in much the same way that RCI (the 
Association of Racing Commissions International) advocates for adoption 
of our Model Rules by our members in the United States, Canada, Mexico, 
and the Caribbean. RCI is a member of the IFHA.
    A key issue affecting the domestic racing industry is the ability 
of foreign fans to wager on our domestic product. To that end, RCI has 
adopted standards for totalizator systems and is an active participant 
in the special technical committee meetings of U.S. racetracks and 
totalizator companies, the Thoroughbred Racing Association's 20/20 
committee. Our standards and policies are designed to facilitate the 
expansion of the U.S. racing product around the world, providing for 
seamless integration of wagering pools.
    Racing jurisdictions also attempt to honor suspensions and 
participation exclusions imposed by other racing jurisdictions, 
regardless of where they are. In some instances, racing commissions 
have been prevented by court action from honoring an exclusion imposed 
in a foreign nation if the racing authority in that country has been 
unable to share the evidence supporting their action. RCI is in the 
process of developing a protocol that might facilitate reciprocal 
suspensions with Canadian jurisdictions. I must note, however, that 
such an exclusion can result in court challenge and a court ruling 
overturning an exclusion is beyond the control of a racing commission.
    I have been told that an international agreement between nations 
might rectify this matter. My understanding is that this is a difficult 
path to pursue and can take many years to accomplish.

    Question 2. Do you feel that there is a consensus globally that the 
U.S. should change the way it regulates medication of horses around 
race events?
    Answer. There is a huge debate over the raceday use of furosemide 
that is allowed in racing jurisdictions in the United States and Canada 
and various other jurisdictions. This debate stems from a disagreement 
of whether to provide a therapeutic exemption for a raceday 
administration of a legal medication that has been proven to mitigate 
the effect of exercise induced pulmonary hemorrhage (EIPH). The 
medication in question, furosemide, has the potential to affect 
performance.
    In the interest of helping a horse combat EIPH, racing regulatory 
authorities permitted its raceday use under controlled circumstances 
approximately twenty years ago. Horses with furosemide are disclosed in 
the program for all to see.
    This is the only therapeutic exemption allowed by U.S. racing 
regulatory commissions and it is currently under review to assess 
whether it is in the interest of the horse to continue the exemption, 
whether there are unintended health consequences from its use, and 
whether requiring horses to run without it on raceday would have an 
adverse health effect. The racing industry in the United States is 
divided. Some think Europe has it right, others think America does.
    This is not an easy issue and those on both sides of it adhere to 
their position with much emotion.
    At issue is the concept of permitting the administration of a 
therapeutic medication to mitigate a condition on the day of the race 
under controlled circumstances. Therapeutic exemptions are permitted in 
the human Olympic Games although the prohibited substances, athletes, 
or specific contests are not disclosed.
    As reported this month in the Lexington Herald Leader, Dr. Kent 
Allen, the Foreign Veterinary Delegate at the 2012 Olympic Games in 
London indicated that there is also a mechanism to request a 
therapeutic-use exemption for horses just as for humans, although they 
have not provided an exemption for furosemide to treat EIPH.
    Racing regulators in the United States or Canada do not have a 
formal mechanism where participants can apply for a therapeutic use 
exemption for a prohibited substance. In twenty years, U.S. and 
Canadian jurisdictions have only allowed one exemption to mitigate 
EIPH.
    In U.S. racing, this one therapeutic use exemption is disclosed in 
the racing program for all to see. The public knows the horse, the 
race, and whether the horse has been treated with furosemide or not. To 
my knowledge, no other sport discloses to the public the athletes who 
compete or return after injury mid-game following a locker room 
treatment with substances that otherwise could affect performance.
    Some racing participants in the United States believe racing 
regulators should permit therapeutic use exemptions for other equine 
conditions. Racing regulators have shown no inclination to do that.
    This committee is considering proposed legislation that would 
remove this one therapeutic-use exemption in U.S. simulcast races. 
While that certainly is your prerogative, I would caution against any 
such action in the absence of clear and convincing scientific evidence 
indicating that such action would be in the best interest of the horse. 
Dr. Lyons has cited studies done on humans. The applicability of those 
studies to equines is a legitimate question that has yet to be answered 
to our satisfaction. State regulators have processes in place to assess 
these issues which we believe should not be determined in a political 
environment, despite the best of intentions of those who seek a 
legislative resolution to this ongoing and longstanding debate.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Barry Irwin
    Question 1. Do you think most horse owners are aware what 
medications their horses receive?
    Answer. No, I don't think most horse owners are aware of what 
medications their horses receive. Most will know if they receive an 
injection for Lasix. Many will assume that prior to the deadline before 
a race that their horses will be administered a dose of butazolidin. As 
for any other medications with which they may have been treated in the 
week leading up to the race, I think they would be in the dark.

    Question 2. In your experience, are trainers receptive to 
medication questions from owners?
    Answer. Trainers are receptive to medication questions from owners, 
although most trainers never receive these questions from owners 
because the owners are never advised by trainers what medications are 
given to their animals. In my experience, I have never had any 
resistance from a trainer in discussing medications.

    Question 3. Do you think it would help owners select trainers if 
they were aware of trainers' medication practices, history of rule 
violations, and racehorse fatality rates?
    Answer. Perhaps, but I think that most owners would only care about 
the stats relating to fatality rates. Most owners do not really care 
about rule violations. The simple fact is that most owners want to win 
and they don't care about a trainer's reputation that may be a result 
of too many rule violations. Furthermore, there is plenty of evidence 
that certain owners gravitate toward trainers that have a reputation as 
cheaters because these owners want to win at all costs.

    Question 4. Dr. Sheila Lyons' testimony recommends increasing 
veterinary record transparency. In Hong Kong, for example, one can find 
some vet reports online along with a horse's past performance chart. 
Could this type of disclosure help improve medication practices in 
American horseracing?
    Answer. I like the idea of having a record of all veterinary 
procedures and administration of drugs made available to racing 
authority and to owners of the horses, but not dissemination to the 
public, because I think that the information would be too confusing and 
unhelpful to horseplayers, who would most certainly focus on the report 
to the detriment of their own handicapping skills. Horseplayers on the 
whole are a particularly suspicious lot and they will undoubtedly place 
too much emphasis on the medical reports than post position or pace 
factors. I think a database where these filings could be accessed by 
interested members of the public might be a better idea, but putting it 
in the past performances of a horse would make them a focal point that 
would detract from their ability to successfully analyze races.

    Question 5. The Racing Medical Testing Consortium (RMTC) Recent 
Rulings website lists dozens of medication violations involving 
controlled substances including anabolic steroids, clenbuterol, 
narcotics, stimulants, etc. (see: http://www.rmtcnet.com/
content_recentrulings.asp). Such violations could possibly be the 
result of false positive test findings, environmental contamination, or 
the lawful administration of therapeutic medication within the current 
rules of horse racing. However, some of these violations may indicate 
the illegal use of controlled substances in horseracing. Should state 
racing commissions report medication violations involving controlled 
substances to the Drug Enforcement Administration (DEA)?
    Answer. If the Drug Enforcement Administration would offer its 
assistance in cases that are deemed to be legitimate instances of 
possible rule infractions, I think this would be very helpful, as any 
scrutiny or subsequent convictions would serve as a powerful deterrent 
to future crimes.

    Question 6. In the Gregory Martin case, a U.S. district court found 
that ``breaking the rules of [a] horserace by doping a horse . . . 
violates fundamental notions of honesty, fair play and right dealing 
and is therefore an act within the meaning of a `scheme to defraud' '' 
under the wire fraud statute, 18 U.S.C. Sec. 1343 (see United States v. 
Martin, 411 F. Supp. 2d 370, 373 (S.D.N.Y. 2006)). The court explained 
how this type of race fixing harms those who place parimutuel wagers on 
non-doped horses. Since winning bets are paid shortly after a race, 
those involved in doping can potentially profit from parimutuel wagers 
even if racing authorities later find a medication violation that 
changes the official race result and redistributes purse prizes.
    Answer. How can state racing commissions or racetrack operators 
prevent someone who engages in such race fixing from profiting from 
parimutuel wagers? Pre-race testing can help to a certain degree, but 
some of the suspected drugs may either be designer drugs or drugs that 
are not known at the time of pre-testing, so these violations would 
surely go undetected. The best way to avoid these instances from 
occurring is for people that cheat to be rooted out of the sport to 
prevent these acts from being perpetrated again.

    Question 7. Do permissive medication policies in U.S. racing 
jurisdictions impact export sales of American racehorses in any way?
    Answer. Yes, the permissive medication policies in U.S. racing 
absolutely do negatively impact the sales of American racehorses, as it 
reduces the number of potential customers for our produce because 
foreign owners no longer trust the quality of the form of horses that 
achieved their greatest triumphs while racing with medication. This 
particularly holds true of stallion prospects.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Kent Stirling
    Question 1. Mr. Stirling, you serve on the board of the Racing 
Medication and Testing Consortium (RMTC). RMTC maintains an online 
``Recent Rulings'' list of medication violations which includes five 
ractopamine violations, (see: http://www.rmtcnet.com/
content_recentrulings.asp). The longest suspension for a violation 
involving ractopamine was just 6 months. The same website lists a 2010 
zilpaterol violation that led to just a 60 day suspension. Are these 
penalties sufficient to deter cheating with these drugs?
    Answer. Ractopamine and zilpaterol are ingredients in pig and 
cattle feed supplements used to add bulk weight before slaughter. I 
know of no reason either substance should be administered to horses. 
The Association of Racing Commissioners International (``ARCI'') 
assigns a Category A penalty for their use, which ranges from a minimum 
1 year suspension and $10,000 fine to a maximum 3 year suspension and 
$25,000 fine for a first time offender. I believe those penalties are 
sufficient to deter those who intend to cheat by using ractopamine and 
zilpaterol.
    However, the ARCI Category A penalty provides for a lesser penalty 
if there are ``mitigating circumstances.'' Such circumstances could 
include environmental contamination of horse feed and inadvertent use. 
Each case should be judged on its own after a fair hearing. I read 
about a number of ractopamine positives that were caused by a 
contaminated milling machine used to make both horse and pig feed. I 
also read that a Louisiana trainer received a reduced suspension of 60 
days because he was not aware the feed supplement he was using 
contained ractopamine.

    Question 2. Mr. Stirling, veterinarians who testified at the last 
two Congressional hearings on horseracing stated that furosemide 
(Lasix) is not effective at treating exercised induced pulmonary 
hemorrhage (EIPH) or ``bleeding.'' Dr. Greg Ferraro, the director of 
the Center for Equine Health at the University of California School of 
Veterinary Medicine, said at the House Committee on Energy and Commerce 
subcommittee hearing on April 30, 2012 that he once argued before state 
racing commissions in favor of permissive Lasix rules but now opposes 
its use as a raceday medication. Dr. Ferraro explained that Lasix is 
not a very good drug to control EIPH. He further stated that its 
permissive use over 40 years has hindered efforts to find an effective 
EIPH treatment and has ``done a detriment to the [Thoroughbred] 
breed.'' Dr. Lawrence Soma, an equine pharmacologist at the University 
of Pennsylvania's New Bolton Center, testified at a June 19, 2008 House 
Committee on Energy and Commerce subcommittee hearing that ``furosemide 
does not prevent bleeding, improves performance in some horses, [and] 
can dilute urine to compromise detection of drugs. . . .'' Given the 
statements of these veterinary experts on the use of furosemide as a 
raceday drug, please substantiate the claims in your testimony that 
Lasix: (1) ``is necessary to keep a healthy horse healthy;'' (2) 
``prevents and lessens bleeding;'' and (3) ``has been used effectively 
for nearly forty years.''
    Answer. In 2009 a group of international scientists published the 
seminal study of Lasix, based on 167 thoroughbred horses in racing 
conditions, showing conclusively the efficacy of the drug in preventing 
and lessening pulmonary hemorrhaging. Without Lasix horses were 3 to 4 
times more likely to have pulmonary bleeding, and 7 to 11 times more 
likely to have moderate to severe bleeding, when compared to horses 
treated with Lasix. See, Hinchcliff, Morley, Guthrie, Efficacy of 
furosemide for prevention of exercise-induced pulmonary hemorrhage in 
Thoroughbred race horses, J. Am Vet Med Assoc 2009, 235:76-82.\1\
---------------------------------------------------------------------------
    \1\ By letter dated July 24, 2012, I made a Supplemental Submission 
on behalf of the NHBPA for the record of the July 12, 2012 hearing on 
``Medication and Performance-Enhancing Drugs in Horse Racing'' that 
included four exhibits. That Supplemental Submission is appended to 
these responses as Attachment A. The Hinchcliff study cited in the 
above text is Exhibit 1 to Attachment A.
---------------------------------------------------------------------------
    The Hinchcliff et al study was a main focus of the ``International 
Summit on Race Day Medication, EIPH, and the Racehorse'' held at 
Belmont Park on June 13-14, 2011. The meeting was sponsored by the 
Racing Medication and Testing Consortium, the American Association of 
Equine Practitioners (``AAEP''), and the National Thoroughbred Racing 
Association. I attended that meeting along with representatives from 
all the major racing countries in the world. After review and 
discussion of the Hinchcliff study not one of the distinguished science 
and veterinary panelists contended Lasix was ineffective in treating 
pulmonary bleeding.
    I do not know if Dr. Greg Ferraro attended the Belmont meeting, but 
I assume he was unaware of the Hinchcliff et al study when he opined 
that ``Lasix is not a very good drug to control EIPH.'' Dr. Lawrence 
Soma's similar opinion was voiced by him a year before the Hinchcliff 
study, and 4 years before the Belmont summit. I doubt very much that 
Dr. Soma holds that same opinion today.
    It is also worth noting that the AAEP, which has about 10,000 
veterinary members, endorses the efficacy of Lasix. The AAEP publicly 
stated that:

        In the absence of a more effective treatment or preventative 
        medication for EIPH, the AAEP supports the use of Lasix as the 
        only medication that should be allowed on race day. . . .

        EIPH increases with age and exercise. One of the true values of 
        furosemide is that the medication can be used to diminish or 
        modulate the progressive pathologic change in lungs that leads 
        to repetitive bleeding. Regarding the effectiveness of Lasix in 
        reducing EIPH . . . the 2009 study conducted by Hinchcliff, 
        Morley and Guthrie found that pre-race administration of 
        furosemide decreased the incidence and severity of EIPH . . . 
        [and] currently serves as the most definitive research on the 
        effectiveness of Lasix in reducing EIPH.

    See, Attachment A, Exhibit 4, Letter of AAEP President John S. 
Mitchell, DVM, to John Sabini, Chairman, New York State Racing & 
Wagering Board, dated May 14, 2012.

    Question 3. Last year William Koester, then Chair of the 
Association of Racing Commissioners International (RCI), called for a 
phase-out of raceday medication. A March 28, 2011 RCI press release 
(available at: http://www.arci.com/news
item.asp?story=1047) quotes Mr. Koester as saying that:

        ``Today over 99 percent of Thoroughbred racehorses and 70 
        percent of Standardbred racehorses have a needle stuck in them 
        4 hours before a race. That just does not pass the smell test 
        with the public or anyone else except horse trainers who think 
        it necessary to win a race. I'm sure the decisionmakers at the 
        time meant well when these drugs were permitted, however this 
        decision has forced our jurisdictions to juggle threshold 
        levels as horseman become more desperate to win races and has 
        given horse racing a black eye.''

    Does the fact so many American Thoroughbreds race on Lasix indicate 
that this drug is overused?
    Answer. No, Lasix is not overused. Those who contend otherwise fail 
to understand its prophylactic or preventative efficacy. Lasix can help 
prevent horses from bleeding even if they have not bled in the past, 
and for that reason is given to young horses.
    After Mr. Koester's departure as ARCI's Chair, the organization 
adopted a Model Rule permitting race day administration of Lasix, with 
the proviso that it be administered by a state regulatory veterinarian 
and not a private veterinarian.

    Question 4. If a horse is not fit or sound enough to race without 
raceday medication, should that horse be raced in the first place?
    Answer. A horse not fit or not sound should not race. Lasix, with 
minor exceptions in some jurisdictions for adjunct bleeder medication, 
is the only race day medication permitted in U.S. thoroughbred racing. 
Lasix does not enable an unsound or unfit horse to race.

    Question 5. Mr. Stirling, your testimony states that horse 
``doping'' should be defined narrowly to include what RCI considers 
``Class 1'' and ``Class 2'' drugs. You state that other drug test 
positives involving Class 3 drugs, for example, ``generally indicate 
overdoses of therapeutic medication.'' You further explain that 
``[t]herapeutics are permitted in race horses and have little or no 
likelihood of affecting performance.'' Yet RCI's classifies anabolic 
steroids and clenbuterol as ``Class 3'' drugs. Could any violations 
involving ``Class 3, 4, and 5'' drugs possibly be considered 
``doping,'' or attempts to cheat by, for example, giving the drug on 
raceday or administering a higher dose than required for any legitimate 
therapeutic purpose?
    Answer. I consider doping to be the deliberate use of a drug, in 
order to compromise the outcome of a race, which has no legitimate 
reason for being given to a horse. Class 1 and 2 substances, for the 
most part, are dope. Therapeutic medication, on the other hand, is not 
doping and is identified in ARCI classes 3, 4, and 5. No medication is 
lawfully permitted on race day in the U.S. except for Lasix, although a 
few states also permit the use of anti-bleeder adjuncts. If therapeutic 
medication, like common Class 4 anti-inflammatories such as 
phenylbutazone and flunixin, is given on race day I would consider that 
to be cheating. Cheating of that sort is detectable in post race 
testing because concentrations of therapeutic medication found in urine 
and plasma would be much higher than permitted threshold levels.

    Question 6. The United States v. Martin case (411 F. Supp. 2d 370, 
(S.D.N.Y. 2006)) involved a trainer accused of ``milkshaking'' a horse, 
or artificially elevating the levels of carbon dioxide to increase its 
endurance. The Federal judge described this practice as doping. The RCI 
model rules, however, do not consider ``milkshaking'' or total carbon 
dioxide (TCO<INF>2</INF>) violations to be ``Class 1'' or ``Class 2'' 
violations. Does NHBPA consider ``milkshaking'' or artificially 
elevating a racehorse's carbon dioxide levels to be doping?
    Answer. The Martin case cited above does not mention 
``milkshaking'' or conclude that it is ``doping.'' Nonetheless, I 
believe doping includes any deliberate attempt to affect the outcome of 
a race by ``milkshaking'' a horse to increase its carbon dioxide level.

    Question 7. RCI's Model Rules (available at http://www.ua-rtip.org/
sites/ua-rtip.org/files/modelrules_5.1.docx) classify total carbon 
dioxide (TCO<INF>2</INF> or ``milkshaking'') violations in its 
``Category B'' penalty scheme. For a third offense in a 365-day period, 
RCI's model rule recommends a minimum 60-day suspension absent 
mitigating circumstances and a minimum fine of $2,500 absent mitigating 
circumstances. Of the dozens of TCO<INF>2</INF> violations published on 
the RMTC Recent Rulings website, at least eight such violations are 
described as either second or third offenses. Is the RCI model rule for 
total carbon dioxide adequate to deter a trainer from incurring 
multiple lifetime violations?
    Answer. Yes.

    Question 8. According to news reports, trainer Doug O'Neill has had 
more than a dozen medication violations, including at least three 
lifetime total carbon dioxide (TCO<INF>2</INF>) violations in 
California and Illinois. In a fourth TCO<INF>2</INF> case dating to 
2010, the California Horse Racing Board (CHRB) and O'Neill reached a 
settlement earlier this month (available at: http://www.chrb.ca.gov/
Board/admin_actions/oneill
_agreement.pdf). Under this settlement, O'Neill will pay a $15,000 fine 
and serve a 40 day suspension. O'Neill will be suspended during only 1 
week of the glamorous and lucrative Del Mar race meet, instead serving 
most his suspension during the Fairplex Park race meet in September. A 
July 9, 2012 Daily Racing Form article reports that his assistant 
trainer will run the barn while he is on suspension (see: http://
www.drf.com/news/o%E2%80%99neill-drop-appeal-ban). Presumably, horses 
in O'Neill's barn will thus be able to race during his suspension. 
Given your testimony that NHBPA's policy is that ``[r]epeat offenders 
should be severely penalized, including permanent exclusion from the 
industry,'' do you believe that a 40 day suspension and $15,000 fine is 
an adequate penalty for a fourth lifetime TCO<INF>2</INF> violation?
    Answer. I do not know the facts and circumstances of Doug O'Neill's 
TCO<INF>2</INF> violations. For that reason it is difficult to comment 
on the adequacy of the penalty. I do know that in assessing penalties 
``mitigating circumstances'' and ``aggravating circumstances'' are 
often taken into account. That may have been the case in California. I 
read the California Horse Racing Board, in suspending and fining Doug 
O'Neill, concluded there was no evidence Doug O'Neill was guilty of 
``milkshaking'' his horse.

    Question 9. In the United States v. Martin case (411 F. Supp. 2d 
370, 373 (S.D.N.Y. 2006)), a Federal judge found that ``breaking the 
rules of [a] horserace by doping a horse . . . violates fundamental 
notions of honesty, fair play and right dealing and is therefore an act 
within the meaning of a `scheme to defraud' '' under the wire fraud 
statute, 18 U.S.C. Sec. 1343. Given the possibility that racehorse 
doping incidents could be part of race fixing schemes that constitute 
wire fraud, should state racing commissions report medication 
violations to the Federal Bureau of Investigation (FBI)?
    Answer. As I pointed out in my written statement to the Committee 
in the 3-year period from 2009 through 2011 only a tiny percentage 
(0.73 percent) of hundreds of thousands of post race drug tests was 
positive. Even so the vast majority of those positives were for 
overages of legitimate Class 3, 4, and 5 therapeutic treatment 
medications. At the same time, according to ARCI data, only 82 tests 
(less than 3/100ths of 1 percent) were positive for Class 1 and 2 drugs 
that generally had no business being in a horse. I do not object to 
state racing commissions reporting Class 1 and 2 violations to the FBI. 
On the other hand, no useful purpose would be served by reporting Class 
3, 4, or 5 violations.

    Question 10. Mr. Stirling, you stated during the hearing that 
``clenbuterol is probably the best drug that has come out in the last 
thirty years . . . [but] unfortunately people are abusing it.'' Hall of 
Fame trainer Jack Van Berg said during a TVG Racing Roundtable on 
``Medication In Horse Racing,'' that ``clenbuterol is one of the worst 
things that happened to racing. I think they've killed more horses with 
clenbuterol; if you check the records, horses having heart attacks with 
that drug, as anything'' (see: http://www.youtube.com/
watch?v=EmzEtu2Yktc). According to the transcript of the August 25, 
2011 California Horse Racing Board meeting, trainer John Shirreffs 
spoke in favor of stricter clenbuterol rules for Thoroughbred racing 
since ``the same abuse they're talking about in quarter horses is 
occurring in thoroughbreds. . . .'' He added that this ``presents for a 
trainer a real moral dilemma because . . . if you're not giving it to 
your horse, then you're going to have a [worse] chance to compete. . . 
. And the side effects of it that have been mentioned over and over 
again are just not horse friendly'' (see: http://www
.chrb.ca.gov/Board/board_meeting_transcripts/TRANSCRIPT%2011-08-
25.pdf). The American Quarter Horse Association (AQHA) policy for 
clenbuterol is a recommended withdrawal time of 30 days prior to race 
day and a blood testing threshold level of 1-2 pg/ml of clenbuterol. To 
date, only New Mexico has such a rule for both Quarter horses and 
Thoroughbreds. Does NHBPA support prohibiting the administration of 
clenbuterol within 30 days of racing?
    Answer. Clenbuterol is a bronchodilator that allows a horse to rid 
its airways of mucus and debris, leading to a reduction in respiratory 
ailments. It is particularly useful with susceptible young horses. My 
statement about it echoed the opinion of Dr. Rick Arthur who at a 
public hearing of the California Horse Racing Board (``CHRB'') on 
January 18, 2007 said ``In my 30 years of practice I thought 
clenbuterol was one of the best therapeutic medications to come 
along.'' See, Attachment B. At another meeting of the CHRB on May 24, 
2012 Dr. Arthur said ``clenbuterol is a highly effective therapeutic 
drug for the treatment of small airway disease and should be allowed 
for horses that need it.'' See, Attachment C.
    The problem with clenbuterol is that it can be misused for its 
anabolic steroidal properties that promote muscle building, 
particularly with use of off-brand products not approved by the FDA. 
Recent testing in California suggested clenbuterol use was beyond what 
would be required to treat horses with breathing problems. For that 
reason the CHRB put in place for 1 year a rule prohibiting its use 
within 21 days of racing. Many other jurisdictions use 3 to 5 day 
withdrawal periods.
    I think clenbuterol abuse should be dealt with, but I am not sure 
how best to do it. Given its undoubted therapeutic quality I do not 
think a 30 day ban is the solution. Withdrawal times and threshold 
levels should be scientifically determined, and not be based on 
speculation or spur of the moment whims.

    Question 11. Mr. Stirling, during oral remarks you stated that the 
problem of ``stacking'' drugs is no longer a problem. Stacking refers 
to administering multiple types of drugs, typically painkillers, which 
can result in a racehorse receiving a powerful drug ``cocktail'' that 
does not test over the limit for any single drug's regulatory threshold 
level. An April 30, 2012 New York Times article titled ``Big Purses, 
Sore Horses, and Death'' describes the late Coronado Heights as ``a 4-
year-old thoroughbred who received a diagnosis of early degenerative 
joint disease, broke down and was euthanized on the track at Aqueduct 
on Feb. 25 [2012].'' According to the New York Times, Coronado Heights 
received 14 drug administrations in the week leading up to his last 
race, as illustrated in this graphic (available at: http://www.
nytimes.com/interactive/2012/04/29/us/one-horse-one-week-of-
injections.html):

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The New York Times graphic describes the 14 drug administrations 
given to Coronado Heights in the week leading up to raceday, including 
one methylprednisolone (corticosteroid), two phenylbutazone (NSAID), 
and two flunixin (NSAID) injections. Given the challenge of 
``stacking'' and other potential abuses of permitted therapeutic 
medications, would NHBPA support a requirement that veterinary records 
for racehorses be disclosed to the public?
    Answer. I testified that stacking is no longer a problem because it 
is generally prohibited by state rules, and is easily detected in post 
race tests. ARCI's model rule is typical:

        The presence of more than one of the three approved NSAIDs 
        [phenylbutazone, flunixin, ketoprofen], with the exception of 
        Phenylbutazone in a concentration below 0.5 micogram per 
        milliliter of serum or plasma or any unapproved NSAID in the 
        post-race serum or plasma sample is not permitted. The use of 
        all but one of the approved NSAIDS shall be discontinued at 
        least 48 hours before post time for the race in which the horse 
        is entered.

    See, ARCI-011-020 E (1)(c), Medications and Prohibited Substances.
    I do not think it appropriate to publicly disclose veterinary 
records of race horses without an accompanying explanation by the 
treating veterinarian. Based on my experience as a trainer I think it 
is inaccurate and inappropriate to draw conclusions about a horse's 
health or soundness by looking at treatment records without examining 
the horse and knowing its history.

    Question 12. According to data from Equibase race charts, the horse 
Coronado Heights had a claiming price of $16,000 when he finished last 
in a January 12, 2012 race at Aqueduct racetrack. In his next race on 
February 25, Coronado Heights had a much lower claiming price of 
$7,500. According to the New York Times, Coronado Heights received 14 
injections in the week before this race and broke down. 
(see: http://www.nytimes.com/interactive/2012/04/29/us/one-horse-one-
week-of-injections.html). Does the example of Coronado Heights--who 
finished poorly in a race, was subsequently offered for sale in a 
lesser quality claiming race, and received more than a dozen injections 
in the week before that race--illustrate how therapeutic medications 
could potentially be abused to allow a horse with unsoundness problems 
to race?
    Answer. No, it does not. Coronado Heights, was owned by Starlight 
Racing, a prominent stable that regularly competes in the Kentucky 
Derby and the Kentucky Oaks, and trained by Todd Pletcher, one of the 
country's top trainers. These are not the connections one associates 
with abusing horses.
    The racing pattern for Coronado Heights was not out of the 
ordinary. His first start was in a six furlong maiden claiming race at 
Aqueduct on January 12, 2012. The purse was $25,000 and the claiming 
price was $12,500. Coronado Heights won that race. On February 2 the 
horse stepped up in competition by racing for a higher purse ($30,000) 
at a higher claiming price ($16,000) and at a longer distance (a mile 
and seventy yards). According to the chart the horse was 
``headstrong,'' and after leading in the early stage faded back to 
finish last in the longer race. In its third race at Aqueduct Coronado 
Heights dropped back to six furlongs in a $7,500 claiming race, close 
to the conditions under which he first won. Unfortunately, Coronado 
Heights broke down in the race.
    However, there is no justification for concluding, as the New York 
Times did, that the horse broke down because it was unsound and abused 
with therapeutic medication. It is not unusual for a horse to receive 
anti-inflammatory medication and synthetic joint fluid, as well as 
vitamins and minerals, between races. All are lawfully administered by 
veterinarians who provide regular care for race horses.
    This past winter's Aqueduct meet experienced an unusual number of 
fatalities, including that of Coronado Heights. Potential causes are 
being investigated by a task force of industry leaders. Most trainers 
know that winter racing on Aqueduct's inner track surface is tough on 
horses. The task force report is expected shortly.

    Question 13. Dr. Rick Arthur, the California Equine Medical 
Director, wrote that ``horses entered to race have been documented as 
having received four different corticosteroids 2 days before racing and 
within current racing rules on top of multiple intra-articular 
corticosteroid injections a few days earlier'' (see: Arthur, Rick M. 
``Welfare Issues in Horse Racing.'' in Equine Welfare, First Ed. Edited 
by McIwraith, C. Wayne and Bernard Rollin. Blackwell Publishing, 2011: 
237). Should the rules of racing allow such ``stacking'' of multiple 
drug administrations in the days leading up to a race?
    Answer. As I stated above, current rules prohibit stacking.

    Question 14. In an article on ``Welfare Issues in Horse Racing,'' 
Dr. Rick Arthur wrote that ``[t]here is a real incentive to race horses 
in a claiming race when they have begun developing unsoundness 
problems'' (Equine Welfare, First Ed. Edited by McIwraith, C. Wayne and 
Bernard Rollin. Blackwell Publishing, 2011: 239). A New York Times 
analysis of more than 150,000 race charts from 2009 through 2011 found 
that ``[l]ower-tier claiming races are more dangerous for cheaper 
horses'' than higher class races (see: ``For Horse and Jockey, Risks 
Vary by State.'' New York Times. March 24, 2012. available at: http://
www.nytimes.com/interactive/2012/03/24/us/for-horse-and-jockey-risks-
vary.html). Presentations by a former director of the Racing Medical 
and Testing Consortium (RMTC) state that abuse of corticosteroids, 
``particularly intra-articular, is significant anecdotally especially 
in claiming horses'' (see: Waterman, Scot. ``Drug Testing in the United 
States.'' Presentation to Racing Officials Accreditation Program (ROAP) 
Stewards. Jan. 21, 2011. available at: http://www.rmtcnet.com/
resources/RMTC_ROAP_School_Presenta
tion_1-26-11.ppt and Waterman, Scot. ``Update on Medication Issues.'' 
Presentation. Sept. 21, 2009. available at: http://www.rmtcnet.com/
resources/Stewards_CE-Wash_9-21-09.ppt). What regulatory changes, if 
any, would NHBPA support to improve the safety and integrity of 
claiming races?
    Answer. I can think of two I would recommend. Pre-race veterinary 
examinations on race day of all horses entered to run that day should 
be made mandatory at all tracks. Also, there should be a reasonable 
relationship between the claiming price of a race and the size of the 
purse for that race. For example, a $5,000 claiming race should not 
have a $40,000 purse.

    Question 15. Mr. Stirling, your written testimony includes a chart 
summarizing drug testing results from 2009-2011. However, my 
understanding is that not all state racing commissions send every test 
sample collected from horses to a lab to be tested. Moreover, at least 
one state racing commission admitted to the New York Times that it did 
not have its samples tested for one drug, phenylbutazone, due to a lack 
of sufficient funding. The testimony of Mr. Jeffrey Gural about the 
example of harness trainer Luis Pena, who is accused of more than 1,700 
medication violations despite never having a positive test, also seems 
to highlight potential shortcomings in current testing practices. Given 
these concerns about the ability of current testing practices to 
identify medication violations, can you provide more information to 
substantiate that the test results in your chart disprove the New York 
Times' ``dramatic allegations of widespread drug misuse?''
    Answer. My chart is based on information reported to the ARCI by 
its state racing commission members. It tracks the same 3 year period 
from 2009 through 2011 used by the NYT in its March 25, 2012 article 
claiming ``widespread drug misuse''. The chart lists testing data by 
state and by drug classification, as described in my answer to question 
9, above. The data show that during the 3-year period, encompassing 
139,920 thoroughbred races, 99.27 percent of 279,922 post race tests 
were negative for drugs of any sort, including overages of lawful 
therapeutic medication and drugs having no business being given a horse 
other than cheating. No one can fairly characterize a less than 1 
percent violation rate over a 3-year period as ``widespread drug 
abuse.''
    Similarly relying on ARCI data for the same 3 year period, on 
average 5,800 thoroughbred trainers were licensed each year. On average 
only 12 of them were guilty of doping with substances having no 
business being given a horse (i.e., Class 1 and 2 substances). To put 
it in perspective, 99.8 percent of all trainers did not cheat with 
drugs.
    In contrast, without furnishing data of any sort to support its 
claim the NYT asserted trainers were caught ``illegally drugging horses 
3,800 times''. The NYT did not present violation information by state 
and drug classification, did not put that alleged number in context 
with the total number of drug tests, and did not distinguish between 
drug positives in thoroughbred and quarter horse racing. The NYT did 
admit the ``bulk of the 3,800 violations'' were for ``prescription drug 
violations,'' meaning overages of lawful therapeutic medication 
administered by veterinarians.
    Responding to the observations prefacing the above question, I am 
not aware of any state racing commission that fails to send all post 
race thoroughbred samples for laboratory testing. If a state did not 
test samples I am sure I would have learned about it at some point in 
my many years of service as Chairman of the NHBPA's Medication 
Committee and as a member of the RMTC Board of Directors.
    The NYT's report of a state's ``admission'' that it did not test 
for phenylbutazone may have referred to the New Mexico racing 
commission, at least based on my reading of NYT's March 25, 2012 
article. If so, the reported ``admission'' is inaccurate, at least to 
the extent it refers to testing thoroughbreds as opposed to quarter 
horses. According to data furnished the NHBPA by the ARCI, which is the 
basis for my chart, the New Mexico racing commission reported 
medication violations to ARCI involving phenylbutazone, and its 
metabolite oxyphenbutazone, based on post race test results in 
thoroughbred races at Zia Park on November 10 and 14, 2009, and at 
Sunland Park on January 10, 2010. Obviously, New Mexico was testing 
thoroughbreds for phenylbutazone.
    Finally, I am only slightly familiar with the case of harness 
trainer Luis Pena because it involves standardbred horses, known as 
trotters and pacers, which race by pulling sulkies around a track. I 
have spent nearly all of my life in the thoroughbred industry.
    Pena's case appears unique because the medication violations 
charged center on alleged administration by veterinarians of 
therapeutic medication to Pena's horses within a specific period, 
generally 48 hours before a race, which is prohibited in New York by 
statute. Pena was not charged with any drug violation based on post 
race positive test results, apparently because there were none. No 
other state that I know of has statutory withdrawal times like New 
York. All other states use post race drug testing to determine if on 
race day there is any concentration of drugs in a horse, above certain 
trace levels, that may affect performance on race day. If so, penalties 
are levied.

    Question 16. Mr. Stirling, your testimony argues that the New York 
Times' assertion that ``breakdown rates [in Britain] are half of what 
they are in the United States'' is not true. You cite data from the 
British Horseracing Authority and the U.S. Jockey Club indicating that 
the overall fatality rate per 1,000 starts is roughly equal in both 
countries. I would like to ask you to look closer at the data your 
testimony cites. Although the British Horseracing Authority reports its 
overall racehorse fatality rate as 2.0 per thousand runners, this 
includes many fatalities from jump (steeplechase) racing, which is more 
popular in the UK than in the U.S. In 2010, the British jump racing 
fatality rate was 4.0 per thousand runners compared to a flat racing 
fatality rate of 0.6 per thousand (see: http://www.britishhorse
racing.com/resources/equine-science-and-welfare/injuries-
fatalities.asp). Based on data from the Equine Injury Database, the 
Jockey Club reports that American racing has a fatality rate of 1.88 
per thousand starts (see: http://jockeyclub.com/
mediaCenter.asp?story=546). Even using the racehorse fatality data from 
the Equine Injury Database--which does not include all tracks and does 
not count race-related fatalities that occur more than 72 hours after 
the date of the race--U.S. horseracing appears to have a much higher 
fatality rate than comparable flat racing in the United Kingdom. This 
graph uses 2010 fatality rate data from the British Horseracing 
Authority and The Jockey Club Equine Injury Database to illustrate the 
differences:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    By comparing British flat racing to American racing, one finds that 
U.S. fatality rates are much higher. Although the overall U.S. data 
from the Jockey Club may include some small percentage of steeplechase 
racing, my understanding is that such jump races are conducted on turf 
courses and thus would not be included in the U.S. rates for dirt and 
synthetic surfaces, which are shown separately above. Given a closer 
analysis of the available data, could you clarify your assertion about 
horse racing fatality rates in the UK compared to the U.S.?
    Answer. The above graph is not quite accurate because it compares 
2011 UK data, misidentified as 2010 data, with 2010 U.S. data. The 
actual 2010 UK fatality data, set forth at the British Horseracing 
Authority web address identified above, is about 25 percent higher than 
the graph indicates. Nonetheless, it is difficult to accurately compare 
flat racing fatality rates in the U.S. and the UK in any meaningful 
fashion because we race on different surfaces and on courses that vary 
greatly in design and layout.
    In the UK nearly all racing is on the turf, often going right 
handed on irregularly shaped courses that are not level. There is 
virtually no dirt racing. In the U.S. racing is on level, left handed, 
oval dirt tracks (actually a combination of sand, clay, and loam), with 
little turf racing. Even limiting the comparison to turf racing is 
difficult because not all turf is the same. Our turf courses are much 
firmer and harder than English and Irish courses, which tend to be soft 
and easier on horses' legs. Also, most U.S. racing is at sprint 
distances less than a mile, which according to Jockey Club data have 
higher fatality rates than longer races. In the UK most races are at 
distances of a mile or more.
    Many in our industry think the main cause of musculoskeletal 
related fatalities is track surface. I agree. In the U.S. many tracks 
reportedly are hard, uneven, and inconsistent. In the interest of horse 
safety and welfare we should spend more time and money resolving that 
issue rather than arguing about Lasix.

    Question 17. Mr. Stirling, several companies publish ``past 
performance'' sheets with detailed data and statistics about 
racehorses, their trainers, and jockeys. Although such tools are used 
primarily by horseplayers, some horse owners also evaluate a trainer's 
win percentage when deciding which trainers to hire. In his article on 
``Equine Welfare Issues in Horse Racing'' from the 2011 book Equine 
Welfare, Dr. Rick Arthur writes that some trainers have higher horse 
fatality rates than others. Dr. Arthur further explains that ``[t]his 
has been recognized in horse racing, with little repercussion on the 
trainer because the relevant information is not readily available to 
the public.'' It seems to me that increased transparency could 
encourage better safety outcomes. Will National HBPA support a policy 
of publicly disclosing trainers' horse fatality rates?
    Answer. I favor transparency, and do not oppose public disclosure 
of such information, but a fair and meaningful system of objectively 
calculating comparable trainer fatality rates must account for numerous 
variables including: quality and quantity of horses in training as well 
as their sex, age, earnings, and racing experience; number of starts; 
race track surfaces; race conditions; purses; geographic location; and 
weather.

    Question 18. Mr. Stirling, your written testimony states that the 
NHBPA ``strongly takes issue with on-going misstatements in the public 
media'' about the horseracing industry. Your written statement counters 
claims made in recent New York Times articles about horseracing:

        Based on a purported analysis of Equibase charts the [New York 
        Times] reported an [injury] ``incident rate'' of 5.2 per 
        thousand starts for 2009-2011, which included both quarter 
        horses and thoroughbreds. A subsequent Thoroughbred Times 
        analysis of the same charts found a 4.03 per thousand incident 
        rate for thoroughbreds.

    Did the Thoroughbred Times use the same methodology as the New York 
Times in its analysis ``of the same charts'' for Thoroughbred races? 
What assumptions did the Thoroughbred Times use in its calculation of 
injury incident rates based on Equibase charts?
    Answer. The Thoroughbred Times (``TT'') methodology for calculating 
thoroughbred ``incidents'', as described in its April 7, 2012 issue, 
was the same as that of the New York Times (``NYT''). NYT's 5.2 
incident rate, however, included quarter horse data. TT's 4.03 did not. 
Both publications considered chart phrases like broke down, lame, and 
vanned off to be incidents. TT went further in its analysis by 
adjusting downward its thoroughbred incident rate from 4.03 to 3.39 per 
1000 starts by discounting horses that returned to racing after 
experiencing an incident. In short, TT's 3.39 incident rate was 35 
percent lower than NYT's 5.2 incident rate.

    Question 19. During the 25th anniversary of the Interstate 
Horseracing Act of 1978 (IHA), NHBPA published an article in its 
Horsemen's Journal about this Federal law (see: http://www.hbpa.org/
HorsemensJournalDisplay.asp?section=3&key
1=2391). This 2003 article states that:

        It is perhaps impossible to tabulate all that the Interstate 
        Horseracing Act of 1978 has meant to horsemen. Financially, it 
        has meant ``millions upon millions,'' according to [Ned] Bonnie 
        [past general counsel for the HBPA].

    Has the horseracing industry, and trainers in particular, benefited 
from this existing Federal legislation regulating ``interstate commerce 
with respect to wagering on horseracing?''
    Answer. Yes, absolutely. Owners, trainers, breeders, race tracks, 
and a supporting agri-business industry responsible for thousands of 
jobs have benefited from the Interstate Horseracing Act of 1978 
(``IHA''). The IHA makes lawful interstate wagering on races at 
locations other than where a race actually takes place. This is known 
as simulcasting, which has greatly increased the economic size and 
impact of the racing industry. Today nearly 90 percent of all wagering 
in the U.S. is through various forms of simulcasting. A portion of the 
wagering handle generated by simulcasting goes to track owners. Usually 
an equal portion goes to purses for which owners and trainers compete. 
State and local governments also benefit because simulcast handle is 
taxed at their level.

    Question 20. Given NHBPA's position statement that ``the Federal 
Government has no experience or expertise in horseracing,'' should 
Congress get the Federal Government out of horseracing by repealing the 
Interstate Horseracing Act of 1978?
    Answer. Practically speaking the Federal Government is not actively 
involved in horse racing. The IHA permits states to engage in and 
regulate interstate simulcasting should they choose to do so. 
Simulcasting depends on agreements between state racing commissions, 
race tracks, and local horsemen's organizations. Under the IHA the 
Federal Government has no regulatory role in this process. Even so, the 
IHA should not be repealed because that would destroy the economic base 
of the industry.
                                 ______
                                 
                             Attachment: A
    National Horsemen's Benevolent & Protective Association
                                       Lexington, KY, July 24, 2012

Hon. Thomas Udall,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Supplemental Submission of the NHBPA for the Record of the July 12, 
            2012 Hearing on ``Medication and Performance-Enhancing 
            Drugs in Horse Racing''

Dear Senator Udall:

    The National Horsemen's Benevolent & Protective Association 
(``NHBPA'') respectfully submits this letter and accompanying exhibits 
for inclusion in the record of the U.S. Senate Committee on Commerce, 
Science and Transportation's July 12, 2012 hearing referenced above.
    In both my hearing testimony and written statement that I presented 
on behalf of the NHBPA at the Committee's hearing on July 12, 2012, I 
said Lasix (furosemide) effectively treats pulmonary bleeding in race 
horses, that it is not performance enhancing, and that its use is safe 
and does not harm horses.
    Dr. Sheila Lyons testified after me, and disagreed with my 
statements about Lasix. She said:

        ``. . . I know that Mr. Stirling and many of the passionate 
        advocates for the continued use of this drug in all horses 
        believe what they're saying, but frankly if a lie is told long 
        enough, over and over, it begins to sound like the truth so for 
        nearly 30 years I have had to have these discussions with 
        clients and have to re-educate them because the opinion is just 
        not supported by the science.''

    I would like to respond to Dr. Lyons by supplementing the Committee 
hearing record with some of the published science on which my testimony 
was based. Attached, as Exhibit 1, is the 2009 seminal study by a group 
of international scientists from Colorado State University (Dr. PaulS. 
Morley), the University of Melbourne (Dr. Kenneth W. Hinchcliff), and 
the University of Pretoria (Dr. Alan Guthrie) demonstrating 
conclusively the efficacy of Lasix. The study of 167 horses under 
racing conditions, funded in large part by the U.S. Jockey Club, found 
that administering Lasix before a race dramatically decreased the 
incidence and severity of pulmonary bleeding (``exercise induced 
pulmonary hemorrhaging'' or EIPH). Horses were 3 to 4 times more likely 
to have evidence of pulmonary bleeding without Lasix, and were 7 to 11 
times more likely to have moderate to severe bleeding without it.
    Attached, as Exhibit 2, is an earlier 2005 study by Drs. 
Hinchcliff, Morley, and others, demonstrating that pulmonary bleeding 
impairs the performance of thoroughbred race horses. The study noted 
more than 50o/o of horses evidenced pulmonary bleeding, and concluded 
that horses experiencing little or no bleeding were four times as 
likely to win as those that had moderate to severe pulmonary bleeding.
    Attached, as Exhibit 3, is an even earlier 1999 study by Drs. 
Hinchcliff, Morely, and others, showing a positive relationship between 
the use of Lasix and a horse's superior performance. Hinchcliff and 
Morley were unable to explain the optimal performance factor because, 
as stated in their paper, they had no scientific evidence in 1999 that 
Lasix reduced the prevalence of pulmonary hemorrhaging.
    Perhaps it is this early 1999 study that Dr. Lyons referred to when 
she claimed that Lasix was not effective, and enhanced performance. In 
any event, Dr. Lyons must be unaware of the 2005 work by Hinchcliff and 
Morley showing that bleeding impaired performance as well as their 
later 2009 study demonstrating Lasix effectively prevents and lessens 
bleeding. To state it plainly, scientific evidence of this sort 
establishes that Lasix is performance enabling, not performance 
enhancing.
    Dr. Lyons also claimed that she ``found over 200 peer-reviewed 
papers that link the increased risk of fracture to Lasix use.'' I would 
appreciate Dr. Lyons furnishing citations to those papers, as I imagine 
would your Committee. In my role as Chairman of the NHBPA's Medication 
Committee I make it a practice to stay current on scientific papers 
dealing with Lasix related equine issues. I am not aware of any such 
paper, let alone two hundred. I do know that in 5,000 necropsies over a 
twenty year period at the University of California at Davis there was 
no evidence that the bones of race horses were weakened or rendered 
less structurally sound because of Lasix use, and the UC Davis 
scientists are on record in this regard.
    In passing Dr. Lyons mentioned a ``pilot study'' she did on the 
effect of Lasix on blood test results. I assume that study was not 
published because I was unable to find it. In fact, using the PubMed 
search tool of the U.S. National Library of Medicine (National 
Institute of Health) for peer reviewed indexed research papers (PMID) 
and searching.'' Lyons horses suggests that Dr. Lyons has never 
published a PubMed Indexed Research paper while ``Hinchcliff horses'' 
yields 133 PMID citations, including the above articles.
    In closing, I would like to add for the record that the NHBPA, with 
30,000 owner and trainer members, is not the only industry group 
supporting the continued use of Lasix. So, too, does the American 
Association of Equine Practitioners, with 10,000 veterinary members 
worldwide, as reflected in a May 14, 2012 letter signed by its 
President, Dr. John S. Mitchell, a copy of which is attached as Exhibit 
4.
            Sincerely Yours,
                                             Kent Stirling.
    Copies of Exhibits retained in Committee files. Links to Exhibits 
below:

        Attachments: Exhibit 1, Hinchcliff, Morley, Guthrie, Efficacy 
        of furosemide for Prevention of exercise-induced pulmonary 
        hemorrhage in Thoroughbred racehorses, J Am Vet Med Assoc 2009 
        235:76-82. PMID:19566461 (PubMed-indexed for MEDLINE) Can be 
        found at: http://www.cleanhorseracing.com/Pdfs/Study-
        _JAVMA_Furosemide.pdf

        Exhibit 2, Hinchcliff, Morley, et al, Association between 
        exercise-induced pulmonary hemorrhage and performance in 
        Thoroughbred racehorses, J Am Vet Med Assoc 2005 227:768-774. 
        PMID:16178399 Can be found at: http://www
        .cleanhorseracing.org/Pdfs/
        javma%20%28Hinchcliff%29%202005%20227.pdf

        Exhibit 3, Gross, Morley, Hinchcliff, Wittum, et al, Effect of 
        furosemide on performance of Thoroughbreds racing in the United 
        States and Canada, JAm Vet Med Assoc 1999:670-675. 
        PMID:10476714 Can be found at: http://www.clean
        horseracing.com/Pdfs/
        1999%20Gross_Furosemide_thoroughbred_racing_
        1999.pdf
                                 ______
                                 
                               Exhibit 4
               American Association of Equine Practitioners
                                        Lexington, KY, May 14, 2012
Mr. John Sabini,
Chairman,
New York State Racing & Wagering Board
Schenectady, NY.

Dear Chairman Sabini:

    Thank you for the opportunity to submit comments regarding the use 
and regulation of Lasix in horse racing. Because our mission is to 
protect the health and welfare of the horse, the American Association 
of Equine Practitioners and its members have a unique understanding of 
exercise-induced pulmonary hemorrhage (EIPH), the evolution of EIPH 
treatment and its impact on the racehorse and the sport.
    In the absence of a more effective treatment or preventative 
medication for EIPH, the AAEP supports the use of Lasix as the only 
medication that should be allowed on race day. We do not support the 
use of adjunct bleeder medications due to lack of scientific evidence 
regarding efficacy. In order to address integrity issues related to 
race-day Lasix administration, the AAEP endorses the administration of 
Lasix by a regulatory veterinarian in a controlled setting.
    Beyond sharing the AAEP's longstanding policy on race-day 
medication, we would like to comment on the veterinary-themed 
questions, which have been posed by the NYSRWB as part of the public 
comment period.

  <bullet> EIPH increases with age and exercise. One of the true values 
        of furosemide is that the medication can be used to diminish or 
        modulate the progressive pathologic change in the lungs that 
        leads to repetitive bleeding. Regarding the effectiveness of 
        Lasix in reducing EIPH when administered prior to exertion, the 
        2009 study conducted by Hinchcliff, Morley and Guthrie found 
        that pre-race administration of furosemide decreased the 
        incidence and severity of EIPH in Thoroughbreds racing under 
        typical conditions in South Africa. This study currently serves 
        as the most definitive research on the effectiveness of Lasix 
        in reducing EIPH.

  <bullet> The racing industry should anticipate that other methods 
        will be employed to reduce the incidence of EIPH if a race-day 
        ban on Lasix is instituted. The practice of withholding food 
        and water from the horse in the days leading up to a race 
        should be expected. As doctors of veterinary medicine, we 
        believe that the detriments of withholding food and water to 
        the health and welfare of the horse far outweigh the current 
        concerns about race-day Lasix administration.

    The racing industry should also expect that unproven and perhaps 
        undetectable products will be used in an attempt to alleviate 
        EIPH on race day. Some of these products may include, but are 
        not limited to, herbal remedies, nutraceuticals, and compounded 
        medications that are not approved for use in the horse and have 
        no scientific merit of efficacy in treating EIPH. The potential 
        harmful side effects of some of these products to the horse are 
        a serious concern.

    In addition to ``over the counter products,'' the industry should 
        expect to see an increase in the use of bronchodilators, 
        adjunct bleeder medications, and calming products to help 
        reduce pulmonary hypertension and aid in controlling EIPH. None 
        of the aforementioned products have any scientific merit for 
        treating EIPH, and would only add to the industry's concern 
        about overmedication in racing.

  <bullet> Because a high percentage of horses that race experience 
        EIPH,regardless of competition level,the AAEP does not support 
        the use of Lasix in one class of horses while prohibiting it in 
        another. Medication policy should be applied uniformly.

    In conclusion,the AAEP cannot support a ban on race-day Lasix until 
an effective alternative for the treatment of EIPH is available for 
horses that compete. The issue of race-day Lasix use is extremely 
complex and certainly controversial, and the AAEP understands the 
racing industry's need to balance the care of the horse with the 
integrity of the sport. We are concerned, however, that the welfare of 
the horse has become devalued in this discussion by the political 
agendas of multiple interest groups within the racing industry. As 
veterinarians, our support must remain with using the best therapeutic 
medication currently available to treat a proven medical condition.
    Thank you for your consideration of our comments. The AAEP's goal 
is to serve as a resource for the racing industry, and we are aware of 
the NYSWRB's implementation of our claiming recommendation related to 
purse structure. If we can be of assistance going forward, we welcome 
the opportunity.
            Sincerely,
                                     John S. Mitchell, DVM.
                                 ______
                                 
                              Attachment B

 The Blood-Horse--Date Posted:1/1812007 8:44:04 PM, Last Updated:1/19/
                            2007 8:44:22 PM

           Clenbuterol, Steroids Dominate Southern Cal Talks

                             by Tracy Gantz

    The use of clenbuterol and the potential elimination of anabolic 
steroids were the primary subjects of two meetings Thursday at Santa 
Anita. California Horse Racing Board Chairman Richard Shapiro, 
executive director Ingrid Fermin, and equine medical director Dr. Rick 
Arthur met with trainers in the morning and veterinarians in the 
afternoon to update them on the CHRB's plans and to listen to 
horsemen's concerns.
    'We've seen a marked decrease in respiratory diseases since we've 
been administering clenbuterol therapeutically,'' Dr. Karen Valko said 
at the trainers' meeting. 'We're seeing far fewer incidences of pleural 
pneumonias and a significant decrease in lung X-rays.''
    After hearing trainers complain of abusing clenbuterol at its Jan. 
9 meeting, the CHRB medication committee had suggested a 28-
day.withdrawal period for the bronchodilator, effectively eliminating 
it from use for horses in training. However, after the Thursday 
meetings it appeared more likely that the Committee would recommend a 
72-hour withdrawal period and a switch to testing for the substance in 
blood rather than urine, a more precise means of testing. The 
veterinarian group endorsed those positions.
    There have been rumors that people have been administering 
clenbuterol within 90 minutes of post time, but Arthur said that blood 
tests can easily detect those types of administrations if they are 
occurring.He said at the trainers' meeting that recent blood tests the 
CHRB has been performing on horses racing in California indicate that 
only 14 percent of the horses showed any ``measurable levels'' of 
clenbuterol instead of the rampant overuse of the substance that has 
been alleged and none that would indicate race-day administration.
    Shapiro expressed concerns that clenbuterol's side effects include 
improved muscle mass and could be considered perform nce enhancing.
    ``Is it being used for competitive advantage or is it for the 
welfare of the horse?'' Shapiro asked during the trainers' meeting. He 
requested that trainers complete an anonymous questionnaire that 
surveyed whether they used clenbuterol routinely and whether they felt 
it was being abused.
    Valko explained that some of the clenbuterol studies that show 
increased muscle mass were conducted on cattle at much higher doses 
than anyone would use at the racetrack. She said that the physiology of 
horses and cattle differ and cautioned against drawing conclusions of 
how the medication would react in horses based OIJ cattle studies.
    Shapiro said that routine administration of clenbuterol, at about 
$300 per month, is expensive and that its elimination could reduce an 
owner's cost that would in effect raise purses 6 to 7 percent. Yet 
several people at the trainers' meeting proposed that an owner's costs 
could rise even higher if a racehorse developed severe respiratory 
problems without the medication or had to use more expensive 
alternatives.
    ``In my 30 years of practice, I thought clenbuterol was one of the 
bes.t therapeutic medications to come along,'' Arthur said.
    Several horsemen pointed out that horses kept in stalls instead of 
in grass paddocks or outdoor pens are especially susceptible to 
respiratory problems because of dust and environmental pollutants..
    ``Over half of our grooms work with masks (because of the air 
quality),'' said Aase Headley, wife of trainer Bruce Headley.
    Valko explained that while clenbuterol will not enhance a horse's 
normal airways, it allows a horse to rid his airways of mucus and 
debris, leading to a reduction in respiratory ailments. Several 
trainers said that it has decreased the incidence of bleeding in horses 
as well.
    Though much of the discussion at both meetings concerned 
clenbuterol, Shapiro, Arthur, and Fermin also reported about likely 
future restrictions on anabolic steroids. Arthur said that the national 
Racing Medication and Testing Consortium will probably be proposing 
restrictions on steroids and that California will work to establish 
testing guidelines to be ready for those changes.
    Arthur is proposing moving all anabolic steroids to Class 3 drugs, 
which would require purse redistribution, except for boldenone 
(Equipoise), stanozolol (Winstrol), nandrolone (Durabolin), and 
testosterone. Those would be made Class D medications, and the CHRB 
would issue warnings if those four exceeded established limits until 
national regulations are put into place.
    Shapiro told both groups that CHRB representatives would also meet 
with the board of California Thoroughbred Trainers and with California 
jockeys. ``We're trying to get every group involved in these issues,'' 
he said. Shapiro is a member of the CHRB medication committee, which is 
next scheduled to meet the morning of Jan. 23 prior to that day's 
regular monthly meeting of the entire CHRB.
                                 ______
                                 
                              Attachment C

 The Blood-Horse--Date Posted:5/24/2012 6:03:34 PM, Last Updated:5/25/
                            2012 9:17:11 AM

               CHRB Severely Restricts Use of Clenbuterol

                             by Jack Shinar

    The bronchodilator clenbuterol, possibly being misused for its 
anabolic steroid properties, will be severely curtailed for the next 
year at all California racetracks.
    The California Horse Racing Board, meeting at Belfair Hollywood 
Park May 24, approved a 21-day withdrawal period from the commonly used 
drug for any horse entered in a race. The move, which becomes effective 
with the start of the Del Mar summer meet July 18, will be in effect 
for one year.
    The delay in instituting the change will give horsemen a chance to 
adjust their medication regimen. The previous withdrawal period for 
clenbuterol was 96 hours.
    The board took the unanimous action under its emergency power rule, 
which allows it to circumvent the full rulemaking process that would 
have required a 45-day public comment period. It could institute a 
permanent rule change at a later date.
    The move follows the success of a similar suspension of clenbuterol 
use at Los Alamitos Race Course. A rash of positives for excess 
clenbuterol led regulators to believe that it was being used for muscle 
building in horses rather than simply to treat breathing problems.
    The ban was enacted after CHRB investigators confiscated brands of 
clenbuterol not approved by the U.S. Food and Drug Administration at 
Los Alamitos, primarily as a muscle-building agent. Since the 
suspension of clenbuterol in Quarter Horses was instituted last 
November, there have been no violations, the CHRB reported.
    ``The vet bills are lower, the horses are just as healthy, and it 
hasn't hurt field sizes at all,'' said Dr. Rick Arthur, the CHRB's 
equine medical director. ``It is also contributing to slower race 
times.''
    While there has been no comparable increase in the number of 
clenbuterol positives in Thoroughbreds, there is no doubt that use of 
the drug has been widespread, Arthur reported. Blood samples analyzed 
at the University of California-Davis equine testing facility through 
its out-of-competition and total carbon dioxide tests found that 53 of 
98 horse sampled between March 15-30 had the presence of clenbuterol.
    Thoroughbred horsemen are spending from $5 million to $7 million 
per year to have veterinarians treat their horses with clenbuterol, 
Arthur told the board.
    That indicates that usage is far beyond what would be required to 
treat only horses with breathing problems, he said after the meeting.
    ``I think that having more than 50 percent of horses testing 
positive for clenbuterol is stretching the limits of credibility,'' 
Arthur said.
    Arthur added, however, that clenbuterol is a highly effective 
therapeutic drug for the treatment of small airway disease and should 
be allowed for horses that need it.
    Lou Raffetto, president of the Thoroughbred Owners of California, 
said horsemen support the suspension of clenbuterol.
    ``We want to ensure that it's used for therapeutic purposes but at 
the same time not have a negative effect on California racing,'' 
Raffetto told the board.
    The old rule allowed clenbuterol to appear in post-race tests of 
Thoroughbreds up to a limit of five nanograms in urine and 25 picograms 
in blood. Arthur said the new standard would allow trace amounts of 
clenbuterol that would be in accordance with the 3-week withdrawal 
time. Trainers would face penalties if horses test in excess of those 
levels.
    Dr. Craig Shoemaker, a veterinarian appearing for pharmaceutical 
manufacturer Boehringer-lngelheim, urged the board to wait until UC-
Davis completes an ongoing study on the effects of clenbuterol before 
taking action. He said the study is expected to be released within the 
next 30 days.
    Shoemaker said he agreed with the board that non-FDA-approved 
``bathroom'' concoctions of the drug using far greater concentrations 
than needed ``should have no place in racing and we should do 
everything we can do to make those go away.''
    But he said the 21-day withdrawal period could lead to trainers 
running horses ``that would be racing in a compromised state.''
    California is following New Mexico, which instituted a one-year ban 
on clenbuterol in February.
                                 ______
                                 
     Response to Written Questions submitted by Hon. Tom Udall to 
                             James Gagliano
    Question 1. At the June 19, 2008 House Committee on Energy and 
Commerce subcommittee hearing on horseracing, then president of the 
Jockey Club, Alan Marzelli, was asked ``should all performance-
enhancing drugs, including steroids, all of them, be eliminated?'' He 
replied ``yes.'' Today, your testimony states clearly that the Jockey 
Club still believes ``horses should compete only when they are free 
from the influence of medication.`` If fully implemented through 
Federal legislation or adoption by 38 states, would the medication 
rules proposed in the Jockey Club's ``Reformed Racing Medication 
Rules'' document ensure that horses would compete only when free from 
the influence of medication?
    Answer. If the Reformed Racing Medication Rules (``RRMR'') are 
fully implemented in all racing jurisdictions they will provide racing 
regulators with the legal tools necessary to effect the changes needed 
for horses to compete only when they are free from the influence of 
medication. Having the right rules in place is part of the process of 
fixing the problem. Active, vigorous, and effective enforcement and 
testing together with a process to identify and detect newly created 
performance enhancing drugs also are necessary. Such enforcement 
activities are essential to the success of any form of race day 
medication legislation, including the proposed Interstate Horse Racing 
Improvement Act (the ``Act'').
    Please note that the RRMR provides thresholds for a limited number 
of valid and effective therapeutic medications and the use of these 
medications have been determined by experts not to influence horse 
performance at those levels. The RRMR bars all other substances. Under 
the RRMR, it will not be permissible for horses to be running ``under 
the influence'' of any medications.

    Question 2. How likely is it that all 38 state racing 
jurisdictions, which have never folly adopted RCI's model rules 
framework, will adopt the Jockey Club's ''Reformed Racing Medication 
Rules'' into their state racing regulations?
    Answer. We focus on the thirty-two jurisdictions that run 
Thoroughbred races because we are the breed registry for Thoroughbred 
horses. We are working diligently with those jurisdictions to adopt the 
RRMR. It is likely that if five to seven of the major racing 
jurisdictions (such as New York, California, Kentucky, Florida, 
Louisiana, Pennsylvania and Illinois) enact the RRMR that the remaining 
ones will follow suit. Nevertheless, it is specifically because it may 
be difficult to achieve the necessary changes through state regulation 
that The Jockey Club has stated its readiness to support the adoption 
of the RRMR as Federal law if action by states or an interstate compact 
proves unattainable within a reasonable time.

    Question 3. How likely is it that all 38 state racing jurisdictions 
will adopt an ``interstate compact'' to harmonize racing rules 
nationwide?
    Answer. Achieving adoption of the RRMR by all thirty-two 
Thoroughbred racing jurisdictions via an interstate compact may be 
difficult. However, we note that interstate compacts reflecting 
concerted efforts among states have resulted in significant successes; 
these include the compacts regarding the Mississippi River Basin, 
insurance products, the movement of parolees and habitual violators of 
state wildlife laws as a few examples. We will continue our efforts in 
this regard.

    Question 4. Your testimony states the Jockey Club's concern that 
the definition for ``performance-enhancing drug'' in the Interstate 
Horseracing Improvement Act is ``extremely vague'' and ``overly broad. 
'' This legislation would specifically prohibit knowingly racing a 
horse under the influence of ``any substance capable of effecting the 
performance of a horse at any time by acting on the nervous system, 
cardiovascular system, respiratory system, digestive system, urinary 
system, reproductive system, musculoskeletal system, blood system, 
immune system (other than licensed vaccines against infectious agents), 
or endocrine system of the horse.'' How does this definition of 
prohibiting racing a horse ``under the influence'' of a performance 
enhancing drug differ from the Jockey Club's stated belief that 
``horses should compete only when they are free from the influence of 
medication?``
    Answer. There are several important differences between the 
proposed Act and the approaches of both the RRMR and other nations' 
regulations, including those of Great Britain, as we discuss in 
response to question 5.
    The Act would prohibit a person from: ``(1) enter[ingl a horse in a 
race that is subject to an interstate off-track wager if the person 
knows the horse is under the influence of a performance enhancing drug; 
or (2) knowingly provide a horse with a performance-enhancing drug if 
the horse, while under the influence of the drug, will participate in a 
race that is subject to an interstate off-track wager.'' (Emphasis 
added.)
    Entering a horse in a race normally occurs long before the race 
itself, and the Act's prohibition relating to ``entry'' would prohibit 
entry of horses that are under a drug's influence at the time of entry 
but not at the time of the race, which we believe misses the specific 
goal of drug-free racing. In addition, because the Act calls for 
collecting and testing only post-race samples, there is no way to 
enforce the ``time of entry'' prohibition.
    Moreover, the definition of a ``performance enhancing drug'' does 
not take account of the fact that some drugs that enhance performance 
above some threshold levels have beneficial therapeutic effects without 
any performance enhancement when used below recognized threshold 
levels. Therefore, without recognizing these facts, the Act is overly 
broad in what is permitted and what is not. Indeed, the term ``under 
the influence'' is itself vague and unspecific, leaving uncertainty 
about the proper standard for enforcement.
    Further, there is a difference between ``providing'' a horse with a 
performance enhancing drug and ``racing a horse under the influence'' 
of a drug ``capable of affecting performance of a horse'' and this 
means that the Act would not necessarily apply to the real problem, 
which is racing horses whose performances are enhanced by drugs. In 
fact, we do not see in the Act any specific prohibition against 
``racing'' a horse that has been administered a drug capable at the 
level of its administration of affecting performance in a race, which 
would seem to be the desired focus of the statute. To the extent the 
authors of the Act intend otherwise, the text is vague, ambiguous, and 
may be unenforceable for at least practical reasons.
    Further, the ability of regulators to prosecute violations will be 
far more effective under the RRMR because it establishes bright line 
rules defining when a violation has occurred. By contrast, the Act 
requires proof that a horse was running ``under the influence'' and 
that the performance enhancing drug was ``knowingly'' ``provided,'' 
raising unnecessary prosecutorial hurdles that may significantly impair 
the effectiveness of the Act and fail to ensure that horses compete 
only when they are free from the influence of medication.
    Additionally, taking the term ``under the influence'' in a general 
sense (since it is not defined in the Act) in combination with the 
extremely broad sweep of the definition of ``performance enhancing 
drug``, the Act over-regulates by including substances that do not 
adversely impact racing. These include, for example, environmental 
contaminants (which are excepted from the provisions of the RRMR and 
the ``prohibited substance'' provisions of the International Federation 
of Horseracing Authorities (see www.horseracingintfed.com/
racingDisplay.asp?section=10#a6).

    Question 5. The British Horseracing Authority defines a 
''prohibited substance'' as any substance ``capable at any time of 
acting on one or more of the following mammalian body systems: the 
nervous system; the cardiovascular system; the respiratory system; the 
digestive system; the urinary system; the reproductive system; the 
musculoskeletal system; the blood system; the immune system except for 
licensed vaccines against infectious agents; the endocrine system; 
Endocrine secretions and their synthetic counterparts; [and] Masking 
agents.'' The British Horseracing Authority further notes that this 
definition is ``in line with the International Federation of 
Horseracing Authorities' [IFHA] agreement'' (see: http://www.british
horseracing.com/resources/equine-science-and-weltarelmedication-and-
doping-taqs
.asp). In fact, the IFHA definition (available at: http://
www.horseracingintfed.com/resources/2012_choose_eng.pdf) closely 
resembles this definition. Are the British and IFHA definitions for 
``prohibited substance'' in horseracing-which closely resemble the 
definition of ''performance-enhancing drug'' in the Interstate 
Horseracing Improvement Act-extremely vague and overly broad?
    Answer. The British Horseracing Authority's regulations are far 
less vague and broad than the definition of ``performance enhancing 
drug'' in the Act for several reasons. First, although the British 
Horseracing Authority's definition of ``prohibited substance'' is 
similar to the definition in the Act, the British Horseracing 
Authority's regulations also provide exceptions for the use of certain 
therapeutic medications. They state, ``For a relatively small number of 
commonly used drugs in horses the time taken for the substance to pass 
through the horse's system and for the levels of the substance to 
become so low that they are recognized as having 'no effect' has been 
studied and published.'' Further, they state: ``It is accepted that 
medication should be used appropriately in racehorses, and so 
recognized that medication should be controlled on race-days. 
Medication control is not Zero Tolerance: its intention is that there 
is no racing under the direct influence of medication.''
    The RRMR, like the British Horseracing Authority's rules, includes 
a small number of permitted therapeutic medications to be present in 
horses at race time because those substances have been determined by 
veterinary experts through scientific testing to have no performance 
enhancing effects at permitted levels, while prohibiting any of those 
drugs above permitted levels as well as all other drugs. The approaches 
of the RRMR and the British Horseracing Authority also are 
substantially similar to the IFHA's approach (see 
www.horseracingintfed.com/racing
Display.asp?section=10#a6).
    In contrast, by excluding any and all substances from being in a 
horse, the Act creates significant uncertainty over how and when a 
horse can safely be treated with therapeutic medications. By stopping 
short of further refining the definition of ``prohibited substance'' to 
allow for therapeutics as the British Horseracing Authority and the 
IFHA do, the Act can be properly characterized as ``extremely vague'' 
and ``overly broad.''

    Question 6. If the broad definition of ''prohibited substance'' 
seems to work horseracing rules in other countries, why does the Jockey 
Club oppose using such a definition to ensure that in America horses 
compete only when they are free from the influence of drugs?
    Answer. The Jockey Club does not interpret the British Horseracing 
Authority's or the IFHA's rules in the way the question supposes, as is 
indicated in our response to Question 5.

    Question 7. The New Mexico Racing Commission's rule for clenbuterol 
for both Quarter horse and Thoroughbreds includes a testing threshold 
of 2pg/ml in serum/plasma and a recommended withdrawal time of 30 days. 
This follows the recommendation of the American Quarter Horse 
Association (AQHA). The Jockey Club's proposed ``Reformed Racing 
Medication Rules'' framework would allow clenbuterol to be administered 
up to 7 days before racing and set a regulatory testing threshold of 25 
pg/ml in serum/plasma. Why is the Jockey Club's proposed rule for 
clenbuterol more permissive than what AQHA recommends and New Mexico 
requires?
    Answer. The most recent version of the RRMR (released August 12, 
2012) uses a withdrawal time of 21 days, which is in line with the 
approach recently undertaken in California and, notably, is 
significantly more conservative than the United States Food and Drug 
Administration's approved use of clenbuterol as a bronchodilator in the 
form of Ventipulmin Syrup. We understand that the University of 
California, Davis is currently conducting further research on the use 
of this medication and, when that research is complete, we will review 
the RRMR threshold.

    Question 8. Mr. Gagliano, your testimony explains that the Jockey 
Club maintains the Thoroughbred breed registry. The Jockey Club has 
occasionally denied horse breeders stud book privileges due to animal 
abuses. Could the Jockey Club deny studbook privileges for horses 
involved in medication violations? Could the Jockey Club deny studbook 
privileges for horses trained by repeat violators of medication rules?
    Answer. Regulation and enforcement have always been a state 
governmental function in all of the racing states. Meaningful change 
requires government action. Whether and under what circumstances the 
Jockey Club's role as the Thoroughbred stud book registry could involve 
actions with respect to the use of performance enhancing drugs is a 
legal and practical issue that The Jockey Club has considered and will 
continue to consider. For the present, it is notable that The Jockey 
Club has adopted rules allowing denial of stud book privileges to 
individuals who have committed egregious or serial medication 
violations. When The Jockey Club learns of violations of its rules, it 
will act to enforce its rules. At the present time, The Jockey Club 
considers the appropriate enforcers of the integrity of racing to be 
the appointed state regulators charged by their legislatures with that 
function.

    Question 9. Last year, the Jockey Club and the Thoroughbred Owners 
and Breeders Association (FOBA) both endorsed an end to raceday 
medication. Yet in the face of stiff opposition, TOBA now advocates for 
a gradual phaseout of raceday Lasix for graded stakes races only. My 
understanding is that such races comprise less than 5 percent of all 
races. This seems analogous to prohibiting steroids during the major 
league playoff while allowing them for regular season games and in the 
minor leagues. Why should there be different raceday medication rules 
for horses competing in a graded stakes race and those competing in a 
maiden claiming race?

    Answer. The Jockey Club has long advocated for the elimination of 
all race-day medications, Lasix included. Lasix has been a part of the 
North American pari-mutuel landscape for over 30 years with 
approximately 95 percent of current starters receiving the drug on 
race-day and several generations of horses and at least one generation 
of trainers and veterinarians having been involved in racing where the 
vast majority of horses have run on Lasix. Recognizing this, The Jockey 
Club has also long advocated for the gradual elimination of Lasix from 
North American racing in a measured and stepped process to allow 
adequate time for training practices, veterinary practices, husbandry 
and management practices to adjust. The Jockey Club continues to 
maintain the most appropriate plan for eliminating race-day medication 
includes a multi-year phaseout beginning with 2-year-old racing since 
the youngest of race horses have had the least exposure to Lasix. TOBA 
has endorsed an even more gradual process beginning with the 2-year old 
graded stakes races.

    Question 10. Mr. Gagliano, the Jockey Club partnered with TOBA to 
create the ``Clean Horse Racing'' campaign, which encourages racing 
fans to lobby their local state racing commission to adopt a policy 
prohibiting raceday medication. Is banning raceday medication enough to 
make American horse racing ``clean``?
    Answer. As explained in response to question 1, clean racing 
requires not only enacting the RRMR but also providing for effective 
enforcement of those rules, vigorous testing of horses and vigilant 
research to stay abreast, if not ahead of, the development of new 
performance enhancers.

    Question 11. Mr. Stirling's testimony claims that raceday 
administration furosemide: (1) ``is necessary to keep a healthy horse 
healthy;'' (2) ``prevents and lessens bleeding;'' and (3) ``has been 
used effectively for nearly forty years.`` Could you respond to these 
claims, which contrast with the Jockey Club's recommendation of 
prohibiting raceday Lasix?
    Answer. As we said in response to question 9, The Jockey Club 
believes that Lasix should eventually be eliminated from racing. We 
believe that, and the RRMR expressly provides for, horses suffering 
from epistaxis (bleeding from the nostrils) should be rested rather 
than run on Lasix.

    Question 12. Mr. Paulhus' testimony recommends freezing drug test 
samples so that they can be tested later, when new detection methods 
become available. This year, for example, samples from the Kentucky 
Derby were later tested for dermorphin. But this does not seem to be a 
common practice for day to day racing. Would storing test samples for 
later testing help identify drug violations and deter doping?
    Answer. Yes, storing samples for future testing would aid in the 
fight against doping.

    Question 13. The British Horseracing Authority reports that in 2010 
its flat racing fatality rate was 0.6 per thousand runners (see: http:/
/www.britishhorseracing
.com/resources/equine-science-and-welfare/injuries-fatalities.asp). 
Based on data from the Equine Injury Database, the Jockey Club reports 
that American racing has a fatality rate of 1.88 per thousand starts 
(see: http://jockeyclub.com/mediaCenter
.asp?story=546). Even using the racehorse fatality data from the Equine 
Injury Database--which does not include all tracks and does not count 
race-related fatalities that occur more than 72 hours after the date of 
the race--U.S. horseracing appears to have a much higher fatality rate 
than comparable flat racing in the United Kingdom. This graph uses 2010 
fatality rate data from the British Horseracing Authority and The 
Jockey Club to illustrate the differences:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  <bullet> Setting aside jump or ``steeplechase'' racing, why are 
        racehorse fatality rates in the U.S. so much higher than in the 
        U.K.?

  <bullet> Could stricter medication regulations in the U.K. account 
        for lower fatality rates in British flat turf and all weather 
        racing than in comparable turf and synthetic racing in the 
        U.S.?
    Answer. Since we have not studied and do not know the bases 
underlying the British figures you cite, we cannot respond to this 
question. It is entirely possible that this question assumes facts that 
actually result from ``apples to oranges'' comparisons. That does not 
mean that we question the British figures, only that we cannot make an 
appropriate compare and-contrast evaluation of the British figures and 
The Jockey Club's Equine Injury Database (``EID'') records relating to 
illnesses and injuries (fatal and non-fatal) that occur prior to, 
during and after the running of a race (with no time limit on reporting 
a fatality) and those that occur at the track during training or other 
times unrelated to racing. The statistics you have referenced, which 
were published by The Jockey Club utilizing the EID data, include all 
fatalities that occurred on track as well as any that occurred within 
72 hours of a race and represent 92 percent of all flat racing starts 
in the United States and Canada.

    Question 14. If the Interstate Horseracing Improvement Act becomes 
law and there are racetracks that offer a horseracing gambling product 
that is not ``on the level'' due to doping, could the potential for a 
person to pursue a private right of action help enforce compliance with 
the anti-doping provisions in the new law?
    Answer. The Jockey Club believes that if the right laws are on the 
books and are properly and vigorously enforced there will be no need 
for any private right of action and that such a right of action will 
lead to frivolous claims, as has been the case with so many other 
pieces of legislation. Historically, effective enforcement of the law 
has been best placed with governmental entities rather than proxies, 
who may act based upon other interests.

    Question 15. In the Gregory Martin case, a U.S. district court 
found that ``breaking the rules of [a] horserace by doping a horse . . 
. violates fundamental notions of honesty, fair play and right dealing 
and is therefore an act within the meaning of a `scheme to defraud' '' 
under the wire fraud statute, 18 U.S.C.Sec. 1343 (see United States v. 
Martin, 411 F Supp. 2d 370, 373 (S.D.NY. 2006)). The court explained 
how this type of race fixing harms those who place pari-mutuel wagers 
on non-doped horses. Since winning bets are paid shortly after a race, 
those involved in doping can potentially profit from parimutuel wagers 
even if racing authorities later find a medication violation that 
changes the official race result and redistributes purse prizes. How 
can state racing commissions or racetrack operators prevent someone who 
engages in such race fixing from profiting from parimutuel wagers?
    Answer. The issue of preventing fixing of results of sports 
contests has been a topic of intense interest for many years for all 
sports-related gaming. The Jockey Club believes that all sports 
wagering should be free from illegal and improper activities and that 
the adoption and enforcement of appropriate rules is best left to the 
relevant legislative and enforcement authorities.

    Question 16. At the 1999 Jockey Club Roundtable, Stuart Janney 
called for a tough policy to ``ensur[e] that cheaters do not win our 
greatest races, that undeserving horses are not crowned champions and 
that all our effort and hard work to enhance our sport is not destroyed 
by compromising our standards and integrity.'' Yet this year a trainer 
who reportedly has more than a dozen medication violations-including 
four ``total carbon dioxide'' or ``milkshaking'' violations-won the 
first two legs of the Triple Crown. What does this say about the 
current standards and integrity of interstate horseracing?
    Answer. These responses together with our previous written and oral 
testimony make clear The Jockey Club's view of the inadequacy of the 
current structure of rules, penalties, enforcement, and research to 
detect new performance-enhancing drugs. The Jockey Club developed and 
proposed the RRMR and believes it to be a central part of a 
comprehensive solution. The Jockey Club also believes that each racing 
jurisdiction should give effect to drug related rulings and penalties 
imposed by other racing jurisdictions so that violators cannot avoid 
drug-related penalties by moving from one racing jurisdiction in which 
they have been subjected to adverse rulings to another jurisdiction 
where they have not. In fact, The Jockey Club created the Thoroughbred 
Regulatory Rulings database (www.thoroughbredrulings.com) specifically 
to enable regulators and others to review individuals' ruling histories 
across all racing jurisdictions.

    Question 17. As you know, the horse I'll Have Another ultimately 
did not compete in the 2012 Belmont Stakes. In response to a New York 
Times article about veterinary treatment given to this horse prior to 
its highly anticipated Triple Crown race (available at: http://
www.roodandriddle.com/news/reportsonracehorseinjuryrates
medicationsmisleading.html), Dr. Larry Bramlage issued a press 
statement on July 13, 2012. This statement explains that he gave an 
interview to NBC Nightly News ``[a]s a member of the Jockey Club, and 
past president of the American Association of Equine Practitioners and 
the American College of Veterinary Surgeons . . . to more accurately 
inform the public about health and safety practices in racing.'' 
Bramalage further states that:

        . . . [The substitution of 'major painkillers' [by the New York 
        Times] for anti-inflammatory medications is unfair to the 
        uninformed general public. . . . The phenylbutazone given to 
        I'll Have Another is from the same drug group as aspirin and 
        ibuprofen in humans, can't be given to a horse within 24 hours 
        of a race, and is tested for with blood and urine samples at 
        all levels of the sport. Dexamethasone is a corticosteroid used 
        as an anti-inflammatory as well. . . . [T]he records provided 
        to New York State Racing and Wagering Board do not indicate 
        anything inappropriate. . . . We totally agree with the 
        approach that Dr. Jim Hunt, attending veterinarian, took to get 
        this horse ready for a possible Triple Crown run.

    Does Dr. Bramlge represent the Jockey Club in this July 13, 2012 
press release?
    Answer. No. Although Dr. Bramlage is a member of The Jockey Club, 
he did not speak for The Jockey Club in making those remarks and does 
not represent The Jockey Club in an official capacity.

    Question 17a. Does Dr. Bramlage's description of phenylbutazone and 
dexamethasone contrast with how these drugs would be regulated under 
the Jockey Club's proposed Reformed Racing Medication Rules?
    Answer. Phenylbutazone and dexamethasone are controlled therapeutic 
medications specifically addressed under section 5 of the RRMR. When 
they are properly administered, they have valid and helpful therapeutic 
qualities.

    Question 17b. Does the Jockey Club ``totally agree with the 
approach'' the attending veterinarian ``took to get this horse ready 
for a possible Triple Crown run,'' which according to vet records 
published online by Blood Horse (available at: http://
www.bloodhorse.com/pdf/IHAVetRecords2012.pdf) included a ``Pre-Race 
Rx'' of dexamethasone 3 days before the scheduled race?
    Answer. Because The Jockey Club is not a veterinarian organization, 
it cannot and does not give opinions on individual equine treatments.

    Question 18. Do permissive medication policies in U.S. racing 
jurisdictions impact export sales of American racehorses in any way?
    Answer. The subject of the impact on export sales of current U.S. 
racing medication rules has not been a topic thoroughly evaluated by 
The Jockey Club, and we therefore cannot give a non-speculative answer 
to this question.
    Thank you again for the opportunity to share The Jockey Club's 
perspective on important issues that have direct impact on the future 
of Thoroughbred racing.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Matthew Witman
    Question 1. A New York Times analysis of racehorse injury rates 
found that Quarter horse racing has a higher rate of breakdowns than 
Thoroughbred racing. Mr. Jeffrey Gural gave an explanation why 
Standardbred racing is less dangerous than Thoroughbred racing. Could 
you explain why Quarter horse racing is more dangerous than 
Thoroughbred racing?
    Answer. American Quarter Horse racing is NOT more dangerous than 
Thoroughbred racing. The New York Times analysis is not supported by 
any of the data collected in states that race significant numbers of 
American Quarter Horses. One of the significant issues with the Times 
report is the assumption that any chart writer's comments about a horse 
being eased, vanned, etc., implies a catastrophic happening, and that 
is simply not a valid assumption. A number of the racing states have 
excellent necropsy programs that encourage or require all horses that 
have a life-ending event on the racing grounds to be processed through 
that program. The data is then collected, reviewed and published. In 
states racing both Thoroughbred and American Quarter Horses, the data 
indicates a higher incidence of training and/or racing injuries 
resulting in fatality in breeds other than American Quarter Horses.
    Additionally, AQHA supports the Equine Injury Database and 
encourages all racetracks to participate in the program so the industry 
and media will have accurate and scientific information at its 
disposal. Too, the data will aid in the safety and welfare of our 
horses. As I stated in my verbal testimony: To AQHA, one instance of 
any horse suffering is one too many.

    Question 2. Mr. Whitman, Federal agents raided two tracks in New 
Mexico this year to arrest Thoroughbred and Quarter horse trainers with 
alleged ties to the Sinaloa and Zetas drug cartels. According to news 
reports, a warrant states that one of the accused even boasted of 
bribing starting gate officials for the 2010 All American Futurity, one 
of the richest races in the world. Are state racing commissions and 
industry groups like AQHA capable of policing horse racing to keep 
organized criminals out of the sport and related gambling activities?
    Answer. Read any newspaper or watch any news program and, 
unfortunately, you will see that there are unscrupulous people involved 
in every business, even those with strict Federal oversight. Every 
state requires all racehorse owners and trainers to be licensed and 
undergo a background check and fingerprinting before a license is 
granted. If a person meets the criteria and there is nothing in his or 
her background to prohibit them from receiving a license, then the 
commissions will grant a license.
    While it should go without saying that AQHA does not want members 
of organized crime, any criminals or unscrupulous people involved in 
horse racing, financial and criminal background checks are not required 
of people who are owners and/or members. Additionally, our belief is 
that Federal legislation is not likely to prohibit these situations 
from occurring.
    AQHA's foremost concern is the welfare of all horses involved, and 
is working with Federal authorities and government agencies to advise 
on the care and well-being of the horses involved in the incident to 
which the senator is referring. Additionally, AQHA will work with any 
impacted members to process any paperwork, if necessary, related to the 
registration and transfer of horses as the legal process moves forward.

    Question 3. Your testimony states that: ``American Quarter Horse 
owners look at their horses as extensions of their families, with many 
taking great pride in seeing their prized horses go on to enjoy success 
after their racing careers conclude. To characterize the sport as 
anything less, or to state that owners of the breed are uncaring, 
unsympathetic or uninvolved is irresponsible and inaccurate.''
    I'd like to ask you about the late Teller All Gone, a Quarter horse 
who fell after the finish line in the 5th race at Ruidoso Downs on 
September 3, 2011. The Equibase race chart describes Teller All Gone's 
effort in the race: ``bid, dueled, lugged in, went wrong, fell after 
wire.'' After the race, he was euthanized on the track. Then Teller All 
Gone's dead body was dumped in a junkyard. A New York Times 
photographer captured the scene in this picture (available at: http://
www.nytimes.com/interactive/2012/04/30/us/breakdown-horses-
series.html#/med
ia-track): Should a horse be treated in this manner following a fatal 
injury in a race?
    Answer. No. No horse should be treated in this manner and the 
American Quarter Horse Association certainly does not condone this type 
of treatment. The Association strongly favors each state implementing 
and maintaining an adequately funded necropsy program to provide 
information and research relating to catastrophic racing injuries, and 
every racetrack should provide and maintain a secure, private, enclosed 
area to hold the body of any horse that succumbs on the grounds of a 
racetrack until such time as it is removed to the necropsy facility.

    Question 4. My understanding is that AQHA supports the humane 
slaughter of horses ``at USDA regulated and inspected slaughter houses 
in the United States as an option for owners who might need to use this 
avenue for horses that might become unwanted or otherwise unusable'' 
(see: ``AQHA President Discusses Lift of Ban on Horse Slaughter.'' 
GoHorseShow. Dec. 6, 2011. available at: http://www.gohorseshow.com/
article/AQHA/AQHA/AQHA_President_Discusses_Lift_
of_Ban_on_Horse_Slaughter/36591). Racehorses, however, commonly receive 
drugs such as clenbuterol and phenylbutazone which are not permitted in 
animals destined for human consumption. What can AQHA and other racing 
industry participants do to prevent racehorses that have received drugs 
not allowed in animals destined for human consumption, from being 
processed for food?
    Answer. AQHA's position on horse processing actually appears on its 
own website and has been repeated--sometimes accurately, sometimes 
inaccurately--in other media outlets. That stated, when horse 
processing took place in the United States, to our knowledge, the 
United States Department of Agriculture reported no residual traces of 
drugs beyond what was acceptable in meat destined for human 
consumption. Because horse processing has not taken place in the United 
States since a ban took effect in 2007, AQHA will not comment on any 
horses processed outside the United States outside the control of the 
USDA. Additionally, to ensure that horses do not travel longer 
distances en route to processing facilities outside U.S. borders and 
beyond the ability of USDA to inspect the meat and the slaughter 
process, AQHA continues to advocate for a domestic facility where 
horses could be processed. Unfortunately, animal rights advocates and 
others who do not fully understand the unintended consequences of a 
domestic slaughter ban have prohibited this from occurring.

    Question 5. What can racing industry participants, including AQHA, 
do to ensure that a Quarter horse that has been bred and trained for 
racing never becomes so ``unwanted or otherwise unusable'' that it is 
sent to slaughter, rather than retired or humanely euthanized?
    Answer. According to the American Association of Equine 
Practitioners, the euthanasia method used at domestic slaughter 
facilities, the penetrating captive deadbolt, is considered an 
acceptable form of euthanasia (http://www.aaep.org/
euthanasia_guidelines.htm).
    Clearly, education plays a key role in preventing horses from 
become unwanted, and AQHA has been a leader in providing information to 
the industry so potential breeders can make informed decisions. The 
Association also was a founding member of the Unwanted Horse Coalition 
and continues to be an active supporter of the Coalition. After their 
careers on the racetrack have concluded, many American Quarter Horses 
bred for racing purposes often go on to excel in other careers in the 
equine industry, including but not limited to speed events, roping 
contests, jumping, recreational riding and youth programs. The 
Association sponsors many programs to recognize and reward 
participation of former racehorses in rodeo, show and pleasure riding 
disciplines. Additionally, depending on the racing record, many racing 
American Quarter Horses go from racing to the breeding side of the 
industry upon their retirement.
    In a perfect world, it would be ideal for every horse to live out 
its days in rich, green pastures. Unfortunately, that's not always the 
case. Over time, some horses become unusable because they get sick, 
injured or old. Some might be unmanageable because they are dangerous 
or unruly. In some instances, an owner's financial situation might 
change and they can no longer afford to properly care for the horse. 
Whatever the reasons, many people face the difficult decision of 
dealing with an unwanted or unusable horse.
    That's why AQHA developed a manual (provided in its Senate 
testimony) to help people explore the many options that are available 
to all horse owners. Above all, AQHA wants to ensure that a horse's 
health and welfare are, at all times, paramount to every other 
consideration.
    The American Quarter Horse Association is resolute about taking a 
leadership role in race-day medications, performance-enhancing drugs, 
stricter enforcement and stiffer penalties. Recognize that, as I said 
in my testimony, AQHA is a breed registry and not a regulatory agency. 
Whatever our role in the industry is, we will continue to push for 
state-and industry-driven policies--not Federal legislation--to protect 
the racing American Quarter Horse.
    I hope I have fully answered the above questions and appreciate the 
opportunity to clarify the above.
            Cordially,
                                         Matthew R. Witman,
                       American Quarter Horse Association Director,
                             Chairman Racing Committee, Racing Council.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Marc S. Paulhus
    Question 1. Given your previous experience advocating before state 
racing commissions for stricter medication rules, how likely is it that 
all 38 state racing jurisdictions will adopt the Jockey Club's 
``Reformed Racing Medication Rules'' into their state racing 
regulations?
    Answer. Based on my experience, I believe it is virtually 
impossible that all 38 racing jurisdictions will voluntarily adopt the 
Reformed Racing Medication Rules recommended by the Jockey Club. The 
Jockey Club has no real authority over the various other industry 
groups--trainers, jockeys, state regulators, track owners and 
veterinarians--and cannot bring them into line. Nor does the Jockey 
Club enjoy a special relationship with state regulators who are free to 
reject proposals from outside organizations.
    Moreover, when given numerous opportunities to appear before state 
racing commissions to support the adoption of uniform rules and 
penalties in that arose from the 1982 Federal legislative effort 
(negotiated to avert passage of the ``Corrupt Horse racing Practices 
Act''), the Jockey Club generally failed to do so. Within a few short 
months after withdrawal of the proposed Federal legislation, the Jockey 
Club, the American Horse Council and other industry groups abandoned a 
cohesive effort to promote uniform standards and penalties. Although 
several racing jurisdiction initially adopted the agreed upon 
standards, even these jurisdictions quickly reversed their new and 
tougher rules when other racing jurisdictions failed to follow suit.

    Question 2. How likely is it that all 38 state racing jurisdictions 
will adopt an ``interstate compact'' to harmonize racing rules 
nationwide?
    Answer. Proposals to harmonize racing rules and the enforcement of 
penalties have always failed in the past. Individual racing 
jurisdictions are governed by politically appointed officials that 
often lack knowledge of the racing industry. In other instances, they 
may be chosen from a list of nominees offered by racing industry 
groups. Either way, they generally perceive their ``constituency'' to 
be the very people they are charged to regulate, their political 
loyalty is to their own state, and they have no binding alliances with 
other racing jurisdictions.
    I have found that state regulators are most responsive to the 
unceasing demands of racehorse trainers and veterinarians practicing on 
the backside who want ever greater permissiveness with respect to pre-
race medications. Trainers and veterinarians working at racetracks are 
the ones who regularly attend racing commission meetings, sometimes en 
masse, and they consistently urge regulators to reject calls for strict 
controls of pre-race drugs, uniform drug standards, and meaningful, 
uniform penalties.
    Individual racing jurisdictions are not only unwilling to implement 
an interstate racing pact, but they have shown that they are equally 
unwilling to honor and enforce suspensions handed down in another 
jurisdiction for violations of racing rules.

    Question 3. Is there any difference between a human athlete 
choosing to take medication (for example, an aspirin tablet) before a 
competition and a trainer or veterinarian giving a racehorse a 
permitted medication like phenylbutazone before a race?
    Answer. Yes, there is a tremendous difference. For one thing, the 
human athlete is making an informed and conscious choice, and likely 
has the knowledge and incentive to protect him-or herself from further 
injury. However, when the equine athlete is medicated, sometimes with 
multiple drugs that together have an enhanced painkilling effect, the 
horse is more likely to exacerbate the injury by adding additional 
insult and stress to an unhealed joint, tendon or bone.
    Although Phenylbutazone is in the same general category of drugs as 
aspirin, it is far more potent and effective at relieving inflammation 
and pain than aspirin. I have personally treated horses with ringbone, 
tendon injuries and other conditions that exhibited significant 
lamenesses. These horses obtained little to no relief from aspirin. 
However, phenylbutazone effectively alleviated the pain in most 
instances and allowed the horse to move as if uninjured. The 
painkilling effects of ``bute'' persist for up to 36 hours. If used in 
combination with another drug, such as banamine or a corticosteroid (as 
in ``stacking''), the pain masking effect is even more dramatic.
    When comparing horses to human athletes, people rarely take a 
moment to consider that they have NEVER even heard of a human runner 
who snapped a leg in a mile race. Yet more than a dozen racehorses per 
week suffer that fate at U.S. racetracks. Although human athletic 
competitions are arduous, you simply cannot compare the tremendous 
forces at play when a thousand pound horse, with a jockey atop, races 
at nearly twice the speed of a person on leg bones that are smaller in 
diameter. Racing at such speeds and distances, especially for immature 
2 and 3 year old horses that were given pain masking drugs, can be 
devastating. Under current permissive medication rules, few horses can 
endure more than a dozen races before they have acquired serious, 
lifelong physical damage. By contrast, human athletes can compete for 
many years, retiring without permanent damage. Racehorses suffer 
debilitating, career-ending injuries at much, much higher rates than 
human athletes due to the misuse of drugs to enable performance instead 
of rest and recuperation.
    Finally, legal pre-race drugs and medications not only place the 
racehorse at considerably greater risk, but the rider is also a 
potential victim in a catastrophic breakdown. On average, two or three 
jockeys die each year as a result of racing injuries with more than 150 
jockey deaths since records were kept. Many more jockeys suffer serious 
injuries and/or paralysis as a result of horses that breakdown during a 
race or workout.

    Question 4. The Racing Medication and Testing Consortium (RMTC) 
maintains an online ``Recent Rulings'' list of medication violations 
which lists dozens of medication violations involving controlled 
substances including anabolic steroids, clenbuterol, narcotics, 
stimulants, etc. (see: http://www.rmtcnet.com/content_recentrulings
.asp). Such violations could possibly be the result of false positive 
test findings, environmental contamination, or the lawful 
administration of therapeutic medication within the current rules of 
horse racing. However, some of these violations may indicate the 
illegal use of controlled substances in horseracing. Should state 
racing commissions report medication violations involving controlled 
substances to the Drug Enforcement Administration (DEA)?
    Answer. Racing jurisdictions should report all alleged use of 
federally controlled substances to the Drug Enforcement Agency for 
investigation and potential prosecution. The abuse of scheduled 
narcotics and potential scheduled narcotics like dermorphin pose a 
significant problem to racing, may violate Federal distribution and use 
laws, and may be also be indicative of race-fixing attempt in violation 
of Federal racketeering (RICO) laws. The use of potent scheduled 
narcotics is not to be confused with an overage of a permitted 
medication. There is no legitimate therapeutic benefit to use a 
scheduled narcotic or opiate and its mere possession may violate state 
and Federal laws. It must be reported to appropriate authorities.
    There would be mutual benefits to a cooperative relationship 
Federal drug and law enforcement agencies to identify exotic new drugs 
with potential for racing abuse. No doubt the investigative techniques 
and expertise of the DEA and the FBI would prove helpful to state 
regulators interested in restoring the integrity of racing.

    Question 5. If a horse is not fit or sound enough to race without 
raceday medication, should that horse be raced in the first place?
    Answer. Absolutely not. State regulatory veterinarians should be 
presented with horses that are free of pre-race medication so they can 
be evaluated for soundness in a pre-race exam. Any horse found to 
display any perceptible lameness or injury should be placed on the 
vet's list and prohibited from arduous training or racing until the 
injury is healed and the lameness is no longer evident. If the injury 
is advanced and permanent, and the animal cannot be raced without pain 
masking drugs, the regulatory veterinarian should have the absolute 
authority to permanently ban the horse from all future competition.

    Question 6. According to data from Equibase race charts, the horse 
Coronado Heights had a claiming price of $16,000 when he finished last 
in a January 12, 2012 race at Aqueduct racetrack. In his next race on 
February 25th, Coronado Heights had a much lower claiming price of 
$7,500. According to the New York Times, Coronado Heights received 14 
injections in the week before this race and broke down. (see: http://
www.nytimes.com/interactive/2012/04/29/us/one-horse-one-week-of-
injections.html). Does the example of Coronado Heights--who finished 
poorly in a race, was subsequently offered for sale in a lesser quality 
claiming race, and received more than a dozen injections in the week 
before that race--illustrate how therapeutic medications could 
potentially be abused to allow a horse with unsoundness problems to 
race?
    Answer. The case of Coronado Heights is a perfect example of how 
drugs are misused to enable injured horses to run that would otherwise 
be incapable of competing due to serious injuries. This case also 
illustrates an attempt to defraud the public and potential buyers as to 
the actual physical condition of the horse.
    In general, horses that fall quickly in class and are entered in 
ever-declining claiming races are racehorses suffering from progressive 
and deteriorating injuries. These horses are most prone to drug abuse 
including the ``stacking'' of multiple similar drugs to achieve a 
maximum drug masking effect. They are forced to race despite weakened 
bones, damaged joints and tendon injuries and therefore they present a 
much more serious risk of catastrophic breakdown. Racing such horses is 
so dangerous and egregious, with such callous forethought, that it 
should also be investigated as a violation of anti-cruelty laws.

    Question 7. Dr. Rick Arthur, the California Equine Medical 
Director, wrote that ``horses entered to race have been documented as 
having received four different corticosteroids two days before racing 
and within current racing rules on top of multiple intra-articular 
corticosteroid injections a few days earlier'' (see: Arthur, Rick M. 
``Welfare Issues in Horse Racing.'' in Equine Welfare, First Ed. Edited 
by McIwraith, C. Wayne and Bernard Rollin. Blackwell Publishing, 2011: 
237). Should the rules of racing allow such ``stacking'' of multiple 
drug administrations in the days leading up to a race?
    Answer. I am of the opinion that any pre-race drug or medication 
that is pharmacologically effective at the time of racing is intended 
to mask the pain of an injury or improve or manipulate the performance 
of a racehorse. No exceptions. Stacking drugs is magnifying an already 
bad idea several fold and it ought to be uniformly prohibited and 
enforced with serious penalties for violations. Illegal stacking should 
be considered multiple drug violations.

    Question 8. In an article on ``Welfare Issues in Horse Racing,'' 
Dr. Rick Arthur wrote that ``[t]here is a real incentive to race horses 
in a claiming race when they have begun developing unsoundness 
problems'' (Equine Welfare, First Ed. Edited by McIwraith, C. Wayne and 
Bernard Rollin. Blackwell Publishing, 2011: 239). A New York Times 
analysis of more than 150,000 race charts from 2009 through 2011 found 
that ``[l]ower-tier claiming races are more dangerous for cheaper 
horses'' than higher class races (see: ``For Horse and Jockey, Risks 
Vary by State.'' New York Times. March 24, 2012. available at: http://
www.nytimes.com/interactive/2012/03/24/us/for-horse-and-jockey-risks-
vary.html). Presentations by a former director of the Racing Medical 
and Testing Consortium (RMTC) state that abuse of corticosteroids, 
``particularly intra-articular, is significant anecdotally especially 
in claiming horses'' (see: Waterman, Scot. ``Drug Testing in the United 
States.'' Presentation to Racing Officials Accreditation Program (ROAP) 
Stewards. Jan. 21, 2011. available at: http://www.rmtcnet.com/
resources/RMTC_ROAP_School_Presen
tation_1-26-11.ppt and Waterman, Scot. ``Update on Medication Issues.'' 
Presentation. Sept. 21, 2009. available at: http://www.rmtcnet.com/
resources/Stewards_CE-Wash_9-21-09.ppt). What regulatory changes would 
improve the safety and integrity of claiming races?
    Answer. In my opinion, changes that would have the greatest 
potential effect on improving the safety and integrity of claiming 
races would include the following:

        (a) Prohibit all pre-race drugs that will have any 
        pharmacological effect at the time of racing. In the case of 
        intra-articular corticosteroids and clenbuterol, for example, 
        withdrawal times should perhaps be as long as 30 days pre-race.

        (b) Conduct mandatory pre-race soundness exams requiring 
        entrants to be presented with a 30 day veterinary record, and 
        examined without drugs or medications in their systems.

        (c) No horse should be allowed to race more frequently that 
        once every 14 days. In most instances, this will allow minor 
        injuries to heal sufficiently and micro-fractures to fill in 
        with new bone growth. Limiting the rigorous training and racing 
        of injured horses will extend the racing life of a horse and 
        help to diminish the cumulative damage of racing an animal with 
        pre-existing injuries.

        (d) Obtain blood and urine samples from the first two 
        finishers, any horse that was recently downgraded in class, and 
        any horse that runs dramatically out of form.

        (e) Treat stacking cases as multiple violations (i.e., 4 drugs 
        equals 4 separate violations.)

        (f) Implement a ''three strikes and you're out'' rule as 
        envisioned by the pending legislation.

        (g) Allow the reversal of the claiming sale within 5 days if 
        the horse is determined by the regulatory veterinarian to have 
        injuries that were masked by anti-inflammatory and/or pain 
        relieving drugs.

    Question 9. Mr. Paulhus, your testimony recommends freezing drug 
test samples so that they could be tested later when new detection 
methods become available. This year, samples from the Kentucky Derby 
were later tested for frog juice. But this does not seem to be a common 
practice for day to day racing. Could you explain how freezing test 
samples would help deter doping?
    Answer. Freezing and storing suspicious samples for later analysis 
is a potent deterrent to the widespread use of currently undetectable 
exotic drugs. Trainers would be reluctant to use a new designer drug if 
they believe that they may be charged for an illegal drug positive 
detected months or even years in the future.
    In the 70s and 80s a few racing labs stored frozen samples and 
retested them months later discovering multiple violations of potent 
narcotics and performance enhancing drugs. Horsemen complained bitterly 
and racing commissions responded by ordering testing labs to destroy 
frozen samples. The current standard practice is to tolerate illegal 
drug use until a testing methodology is developed and then make a case 
against a token trainer or two to deter others. This is not effective 
and it created the false impression that illegal drug use is very 
uncommon when evidence suggests otherwise. The saving and retesting of 
frozen samples would be a far more effective way of weeding out the 
most dishonest and abusive trainers in greater numbers.
    Samples deemed by the racing lab to contain suspicious, 
unidentified substances should be kept for no less than 2 years.

    Question 10. If the Interstate Horseracing Improvement Act becomes 
law and there are racetracks that offer a horseracing gambling product 
that is not ``on the level'' due to doping, could the potential for a 
person to pursue a private right of action help enforce compliance with 
the anti-doping provisions in the new law?
    Yes. Individuals who believe that races are being manipulated by 
illegal or inappropriate drug use should be empowered to bring a civil 
action to compel enforcement of a rule. However the findings of the 
court should be made absolutely binding in the racing jurisdiction. For 
example, I once filed an administrative action against the Division of 
Pari-mutual Wagering of the State of Florida for allowing 
corticosteroid use in horse racing in violation of its own rule. 
Although we won the lawsuit, the Division almost immediately changed 
the rule to allow corticosteroid use.
    Perhaps it will be necessary under Federal legislation to impose 
monetary damages and awards to the plaintiff in cases involving willful 
disregard for enforcing rules and regulations.

    Question 11. What can racing industry participants do to ensure 
that racehorses never become so ``unwanted or otherwise unusable'' that 
they are sent to slaughter rather than retired or humanely euthanized?
    Answer. The racing industry is currently producing far more foals 
than should be necessary for replacement stock. Quite simply the 
attrition rate of racehorses is absolutely shameful.
    Horse rescue and rehabilitation groups are simply overwhelmed by 
the number of Thoroughbred and Standardbred racehorses that are injured 
beyond hope of full recovery after only a very brief career. Non-profit 
horse rescue groups do not have the resources to take in as many 
racehorses as are discarded every week.
    At the present time, states should require that horses leaving the 
racetrack due to injury are recorded and a disposition is similarly 
recorded. Horses that are injured beyond hope of recovery should be 
euthanized at the racetrack rather than transported live and in pain. 
Individuals that ship horses directly to livestock auctions , kill 
buyers, or slaughter plants should be ruled off the track.
    The most logical solution to reduce the need for so many 
replacement horses is to enact rules that greatly diminish the 
likelihood of causing permanent, crippling injuries to racehorses. This 
could extend the racing life of animals and reduce the need for 
replacement stock.
    Horses are burned out on racing very quickly because of the 
intentional and accelerated growth of yearlings, the premature training 
and racing of very young horses, some of which are not even 
chronological 2 year-olds when they first race, and the misuse of drugs 
and medications to allow injured horse to compete.
    Meaningful reforms to extend the useful life of racehorses would 
prohibit 2-year-old racing and training. The proposed Federal bill does 
not address this issue. Simply put, immature two-year-olds are not 
physically able to withstand the rigors of racing. Racing more mature 
horses that are started at an older age would be far less damaging.
    However, even without changing the age at which horses are first 
allowed to race, lives could be saved if horses are protected from the 
damaging practice of running them with pain numbing, pain masking 
drugs, nerve blocks and shock therapy techniques. Protecting racehorses 
from training and running while injured will reduce the frequency of 
starts and enable natural healing to take place.
    Too, we must empower and require regulatory veterinarians to 
permanently disqualify unsound horses from racing in ANY jurisdiction.
    With the advent of simulcasting and interstate off-track wagering, 
we simply do not need as many racetracks and racehorses to satisfy the 
interests of the wagering public. Eventually, I believe that the number 
of racetracks should be reduced and the number of racehorses will be 
proportionately reduced.
    The future of racing depends on the whether it enjoys public 
interest and support. As it is currently conducted in the United 
States, horse racing is considered a dubious venture of questionable 
integrity where animals are literally running for the lives.
    The passage of Federal legislation is the only hope to protect and 
preserve the future of horse racing.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Edward J. Martin
    Question 1. Should a trainer who gives ractopamine to a race horse 
be permanently banned from horse racing? If not, what should the 
penalty be?
    Answer. Ractopamine is classified as a Class 3 substance in the RCI 
Uniform Classification Guidelines for Foreign Substances based upon its 
pharmacology and potential ability to affect the performance of a horse 
in a race. Class 3 substances are defined as those that may or may not 
have generally accepted medical use in the racing horse, but the 
pharmacology of which suggests less potential to affect performance 
than drugs in the Class 1 or Class 2 categories. Substances in this 
class include bronchodilators, anabolic steroids and others with 
primary effects on the autonomic nervous system, procaine, 
antihistamines with sedative properties and the high-ceiling diuretics.
    The current RCI Model Rules recommend a sanction for a ractopamine 
violation under ``Penalty Class A''. This means a first time offense 
should bring a one to 3 year suspension and a fine between $10,000 and 
$25,000. A second lifetime offense for a substance carrying a ``Class-
A'' penalty would warrant a fine of $25,000 to $50,000 and a 3-year 
minimum suspension or license revocation with the presence of 
aggravating factors.
    RCI is in the midst of an overall review of our recommended 
penalties and I anticipate that the Model Rule penalty guidelines will 
undergo upward revision with regard to those substances where ``Penalty 
Class A'' is recommended. Those revisions may create new penalty 
classes and have the overall effect of toughening sanctions for 
violations involving substances not normal for routine equine care.
    On July 25, 2012, the RCI Board of Directors expressed interest and 
voted to develop a ``One Strike, You're Out'' approach for substances 
that, if found in a racehorse, could potentially endanger the welfare 
of the horse (and rider). The RCI Regulatory Veterinarians Committee 
has been requested to identify those substances that, if found, would 
bring exclusion from the sport for the trainer and the veterinarian as 
well if it can be proven that he facilitated the use of such a 
substance. Sanctions for the owner for failing to supervise the trainer 
are also being considered.
    Because the U.S. Food and Drug Administration has approved 
ractopamine as a feed additive for pigs to promote the development of 
lean tissue at the expense of fat, it is unclear whether ractopamine 
would qualify for inclusion on the list of abusive substances.
    Although commissions must consider the facts in each case 
individually, there is a general suspicion that the emergence of 
ractopamine parallels efforts to regulate the use of anabolic steroids 
in racing and is an attempt to sidestep the restrictions that have been 
enacted. Proving intent in a contested hearing, however, can be a 
challenge depending on the facts in a particular case.
    Ractopamine, like many substances, does not belong in a horse on 
raceday as it can affect performance. The presence of a substance in a 
post race test is the evidence most racing commission's base their 
prosecutions upon. As such, a motive to cheat, if it can be proven, 
would be an aggravating factor warranting a more severe sanction.
    In determining any penalty, regulatory commissions often consider 
whether it was administered in the course of veterinary care. This then 
begs the question of whether it was proper veterinary care to 
administer such a substance to a particular horse.
    The Federal Government through enactment of the Animal Medicinal 
Drug Use Clarification Act of 1994 (AMDUCA) has granted veterinarians 
broad permission for the ``extra-label use'' (ELU) of FDA approved 
animal and human drugs in non-food producing animals. According to the 
FDA's website the key constraint of AMDUCA is that any extra label use 
must be by or on the order of a veterinarian within the context of a 
veterinarian-client-patient relationship. Federal policy has given 
veterinarians very broad discretion in this area and this may 
complicate matters for commissions seeking to prove intent.
    Judging the appropriateness of veterinary treatments is a key issue 
beyond the jurisdiction of most state racing commissions and rests with 
other government entities. I believe racing commissions would be 
amenable to expanded jurisdiction in this regard should those other 
agencies be unable to focus on the need in racing.

    Question 2. Should a trainer who gives zilpaterol to a race horse 
be permanently banned from horse racing? If not, what should the 
penalty be?
    Answer. Zilpaterol is classified as a Class 3 substance in the RCI 
Uniform Classification Guidelines for Foreign Substances based upon its 
pharmacology and potential ability to affect the performance of a horse 
in a race. As noted above, Class 3 substances are defined as those that 
may or may not have generally accepted medical use in the racing horse, 
but the pharmacology of which suggests less potential to affect 
performance than drugs in the Class 1 or Class 2 categories.
    Zilpaterol has been FDA approved as a feed additive for cattle 
confined for slaughter since 2008 and is used to produce rapid weight 
and muscle gain with anabolic properties similar to steroids.
    As with ractopamine, the use of zilpaterol is complicated by 
permissions that have been granted veterinarians by the Federal 
Government for extra label use of FDA approved drugs. Assessing the 
appropriateness of this use by a veterinarian is, as noted before, 
beyond the jurisdiction of the state racing commissions.
    In determining whether the mere presence of Zilpaterol in a post 
race sample could potentially endanger the welfare of the horse (and 
rider) and warrant the ``One Strike, You're Out'' penalty 
classification being developed, I must defer to the review process RCI 
has put in place to identify substances that would warrant permanent 
exclusion.
    It is particularly troublesome that a study conducted at North 
Dakota State University, ``Adverse Effects of Zilpaterol Administration 
in Horses: Three Cases'', contained the following warning to 
veterinarians: ``Because of the potential for extra label abuse of 
zilpaterol in performance horses, veterinarians and horse owners should 
be aware of the possibility that administration of the drug to horses 
may produce prolonged adverse effects.''
    RCI will consider in December adoption of a model rule referring 
regulatory actions pertaining to veterinarians to the government entity 
with jurisdiction over the practice of veterinary medicine. I 
anticipate that zilpaterol violations, now addressed under the trainer 
responsibility rules, might also warrant a review of a veterinarian's 
treatment policies and will also be considered for referral.
    Zilpaterol, like many other substances, does not belong in a horse 
on raceday as it can affect performance. Therefore it is not allowed 
under current state policy. As noted before, the RCI recommended 
penalties for any substances recommended for a Schedule A penalty are 
expected to be increased.
    We note for the Committee, that the temptation in looking at these 
issues is to focus on a particular substance. In some states, 
legislatures have enacted medication rules in statute. This is the 
unfortunate reality any drug testing program associated with a 
professional sport must live with.
    As noted in my testimony, the commitment of resources to this 
challenge is essential and, while tougher penalties will result from 
our collective efforts, they will not eliminate the day to day 
challenge of finding substances, developing tests, and sanctioning 
violators.

    Question 3. Could any of the milk shaking violations from 2010 be 
considered horse ``doping''?
    Answer. Racing regulators impose limits on the TCO<INF>2</INF> 
level in a horse in an attempt to determine whether someone has 
manipulated TCO<INF>2</INF> levels in an attempt to give a particular 
horse an advantage over its competitors. Elevated TCO<INF>2</INF> 
levels may result for a variety of reasons: ``milk shaking'', feed 
manipulation, use of legal dietary supplements, or some unknown factor. 
The violation occurs because the level was elevated to the point where 
a horse could have an unfair advantage over its competitors in the 
contest, regardless of how it became elevated. The recent O'Neill case 
in California underscores the difficulty in proving whether an 
administration occurred or how the levels became elevated.
    Again, an elevated level is a violation. It is upon that evidence 
that the case is brought and successfully prosecuted.
    Not being familiar with the actual evidence in the cases brought in 
2010, I must decline to make any characterization other than the fact 
that violations for elevated TCO<INF>2</INF> levels were found, 
regardless of reason or motive.

    Question 4. Could the raceday administration of a class 3 drug like 
clenbuterol be considered ``doping''?
    Answer. No medication other than one medication to mitigate 
exercise induced pulmonary hemorrhage should be administered on raceday 
under RCI recommended regulatory policy.
    Clenbuterol has therapeutic benefits for the horse, so, 
administrations consistent with proscribed dosages would not qualify as 
doping.
    That being said, we believe there are forms of ``super 
clenbuterol'' that, when found, may demonstrate levels of the drug that 
may be considered extreme and could constitute abuse. This, in 
particular, is one of those substances we will be looking at to see if 
there is a level at which one could define its overdosage as abusive 
behavior, warranting a ``one strike, you're out'' penalty approach.

    Question 5. Will you provide the specific test results data to help 
substantiate that all class 3 violations in 2010 were inadvertent 
therapeutic ``overages'' rather than attempts to cheat?
    Answer. RCI does not maintain that data. Specific test results in 
specific cases would need to be obtained directly from the commissions 
where those cases were adjudicated.
    I agree that the current Class 3 substance violations are 
complicated by the fact that some substances are therapeutic and some 
may not qualify as such. The RCI classification system was structured 
on an assessment of the ability of a substance to affect performance in 
a race. Clearly we regard those with the greatest ability to affect 
performance--Class 1 and 2--as incidents of doping. It is hard to make 
that blanket statement for every violation for a Class 3 substance. 
There are also some substances, like Class 2 classified Lidocaine, 
which might be considered by some to be a therapeutic overage instead 
of doping.
    The intent of the report issued on 2010 tests was to put the issue 
in context as best we could given the limitations of the existing 
classification system in drawing a line between what constitutes 
``doping'' as opposed to a ``therapeutic overage''. There has been much 
national media coverage pertaining to the therapeutic exemption that 
exists for furosemide. Reporters and columnists not familiar with these 
issues have, in my opinion, mischaracterized and overly simplified 
these issues, creating a hurtful impression that all racehorses are 
``drugged'' because of racing's current policy of permitting a 
therapeutic use exemption to mitigate EIPH.
    I commend Senator Udall for holding this hearing and attempting to 
sort through this complicated issue. Those on the state level have 
wrestled with these issues for years. Regardless of whether we can 
agree or disagree on a proposed path to strengthen the policing of this 
sport, your interest in this issue is sincere and welcome.
    Irregardless of where one draws the line in choosing to use the 
term ``doping'', clearly we are speaking of a small number of positive 
post race laboratory findings for Class 1, 2 and 3 substances out of 
all samples sent to the labs for testing. Even if one were to consider 
all medication rule violations regardless of substance classification, 
we are still talking about approximately one half of 1 percent. To put 
this in perspective, the 2010 Annual Report of the U.S. Anti Doping 
Agency indicated that they conducted 8,031 tests of which there were 
seventy-three adverse laboratory findings (.9). Of the 324,215 racing 
regulatory laboratory tests conducted in 2010 there were 1,600 adverse 
laboratory findings (.494).
    It makes sense to separate approved therapeutic medications 
appropriate for routine equine care from those substances that are not 
common to equine care even though Federal policy has made their use 
permissible by veterinarians. The structure contained in the Jockey 
Club's proposed reform rules create such a differentiation. They 
propose two categories, one for therapeutics and a second for 
everything not in the first. We think this approach my simplify the 
issue, although we believe there are substances that potentially might 
endanger the horse (and rider) and subsequently warrant more severe 
treatment. We also believe that some therapeutic substances like 
clenbuterol at certain concentrations might also be considered abusive. 
RCI has a process for assessing these issues and it is my expectation 
that the association will be modifying its model regulatory rules in 
this regard later this year, creating a system where it would be easier 
to differentiate between overages and true instances of ``doping''.

    Question 6. Should state racing commissions report medication 
violations involving controlled substances to the Drug Enforcement 
Administration (DEA)?
    Answer. This is an interesting concept and I am not sure that 
personal drug usage, when believed to be the cause of an equine 
medication violation is not something better dealt with by local police 
authorities or treatment programs. Commissions do, on occasion, cite a 
licensee for personal drug use and attempt to have them enter a 
treatment program and submit to human drug testing as a condition to 
avoid racing license revocation.
    Certainly the Federal Animal Medicinal Drug Use Clarification Act 
of 1994 (AMDUCA) has given veterinarians broad permission for the 
``extra-label use'' (ELU) of FDA approved animal and human drugs. 
Because some of these substances may be controlled, referrals to the 
DEA of racing medication rule violations may dilute the attention we 
would prefer they give to reports of illegal ``super clenbuterol'' or 
other substances allegedly being smuggled across the Border or 
manufactured in domestic compounding laboratories.

    Question 7. Given the possibility that racehorse doping incidents 
could be part of race fixing schemes that constitute wire fraud, should 
state racing commissions report medication violations to the Federal 
Bureau of Investigation (FBI)?
    Answer. Any assistance Federal law enforcement could give the state 
commissions in combatting incidents of race fixing or money laundering 
would be greatly appreciated. I believe most, if not all, state racing 
regulatory agencies would be happy to institute such a reporting 
mechanism.
    It would be helpful if the following Federal agencies had a 
designated point of contact to liaison with state racing commissions to 
facilitate matters that may fall beyond the jurisdiction of the state 
racing commission and be within the jurisdiction of these agencies: 
DEA, FBI, USDA, FDA, IRS, Homeland Security and DOJ. It would also be 
appropriate for these agencies to attend and participate in the annual 
meeting of the state racing regulators that occurs each spring. They 
currently do not.

    Question 8. Do racing rules require jockeys to be evaluated for 
head injuries after every fall?
    Response. The RCI Model Rules do not require an evaluation after 
every fall, although we do require an annual physician examination in 
order to participate as a jockey.
    The Model Rules give discretion to the Stewards to require that any 
jockey be examined after a fall before being allowed to ride again. 
This is determined on a case by case basis.

    Question 9. Are most jockeys aware of the long term health risks of 
repeated head trauma?
    Answer. RCI works closely with the Jockeys Guild on health and 
safety issues and I defer to them to properly answer this inquiry as to 
their assessment of the awareness of jockeys to the risks associated 
with their profession.

    Question 10. Are state racing commissions taking measures to raise 
awareness of the dangers of concussions for jockeys?
    Answer. The commissions rely on the racetracks and membership 
organizations representing the jockeys to raise such awareness. 
Commissions have taken steps to mandate the use of essential safety 
equipment such as helmets and safety vests by any licensee who is 
mounted on a horse or stable pony.
    RCI Model Rules require that the helmet meet one of the following 
safety standards: American Society for Testing and Materials (ASTM 
1163); UK Standards (EN-1384 and PAS-015); or, Australian/New Zealand 
Standard (AS/NZ 3838).
    RCI Model Rules require that vests meet one of the following safety 
standards: British Equestrian Trade Association (BETA):2000 Level 1; 
Euro Norm (EN) 13158:2000 Level 1; American Society for Testing and 
Materials (ASTM) F2681-08; Shoe and Allied Trade Research Association 
(SATRA) Jockey Vest Document M6 Issue 3; or Australian Racing Board 
(ARB) Standard 1.1998.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Sheila Lyons
    Question 1. Is it fair to compare American horseracing medication 
testing and enforcement to how human athletes are tested in the 
Olympics or in other professional sports?
    Answer. No Senator it is not a fair comparison at all.
    By contrast, human athletes compete at a much more mature age than 
racehorses and some athletes have underlying medical conditions that 
could, for example, include hypertension, diabetes, allergic 
sensitivities and other common medical disorders. In this year's 
Olympic Games there is a competitor representing Japan in the 
individual dressage equestrian competition who is 71 years old.
    The human sports regulators have determined that many human 
athletes require continued treatments for these responsibly managed 
medical conditions. Therefore, they sometimes allow, based upon a full 
review of medical records and history, the therapeutic use of some 
drugs as prescribed by the athlete's attending physician if it is 
determined that the medication is necessary to maintain normal health. 
They must also determine that the drugs will not enhance athletic 
performance.
    Humans have a much higher incidence of chronic medical conditions 
than horses. Human athletes are therefore more likely to require the 
long term administration of therapeutic medications.
    Another difference lies in the fact that horse racing is a Pari-
Mutuel sport. Therefore, it is necessary to not only ensure a level 
playing field for the benefit of fairness for the athletes and the 
integrity of the sport, but we must also be sure that the bettors have 
confidence that the outcome of a horse race has not been tampered with 
or in any way been influenced through the use of drugs. Injury masking 
is a form of performance enhancement. Any Pari-Mutuel sport that allows 
the use of performance enhancing drugs deceives the public and steals 
bettors' money through race-fixing.

    Question 2. Is there any difference between a human athlete 
choosing to take medication (for example, an aspirin tablet) before a 
competition and a trainer or veterinarian giving a racehorse a 
permitted medication like phenylbutazone before a race?
    Answer. Yes there is a great difference.
    First, the horse is a ``prey'' animal and as such in order to 
survive as a species it has adapted the tendency to minimize any overt 
sign of lameness, generalized unsoundness, or illness. What this means 
is that racehorses often show minor signs of unsoundness when in fact 
they can have a serious and potentially destabilizing injury that sets 
them up for catastrophic breakdown if training and racing continue.
    For example, I have examined several racehorses over the years that 
presented with very slight lameness upon gait evaluation, minor pain on 
deep palpation examination, and minimal inflammation detected upon 
examination of a limb--only to diagnose a non-displaced or incomplete 
fracture of a bone on radiographic examination. The severity of the 
lameness is not a good indicator of the severity of the injury or the 
potential risk to safety in racing. Indiscriminately removing the 
sometimes subtle signs of injury with the use of drugs such as 
phenylbutazone is unethical without an examination by a licensed 
veterinarian to determine the nature of the injury.
    A standard dose of phenylbutazone can easily mask these minor signs 
of lameness that may in fact be an indication of serious injury. This 
common practice leads to breakdowns both during morning training and in 
racing. Horsemen and veterinarians then typically characterize the 
breakdowns as ``the horse took a bad step'' when in fact the incomplete 
fracture went undetected because the sign of injury was drugged away by 
phenybutazone.
    Racehorses train on the racetrack every day and the possibility for 
injury is always present. Slight lameness or inflammation in any limb 
is an essential sign for horsemen to bring to the attention of their 
veterinarians so that a diagnosis can be made through professional 
examination and testing. Attention to these early warning signs is key 
to preventing catastrophic breakdown.
    This is one reason we must ban all drugs in these racehorses, 
especially any drug like phenylbutazone, so that these critical warning 
signs of injury and potential precursors to catastrophic breakdown can 
be detected.
    Phenylbutazone is a drug that is ``restricted for use by licensed 
veterinarians only'' due to the mortality risk associated with its 
indiscriminate use as well as the need to identify and address 
potential side effects such as gastrointestinal ulceration Humans 
taking aspirin in no way compares in effect to horses being drugged 
with phenylbutazone.

    Question 3. The Racing Medication and Testing Consortium (RMTC) 
maintains an online ``Recent Rulings'' list of medication violations 
which lists dozens of medication violations involving controlled 
substances including anabolic steroids, clenbuterol, narcotics, 
stimulants, etc. (see: http://www.rmtcnet.com/content_recentrulings
.asp). Such violations could possibly be the result of false positive 
test findings, environmental contamination, or the lawful 
administration of therapeutic medication within the current rules of 
horse racing. However, some of these violations may indicate the 
illegal use of controlled substances in horseracing. Should state 
racing commissions report medication violations involving controlled 
substances to the Drug Enforcement Administration (DEA)?
    Answer. Absolutely. I believe that all controlled substance 
findings in racehorse testing should be automatically referred to the 
local DEA agency.

    Question 4. Are there any reasons why a veterinarian might be 
reluctant to report professional misconduct involving racehorses to a 
state veterinary board?
    Answer. Yes. Lack of professional ethics, financial motives of 
business and profit interests, and general peer pressure coupled with 
the failure of most state licensing boards to prosecute racetrack 
veterinarians who dispense medications improperly are but some reasons 
veterinarians do not report misconduct of their colleagues.
    Specialists such as surgeons and referral clinics that provide high 
technology diagnostic services depend upon referrals from racetrack 
veterinarians to provide them with patients. In order to maximize 
profits these businesses avoid ``biting the hand that feeds them 
referrals''. These veterinary specialists typically have access to the 
complete records on the horses referred to their clinics. The evidence 
of drug abuse leading to unnecessary or exacerbated injury is clearly 
evident in these records and upon examination of the patients but the 
specialist does not report the unethical and illegal violations of the 
standards of practice in order to preserve a good relationship with the 
referral veterinarian.
    One renowned referral practice in its presentation to colleagues at 
a veterinary conference boasted of profits in excess of one million 
dollars a year just from its pharmacy business. The sale of drugs for 
profit motive is not restricted to veterinarians who practice on the 
backside of racetracks.
    Most state veterinary boards are set up to respond to complaints 
from the owner of any animal if they believe violations of the 
standards of practice have occurred. It is the owner who has the right 
to patient records upon request; the owner who has the business 
relationship with the veterinarian; and the owner who is part of the 
veterinarian-client-patient relationship that must exist in accordance 
with the state veterinary practice acts.
    Racehorse owners have reported that they feel they cannot file a 
complaint against their veterinarian for violations of the standards of 
practice because if they do, no trainer will train their racehorses. 
They also fear that their horses may be refused care in the event of a 
life threatening injury or illnesses because no veterinarian will work 
for them if they have ever filed a complaint against a racetrack 
practicing veterinarian.
    While veterinarians who have knowledge of possible violations of 
standards of care regarding colleagues can and should report this to 
the veterinary board, the retaliation against any veterinarian for so 
doing is great. I once reported direct knowledge of the continuous and 
illegal drugging of horses by a racetrack veterinarian at an official 
veterinary board hearing. Despite there being several officers of the 
court present as well as the chairman of the veterinary board and the 
board's administrator, no investigation was made following my sworn 
statement that drugs were being dispensed and administered illegally. I 
later became aware that these illegal activities continued unabated.

    Question 5. If a horse is not fit or sound enough to race without 
raceday medication, should that horse be raced in the first place?
    Answer. No. A horse that is unsound without medication is an 
unsound horse. Unfit or unsound horses should be prohibited from 
racing.
    The extreme biomechanical demand that occurs with racing requires a 
fully sound and fit body to withstand the forces that exist on the 
horse's body. Any intrinsic weakness can result in complete breakdown. 
While this most often occurs in the limb with the weakness it can also 
occur due to overload in the sound limb.

    Question 6. According to data from Equibase race charts, the horse 
Coronado Heights had a claiming price of $16,000 when he finished last 
in a January 12, 2012 race at Aqueduct racetrack. In his next race on 
February 25, Coronado Heights had a much lower claiming price of 
$7,500. According to the New York Times, Coronado Heights received 14 
injections in the week before this race and broke down. (see: http://
www.nytimes.com/interactive/2012/04/29/us/one-horse-one-week-of-
injections.html). Does the example of Coronado Heights--who finished 
poorly in a race, was subsequently offered for sale in a lesser quality 
claiming race, and received more than a dozen injections in the week 
before that race--illustrate how therapeutic medications could 
potentially be abused to allow a horse with unsoundness problems to 
race?
    Answer. Yes it does. This is a very common history.
    Instead of stopping a horse from training when it becomes clear 
that it has injuries and unsoundness, the horse is drugged to mask the 
overt sign of lameness so that it can both pass the pre-race veterinary 
inspection and so that it will not feel pain when it races. Knowing 
full well that the horse will certainly develop much more serious 
injuries as a result of the drug-enabled training and racing, the 
trainer and owner elect to drop the horse down in class where it can 
more easily win a purse and where other trainers may claim it. This is 
nothing less than drug abuse to facilitate continued training and 
racing in order to maximize profit for owners and trainers when a horse 
is unfit and unsound.
    In this illustration, Coronado Height's drugging history suggests a 
lack of adherence to the standards of practice by his veterinarian and 
betrayal of the Veterinarian's Oath to do no harm.
    While the drugs that Coronado Height may have the potential for 
being therapeutic, in his case this is not the true because any horse 
in need of that much anti-inflammatory and pain-masking medication 
should not be allowed to race or train. The context makes it an abuse 
of medication and anti-therapeutic. The drugs administered would have 
caused additional harm to the horse within the context of enabled 
training and racing.

    Question 7. Dr. Rick Arthur, the California Equine Medical 
Director, wrote that ``horses entered to race have been documented as 
having received four different corticosteroids 2 days before racing and 
within current racing rules on top of multiple intra-articular 
corticosteroid injections a few days earlier'' (see: Arthur, Rick M. 
``Welfare Issues in Horse Racing.'' in Equine Welfare, First Ed. Edited 
by McIwraith, C. Wayne and Bernard Rollin. Blackwell Publishing, 2011: 
237). Should the rules of racing allow such ``stacking'' of multiple 
drug administrations in the days leading up to a race?
    Answer. Absolutely not. This kind of stacking of injury-masking 
drugs is an example of something I mentioned in my written testimony. 
It demonstrates that horsemen and veterinarians look to the limits 
allowed by racing regulators for drug administration and dosing 
schedules as permission to administer them indiscriminately as long as 
they do not exceed those limits. This type of drug abuse directly harms 
the health of the animal in addition to enabling the racing of unsafe, 
lame and unfit horses putting the lives of both the horses and their 
riders in imminent danger.

    Question 8. In an article on ``Welfare Issues in Horse Racing,'' 
Dr. Rick Arthur wrote that ``[t]here is a real incentive to race horses 
in a claiming race when they have begun developing unsoundness 
problems'' (Equine Welfare, First Ed. Edited by McIwraith, C. Wayne and 
Bernard Rollin. Blackwell Publishing, 2011: 239). A New York Times 
analysis of more than 150,000 race charts from 2009 through 2011 found 
that ``[l]ower-tier claiming races are more dangerous for cheaper 
horses'' than higher class races (see: ``For Horse and Jockey, Risks 
Vary by State.'' New York Times. March 24, 2012. available at: http://
www.nytimes.com/interactive/2012/03/24/us/for-horse-and-jockey-risks-
vary.html). Presentations by a former director of the Racing Medical 
and Testing Consortium (RMTC) state that abuse of corticosteroids, 
``particularly intra-articular, is significant anecdotally especially 
in claiming horses'' (see: Waterman, Scot. ``Drug Testing in the United 
States.'' Presentation to Racing Officials Accreditation Program (ROAP) 
Stewards. Jan. 21, 2011. available at: http://www.rmtcnet.com/
resources/RMTC_ROAP_School_Presen
tation_1-26-11.ppt and Waterman, Scot. ``Update on Medication Issues.'' 
Presentation. Sept. 21, 2009. available at: http://www.rmtcnet.com/
resources/Stewards_CE-Wash_9-21-09.ppt). What regulatory changes would 
improve the safety and integrity of claiming races?
    Answer. Insist that the standards of practice as defined by state 
licensing boards are upheld at all times for all animals without regard 
for the class of racing they participate in. Adherence to these 
standards would prevent any horse from being treated to mask pain and 
injury or to use drugs that interfere with the healing process (as 
corticosteroid use does if the horse is not rested during treatment).
    I would suggest requiring any horse that has been treated with 
intra-articular injections of corticosteroid to be automatically placed 
on the track vet's list and prohibited from racing and training until 
enough time has passed that the drug has no lasting effect. This would 
be approximately 1 month following joint injections with 
corticosteroid.
    Require the reporting of all veterinary treatments in real time 
with continuous monitoring by officials. Patterns of drug use often 
suggest that a horse has injuries and unsoundness. Evidence of such 
patterns of drug use should be investigated by officials and reported 
to the state veterinary board if they may violate the standards of 
practice for licensed veterinarians.
    Drug test every horse in every claiming race.

    Question 9. Last September, RCI published a report titled ``Drugs 
in Racing 2010: The Facts'' that claims there were only 47 ``doping'' 
violations in 2010 (see: http://news.ustrotting.com/pdf/
DrugsinUSRacing2010-TheFacts.pdf). However, the report's methodology 
excluded all so called ``therapeutic overages'' for ``Class 3'' drugs 
like clenbuterol. RCI also excluded dozens of total carbon dioxide or 
``milkshaking'' violations that year. Could any of the milkshaking 
violations from 2010 be considered horse ``doping''? Could the raceday 
administration of what RCI considers a ``Class 3'' drug like 
clenbuterol be considered ``doping''?
    Answer. Yes. Any attempt to artificially change the physiologic 
status of a racehorse at the time of a race is ``doping'' and an 
example of manipulating the outcome of a Pari-Mutuel event. Milk-
shaking is an example of this. It is done to delay the onset of fatigue 
and thereby give the ``milk-shaked'' horse an artificially induced 
advantage over the other horses that have not had their blood chemistry 
manipulated. While the layman's term ``milk-shaking'' is typically 
meant to refer to administering baking soda and electrolytes, there are 
many ways to induce this artificial state in horses. This is why just 
because no direct evidence can be discovered that a traditional ``milk 
shake'' was administered does not mean that other equally artificial 
but undetectable means were not used to alter the horse's blood 
chemistry and physiology.
    Clenbuterol is also a performance enhancing agent and should be 
considered ``doping''. The only legitimate therapeutic use for 
clenbuterol would be to treat a definitively diagnosed condition of 
bronchial constriction. Absent test and examination results in the 
prescribing veterinarian's patient records that document this disorder 
of the horse's respiratory system, any horse that has a prescription 
for or has been supplied with clenbuterol should be viewed as a drug 
supplied for ``doping'' to have an advantage in racing.

    Question 10. If the Interstate Horseracing Improvement Act becomes 
law and there are racetracks that offer a horseracing gambling product 
that is not ``on the level'' due to doping, could the potential for a 
person to pursue a private right of action help enforce compliance with 
the anti-doping provisions in the new law?
    Answer. I think that allowing a person to pursue a private right of 
action would present an appropriate opportunity to enforce compliance 
with anti-doping regulations and compensate the victims of the 
violations of law.
    Horse racing exists only through the agreement of the public and 
this agreement is conditioned upon the acceptance and adherence to 
horse racing industry and veterinary profession regulations. The public 
should have the right to insist that the conditions are adhered to and 
to ask for remedies if the regulations are not enforced. These private 
businesses that make up the multi-billion dollar horse racing industry 
should be accountable to the public and to horse owners if they fail to 
comply with anti-doping regulations.
    Indiscriminate drug use which enables the training and racing of 
unsound horses or enhances their performance steals money from and or 
deceives the public in many ways including:

        (a) The direct influence on the outcome of the races-both 
        positively and negatively.

        (b) The expectation that the standards of practice for licensed 
        veterinarians are being adhered to for racehorses. The public 
        incorrectly assumes that veterinarians who work with race 
        horses abide by these standards and only administer services 
        that improve or protect the health and safety of the animals.

    Question 11. What can racing industry participants do to ensure 
that racehorses never become so ``unwanted or otherwise unusable'' that 
they are sent to slaughter rather than retired or humanely euthanized?
    Answer. Adherence to the standards of practice for racehorse 
veterinarians and the elimination of drugs in racing will be the best 
protection for racehorses against the development of chronic and 
debilitating injury as we see today. These conditions for licensure as 
veterinarians do not allow for horses to be treated to serve the profit 
interests of owners and trainers. Each horse must be treated as an 
individual and only in such a way as to improve or protect its health 
and safety. With no-drug racing, horses will retire from the sport if 
they cannot be sound without drugs and this will stop the compounding 
of injury that leaves most retired racehorses permanently crippled and 
therefore unable to find second homes as pleasure or show horses.
    Every racehorse should be tracked though its exit from the industry 
so that we know the status and post racing disposition of each horse.
                                 ______
                                 

              NY Times Editorial--Published: June 16, 2012

              Stronger Medicine for What Ails Horse Racing

    Regulators in Kentucky, the heart of the horse breeding industry, 
have taken a significant step against the widespread doping that is 
putting horses' lives and the sport's credibility at risk at racetracks 
across the Nation. A diuretic drug routinely used on race days to shed 
water weight and boost horses' performance will be banned under an 
overdue regulation adopted last week by the Kentucky Horse Racing 
Commission.
    This a good start, but regulators across the country will need to 
do a lot more to change the industry's cynical culture, which turns a 
blind eye to drug use and imposes only wrist-slapping penalties on 
trainers caught in the act.
    Doug O'Neill, the trainer of I'll Have Another, the winner of the 
Kentucky Derby and the Preakness Stakes, has been repeatedly charged 
with administering illegal and dangerous performance-enhancing 
concoctions, but remains in the game. California's racing association 
even postponed his 45-day suspension so he could run I'll Have Another 
in the Belmont Stakes. The horse was pulled and retired before the race 
because of an injury.
    Legislation from Senator Tom Udall, Democrat of New Mexico, and 
Representative Ed Whitfield, Republican of Kentucky, would ban race-day 
medications, and ban trainers who are repeat violators from the sport 
altogether. These safeguards and more are already in place at 
racetracks in Europe, which have a superior record for horse safety and 
trainer integrity.
    Regulators in 39 states were asked this month to provide Congress 
with information on trainers who repeatedly boost horses with such 
risky devices as ``milkshakes,'' a mix of baking soda, sugar and 
electrolytes, and shock-wave therapy, a tissue-healing tool abused as a 
speed enhancer.
    Kentucky's ban is on race-day use of furosemide, a drug originally 
designed to protect a horse from lung hemorrhage but widely abused for 
weight loss. The practice is to be banned in stages until fully in 
effect for the 2015 Kentucky Derby.
    Trainers and owners virulently complained about the ban, but it is 
well past time for them to accept stronger regulatory medicine. ``We 
cannot succeed as a sport with drugs,'' Tracy Farmer, a member of the 
Kentucky racing commission, flatly warned. He is right.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 

 New York Times--Breakdown/Death and disarray at America's racetracks--
                             March 25, 2012

                     Mangled Horses, Maimed Jockeys

    The new economics of horse racing are making an always-dangerous 
game even more so, as lax oversight puts animal and rider at risk.

     By Walt Bogdanich, Joe Drape, Dara L. Miles and Griffin Palmer

    RUIDOSO, N.M.--At 2:11 p.m., as two ambulances waited with motors 
running, 10 horses burst from the starting gate at Ruidoso Downs Race 
Track 6,900 feet up in New Mexico's Sacramento Mountains.
    Nineteen seconds later, under a brilliant blue sky, a national 
champion jockey named Jacky Martin lay sprawled in the furrowed dirt 
just past the finish line, paralyzed, his neck broken in three places. 
On the ground next to him, his frightened horse, leg broken and chest 
heaving, was minutes away from being euthanized on the track.
    For finishing fourth on this early September day last year, Jacky 
Martin got about $60 and possibly a lifetime tethered to a respirator.
    The next day, it nearly happened again. At virtually the same spot, 
another horse broke a front leg, pitching his rider headfirst into the 
ground. The jockey escaped serious injury, but not the 2-year-old 
horse, Teller All Gone. He was euthanized, and then dumped near an old 
toilet in a junkyard a short walk from where he had been sold at 
auction the previous year.
    In the next 24 hours, two fearful jockeys refused their assigned 
mounts. The track honored two other riders who had died racing. As 
doctors fought to save Mr. Martin's life, a sign went up next to the 
track tote board: ``Hang in there, Jacky. We love you.''
    On average, 24 horses die each week at racetracks across America. 
Many are inexpensive horses racing with little regulatory protection in 
pursuit of bigger and bigger prizes. These deaths often go unexamined, 
the bodies shipped to rendering plants and landfills rather than to 
pathologists who might have discovered why the horses broke down.
    In 2008, after a Kentucky Derby horse, Eight Belles, broke two 
ankles on national television and was euthanized, Congress extracted 
promises from the racing industry to make its sport safer. While safety 
measures like bans on anabolic steroids have been enacted, assessing 
their impact has been difficult because many tracks do not keep 
accurate accident figures or will not release them.
    But an investigation by The New York Times has found that industry 
practices continue to put animal and rider at risk. A computer analysis 
of data from more than 150,000 races, along with injury reports, drug 
test results and interviews, shows an industry still mired in a culture 
of drugs and lax regulation and a fatal breakdown rate that remains far 
worse than in most of the world.
    If anything, the new economics of racing are making an always-
dangerous game even more so. Faced with a steep loss of customers, 
racetracks have increasingly added casino gambling to their operations, 
resulting in higher purses but also providing an incentive for trainers 
to race unfit horses. At Aqueduct Racetrack in Queens, the number of 
dead and injured horses has risen sharply since a casino opened there 
late last year.
    Mr. Martin's injury occurred in a state with the worst safety 
record for racetracks, a place where most trainers who illegally pump 
sore horses full of painkillers to mask injury--and then race them--are 
neither fined nor suspended and owners of those drugged horses usually 
keep their winnings.
    The failure of regulators to stop that cheating is reflected in the 
numbers. Since 2009, records show, trainers at United States tracks 
have been caught illegally drugging horses 3,800 times, a figure that 
vastly understates the problem because only a small percentage of 
horses are actually tested.
    In the same period, according to the Times analysis, 6,600 horses 
broke down or showed signs of injury. Since 2009, the incident rate has 
not only failed to go down, it has risen slightly.
    The greatest number of incidents on a single day--23--occurred last 
year on the most celebrated day of racing in America, the running of 
the Kentucky Derby. One Derby horse fractured a leg, as did a horse in 
the previous race at Churchill Downs. All told, seven jockeys at other 
tracks were thrown to the ground after their horses broke down.
    A state-by-state survey by The Times shows that about 3,600 horses 
died racing or training at state-regulated tracks over the last 3 
years.
    In one 13-day stretch of racing in 2010 at Sunland Park Racetrack 
and Casino in New Mexico, nine horses died racing, five were hauled 
away in ambulances and two jockeys were hospitalized, one in critical 
condition.
    ``It's hard to justify how many horses we go through,'' said Dr. 
Rick Arthur, the equine medical director for the California Racing 
Board. ``In humans you never see someone snap their leg off running in 
the Olympics. But you see it in horse racing.''
    Even some of America's most prestigious tracks, including Belmont 
Park, Santa Anita Park and Saratoga Race Course, had incident rates 
higher than the national average last year, records show.
    Why racehorses break down at such a high rate has been debated for 
years, but the discussion inevitably comes back to drugs.
    Laboratories cannot yet detect the newest performance-enhancing 
drugs, while trainers experiment with anything that might give them an 
edge, including chemicals that bulk up pigs and cattle before 
slaughter, cobra venom, Viagra, blood doping agents, stimulants and 
cancer drugs.
    Illegal doping, racing officials say, often occurs on private farms 
before horses are shipped to the track. Few states can legally test 
horses there.
    ``They are pharmacist shops,'' said Dr. George Maylin, the longtime 
head of New York State's testing laboratory. ``Nobody has any control 
over what they are doing.''
    Even so, legal therapeutic drugs--pain medicine in particular--pose 
the greatest risk to horse and rider. In England, where breakdown rates 
are half of what they are in the United States, horses may not race on 
any drugs.
    At higher levels, pain medicine can mask injury, rendering prerace 
examinations less effective. If a horse cannot feel an existing injury, 
it may run harder than it otherwise would, putting extra stress on the 
injury. As many as 90 percent of horses that break down had pre-
existing injuries, California researchers have found.
    ``This is just a recipe for disaster,'' said Dr. Tom David, who 
until this year was chief veterinarian for the Louisiana Racing 
Commission. ``Inflamed joints, muscles and mild lameness are masked by 
medication and therefore undetectable to the examining veterinarian.''
    While high-profile Triple Crown races get the most attention, the 
mainstay of racing in America is the lower tier, so-called claiming 
races. Horses in these races are most vulnerable, in part because 
regulators often give them less protection from potentially dangerous 
drugs.
    The Times analysis found that horses in claiming races have a 22 
percent greater chance of breaking down or showing signs of injury than 
horses in higher grade races. That lower level of race has been 
particularly affected by the arrival of casinos.
    At Aqueduct, most of the 16 horses that have died so far this year 
were in the lower ranks, where purses have increased the fastest 
because of new casino money.
    ``It's hard to watch these poor animals running for their lives for 
people who could really care less if they live,'' said Dr. Margaret 
Ohlinger, a track veterinarian at Finger Lakes Casino and Racetrack in 
upstate New York. She performs pre-race inspections and treats horses 
injured in races but is not responsible for their overall care.
    Last year at the track, Dr. Ohlinger counted 63 dead horses. That, 
she said, is more than double the fatalities of 5 years earlier.
Oversight Undermined
    Race officials have always done their best to hide fatal 
breakdowns, erecting screens around fallen horses and then refusing to 
disclose the tracks' accident rates.
    But amid criticism that individual state racing commissions lacked 
the will to make the sport safer, and the threat of Federal oversight, 
the industry promised changes, including new restrictions on the use of 
drugs, a program to accredit racetracks and drug-testing laboratories 
and uniform rules for punishing drug violators.
    The industry also set up a national database where tracks were 
asked, but not required, to report injuries with the promise of 
confidentiality.
    So far, the response to these reform measures has fallen short.
    Fifty-five tracks pledged that they would seek accreditation, 
requiring among other things prerace inspections and postmortem 
examinations, or necropsies. Fewer than half have kept their promise.
    ``Some tracks do not have the money to spend to meet our standards; 
others think it's window dressing and why bother,'' said Michael 
Ziegler, executive director of the National Thoroughbred Racing 
Association Safety and Integrity Alliance. ``Any follow up with tracks 
has gone unanswered.''
    The laboratory accreditation program, introduced in July 2009, has 
fared even worse. After calling the program an ``unprecedented'' step 
that ``ultimately will change the face of drug testing in this 
country,'' a consortium of industry groups that manages it says not a 
single lab has been accredited.
    An association of racing regulators wrote to Congress on May 14, 
2010, boasting that with the exception of anti-bleeding medicine, 
``race day medications are not allowed.'' Yet records show that in 
Florida, a major racing state, trainers continue to use 
corticosteroids, an anti-inflammatory, on race day.
    The national repository for injury reports, maintained by the 
Jockey Club, the most powerful racing industry group, has been more 
successful, gathering data from 92 percent of the racing days.
    ``We put it into a database, and we provide tools back to the 
racetracks where they can analyze and slice and dice the information 
themselves,'' said James L. Gagliano, president of the Jockey Club, who 
says the group has encouraged racetracks to make the statistics public. 
So far, 24 out of 86 tracks have done so.
    To assess how often horses get injured, The Times bought data for 
about 150,000 races from 2009 through 2011, then searched for terms 
indicating that a horse encountered a physical problem, like ``broke 
down,'' ``lame'' or ``vanned off.''
    Although the people who chronicle the races, known as chart 
callers, can be stylistically different, they are taught to use 
standard industry terms, and their descriptions constitute the official 
record used by gamblers to evaluate horses.
    The analysis showed that during those 3 years the rate of incidents 
for horses in the United States was 5.2 per 1,000 starts.
    By contrast, Woodbine Racetrack in Toronto, which year after year 
has one of the lowest breakdown rates in North America, had an incident 
rate of only 1.4, according to the Times analysis. ``One of the 
differences here is medication is not as permissive as it is in the 
U.S.,'' said Jamie Martin, executive vice president of racing at 
Woodbine.
    According to the analysis, five of the six tracks with the highest 
incident rates last year were in New Mexico. All are casino tracks, 
commonly called ``racinos.'' Ruidoso, where Jacky Martin was injured, 
topped the list in 2011 with 14.1 incidents per 1,000 starts. Ruidoso 
attributes its incident rate in part to the failure of horses to 
acclimate quickly to the track's elevation. Some horses that appeared 
to be injured, track officials said, may have simply needed time ``to 
catch their breath.''
    Yet no accident over the last 3 years can match what occurred in a 
single race on Feb. 29, at Hollywood Casino at Charles Town Races in 
West Virginia. Eight horses started. Seven fell. One finished. Along 
the way, seven jockeys were left scattered on the ground.
    The next and final race was canceled, not just because it took so 
long to clear the track, but also because too few jockeys were 
available or willing to ride.
Drug Violations
    It was the day's first race in Hobbs, N.M. The track was fast and 
the weather clear. Shortly after noon on Oct. 16, 2010, nine young 
horses were loaded into the starting gate at Zia Park Casino.
    With the finish line a mere 400 yards away, this would be an all-
out sprint, horse racing's equivalent of a drag race. While these 
races, run by a breed called quarter horses, lack the ebb-and-flow 
suspense of a longer thoroughbred race, they make up for it in a pure 
adrenalin rush. The best quarter horses can hit nearly 50 miles an 
hour.
    Three weeks earlier at Zia Park, Mark Anthony Villa was on the back 
of a quarter horse when it fell just past the finish line, throwing him 
to the ground. With a herd of thousand-plus-pound animals bearing down 
on him, Mr. Villa tried to crawl to safety.
    He never made it. A horse's hoof struck him in the head with such 
force that his helmet shot like a bullet across the track. He died 
within an instant, leaving a wife and twin children.
    For years, track veterans could only speculate as to whether racing 
quarter horses was more dangerous than racing thoroughbreds. In fact, 
the Times analysis shows that quarter horses have a nearly 29 percent 
greater chance of breaking down or showing signs of injury.
    With Mr. Villa's death still on the minds of riders and spectators, 
a gray 2-year-old colt named I Glance at Chicks settled in the 6 hole 
waiting for the starting bell. For bettors, he was an animal to watch. 
The horse had won his only race and was trained by Andres Gonzalez, 
who, according to racing commission records, was not above allowing his 
horses to race with extra help. Illegal help.
    A week earlier, another horse trained by Mr. Gonzalez had raced at 
Zia Park with 12 times the legal limit of a drug that mimicked 
steroids. By the end of 2011, Mr. Gonzalez would have amassed a dozen 
drug violations in just 4 years. His uncle, Ramon O. Gonzalez Sr., for 
whom he often worked, had his own lengthy list of violations, including 
accusations that he drugged 10 horses in just 2 months.
    Whether I Glance at Chicks felt pain as he raced is unknown, but he 
never challenged for the lead. Shortly after crossing the finish line 
in fifth place, he broke down. The diagnosis: a bone fracture in his 
front left leg and ligament damage, injuries from which he could not 
recover.
    A veterinarian, Dr. Clayton McCook, euthanized the colt with an 
injection of pentobarbital. Afterward, Dr. McCook wrote a note ``to 
whom it may concern,'' expressing his distress to the authorities over 
this fatal breakdown and others like it.
    ``I have had to euthanize several horses due to catastrophic 
injuries and feel they are occurring in greater numbers than one should 
expect,'' Dr. McCook wrote. ``I do not pretend to be an expert in 
racing surfaces, nor in the training of racehorses, but I do know that 
something appears to be amiss at Zia Park.''
    According to an analysis of race records, Zia Park in 2010 had the 
Nation's second-highest incident rate, 13.3. Last year, it ranked 
fourth with a rate of 11.9. After horse owners complained about the 
track surface, Zia Park officials said they spent $80,000 resurfacing 
it before the 2011 racing season.
    During the 3-days that a Times reporter visited Zia Park last 
November, eight horses collapsed, died or were transported off the 
track. At the time, track officials said it was company policy not to 
allow a reporter access to the backside where trainers stable their 
horses.
    Christopher McErlean, vice president of racing at Penn National 
Gaming, which owns Zia Park, said in a statement that the Times 
analysis used figures ``produced by nonmedical professionals for the 
purpose of handicapping feature races.''
    Mr. McErlean also said some horses are vanned off as a precaution 
and may not actually have been injured.
    But Zia Park officials said that last year, ``a significant 
number'' of horses had to be carried off the track because of 
exhaustion stemming from the possible abuse of a drug that mimics 
anabolic steroids as well as ``other medication issues.''
    Mr. McErlean said Penn Gaming endorses tougher penalties for those 
who violate drug rules.
    Without a postmortem exam of I Glance at Chicks, no determination 
could be made as to whether a pre-existing condition or some other 
unknown factor might have played a role in his demise. But tests did 
reveal that the horse had been dosed with a large load of a powerful 
painkilling medicine called Flunixin.
    In at least two states, 2-year-olds may not race with any Flunixin. 
Not so in New Mexico, where they can run with up to 50 nanograms of the 
drug, more than double the amount allowed in a higher class of 
competition called graded stakes races.
    But even that higher amount was not enough for Mr. Gonzalez. I 
Glance at Chicks carried 282 nanograms of Flunixin.
    To put that figure in perspective, Dr. Mary Scollay, chief 
veterinarian for the Kentucky Racing Commission, said she had never 
seen such high levels in her state.
    ``When you look at the history of our medication violations--
Flunixin--most are under 50 nanograms, 35 nanograms, something like 
that,'' Dr. Scollay said. In fact, she said she had never seen a 
violation in Kentucky over 104.
    In New Mexico, it is common practice.
    Tests on horses in New Mexico showed results over 104 nanograms on 
68 occasions since 2009, with some registering 1,000 and even 2,400, 
records show. The levels are so high that regulatory veterinarians in 
other states say the horses must have been drugged on race day, a 
practice that is forbidden.
    Before the New Mexico Racing Commission could pass judgment on the 
overdosing of I Glance at Chicks, another horse trained by Mr. Gonzalez 
tested positive for even higher levels of Flunixin. The extra dosing 
did not hurt performance. The horse finished first, and its owner, Mr. 
Gonzalez's cousin Ramon Gonzalez Jr., got to keep his winnings.
    If Andres Gonzalez was worried about how the racing commission 
viewed his treatment of I Glance at Chicks, he need not have been. 
Records show he received a warning and nothing more.
Lax Penalties
    New Mexico's racing industry--the tracks and their regulators--has 
been unusually slow in responding to the safety alarms.
    Four of the state's five racetracks, including Zia Park and 
Ruidoso, are unaccredited, and the track where Mr. Martin's injury 
occurred does not report accidents or positive drug tests to groups 
that monitor such events.
    New Mexico also recorded no positive tests in 2010 and 2011 for the 
most frequently abused pain medicine in racing, phenylbutazone, a 
nonsteroidal anti-inflammatory commonly known as ``bute.'' After The 
Times asked why none had been found, the new executive director of the 
state's racing commission, Vince Mares, said that after researching the 
question, he discovered that the previous leadership ``had cut back on 
the tests'' for financial reasons.
    Without a national law regulating drugs in racing, New Mexico 
regulators can be as lenient as they wish in disciplining drug 
violators.
    Trainers in New Mexico who overmedicate horses with Flunixin get a 
free pass on their first violation, a $200 fine on the second and a 
$400 fine on the third, records show.
    In Indiana, by contrast, winnings are forfeited after the first 
drug offense. ``If someone who violates the rule thinks the penalties 
are going to be mild or nonexistent, then breaking the rules is just a 
cost of doing business,'' said Joe Gorajec, the executive director of 
the Indiana Horse Racing Commission.
    New Mexico gives offenders another break: it wipes away Flunixin 
violations every 12 months, allowing trainers to again overmedicate 
horses without penalty. Dozens of huge Flunixin overdoses have resulted 
in warnings only.
    Sometimes the same horse is illegally drugged twice. On May 9, 
2009, Runawayslew, a horse trained by Andres Gonzalez, raced with two 
anti-inflammatory drugs. Nineteen days later, under another trainer, 
Runawayslew raced on cocaine.
    To varying degrees, the picture is similar nationwide. Trainers 
often face little punishment for drug violations, and on the rare 
occasions when they are suspended, they are allowed to turn their 
stables over to an assistant. Since January 2005, 116 trainers have had 
five or more drug violations, and 10 trainers had 10 or more, records 
show.
    In New Mexico, Cody Kelley, an Albuquerque lawyer who represents 
people accused of violating racing commission rules, including Andres 
Gonzalez, said punishments were too arbitrary.
    ``Are there people that cheat at horse racing in New Mexico? Yes, 
happens everywhere,'' Mr. Kelley said. ``But I think our commission 
right now is not equipped to deal with it. What we need are national 
rules.''
    Mr. Mares, the New Mexico racing chief, agrees that his agency 
needs more uniform penalties to avoid charges of favoritism. ``There is 
an issue of consistency--you can quote me on this,'' Mr. Mares said. 
``It is being addressed.''
    New Mexico recently became the first state to temporarily ban all 
horses from racing on clenbuterol, a drug that aids respiration, but 
that has been widely abused because it can build muscle.
    In recent years, the state commission has had its embarrassments.
    One former investigator faces trial on charges of stealing horses 
while working at the commission. Another trainer's doping violation was 
dismissed because the assistant attorney general handling the case 
neglected to show up in court. And the commission had to drop charges 
against Ramon O. Gonzalez Sr. for drugging 10 horses because it forgot 
to file the proper paperwork, according to the state attorney general's 
office.
    Nonetheless, odds are slim that any of the Gonzalezes--Andres, 
Ramon Sr. or Ramon Jr.--will show up at a New Mexico racetrack any time 
soon. In late January, a Federal grand jury in Albuquerque indicted 
them on charges of participating in a drug trafficking scheme tied to 
one of Mexico's most notorious drug cartels. All have pleaded not 
guilty.
    Andres Gonzalez was arrested at Sunland Park Racetrack and Casino 
in New Mexico. His uncle, Ramon Sr., was arrested while pulling a horse 
trailer that the authorities said was carrying 26 kilograms of cocaine 
and 500 pounds of marijuana.
Masking Pain, or Healing It
    Breakdowns can be caused by a variety of factors, including poor 
track surface and jockey mistakes. But drugs, often used to mask 
existing injuries, are the prime suspect.
    ``It's not that these medications caused the injuries, but the 
trainers knew the horses were injured and gave them the meds to get 
them into the race,'' said Dr. Arthur, the veterinarian for the 
California Horse Racing Board.
    Necropsies are considered essential to determining if an existing 
injury contributed to a fatal breakdown. However, only 11 states 
require them, a Times survey found.
    In California, where necropsies are required, researchers found 
that a ``large majority'' of horses had existing problems at the site 
of their fatal injuries.
    ``To be fair, some of that is microscopic and may not be readily 
apparent,'' Dr. Arthur said. ``We're trying to figure out why vets and 
trainers are not identifying injuries prior to catastrophic injuries.''
    But many prior ailments are indeed serious. The Times obtained 
hundreds of necropsy reports on racehorses that died racing in 
Pennsylvania and found problems that included ``severe degenerative 
joint disease,'' ``severe chronic osteoarthritis'' and pneumonia with 
``severe, extensive'' lung inflammation. One horse had 50 stomach 
ulcers. Another had just one eye. Pathologists also found metal screws 
in two horses that had broken bones from previous accidents.
    In the United States, horses are usually allowed to run on some 
dose of pain medication, usually bute. The question, fiercely debated 
in the racing community, is at what level do therapeutic drugs make 
racing unsafe?
    Virginia's fatality rate went up after regulators in 2005 raised 
the allowable level of bute to 5 micrograms from 2 micrograms. ``Our 
catastrophic incidents increased significantly,'' said Dr. Richard 
Harden, equine medical director for the state racing commission.
    Virginia returned to the lower level in 2009, though the fatality 
rate has not come down.
    Iowa's fatality rate rose by more than 50 percent after the state 
in 2007 allowed a higher level of bute.
    Regulatory veterinarians say the higher allowable levels make it 
difficult for them to spot lameness and injury during prerace 
examinations. In one study, researchers at Oklahoma State University 
said they found bute in most of the horses that died racing or training 
at Oklahoma tracks in 2010. Six had both bute and Flunixin, a dangerous 
practice called ``stacking,'' the report said.
    The researchers also expressed concern that despite fewer races, a 
record number of horses died, necessitating a ``careful re-evaluation 
of track surfaces, medication/enforcement and prerace examinations.''
    But prominent owners and trainers, and even some veterinarians, say 
evidence linking drugs and breakdowns is unconvincing.
    Kent H. Stirling, chairman of the national medication committee for 
the Horsemen's Benevolent and Protective Association, said there was 
``no scientific evidence whatsoever'' that 5 micrograms of bute on race 
day is dangerous.
    Mr. Stirling and others say sore horses should not be denied 
therapeutic medicine when needed. ``If you're a horseman and you're 
trying to keep a horse going and keep him happy and healthy as you can, 
then these therapeutic medications are very helpful,'' he said.
    Regulators typically view prescription drug violations as more 
benign than the use of banned substances on horses. And they constitute 
the bulk of the 3,800 violations that The Times found by surveying 
racing states.
    But others, including racing regulators overseas, say horses should 
not compete on any drug regardless of type.
    ``Therapeutic drugs, by definition, are used for healing and 
curing,'' said Arthur B. Hancock III, whose farm produced three 
Kentucky Derby winners. ``Drugs that mask pain and enhance performance 
are not `therapeutic.' They are what they are: performance-enhancing 
drugs.''
    The industry group that runs graded stakes races had promised to 
ban all therapeutic drugs for 2-year-olds, but in late February backed 
off, saying it did not have enough time to bring state regulators on 
board.
    George W. Strawbridge Jr., a prominent breeder and owner, resigned 
from the group over that decision, calling it ``one of the most craven 
acts'' he had seen.
    ``How on earth did we get to this sorry state?'' Mr. Strawbridge 
said. ``The first reason is that in this country there are no 
significant consequences for doping horses.''
Respecting the Ride
    Chris Zamora knows the sensation of riding a sore horse. But one 
ride in particular stands out.
    On Nov. 25, 2008, Mr. Zamora was guiding his horse, Sinful Heart, 
into the first turn at Zia Park when he sensed something was wrong. 
``He didn't want to take the turn,'' he said. ``He was in pain.''
    Sinful Heart drifted out, clipped heels with another horse and 
fell. A trailing horse tripped over them.
    Mr. Zamora, the winner of more than 1,000 races, nearly died in the 
accident, fracturing his skull, pelvis, ribs and four vertebrae. His 
lungs collapsed, his liver was lacerated and his heart was compressed. 
``They had to insert a needle to take the pressure off of my heart,'' 
he said.
    Sinful Heart survived to race three more times, in successively 
cheaper races, never winning before collapsing and dying on the track 
at Ruidoso.
    Four months after his accident, in March 2009, Mr. Zamora returned 
to the track. But he had changed. No more cheap horses. ``I tried to 
ride quality over quantity,'' he said. ``I didn't ride a horse that 
somebody said was already sore. I scratched more of them at that time 
than I had in my whole life.''
    The best trainers might have been unhappy, he said, but they 
trusted his judgment and fixed the problem. ``They were great 
horsemen,'' Mr. Zamora said, offering the ultimate compliment.
    But not all were. Now, he said, some trainers just go to another 
rider. ``These guys will head a horse up until it breaks down 
completely, and when there's a man on top of them, it's bad,'' he said.
    Other injured jockeys tell similar stories. ``I think more should 
be done for the horse to let him heal naturally than to be getting him 
to the next race so we can get one more race out of him,'' said Randy 
Meier, a winner of more than 4,000 races, many in the Chicago area.
    Along the way, Mr. Meier broke his neck, collarbones, ribs, 
shoulder, legs, arms, wrist and sternum and developed a brain bleed.
    New Mexico jockeys have been hit particularly hard. Not only was 
Mr. Villa killed and Mr. Zamora and Mr. Martin critically injured, Juan 
Campos died in an accident in August 2008; Jimmy Ray Coates fell the 
same year, his heart stopping twice after breaking his femur, shoulder 
and collarbone; Carlos Rivas had no pulse en route to the hospital 
after rupturing his aorta in 2010, and the same year Kelsi Purcell 
fractured multiple vertebrae in a spill.
    There were other injuries as well.
    ``We've been through this so many times,'' said Terry Meyocks, 
national manager of the Jockeys' Guild. More than 50 permanently 
disabled jockeys receive assistance from the Jockeys' Guild, he said.
    After Mr. Zamora's accident, Mr. Martin, a friend and hunting 
partner, had told him not to abandon hope. ``You'll be back,'' he said. 
``You're in great shape, it won't be that long. You're not done. You 
won't be in a walker.''
    Like all jockeys, Mr. Zamora knew the risks of riding. ``Every time 
you do it, you take a chance one is going to break it off. Even with 
the soundest horse you take a chance.''
    Good jockeys can alter their ride if a horse is sore or about to 
break down. In some cases, though, there are no hints, no warnings. And 
that is when jockeys face the greatest danger.
    Jacky Martin had no warning.
    ``I thought he was going to die,'' said Adrian A. Ramos, who was 
riding in the same race. ``He hit the ground hard, real hard. I was 
behind him and I saw everything.''
A Second Chance
    The question almost everyone at the track wanted to ask was why. 
Why did Mr. Martin, at the top of his game, the winner of a record 
seven All American Futurities, agree to ride a cheap claiming horse 
with no victories just 3 days before he was to ride the favorite in the 
$2.4 million Futurity?
    The favorite did eventually win and would have paid him $120,000, 
the jockey's standard share. For riding the horse that broke his neck, 
Mr. Martin took home little more than the cost of a tank of gas.
    Until that wrenching moment in the Ruidoso dirt, Mr. Martin at age 
56 had been on a redemptive journey to right the wrongs in his life, to 
help younger jockeys avoid the mistakes he had made and to regain what 
he had lost: an opportunity to sit atop a racehorse and to coax from it 
all the power it was willing to give, and nothing more.
    For 4 years, Mr. Martin had been barred from racing after being 
sentenced to probation in 2006 for poaching deer and possessing less 
than a gram of methamphetamine. He and his wife, Tracey, also his 
agent, moved to Louisiana. ``I worked horses every day for three and a 
half years being a gallop boy,'' Mr. Martin said. ``That's all I was, a 
$10 gallop boy.''
    In the afternoon, Mr. Martin helped to build fences and even a 
barn, his wife recounted. ``We actually bagged horse manure and sold it 
and delivered it just to get through,'' she said.
    It was a steep fall for a man so highly revered in the sport that 
Mexican businessmen would send armed guards to escort him to high-
stakes races south of the border.
    ``After a time, he took ownership for the wrong things that he did 
and worked his way through it,'' Ms. Martin said. Just as important, 
friends say, he developed an even deeper appreciation for the role 
others played in racing, from grooms to horse owners struggling to stay 
in the game.
    In the summer of 2010, Mr. Martin was finally cleared to race, and 
he returned to Ruidoso unsure of how he would be received. When word 
spread that ``Jacky was back,'' owners were eager to extend a helping 
hand, but most of all, they were eager to win.
    And win he did. With the racing season half over, Mr. Martin 
stormed into the lead to become the top winner and champion jockey for 
2010.
    ``He was so grateful he got a second chance,'' Ms. Martin said in 
December. ``He was on the radio saying: `People out there need to know 
that they can be forgiven and succeed. If I can fix my screwed up life, 
you can too.' ''
    In Mr. Martin's quest to win an eighth Futurity in 2010, his horse 
lost by a nose in one of the biggest upsets in the history of that 
race. But the loss did not diminish the joy he felt competing again.
    ``It's just a fairy tale for it to turn out the way it has,'' Mr. 
Martin told a racing publication in 2010.
    Mr. Martin fell a year later, on the Friday before Labor Day at the 
beginning of the final, biggest weekend of racing at Ruidoso. The tens 
of thousands of spectators, who would later fill the stands and line 
the distant highway with parked cars, had yet to arrive.
    Only a small, quiet crowd, including relatives of riders, trainers 
and owners, was on hand to watch Mr. Martin go down. One woman screamed 
because she mistakenly thought her husband had been the one injured.
    The authorities did little to determine why Mr. Martin's horse, 
Phire Power, broke down. The commission said drug tests found no 
prohibited substances, but the scope of those tests is unclear, 
including whether the horse was tested for bute. The state also said 
the horse's body did not undergo any postmortem exam before it was 
destroyed.
    Within minutes, Ms. Martin was escorted onto the track to be with 
her fallen husband. Over the next 6 months, she would rarely leave his 
side.
    In 2 days, Mr. Martin had been scheduled to sign autographs at 
Ruidoso to raise money for injured jockeys. Instead, other jockeys 
signed autographs to raise money for him.
    Since the accident, Mr. Martin has been in and out of hospitals in 
three cities. He has suffered through infections, pneumonia, nausea, 
weight loss, bed sores and other problems. He remains paralyzed, unable 
to move his arms or legs. He breathes with a respirator.
    Meanwhile, the racing community has rallied to his side, sending 
not only words of support but also money to help defray his mounting 
health care costs. Ruidoso's owner, R. D. Hubbard, promised $100,000. 
There have been silent auctions and other fund-raisers. His wife 
worries that it may not be enough.
    Through it all, Mr. Martin refuses to feel sorry for himself.
    In December, as he struggled to breathe in a Houston hospital, he 
told a reporter softly that he had no regrets.
    ``It's a bad deal,'' he said. ``But if I could do it again, I would 
be right out there doing it. I ride horses. It's the risk every jockey 
takes.''
    Back home in El Paso, Ms. Martin says her husband derives one of 
his few pleasures from sitting in his wheelchair next to a window 
watching horses train silently in the distance.
    Mr. Martin's injury deeply affected Mr. Zamora. He was not only 
losing a friend from the jock's room, the sport was losing a rider, a 
gentleman, who had come to represent the best it had to offer.
    ``He rode the best horses in the world, but he was worthy of the 
best horses in the world,'' Mr. Zamora said. ``He had great hands. He 
let a runner be a runner instead of going to the whip too early. Them 
animals loved him, and they ran for him and he understood them. When 
one didn't want to run, he let them not run. He didn't take to the 
whip. You have to understand them--that's what makes a great horseman. 
And he was. He was special.''
    Last fall, several weeks after Mr. Martin's spill, Mr. Zamora left 
the jock's room for the last time.
    ``I knew I had come so close, and I couldn't deal with that.''
Pain, Up Close
    It was the third race at Ruidoso on July 11, 2009.
    In the stands, Laura and Armando Alvarado sat with their two 
grandchildren, ages 11 and 14.
    The Alvarados were not racing fans, but this was a vacation--they 
had driven up to the mountain resort from El Paso--and they thought 
their grandchildren might enjoy watching their first horse race.
    Mr. Alvarado took the children down to the rail for a closer look. 
Ten horses sprinted out of the gate, including a gray Texas-bred 
quarter horse named Sinful Heart, the same horse that fell several 
months earlier, nearly killing Chris Zamora.
    Just past the finish line, Sinful Heart, with another rider on its 
back, broke down, collapsing on the track. ``The horse is bleeding!'' 
one of the children cried out.
    The children were not visibly shaken, but Ms. Alvarado said she was 
sorry they had to witness death at such a close range. After a few more 
races, they went shopping.
    Five days later, a relative with a passion for racing was visiting 
the Alvarados, and they all went to the track.
    ``It was going to be an all-day experience, and I thought how nice 
to have this man give them all this history and details,'' Ms. Alvarado 
said.
    Once again, Mr. Alvarado took the children to the rail to watch the 
finish of the day's first race.
    This time, a horse broke its leg, pitching its rider--who happened 
to be Chris Zamora--into the ground, where rider and animal rolled like 
tumbleweeds across the finish line.
    ``It was awful,'' Mr. Alvarado said. Although Mr. Zamora was not 
seriously injured, the horse was. ``The bone was showing through the 
skin,'' Mr. Alvarado said.
    Both children began to cry. ``I have never seen anything that 
horrible close up,'' Mr. Alvarado said. ``The kids were terrified.''
    The horse was euthanized on the track. The family quickly left the 
premises. Ms. Alvarado said: ``I told Armando, just drive. We wanted to 
get out of there.''
    Afterward, her granddaughter said, ``I don't want to go to a 
racetrack ever again.''
    Ms. Alvarado wrote a letter to the editor of the local paper.
    ``For the sake of the animals and children, we felt compelled to 
let city officials, agencies and others know of this painful experience 
and urge you to investigate,'' she wrote.
    She said she sent copies of the letter to the mayor, the track, its 
chief veterinarian, the Humane Society and the American Society for the 
Prevention of Cruelty to Animals.
    Ms. Alvarado expected a response.
    She never got one, she said.
    Rebecca R. Ruiz and Matthew Orr contributed reporting from New 
York.
    A version of this article appeared in print on March 25, 2012, on 
page A1 of the New York edition with the headline: Mangled Horses, 
Maimed Jockeys.
                                 ______
                                 

     The New York Times--Breakdown/Death and disarray at America's 
                       racetracks--April 30, 2012

                   Big Purses, Sore Horses, and Death

    Large payouts to owners make it profitable for owners to field 
thoroughbreds that are past their prime, sometimes with fatal results.

    By Joe Drape, Walt Bogdanich, Rebecca R. Ruiz and Griffin Palmer

    As he trained for his first race, at Aqueduct Racetrack in Queens, 
the 3-year-old thoroughbred Wes Vegas galloped on the track most 
mornings and had two timed workouts. But his handlers also prepared him 
in another way: In the month before the race, records show, he received 
10 intravenous injections of potent drugs for pain, one the day before 
he ran; two injections of a drug for joint disease; corticosteroid 
injections in his two front ankles; a sedative; and an ulcer drug.
    For all the preparation, that first race, on March 3, turned out to 
be his last.
    As he approached the first turn, Wes Vegas broke a leg and had to 
be euthanized.
    A week earlier, another horse, the 4-year-old Coronado Heights, who 
records show had ``early degenerative joint disease,'' suffered a fatal 
breakdown at Aqueduct after receiving 13 injections for pain and 
cartilage damage in the month before his race.
    Since a casino opened at Aqueduct late last year, offering vastly 
richer prizes, 30 horses have died racing there, a 100 percent increase 
in the fatality rate over the same period the previous year. Like Wes 
Vegas and Coronado Heights, many had been injected repeatedly with pain 
medication in the weeks before their breakdowns, according to a review 
of veterinary records by The New York Times.
    Pain medication during training is legal as long as it does not 
exceed certain levels on race day. But the prevalence of drugs is a 
graphic illustration of how the flood of casino cash has created 
powerful and dangerous incentives to run sore, tired or otherwise unfit 
horses in pursuit of that big score.
    ``If the public knew how many medications these horses were 
administered after entry time, I don't think they would tolerate it,'' 
said Dr. Rick Arthur, equine medical director of the California Horse 
Racing Board.
    Amid the uproar over the Aqueduct death toll, Gov. Andrew M. Cuomo 
of New York ordered an investigation to ``ensure against needless 
injuries to horses and to riders.'' Experts are examining various 
factors--not just drugs, but issues like track conditions and pre-race 
inspections.
    But what is indisputable is that casinos opening at Aqueduct and a 
growing number of racetracks have recalibrated the age-old economic 
equations of the horse-racing game.
    To survive amid a riot of new, technologically advanced gambling 
options, track owners have increasingly succumbed to the gambling 
industry's offer to sweeten racing purses with slot machine revenue. 
But if casinos promise to prop up a struggling sport, they can also 
erode the loyalty that owners and trainers feel toward their horses, 
turning them, in the words of Maggi Moss, a leading owner, into 
``trading cards for people's greed.''
    The casinos' impact is greatest at the sport's low end, the so-
called claiming races, a world away from the bluegrass pageantry of 
Saturday's Kentucky Derby. In the claiming ranks--where some of the 
cheapest horses fill starting gates at tracks like Aqueduct, Penn 
National, near Harrisburg, Pa., and Evangeline Downs in Louisiana--the 
casino money has upset the traditional racetrack balance of risk and 
reward.
    ``It's strictly self-centered greed of not thinking about the horse 
but thinking about maybe I can get one more race out of him and get a 
piece of the game,'' said Dr. Tom David, until recently the chief 
veterinarian for the Louisiana Racing Commission.
    To better protect the horses, some industry experts say, purses 
should be limited so the potential winnings in any race do not exceed 
the value of the horses running in it. That way, the incentive for the 
owner is to care for the horse over the long haul, rather than risking 
it for a single payday. A prominent veterinarians group, the American 
Association of Equine Practitioners, recommends that no purse exceed a 
horse's value by more than 50 percent.
    Yet that recommendation is widely ignored, The Times found.
    At Aqueduct, horses worth $7,500--at the lowest level of 
competition--recently raced for a $40,000 purse, nearly four times the 
recommended maximum. Two of them broke down and had to be euthanized. 
Both had been given pain medication in the days leading up to the race. 
In all, 19 of the 30 Aqueduct deaths occurred in races where the 
veterinarians' standard was violated.
    Nationwide, 57 percent of thoroughbred claiming races at casino 
tracks exceeded that 50 percent standard, and horses broke down or 
showed signs of injury at a 29 percent higher rate in those races, 
according to a Times analysis.
    In a statement, the New York Racing Association said ``it would be 
inappropriate and irresponsible of The New York Times to speculate on 
the reasons for breakdowns and injuries'' before the Governor's task 
force has finished its inquiry.
    Big purses have destabilized the racetrack economy in another way. 
Every claiming race is essentially a marketplace, with all horses for 
sale at a fixed price. But the casino money has set off a frenzy of 
horse trading at Aqueduct, with owners eager to buy and also to sell to 
slake the surging demand. Since the casino opened late last fall, 
nearly 500 horses and $10.7 million have changed hands, more than 
double the previous year, records show.
    Again, the incentive is to push horses, fit or not, out onto the 
track.
    ``If horses don't win, people just get rid of them,'' Ms. Moss 
said.
    The turmoil at Aqueduct over the last 6 months caught many in the 
industry by surprise. But a cautionary tale played out 2 years before 
at Penn National, where nine horses belonging to a single owner died 
while racing, prompting a boycott by jockeys. State investigators 
discovered evidence of serious problems in the owner's operation: 
trainers and other employees injecting horses with illegal drugs and 
administering other illicit treatments at an off-track training center.
    When the Hollywood Casino arrived in 2008, Penn National became 
part of a casino expansion that now encompasses more than a third of 
the Nation's thoroughbred racetracks. Gambling companies, state budgets 
and some horse owners have benefited, but the spread of casinos has 
left many people wondering if in the long run, casino gambling is 
hurting racing and the horses themselves.
    ``In spite of what they say, and they are my friends whom I love 
dearly, they do not care about horse racing,'' William Koester, of the 
Ohio State Racing Commission, said recently of the casino industry. 
``They care about gaming. That is their mission.''
Lame and Still Racing
    Melodeeman, a 10-year-old thoroughbred, had earned a rest.
    He raced gallantly for six owners. He set a track record at 
Aqueduct for the fastest five and a half furlongs and earned more than 
$250,000 in his career. He raced even after a broken leg was put back 
together with three stainless-steel screws.
    But by the evening of Jan. 21, 2010, Melodeeman had hit the bottom 
of the racing world. As the temperature hovered near freezing at Penn 
National, he prepared to compete among the lowest quality 
thoroughbreds.
    In a different time, Melodeeman might have skipped this race, or 
retired altogether. Not now. Not here. Profits from the track's casino 
had fattened the purse to $18,000, far more than the $4,000 for which 
each horse could be purchased, or claimed--precisely the kind of cost 
disparity that prominent veterinarians had warned against.
    Eager to get in on the action, three people filed claims to buy 
three horses in the race.
    No one tried to buy Melodeeman.
    According to one exercise rider who saw the horse well before the 
race, Melodeeman was clearly lame. But Melodeeman raced anyhow that 
evening.
    Turning for home, his front legs buckled, sending his jockey, Angel 
Quinones, flying. Melodeeman had snapped his right cannon bone and was 
euthanized at the track, almost 4 years to the day after he set his 
Aqueduct record.
    State regulators were suspicious. Other horses belonging to the 
same owner, Michael Gill, had been breaking down in large numbers, and 
jockeys were complaining.
    A subsequent necropsy revealed that Melodeeman not only had 
degenerative joint disease in the lower part of his two front legs, but 
that his fatal fracture occurred next to the earlier break mended with 
three screws. The examiners were concerned enough to have snapped a 
color photograph of the screws.
    A prohibited sedative, fluphenazine, was also found in Melodeeman's 
brain, according to records obtained by The Times. Fluphenazine can 
calm a horse that becomes agitated because of discomfort or injury, 
according to two veterinarians.
    Melodeeman's fatal breakdown was not quickly forgotten by jockeys 
on the backside at Penn National. A revolt was brewing.
Jockeys Fight Back
    Mr. Gill made his fortune in the mortgage brokerage business before 
becoming one of the Nation's most successful--and controversial--
thoroughbred owners. He was a winner of the Eclipse Award as the 
Nation's outstanding owner, but tracks in several states denied him 
stable space because of brushes with regulators over his treatment of 
horses. He set up a training center in Chester County, Pa., giving him 
easy access to three casino tracks, among them Penn National.
    Although the casino there does a steady business, the track itself 
seems almost an afterthought. It sits behind the parking garage, barely 
visible from the gambling floor. On many nights, the few racing fans 
who show up outside buy programs from a vending machine and beer at a 
single counter.
    But there was no secret why Mr. Gill had made Penn National the hub 
of his operation: the hefty purses.
    Now, Melodeeman's death threatened to upend it all.
    The next morning, Thomas Clifton, a veteran jockey, complained to 
the state racing commission's office at Penn National that Mr. Gill's 
horses were unsafe. He had been making similar complaints for a month.
    ``The horses go perfectly sound right up to the second they snap 
their leg off,'' Mr. Clifton said. The following day he came back with 
a warning: ``If we have one more horse break down, we are going to have 
a major problem on our hands.''
    That night, riding in the fifth race, Mr. Clifton heard a bone snap 
and saw another jockey, Ricky Frazier, vaulting off a horse named 
Laughing Moon. Mr. Clifton yanked his own mount, but they still went 
soaring over Laughing Moon.
    Within minutes, Mr. Frazier was in an ambulance and a veterinarian 
was administering a lethal injection to Laughing Moon, the ninth Gill 
horse to die racing in 10 months.
    That is when the jockeys decided to take a stand: They would not 
ride in any race with a Gill-owned horse.
    Their boycott cast a harsh light on the Pennsylvania Racing 
Commission and Penn National Gaming, which owns the track.
    ``It wasn't the commission or the racetrack or anyone with any 
responsibility for horses and riders who took action,'' said George 
Strawbridge, a prominent breeder and owner. ``It was the jockeys who 
feared for their life. That's not a shame. That's a disgrace.''
    Track officials and regulators had ample reason to question the 
integrity of Mr. Gill's operation well before the boycott.
    Regulators did not have the authority to monitor the treatment of 
horses on Mr. Gill's ranch, but 3 months before the boycott, the 
commission and track security officers searched a van delivering Mr. 
Gill's Lion's Pride, who was scheduled to race that day. They found 
four syringes, and Lion's Pride tested positive for a corticosteroid 
used to treat joint inflammation.
    Lion's Pride was not allowed to race that night. But on Dec. 18, 
2009, after running barely a quarter of a mile, he suffered a fatal 
breakdown.
    By then, an employee of Mr. Gill's ranch had already told state 
police investigators that horses were being injected with drugs on race 
day, which is illegal. Investigators later heard accounts of snake 
venom injections and other performance enhancing treatments on race 
day, according to records obtained by The Times.
    Dr. Jerry Pack, a former veterinarian for the racing commission who 
now works for Penn National, told the police that he suspected Mr. 
Gill's horses received an illegal performance enhancing substance. He 
also said trainers were using shock wave therapy, which can mask 
injury. ``This is also dangerous to the welfare of the horse,'' he told 
investigators.
    Suspicions were heightened by the backgrounds of some employees of 
Mr. Gill, including two trainers, Cole Norman and Darrel Delahoussaye.
    Mr. Norman had been fined or suspended 30 times in four states for 
drugging horses. The authorities had accused him three times of 
administering an illegal ``milkshake''--a concoction of baking soda, 
sugar and electrolytes delivered through a tube down a horse's throat 
to combat fatigue by breaking up lactic acid. Mr. Norman was also 
incarcerated for killing a driver in a head-on collision while under 
the influence of prescription painkillers.
    In 1984, Mr. Delahoussaye lost his Louisiana training license after 
a conviction for check fraud, and Ohio later suspended him for 
possessing syringes and drugs and for using a makeshift electric cattle 
prod on a horse. Mr. Gill himself had once been suspended from racing 
after syringes and needles were found in his barn at a New Hampshire 
racetrack.
    A grand jury in Dauphin County, Pa., investigated reports of horse 
doping and other corrupt acts. But Mr. Delahoussaye was the only one 
charged, with doping. A plea agreement kept him out of jail--and out of 
racing in Pennsylvania.
    In the face of the boycott, the racing commission ejected Mr. Gill 
and his racing manager, Anthony Adamo, from Penn National. They filed a 
Federal lawsuit, saying that they were expelled for no valid reason and 
without a hearing. A trial took place last week and a decision is 
expected soon.
    Alan Pincus, a lawyer for the men, said that they have been 
unfairly tainted with ``all kinds of innuendo and lies for over 2 
years,'' and that the testimony showed that their ejection ``was not 
based on any culpable wrongdoing.''
    Mr. Gill said that he rarely visited Elk Creek Ranch, his 
Pennsylvania training center, and that he never instructed anyone to 
break racing rules.
    Chris McErlean, vice president of racing at Penn National, said the 
investigation of Mr. Gill and the enforcement of racing rules was the 
responsibility of the state racing commission, which declined repeated 
requests for an interview.
    Since the jockey boycott, change has come slowly at Penn National. 
The track began doing pre-race inspections of horses--routine at most 
racetracks in North America--only last October.
    The track's owner has declined to seek accreditation or to 
contribute to a fund for jockey benefits.
    In September, an injured filly had to wait more than an hour to be 
euthanized because Penn National had no licensed veterinarian on duty 
during morning training. The company said it was not the track's 
responsibility, though it is a requirement of accreditation.
    ``There's cost issues and there's problems we have with the 
process,'' Mr. McErlean said of accreditation. ``They are making 
racetracks solely responsible, presenting it as a racetrack-only issue. 
They don't accredit horsemen, or breeders.''
Bought and Sold
    Aqueduct has never been the most glamorous track. The sound of 
pounding hooves is often drowned out by the roar of jets at nearby 
Kennedy International Airport. The bulk of its racing is conducted in 
the winter, when top owners move their horses to Florida to race.
    Aqueduct is a neighborhood track for working-class horsemen, where 
low-level horses are bought and sold in claiming races, which account 
for nearly 70 percent of American racing.
    In claiming races, horses are grouped by ability and price. In a 
$10,000 claiming race, for example, any horse can be ``claimed'' or 
bought for that price. The goal is to lure a group of evenly matched 
horses to attract bettors but also to ensure a level playing field. The 
deterrent to entering a high-caliber horse in a low-level claiming race 
is the risk of losing it for a pittance.
    Aqueduct is a case study of how casinos have altered the economics 
of claiming races. Purses there have jumped by about $130,000 a day 
compared with the previous year. At the same time, crops of 
thoroughbreds nationwide have declined and, many experts say, so has 
their overall quality. The result, at Aqueduct and other casino tracks, 
is daily cards of low-level claiming races being run for higher purses 
and a spike in the claiming of horses by owners seeking a quick profit.
    Among them was Bojan, a valuable commodity, but a disposable one, 
too.
    Bojan possessed enough good looks and pedigree to fetch $107,000 at 
a yearling sale in Kentucky in 2008. Now it was April 6, 2012--Good 
Friday--and just as Bojan was about to run in the first race at 
Aqueduct, a trainer named Juan Serey dropped a slip of paper into a box 
in the racing office, agreeing to pay $10,000 for him on behalf of an 
owner who employed him. But the horse would not be his until after the 
race.
    Mr. Serey, who has been the leading trainer at Aqueduct, knew the 
horse had a fragile tendon and puffy ankles. It was why Bojan kept 
coming up for sale at the bottom of the claiming ladder, why he had 
changed hands twice in 2 months.
    Even so, Bojan had continued to prove a sound investment. He had 
earned more than $19,000 for one owner and trainer, Linda Rice, in the 
span of 16 days, and his current co-owner and trainer, David Jacobson, 
had owned Bojan for a single race--a victory worth $17,400.
    Mr. Serey decided to roll the dice.
    ``Everybody just wants a horse, and they want him now to race in 10 
days,'' he said. ``I want a horse today and I don't want it tomorrow. 
I'm a businessman.''
    Turning for home, Bojan led the field and it looked like Mr. Serey 
had chosen well. Suddenly, however, the horse faltered and his jockey 
stood up in the saddle. They hobbled home, finishing fourth. Moments 
later Bojan was boarding a horse ambulance.
    ``They tried to roll him and win the race and get the money,'' Mr. 
Serey said of Bojan's owners.
    Indeed, the owners walked away with the $1,150 fourth-place check.
    Mr. Serey had no regrets. ``You've got to take the good ones and 
the bad ones,'' he said, adding, ``If somebody takes my bad horses, 
it's good.''
    Since the casino opened at the end of October, Aqueduct has seen a 
sharp rise in the number of horses injured and killed. Horses have 
broken down or shown signs of injury at Aqueduct at a rate of 10.2 per 
thousand starts, or more than double the national rate of 5.0 per 
thousand starts for thoroughbred racing, according to a Times analysis.
    Similar trends are evident at some tracks around the country. The 
five casino tracks in New Mexico have rates for thoroughbred breakdowns 
that are double the national average, with Ruidoso Downs and Zia Park 
topping the list with 12.5 and 12.1, respectively, per thousand starts.
    Coleman Lloyd, the racing secretary at Evangeline Downs Racetrack 
and Casino in Louisiana, told the state racing commission that the only 
conclusion that can be drawn from Evangeline's high fatality rate was 
it ``runs more races and cheaper horses,'' according to the minutes of 
an Aug. 30, 2010, meeting.
    Joe Gorajec, executive director of the Indiana Horse Racing 
Commission, said his state capped the number of racing days at 75 and 
mandated that low-level claiming races make up only 30 percent of the 
program.
    ``If you had just what I would call obscene money on these lower-
level horses, it would affect the judgment of those horsemen,'' he 
said.
    Beyond the numbers, veterinary records obtained by The Times on 
Aqueduct's 30 horse deaths show in raw terms how pain medication is 
used in racing.
    In the week leading to a $7,500 claiming race with a $40,000 purse 
in early March, Big Polk a Dot's right front ankle was injected with 
powerful cortisone, his feed was laced with a potent anti-inflammatory 
and he was shot with a painkiller, records show.
    One of his rivals, Almighty Silver, got his left and right lower 
hocks injected with a painkiller and his front ankles with synthetic 
joint fluid. He also got an injection to dilate his airway, records 
show.
    Big Polk a Dot ran barely an eighth of a mile before his right 
front cannon bone snapped and he was euthanized. Almighty Silver 
managed to finish third, despite a fractured right front leg.
    While his effort earned $4,000 for his owner, Almighty Silver was 
taken by ambulance to Aqueduct's backside where he, too, was put out of 
his misery.
    These horses got little protection from state regulators or the 
racetrack. Even as the death toll was rising, necropsies were not 
performed to determine if pre-existing injuries had contributed to the 
fatal breakdowns. Nor were toxicology exams conducted.
    In March, days after Governor Cuomo announced he would appoint a 
task force to investigate the fatalities, New York Racing Association 
veterinarians became more aggressive in keeping unfit horses out of the 
starting gate, which Dr. Anthony Verderosa, its chief examining 
veterinarian, called ``a coincidence.''
    The State Racing and Wagering Board announced an emergency rule 
voiding a claim if a horse had to be euthanized on the track. Among the 
30 dead horses, 7 had been claimed in the race in which they had broken 
down.
    But in the ethic of horse traders--in which you are just as likely 
to sell a damaged horse as buy one--not everyone believed that 
prohibiting the claiming of dead horses was a good idea.
    ``This is a game,'' Mr. Serey said, ``and we have to know how to 
play.''
A Fight for a Horse
    Horses have never been a game to Earle Mack. A real estate 
developer, philanthropist and former Ambassador to Finland, Mr. Mack 
began breeding and racing thoroughbreds more than 50 years ago. He 
spent 7 years in the 1980s as chairman of the New York State Racing 
Commission.
    Over the past 9 months, Mr. Mack has had a frustrating, front-row 
seat for how horses are treated in the casino era of horse racing. In 
2008, he brought a beautifully bred horse from Argentina named Star 
Plus to the United States. Star Plus won one race and took second in 
another. Although minor injuries sidelined him in 2009, he won a race 
the following year. But on March 28, 2010, at Gulfstream Park, he 
suffered a career-ending ankle injury. The veterinarian recommended he 
never be ridden again.
    Mr. Mack retired Star Plus to a farm in Florida. But last summer, 
Mr. Mack said he sold the horse for just $1,000, after the new owners 
agreed not to race him again.
    Instead, the new owners, George Iacovacci and Kelly Spanabel, began 
training Star Plus. Records show that Mr. Iacovacci, an owner-trainer, 
and Ms. Spanabel, a jockey, eke out a living at casino racetracks, 
which often pay purse money through last place. Last year, for example, 
horses Mr. Iacovacci owned made more than $90,000, despite winning only 
five times.
    When Mr. Mack found out Star Plus was training, he alerted racing 
officials and offered to buy him back. The couple refused. Last July, 
they ran Star Plus in Michigan and, in November, in two races at West 
Virginia's Mountaineer Park. He finished last all three times.
    On Jan. 9, after discovering Star Plus was entered to run 2 days 
later at Charles Town, Mr. Mack faxed a letter to the West Virginia 
Racing Commission.
    ``As you are undoubtedly aware,'' he wrote, ``with an impaired 
ankle this horse is a danger to himself, his rider and everyone on any 
track where he is allowed to work and race.'' Darcy Scudera, who cares 
for Mr. Mack's horses in Florida, also contacted West Virginia 
officials, but was told there was nothing they could do.
    Three weeks later, Mr. Mack wrote to the Pennsylvania Horse Racing 
Commission, but he said he never heard back.
    On Jan. 28, Star Plus was again outclassed by six other horses, 
clomping home 43 1/4 lengths behind. Even so, he earned his owners 
$1,000.
    ``This is clearly abuse, and anyone interested in animals should 
have stopped it,'' Mr. Mack said. ``But these tracks need full fields 
and have got to fill races. That's why they pay $1,000 for last 
place.''
    Last month, after the West Virginia attorney general's office 
persuaded state racing officials to hear the case, Mr. Iacovacci and 
Ms. Spanabel sold the horse back to Mr. Mack for $7,000. Ms. Spanabel 
said that she and Mr. Iacovacci never agreed to retire Star Plus, and 
that they decided to sell the horse back when it became clear he was 
not going to be allowed to compete.
    Star Plus is now retired in Kentucky.
    ``These horses have fought so hard for us and given us so many 
great thrills and happiness,'' Mr. Mack said. ``Don't they deserve to 
be cared for? Don't they deserve better than what we're giving them?''
    Dara L. Miles contributed reporting.
    A version of this article appeared in print on April 30, 2012, on 
page A1 of the New York edition with the headline: Big Purses, Sore 
Horses, and Death.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 

                   The New York Times--April 30, 2012

                       How the Data Was Analyzed

    To assess how often horses break down or are injured, The New York 
Times bought official data covering more than 150,000 race results from 
2009 through 2011. The data are compiled by trained ``chart callers'' 
and used to put together result charts that bettors use to evaluate 
horses. The Times searched the data for terms indicating that a horse 
encountered a physical problem: broke down, vanned off, injured, lame, 
euthanized, died, collapsed, bleeding or went wrong.
    Although the chart callers can be stylistically different, they are 
taught to use standard industry terms and their descriptions constitute 
the official record. The Times approached the analysis conservatively, 
ignoring a number of terms--taken up, pulled up and eased, for 
example--that are often indicative of injury, but also can indicate 
that a jockey has stopped urging a horse on because it has fallen far 
behind.
    Track officials say horses may be ``vanned off,'' or removed by an 
ambulance, as a precaution and are not always injured. But ambulances 
remove a horse only if track veterinarians or other experts see 
something in an animal's performance indicating a physical problem or 
injury. Some injured horses return to racing with the help of drugs.

    A version of this article appeared in print on April 30, 2012, on 
page A12 of the New York edition with the headline: How the Data Was 
Analyzed.
                                 ______
                                 

                   The New York Times--July 11, 2012

      Records Show Triple Crown Contender Had History of Ailments

                    By Joe Drape and Walt Bogdanich

    I'll Have Another, the horse attempting to become the first Triple 
Crown winner in 34 years, had physical ailments well before he was 
withdrawn from the June 9 Belmont Stakes on the eve of the race, and he 
was being treated with painkillers and anti-inflammatory drugs even as 
anticipation built for his bid at racing history.
    According to veterinary records obtained from New York State racing 
authorities, I'll Have Another's front ankles and knees were X-rayed 
only 4 days after his triumph May 19 in the Preakness Stakes, the 
second leg of the Triple Crown. Those X-rays revealed that he had 
osteoarthritis.
    Then, only 2 days before the Belmont, which I'll Have Another 
needed to win to complete his Triple Crown quest, the colt was injected 
with two powerful painkillers as well as a synthetic joint fluid, the 
records show.
    The next morning, the colt's trainer, Doug O'Neill, abruptly 
announced that I'll Have Another would be retired because of a 
``freakish'' injury involving his left front tendon.
    But the veterinarian records show that the colt's ailments had been 
developing for some time, a fact underscored by a veterinarian, Dr. 
James Hunt, who did the X-rays after the Preakness and then performed 
an ultrasound examination on the colt the day before the Belmont.
    It was after the ultrasound that Hunt concluded that I'll Have 
Another had ``chronic/active tendinitis.'' He was immediately scratched 
from the race, the records show.
    The records do not show whether I'll Have Another was ailing during 
either the Kentucky Derby or the Preakness, and whether he was being 
given various painkillers as he prepared for those two races.
    However, Dr. George Maylin, a veterinarian and longtime head of New 
York State's testing laboratory for racehorses, said it was clear that 
``osteoarthritis has been with this horse for a period of time,'' 
adding that ``the tendon problem has also been existent for some period 
of time.''
    Maylin was one of four veterinarians who did not treat I'll Have 
Another but reviewed the records on behalf of The New York Times.
    Maylin said he could not determine from the records just how 
serious I'll Have Another's problems were. ``There is something 
there,'' he said. ``Otherwise, they wouldn't be treating it.''
    New York authorities had access to the records only because they 
insisted that O'Neill, who has had repeated drug violations, provide 
them if they were going to license him in New York for the race.
    The use of pain medication and anti-inflammatory drugs is neither 
illegal nor uncommon in racing. But the fact that drugs were being used 
on I'll Have Another in the days before a race of immense national 
interest, and were being ordered by a trainer with a controversial 
past, underscores the uneasiness the issue of drugs is creating in 
American racing.
    Racing authorities are concerned that painkillers are being 
increasingly employed by trainers to keep unsound horses racing in 
pursuit of larger purses.
    Those officials are also aware that American racing continues to be 
among the world's leaders in the catastrophic breakdown of horses, a 
fact that will undoubtedly be noted when the U.S. Senate Committee on 
Commerce, Science and Transportation holds testimony Thursday on the 
use of legal and illegal medications in racing and the damage those 
drugs can do.
    Twenty-four horses a week die at the Nation's racetracks, according 
to an analysis by The Times, and they break down or show signs of 
injury at the rate of 5.1 per 1,000 starts. This past winter, 30 horses 
died at Aqueduct racetrack in New York, a 100 percent increase in the 
fatality rate over the same period the previous year.
    Many of the horses had been injected repeatedly with pain 
medication in the days and weeks before their breakdowns, according to 
a review of veterinary records by The Times.
    O'Neill maintained Tuesday that I'll Have Another was healthy and 
sound right up until the eve of the Belmont and that the diagnostic 
work he had Hunt perform in the weeks before the race and the 
medications being given to the colt were simply to ensure that I'll 
Have Another was in peak shape.
    ``Your nerves are tested when you're a trainer because the horses 
are in your care,'' said O'Neill, who prepared I'll Have Another for 
the Belmont with daily gallops in New York. ``I X-ray them routinely. 
We were coming up to the biggest race of his life, and I wanted to make 
sure that he was perfect.''
    He said he was unaware that Hunt had diagnosed osteoarthritis in 
the days after the Preakness.
    ``He was sound,'' O'Neill said of I'll Have Another. ``He had legs 
of iron or wouldn't have been able to do what he did.''
    Hunt did not return phone calls seeking comment.
    Dr. Sheila Lyons, a veterinarian who is testifying before the 
Senate panel Thursday and has examined many top-quality racehorses, 
said that osteoarthritis was not something a doctor expects to find in 
a relatively young horse like I'll Have Another.
    Lyons said the seriousness of the colt's condition was evident in 
what occurred in the 2-days leading to the Belmont. First, she noted, 
I'll Have Another received the two large doses of anti-inflammatories 
and a synthetic joint fluid. Then, the next day, O'Neill, in announcing 
the horse was being scratched, said I'll Have Another showed signs of 
heat and swelling after an early morning gallop.
    ``The fact that response was able to present itself in the face of 
those two powerful anti-inflammatories is just evidence that this was a 
very significant injury,'' said Lyons, the founder and director of the 
American College of Veterinary Sports Medicine and Rehabilitation.
    The veterinarian records for I'll Have Another provide a glimpse 
into the care and treatment of a top-level horse. The colt captured 
five of his seven races, including the Derby and the Preakness, before 
he was retired. I'll Have Another was subsequently sold as a stallion 
for $10 million to a Japanese breeding farm by his owner, Paul Reddam.
    Reddam said Tuesday that he did not believe I'll Have Another had 
any injuries before the Belmont and that he recommended to O'Neill that 
an ultrasound be performed on his colt. He said that he was not aware 
that I'll Have Another had been X-rayed after the Preakness but that he 
was not surprised that he had been, or that he had been given 
medications and painkillers.
    ``I know the horse was under vet care routinely,'' he said, ``and 
there are things you do. Horses are like athletes and they have little 
aches and pains.''
    New York racing authorities forced O'Neill to document every form 
of treatment the horse received in the weeks leading to the Belmont 
because of his own resume.
    He has been cited for drug violations more than a dozen times in 
four states and in August will begin serving a 40-day suspension for 
manipulating the carbon dioxide levels of his horses, a performance-
enhancing technique he has been found guilty of employing on four 
occasions.
    John D. Sabini, the chairman of the New York State Racing and 
Wagering board, said that the conditions for licensing O'Neill in New 
York came in the wake of the California suspension and that his agency 
had been trying to instill some transparency with the Triple Crown on 
the line. The board also established a barn in which each horse entered 
in the Belmont Stakes was stabled and monitored by state authorities.

    A version of this article appeared in print on July 11, 2012, on 
page A1 of the New York edition with the headline: Records Show Triple 
Crown Contender Had History of Ailments.
                                 ______
                                 

              Miami New Times--Published: August 09, 2012

                 Cheaters Prosper at Calder Race Course

                          By Michael E. Miller

    One by one, horses strut into the stadium for the second race of 
the day. Each is a sleek machine shining under the sweltering midday 
sun. Their sinewy legs sway under muscular torsos rippling with veins 
like river deltas. Portly Jamaicans and aging sailors with faded 
forearm tattoos stand in a semicircle, scrutinizing the contestants.
    The bookmaker's favorite is On Appeal, a powerful animal that has 
won two races at Calder Casino & Race Course in the past month. His 
advantage is obvious: He's 100 pounds heavier and a hand taller than 
the smallest horse, a light-brown gelding called Sole Runner. The runt 
is a 16-1 underdog, for good reason. He has yet to win this year in six 
attempts.
    The seven thoroughbreds line up on the far side of the gray dirt 
track in the shadow of Florida's Turnpike. An electronic bugle signals 
they are ready. With a crash of collapsing metal doors, the horses are 
off. In an instant, they are a blur of black and brown, moving almost 
as fast as the cars on the expressway above.
    As the horses reach the end of the back stretch, On Appeal is 
predictably at the head of the pack. Amazingly, though, Sole Runner is 
right next to him, having the race of his life. As they round the bend, 
Sole Runner edges ahead, running as if possessed. On Appeal drops back, 
and suddenly Sole Runner is true to his name.
    ``Sole Runner has run them right off their heels so far!'' 
announcer Bobby Neuman shouts. The beasts burst down the home stretch. 
``Nobody's gaining ground on Sole Runner!'' Neuman says in disbelief as 
the horse cruises to a five-length victory.
    Jockey Jonathan Gonzales guides the champion to the winner's 
circle. The animal, whose head is covered by a white hood with 
blinders, is a quivering mass of muscle. Cameras click as Gonzales 
poses atop his mount.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``Returning to the winner's circle . . . Sole Runner,'' Neuman 
says. ``He's owned by Frank Calabrese and trained by Kirk Ziadie.''
    ``Kirk Ziadie?!'' exclaims a wiry old Jamaican in an oversize 
shirt, belatedly recognizing the muscular man in ripped jeans who has 
entered the circle to hold the reins. ``Aw, man. If I had known, I 
would have bet on him. He's a helluva trainer. He was trainer of the 
year a couple years ago.
    ``Then they suspended him,'' he adds in a whisper. ``Something 
about using drugs on the horses.''
    In fact, this time last year Ziadie couldn't set foot inside 
Calder. That's because from 2004 to 2009, the trainer was cited 38 
times by state regulators for pumping his horses full of banned 
steroids, tranquilizers, and painkillers--by far one of the worst 
records in the state. Many of those violations were at Calder. Yet 
Ziadie continued racing until one of his own employees blew the 
whistle. Now, after a short ban, he's back to winning. Fellow trainers 
are furious.
    At tracks across the nation, a dark cloud of doping accusations 
hangs over the sport. Top trainers are routinely suspended for 
injecting animals with strange cocktails, including cobra venom and 
frog poison. The drugs mask the animals' injuries, which cause horses 
to break down and die on live television. Not even prestigious races 
such as the Preakness Stakes and the Kentucky Derby are free of 
suspicion.
    Calder shows exactly why. Records reveal dozens of cases of horse 
doping. Two ongoing lawsuits claim course officials conspired to steal 
horses, rig races, and ban anyone who raised objections. In May, three 
men connected to the track were sentenced to Federal prison for running 
a $5 million scheme out of Calder for more than a decade.
    Calder officials deny there is any widespread problem at the track, 
calling Ziadie's violations isolated and the fraud scheme a product of 
previous management.
    ``Calder is an industry leader for racetrack safety,'' says John 
Marshall, Calder's vice president of racing.
    Yet a New Times investigation shows Calder officials knew for 5 
years about Ziadie's record of positive drug tests but did nothing. 
Interviews with former Calder employees and horsemen also suggest the 
course cared more about keeping mum and making money than protecting 
horses and jockeys.
    Larger blame also lies with the State of Florida, which has some of 
the laxest regulations in the country. With deliberately outdated 
testing techniques, fines that are a pittance compared to the prizes 
for winning dirty, and criminal charges completely unheard of, Florida 
practically encourages cheating at the track.
    ``Any time you're talking about a place with a lot of money, there 
is going to be fraud and rule-breaking,'' says Bob Jarvis, a law 
professor at Nova Southeastern University and an expert on gambling and 
sports. ``The thing about racing is that the horse never testifies.''
    Long before Sole Runner's surprise victory, Kirk Ziadie was 
mysteriously turning mediocre horses into winners and making millions 
in the process. On one serene September afternoon in 2008, for 
instance, he entered a 4-year-old stallion named Cenzontle into a high-
stakes Calder race.
    Cenzontle started slowly. After a quarter-mile, the long-shot was 
laboring at the rear of the nine-horse herd. But as he rounded the 
bend, the stallion surged, blowing past two favorites and finishing a 
neck in front. Bettors quintupled their money. Ziadie and the horse's 
owner earned a cool $30,000 in just 88 seconds.
    Long after the winnings were cashed, however, Cenzontle's stunning 
upset came under scrutiny. Blood and urine samples tested positive for 
high levels of clenbuterol, a drug that boosts a horse's breathing 
ability but also functions like a steroid to build muscle mass. It 
wasn't Ziadie's first drug infraction. In fact, at the time of 
Cenzontle's big win, Ziadie was appealing a 60-day drug-related 
suspension from the previous year.
    Because of Cenzontle's failed tests, Ziadie was given a $500 fine 
and 15-day suspension, but he kept racing and breaking the rules. It 
was a pattern that would repeat itself again and again in his 
controversial career. In less than a decade, Ziadie built an incredible 
record, winning an astounding 551 races worth nearly $11 million, all 
while breaking doping rules 41 times. Yet Ziadie has served only brief 
suspensions and been fined a total of just $13,100.
    ``A trainer with 41 drug violations should be kicked out of the 
sport,'' says Dr. Sheila Lyons, one of the Nation's leading horse 
veterinarians. ``We are putting both the horses' and the riders' lives 
at risk by allowing these drugs.''
    Ziadie is a racing thoroughbred in his own right. He was born in 
Jamaica in 1968 to a long line of Lebanese horsemen; his father, Ralph, 
conditioned the Jamaica Derby winner in 1970 before moving the family 
to Miramar in 1977. Ralph sold cars for 5 years in South Florida before 
the bugle beckoned him to a recently built racetrack in Miami Gardens.
    Calder was a gambler's dream. After opening in 1971, the mile-long 
track earned a reputation as a no-nonsense alternative to the grander 
Gulfstream Park in Hallandale Beach. Calder was open for 8 months a 
year, compared to Gulfstream's five, and soon became a proving ground 
for young horses on their way to bigger tests such as the Kentucky 
Derby. In 1999, Churchill Downs, the company that hosts the Derby and 
owns many of the Nation's top racetracks, bought Calder for $87 
million. Calder's annual Summit of Speed soon became one of the state's 
biggest affairs; in 2004, nearly $11 million was wagered during the 1-
day event.
    Once Ralph found a spot at Calder, it didn't take him long to 
dominate. He won three straight training titles beginning in 1990. By 
2001, he was in the Calder Race Course Hall of Fame.
    Kirk was his sidekick. He's handsome, with dark features and deeply 
tanned skin from working outside with his father's horses. But the two 
had a falling-out on August 17, 1996, when they got into a screaming 
match at the track. The younger Ziadie began punching his father in the 
head, according to a police report. The case was dropped, but a judge 
ordered Kirk to stay away from his old man.
    By 2002, Kirk Ziadie had made his own name. He won four races his 
first year, 14 the next, and then 41. By 2006, he was statistically 
among the best trainers in Florida, guiding horses to nearly $2 million 
in prizes (purses are usually shared between a horse's owner and 
trainer). During the 2006-7 season at Calder, Ziadie won 53 percent of 
his races on his way to being crowned trainer of the year. His win rate 
was incredible--in both senses of the word.
    ``All things being equal, you would expect a trainer to win 12.5 
percent of the time in an eight-horse race,'' says journalist Ray 
Paulick, who covers the industry. ``There are some very good trainers 
that win 25 percent of the time. Then there are some that win more than 
that, and that raises red flags.''
    In fact, there were signs of systematic rule-breaking. Like other 
states, Florida permits trace amounts of medications in a horse's 
system. Ziadie's thoroughbreds, though, began routinely exceeding those 
limits in 2004. That year, three of his animals tested positive for 
drugs: twice after winning and once after finishing second. Despite 
netting $27,130 from the three suspect results, Ziadie was fined only 
$1,100 and suspended for 15 days.
    A pattern quickly emerged. In 2005, two more of Ziadie's horses 
won, only to fail post-race tests. The trainer was fined just $550 and 
allowed to keep more than $20,000 in purse money. Then, in 2006, seven 
of his horses flunked tests, most of them for high levels of a powerful 
anti-inflammatory called phenylbutazone, commonly known as ``bute.'' 
One horse, a filly named Rgirldoesn'tbluff, won a race worth $24,000 
before testing positive for excessive bute. Ziadie was fined $1,000.
    ``Just about every trainer has made an honest mistake with 
therapeutic medications,'' Paulick says. ``But it just struck me as 
amazing for a horse trainer to have so many medication violations in 
such a short period of time.''
    When Ziadie's horse Not Acclaim won a race on April 19, 2007, but 
then tested positive for a tranquilizer, it seemed as if the state's 
Division of Pari-Mutuel Wagering would finally make an example of him. 
The agency fined him $1,000--still only a fraction of the winnings--but 
suspended him for 2 months.
    Ziadie appealed, though, and won a Tallahassee court injunction. 
His punishment wouldn't be confirmed for another couple of years, even 
after he admitted to giving the tranquilizer to his horses. Ziadie 
pleaded for leniency, arguing that his finances were ``in chaos'' but 
that he wasn't deliberately cheating.
    As his case dragged over 2 years, more than a dozen Ziadie 
thoroughbreds failed drug tests. Cenzontle failed twice. Yet when 
Ziadie's luck finally did end, it was no thanks to state regulators.
    In July 2009, the Division of Pari-Mutuel Wagering received three 
anonymous complaints. ``He . . . come[s] late at nights when no one is 
there to give his 'vitamins,' '' began a letter from someone who said 
he worked for the trainer. ``He carries a black briefcase and sometimes 
he takes the needles out of it to inject the horses.''
    The letter continued, ``If you get someone to search the car or 
truck, you will find the drugs there. . . That is the real stuff that 
he gives the horses to make them run faster or hide their pain so they 
could run on race days.''
    Another letter claimed, ``I have known this young man since his 
teenage years and ever since then, he was filled with greed to win 
races.'' A third accused Ziadie of avoiding suspensions by racing his 
horses under other trainers' names.
    One of Ziadie's employees began cooperating with Calder. The 
unnamed assistant gave the track's security manager, Steve Diamond, 
hypodermic syringes full of drugs that he claimed Ziadie had told him 
to inject into various horses shortly before their races.
    ``I hope I am not placed in danger and that my name is not 
revealed,'' the informant wrote, adding that Ziadie often killed barn 
pigeons with a shotgun. ``[If] he finds out . . . he is crazy and 
capable of killing me or paying someone else to do it for him.''
    On August 20, 2009--five years after Calder was first informed of 
the trainer's drug violations--Ziadie was finally banned from the 
track. Calder officials gave him 72 hours to remove his 50 horses.
    Incredibly, state regulators closed their case against Ziadie a few 
months later when the informant abruptly disappeared. Even more 
outrageous: Despite 38 drug violations in less than 5 years, Ziadie 
never returned a cent of the more than $10 million his horses won. 
State law allows the Department of Business and Professional Regulation 
to reclaim winnings after tainted races, but the agency simply never 
asked. Instead, it fined Ziadie a total of $13,100--less than the prize 
for a single race.
    He was also banned from other tracks in Florida, including 
Gulfstream and Tampa Bay Downs. But other states weren't aware of 
Ziadie's record. It wasn't long before Laurel Park in Maryland gave him 
ten stalls. And Chicago horse owner Frank Calabrese hired him to train 
his thoroughbreds. Soon, Ziadie was back in Florida. Gulfstream agreed 
to give him a stall in February 2011. Then, last October, Calder 
granted the disgraced trainer five stalls and permission to race.
    Calder officials defend their handling of Ziadie's violations. 
Marshall says the track took action to ban Ziadie before the state's 2-
month suspension, and denied numerous reinstatement requests from the 
trainer until they were satisfied he'd reformed.
    ``It's important to understand that legal medications are a part of 
racing,'' Marshall says. ``Most of those violations on Kirk's record 
weren't for illegal drugs; they were for legal medications that 
exceeded state limits.''
    Ziadie is now back to his winning ways. Last fall he won 33 percent 
of his races, fifth-best among trainers who raced at least ten horses. 
So far this year, he has won 23 of his 68 races (34 percent), putting 
him on track to finish as one of Calder's top trainers.
    His other habits have resurfaced too. His horses have already 
tested positive for high bute levels three times this year, including 
twice at Calder. Because state regulators recently lowered the allowed 
limit, however, they gave him a free pass. Other trainers at Calder are 
furious that the race course has allowed Ziadie to return. ``After all 
those positives?'' said one, who asked to remain anonymous. ``It's 
unbelievable.''
    In an interview with New Times, Ziadie gives contradictory 
statements. He claims his 2-year ban was due to financial problems 
after several horse owners stopped paying him. Confronted with records 
showing the ban was actually due to drug infractions, he admits to 
having ``some positives.'' But he describes the drugs as ``low-grade 
medications similar to aspirin for humans.''
    Ziadie says he's a winner because he treats his horses better--not 
worse--than other trainers. ``I love my horses. My horses run because 
they are happy. They are treated like King James in my stalls,'' he 
says. ``They've got no proof of me doing anything wrong. They've never 
found a needle on me.''
    Presented with specific evidence of doping--including the drug-
filled syringes his employee handed over to Calder--Ziadie admits to 
making ``mistakes.''
    ``How many horses have I trained?'' he says. ``Over a thousand. So 
to me, [41 positives] is nothing. That's just carelessness.''
    Then Ziadie becomes defiant, calling the employee who ratted on him 
a ``faggot.''
    ``I didn't want no faggots working for me, so I fired him.''
    And he blames his bad reputation on the ``enemies'' he's made by 
winning at the track.
    ``Look at Michael Jordan or Kobe Bryant,'' he says. ``Any time you 
do anything in life and you are successful, they are always going to 
try to bring you down.''
    Mark Cantrell had just finished climbing the Sydney Harbour Bridge 
when he saw the message blinking on his phone. With long, stringy hair 
and a supersize upper body, Cantrell resembled a professional wrestler 
past his peak. He was on vacation with his fiancee in Australia, but 
suddenly he became very worried. The message was from Steve Cross, 
Calder's track superintendent. Cantrell excused himself and called 
Cross. Over the whipping South Pacific winds, he could just make out 
Cross's message: The jig was up.
    ``Churchill Downs has lawyers all over this place,'' Cantrell 
remembers Cross telling him in March 2008. ``They are on to us.''
    For 10 years, Cross, Cantrell, and a man named Israel Campos had 
run a massive fraud operation out of Calder. As the person in charge of 
maintaining the grass and track, Cross ordered nearly $4 million of 
chemicals from Cantrell and Campos (plus almost another million from 
unidentified plumbing, welding, and painting contractors). But the 
goods were never delivered, and Cross received roughly $2 million in 
kickbacks from the phony vendors.
    The trio was finally charged this year. On the surface, it seems 
like an open-and-shut case of employees ripping off their clueless 
bosses. But there is more to the story, Cantrell claims. He says Cross 
could never have ordered $5 million of fake goods without his 
supervisors noticing.
    Current Calder officials acknowledge the track had management 
problems that contributed to the scheme but say they've solved the 
problems with new leadership. ``I didn't have the pleasure of knowing 
Steve Cross, but our company has identified the improprieties under his 
watch through a thorough audit process,'' Marshall says.
    When Cross first met Cantrell in 1999, he was convinced the guy was 
a cop. But Cantrell was in trouble. He and his dad owed thousands after 
a failed exterminator business. Cantrell had two kids, and his wife was 
pregnant with twins.
    A friend had told Cantrell about the operation Cross and Campos had 
started the year before at Calder. It was as easy as filling out fake 
receipts and then cashing the checks, the friend said. Cantrell showed 
up at Cross's trailer on the backside of Calder. Eventually convinced 
that the cash-strapped mess wasn't a cop, Cross cut Cantrell in on the 
scam.
    Every week for the next decade, Cantrell stopped by Cross's trailer 
and exchanged a phony receipt for a real check, issued by the Calder 
accounting department. Then Cantrell would pass Cross an envelope with 
his half of the fraudulent funds, usually $3,000 to $5,000. Campos did 
the same. The simple deception earned them each roughly $150,000 a 
year, while Cross made twice that much.
    Flush with cash, Cross began driving a Corvette and taking gambling 
trips to Las Vegas and Atlantic City. Cantrell, meanwhile, went 
downhill after his divorce. He wallowed in drugs and prostitutes for a 
couple of years, he admits.
    There was too much missing money to hide forever, though. Campos 
had Cross issue the checks to one of his employees, but cashed them 
himself. When the woman received a W-2 listing income of more than 
$300,000, she freaked out and went to the IRS. By March 2008, Calder 
was swarming with Churchill Downs attorneys. That's when Cross called 
Cantrell in Australia and told him to keep quiet.
    But when Cantrell returned to Florida, there was a subpoena waiting 
for him. He promptly spilled his guts to Calder's lawyers about the $4 
million scheme in return for immunity from a lawsuit.
    ``You can call me a fucking rat. I don't care,'' he says. ``In the 
end, it's your own skin that you're worried about.''
    Calder fired Cross and then sued him. The case remains open.
    Cantrell's deal with Calder didn't protect him from Federal 
investigators. He and his co-conspirators were indicted this past 
February. Again, he cooperated in hopes of reducing his sentence. It 
worked. On May 22, he got 13 months in prison. Campos received 33 
months, and Cross nabbed nearly 5 years. In court, prosecutors admitted 
that Cantrell had made their case.
    Standing beneath the hulking stone awning of the Federal courthouse 
in downtown Miami, Cantrell seems at peace. After a decade of thrills 
financed by fraud, he no longer looks much like a cop. His long hair is 
greasy and streaked with bleach like a surf bum's. His face is half-
frozen by all the Xanax and codeine syrup he's been taking to avoid 
violating his parole. And he's wearing a blue Smurf T-shirt that reads, 
``Call Me Big Papa.''
    Yesterday was Independence Day; today he's turning himself in. ``I 
never lied to anybody,'' he says in the shadow of the Federal prison 
where he'll be locked up for the next year. ``As soon as I got caught, 
I turned myself in and told them everything.''
    Two things still bother Cantrell, though. First, he'll miss a year 
of his kids' lives. But he's also pissed that it's business as usual at 
Calder. The race course recouped most of the stolen money thanks to its 
employee theft insurance. Cross was the only Calder employee charged in 
the scheme; he told prosecutors that his bosses played no part in it. 
Cantrell claims Cross was simply covering for his higherups.
    He walks into the tomb-like building and hands his parole card to a 
U.S. Marshal. ``It's time to pay the pied piper,'' he says, but not 
before one last warning: ``Calder is one of the dirtiest racetracks 
around. There are a lot of secrets still buried there.''
    That claim is backed up by an unlikely source: Steve Cross. A few 
weeks before beginning his own prison sentence, Cross gruffly answered 
one question before hanging up on New Times. ``What really goes on 
behind the scenes at Calder?'' he asked, repeating a reporter's 
question. ``Everything.''
    At Calder, crime goes well beyond fraud cases and drug violations 
for trainers like Kirk Ziadie. Records show cops responded to the track 
and its attached casino nearly 500 times in the past 5 years. More than 
600 pages of state and city records suggest that guns, drugs, and 
counterfeit cash are common at the track.
    These crimes bolster claims contained in two lawsuits pending 
against Calder in South Florida courts that claim Calder officials 
ignored rampant wrongdoing at the racetrack and banned horse trainers 
who complained. The suits allege:

  <bullet> the track banned a horse owner named Dennis Fisher after he 
        complained about race fixing and drug abuse at the track;

  <bullet> track officials helped a horse owner claim animals belonging 
        to trainer Rene Wagner after she ratted on abuses, including 
        the use of electric ``buzzers'' to spur horses during races;

  <bullet> and a breeder named Gina Silvestri lost horses after a track 
        secretary illegally transferred their ownership.

    Calder officials declined to comment specifically about any of 
those cases because both remain open. Fisher says the cases, taken 
together, demonstrate that track leaders try to throw whistleblowers 
out rather than take allegations seriously.
    ``Calder higherups believe that they are holier than thou, but I 
caught them breaking every rule in the book,'' he says.
    Fisher, a bear of a man with a belly that barely fits under his 
shirt, was a successful horse owner and trainer for two decades in his 
native South Africa, he says, before he was forced to leave after 
speaking out about corruption and racism in that nation's racing 
industry.
    After moving to Miami and setting up his operation in 1997, Fisher 
won 14 races worth $116,000 around the country over the next 13 years. 
But he never won at Calder, which he found suspicious.
    Fisher says Calder officials constantly tried to influence races. 
Some, like former racing secretary Bob Umphrey, secretly owned horses 
and wanted them to win, Fisher claims in court records. (Speaking on 
the condition of anonymity, a former Calder official told New Times 
that Umphrey indeed owned horses and bet on races--in violation of 
track rules. Umphrey died in 2005. Marshall says that to his knowledge, 
no course official has ever improperly influenced a race.)
    Fisher insists the formula was simple. With its private security 
force, Calder could rule off or ban anyone at any moment. Meanwhile, 
drug use was rampant among jockeys and employees on the backside. But 
officials looked the other way if employees followed orders, he says. 
Other track insiders echo that accusation.
    ``For big races with lots of money in them, the officials actually 
set up the race ahead of time,'' claims Gabriel Myatt, a former jockey 
and security guard at Calder. ``They pick the horses, then they set up 
the odds and tell the jockeys: 'You are fourth, you are fifth,' and so 
on. If you're a jockey and you listen, you might make some extra money. 
If you don't listen to them, you don't get paid and you get 
blackballed.''
    Marshall says he's never heard an official complaint from Myatt, 
who worked at the track from April 2006 to May 2007. ``We take these 
kinds of allegations very, very seriously,'' he says.
    Fisher also claims that his complaints led to mysterious 
retaliation. In 2005, his horses at Calder began to go crazy. After 
finding them banging their heads against the wall or scratching their 
hooves raw, he suspected they were being drugged. He once found filly 
urine spread in his barn to make his male horses go wild, he says. 
Another time, he arrived early in the morning to find Majestic JCE--one 
of his most prized horses--with fractured legs after escaping from his 
stall the night before. He had to put the stallion down.
    In December 2005, Fisher went to the FBI. He told agent Cynthia 
Levinson that Calder officials were fixing races, allowing drug use, 
and securing false social security numbers for undocumented immigrants 
to work at the track. (Miami-based FBI spokesman Mike Leverock declined 
to comment about Fisher's claims.)
    Days later, Fisher met with Calder officials. He claims they 
demanded he drop his complaints. Fisher refused and was banned from the 
course. He sued several months later.
    Calder conspired to defame Fisher because of his knowledge of foul 
play, corruption, and race fixing, he claimed in his suit. Track 
officials then ``banished'' him as ``retaliation for speaking out.'' 
The case remains open.
    Marshall declined to talk about Fisher's accusations. ``He hasn't 
presented these complaints directly to me or come to me with these 
allegations,'' he says.
    Fisher's close friend Rene Wagner, another South African trainer, 
has also battled track officials. When Fisher was ruled off, Wagner 
trained both of their horses. Like Fisher, she soon began to suspect 
that jockeys, horse owners, and Calder officials were conspiring to rig 
races.
    In a complaint to the Division of Pari-Mutuel Wagering filed in 
April 2010, Wagner accused horse owner Allen Bruce Gottlieb of 
instructing jockey Carlos Camilo to zap horse Raisinaboveonly with a 
battery, or electric buzzer, hidden in his hand. The horse went wild 
and finished last. Wagner's complaint set off a bitter feud. Gottlieb 
sued her, calling Wagner and Fisher ``scam artists.'' But Wagner won in 
court, claiming Gottlieb conspired with Calder officials to have her 
blacklisted. (Gottlieb declined to comment.) Wagner is now planning her 
own lawsuit against Calder.
    The second suit comes from horse breeder Gina Silvestri. In 2006, 
she had more than a dozen stalls at Calder. When another owner died in 
November, she agreed to take on a horse named Greenwood Mystery. 
Silvestri's trouble began 6 months later, when someone else claimed 
ownership of the animal.
    Sure enough, when Silvestri checked the horse's papers, she says 
she discovered the transfer had been signed in December--not by the 
dead owner, but by Calder racing secretary Michael Anifantis. When 
Silvestri and 15 witnesses turned up at a hearing to determine how a 
corpse could have given Silvestri a horse, the event was abruptly 
canceled. Steward Jeffrey Noe refused to take depositions. Three more 
hearings were scheduled and then canceled. In January 2008, Silvestri 
was banned from Calder for life. She sued the track in Broward County 
Court and sold all of her horses to pay nearly a half-million dollars 
in legal bills.
    ``Everybody is scared to death of Churchill Downs,'' she says. 
``But it's not fair that people are treated like this.''
    In court, the track's attorneys have sought to discredit Fisher, 
Wagner, and Silvestri. But some of the trio's allegations are supported 
by police reports and state regulators' investigations.
    Fisher and Wagner's claim that Calder is awash in drugs is 
corroborated by repeated narcotics arrests at the racetrack. On July 
12, 2009, for instance, a groom was arrested for selling cocaine and 
marijuana out of his room on the backside of Calder. Two months later, 
another horse handler was busted for selling and smoking crack. A year 
later, another dealer was caught with ten grams of pot and a digital 
scale. At least six arrests related to drugs have been made in the past 
5 years.
    Meanwhile, shady business abounds at the track. According to police 
reports, Calder employees accepted stolen checks and credit cards. One 
man lost $7,000 when his bank account was hacked by someone at the 
track.
    There's at least one undeniable villain in the eyes of those who 
value clean contests at racetracks: the State of Florida. The Sunshine 
State not only has some of the most lax penalties in the nation, but 
state law also mandates testers to use outdated equipment that can't 
screen for a majority of modern cheating methods.
    ``Many drugs simply aren't detectable at all'' in Florida, says 
Richard Sams, who used to run the University of Florida's Racing 
Laboratory, which tests all post-race samples in the state.
    For horses and jockeys, the issue isn't just about fairness--it's 
life-or-death. Trainers who use powerful painkillers and stimulants to 
force horses to run through their injuries make accidents more likely. 
A recent investigation by the New York Times found that the rate of 
deadly breakdowns doubled when drug restrictions were loosened. Race 
horses die twice as often on the track in the United States as they do 
in England, where drugs aren't allowed.
    ``The only way to protect horses and jockeys is to get rid of the 
drugs,'' says Lyons, the equine-sports veterinarian. ``The public is 
tired of seeing carnage on the racetrack.''
    There's a long history of politics undermining drug detection in 
Florida. Wayne Duer was in charge of drug-testing horses in the state 
from 1977 to 1986. In 1984, he and his fellow lab technicians 
discovered such rampant doping among quarter horses at Pompano Park 
that Florida banned quarter-horse racing for an entire year.
    When racing restarted in 1986, Duer and his team resumed testing--
at least until Bob Rosenberg, then the head of the Division of Pari-
Mutuel Wagering, sent his staff into the laboratory. ``They took our 
samples--which constituted evidence that doping was going on again--and 
sent them to a lab in Colorado that couldn't even test for the drug 
that was being used,'' Duer says. He was fired, and it was back to 
business as usual at tracks around the state.
    ``It was all covered up,'' Duer says.
    Politics again stymied efforts to clean up the sport in the 1990s. 
After the testing lab at UF began using newer techniques, the number of 
violators skyrocketed, as did fines and suspensions. Owners, trainers, 
and track officials, in turn, lobbied legislators to change state law 
to mandate the older, outdated methods. ``It wasn't a budget issue,'' 
Sams says. ``It was motivated by a desire to avoid longer detection 
periods.''
    Sams left UF in 2010 for a state-of-the-art private lab in 
Kentucky. He doesn't miss working with limited funds and one hand tied 
behind his back. ``They were crude and outdated methods,'' he says. ``I 
wouldn't propose that anybody use them.''
    Florida combines lax testing with some of the Nation's weakest 
penalties. Consider: Of 15 recent violations in seven states for use of 
caffeine (which can boost horses' performance), 14 resulted in trainers 
being suspended or horses being disqualified. Not in Florida, however, 
where the trainer escaped with just a $250 fine.
    State leaders seem disinclined to address the issue. Of more than a 
dozen pari-mutuel bills proposed by this year's Legislature, none 
suggested harsher penalties or increased testing standards.
    On a Federal level, meanwhile, the Times investigation has spurred 
some action. Thirty-four years after Congress last regulated horse 
racing, New Mexico Sen. Tom Udall called a hearing last month to 
discuss the ``alarming level of corruption and exploitation'' in the 
sport. ``Horse racing. . . has run off the rails,'' he said. ``The 
chronic abuse of horses with painkillers and other drugs is just plain 
wrong.''
    Udall is proposing a stark reform: banning all drugs from horse 
racing, with no variations between state and Federal oversight. Any 
positive drug test would disqualify a horse and suspend its trainer. 
Three violations would ban a trainer for life.
    Don't expect that kind of change to come easily. Among those 
testifying in Washington were Kent Stirling, executive director of the 
Florida Horsemen's Benevolent and Protective Association.
    ``The New York Times' assertions are badly flawed and seriously 
misleading,'' Stirling said before bizarrely claiming a drug ban would 
be dangerous. ``The call for a medication ban is premised on 
misconceptions by industry participants who put their own agenda ahead 
of the welfare of horses and jockeys.''
    Marshall says Calder would consider supporting a Federal agency 
overseeing horse-racing standards. ``If it would make racing a better 
sport, sure, we'd consider it,'' he says.
    Ironically, the biggest threat to Calder might not be corruption, 
drug use, or regulation, experts say. Rather, as at tracks across 
Florida, slot machines are replacing the messier, more expensively 
maintained world of trainers, jockeys, and thoroughbreds. Like 
Gulfstream Park and Hialeah Park, Calder is now a ``racino,'' having 
added slots and card tables in 2010. On some race days, a couple dozen 
old-timers watch a race from the grandstands. Meanwhile, inside 
Calder's new casino, thousands tempt their fate with the tap of a 
computer screen.
    ``Track owners don't want to have horse and dog racing,'' gambling 
expert Jarvis says. ``It's very expensive. Profits are just not very 
good.''
    For now, Calder and other tracks can operate casinos only if they 
maintain their horse racing. Marshall says, ``Horse racing remains at 
the center of everything we do.''
    But Calder and other racetracks' promise to Florida that winning 
purses would increase with the casino revenue hasn't happened, 
according to Jarvis. ``That was the lie that was told,'' he says. 
``Their argument was that gambling meant bigger purses, better horses 
coming to Florida, more people at the tracks, and more people gambling. 
It was supposed to be good for the state and good for racing. But it 
was nonsense.''
                                 ______
                                 
                    The Humane Society of the United States
                                      Washington, DC, July 12, 2012
Hon. John D. Rockefeller IV,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Rockefeller:

    The Humane Society of the United States, on behalf of our 11 
million supporters nationwide, and the Humane Society Veterinary 
Medical Association, representing 4,500 veterinary professionals, 
commend you for holding today's hearing on Medication and Performance 
Enhancing Drugs in Horse Racing. We are pleased to jointly endorse S. 
886/H.R. 1733, the Interstate Horseracing Improvement Act, that will 
bring much-needed improvements to the horse racing industry--
prohibiting horses from racing under the influence of performance-
enhancing drugs, requiring testing of racehorses by accredited labs, 
establishing accountability for host racing associations, and 
instituting progressively more stringent penalties for those for those 
who drug horses, culminating in a three-strikes-and-you're-out 
permanent ban on participation in interstate horse racing activity. 
Passage of this legislation is urgently needed given the patchwork of 
conflicting state laws and the failure of industry to self-police in a 
meaningful way, which has led to rampant abuse that jeopardizes the 
health and safety of both horses and jockeys, creates an unfair playing 
field, and corrupts the integrity of the sport.
    According to a 2012 investigative report series in the New York 
Times, Death and Disarray at America's Racetracks, racehorses are often 
``overmedicated and ultimately disposable athletes.'' The investigative 
journalists reviewed and analyzed thousands of race reports from tracks 
across the country, including injury reports and medical tests, and 
found ``a culture of rampant cheating and feeble regulation, where 
injured and fragile horses are forced to run while drugged, to the 
great peril of both the animals and jockeys.'' According to the report, 
an average of 24 horses die while racing at U.S. tracks every week. 
This is absolutely unacceptable. Often drugged with painkillers and 
performance-enhancing substances, racehorses are pushed beyond their 
limits, leading to breakdowns that cause severe or fatal consequences 
for both horses and jockeys.
    We support this vital legislation that will compel the U.S. horse 
racing industry to finally clean up its act, and urge Congress to 
swiftly enact it for the sake of racehorses, jockeys, and the industry 
overall in this country.
            Sincerely,
                                             Wayne Pacelle,
                                                 President and CEO,
                               The Humane Society of the United States.

                   Nicholas Dodman, BVMS, DVA, DACVA, DACVB
                                         Leadership Council Member,
                         Humane Society Veterinary Medical Association.
                                 ______
                                 
                                               Bladerunners
                                        Brooklyn, NY, July 12, 2012
Hon. John D. Rockefeller IV,
Chairman,
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Chairman Rockefeller:

    Unlike every other sport or racing jurisdiction in the world, horse 
racing in the United States does not have a centralized authority with 
any enforcement powers whatsoever on a national scale. There is no 
national racing commission similar to what the National Football League 
has for example. There is no one horse racing authority. Instead, there 
are 38 separate state racing jurisdictions in the United States, each 
with its own racing commission with its own set of rules and penalties, 
and each with varying degrees of funding and staffing resources. There 
is very little if any standardization on a national scale, and there 
are even situations where the rules within a state itself differs.
    For example, in the state of New York standardbred horses are 
allowed to race with a nasal-strip, but thoroughbreds are not allowed 
to do so. Some states allow an adjunct anti-bleeding medication on 
race-days; other states do not allow its use.
    Although the policing and enforcement of cheating with illegal 
substances is a continual process, the detection testing technology has 
improved to an amazing level of accuracy and can detect substances a 
million times weaker than what was detectable just a decade ago. But 
the actual testing procedures and protocols differ from state to state.
    Can you imagine a situation whereby the Yankees are playing the Red 
Sox but they have completely different rules in each state? So it goes 
with horse racing in the United States. If a horse races in one state 
where a certain threshold level of a particular medication is allowed, 
that same horse could be penalized when it goes to another state that 
has a lower threshold for the same drug.
    Regardless, the number of incidences of cheating with illegal 
controlled substances is a drop in the ocean compared to the massive 
overuse--to the point of abuse--of prescription and therapeutic 
medications perpetrated by many trainers and racehorse veterinarians 
every day at every racetrack in the United States.
    Trainers today do not have the expertise or horsemanship to train 
without a medicine cabinet and likely have never ever seen it done by 
anyone else. This disgraceful situation has been part of the racing 
culture for so long that most stakeholders have lost all sense of what 
is considered right or wrong anymore.
    California veterinarian Dr. Rick Arthur stated on a televised 
roundtable discussion that the United States racing community is using 
more drugs now than when he started practicing decades ago. He went on 
to say, ``Lasix and Bute were once considered exotic drugs, now they 
are considered run of the mill drugs. It is rather astounding the 
amount of drugs that are given today.'' \1\
---------------------------------------------------------------------------
    \1\ ``Racing Roundtable--Medication in Horse Racing'', by host Todd 
Schrupp, TVG (Horse Racing Television), February 4, 2012 http://
www.youtube.com/watch?v=EmzEtu2Yktc.
---------------------------------------------------------------------------
    Lasix is the marketing name for furosemide which is an intense 
diuretic designed to relieve pressure on the horse's cardio-pulmonary 
system by reducing the swelling and fluid retention caused by various 
medical problems, including heart or liver disease. It is also used to 
treat high blood pressure. It causes the kidneys to get rid of unneeded 
water and salt from the body into the urine.\2\
---------------------------------------------------------------------------
    \2\ National Center for Biotechnology Information--U.S. National 
Library of Medicine, Bethesda MD, http://www.ncbi.nlm.nih.gov/
pubmedhealth/PMH0000791/.
---------------------------------------------------------------------------
    Bute is the slang term for Butazolidin, the marketed name of 
Phenylbutazone, which was originally a treatment for rheumatoid 
arthritis and gout in humans; it is no longer allowed for any human use 
in the United States. It is an analgesic used to relieve pain in horses 
by controlling inflammation and fevers. Janet Del Castillo, a regarded 
trainer in Florida warns against training with Bute in lieu of rest and 
how its over-use leads to ulcers.\3\
---------------------------------------------------------------------------
    \3\ ``Backyard Racehorse'', Prediction Publications & Productions, 
by Janet Del Castillo and Lois Schwartz.
---------------------------------------------------------------------------
    Owners are not held to account for the egregious practices of their 
trainers. Trainers have told me about their dilemma when their owners 
expect them to use all available medications to get an edge over other 
horses. Veterinarians at Belmont Park have told me about scoping \4\ 
horses, where they find a mere 5 percent to 10 percent on average 
showing any signs of bleeding--yet almost 99 percent of all racehorses 
are administered a drug, allegedly to lessen the chance of bleeding, on 
every race-day and often during training. It is extremely rare to see a 
horse on a race card that does not receive permitted race-day 
medications.
---------------------------------------------------------------------------
    \4\ This is the racing industry term for tracheobronchoscopy, a 
procedure in which the veterinarian places an optical tube into the 
horse's nostril down to the trachea to determine if blood has seeped 
from the lungs to the trachea.
---------------------------------------------------------------------------
    With the exceptions of Argentina and Canada, not another horse 
racing jurisdiction in the rest of the world allows this practice of 
race-day medication. And, Argentina has plans to phaseout the use of 
Lasix on race days.
    The public bets money on these horses without having any real 
information about the horses' true soundness. The veterinary records 
are not openly available to the public, so the public has no idea to 
what extent the horse is receiving veterinary treatment.
    Joe Drape of the NY Times once asked all of the owners of the 
Kentucky Derby horses if they would publicly disclose their veterinary 
records. Out of twenty owners, only three were willing to do so.\5\
---------------------------------------------------------------------------
    \5\ ``When It Comes to Drugs, Owners of Derby Horses Fall Silent'', 
New York Times, by Joe Drape, April 30, 2009.
---------------------------------------------------------------------------
    At the 2008 Congressional hearing ``Breeding, Drugs, and 
Breakdowns: The State of Thoroughbred Horseracing and the Welfare of 
the Thoroughbred Racehorse,'' one of the witnesses was Arthur Hancock, 
a fourth-generation breeder and owner who also garnered support for the 
currently proposed Interstate Horseracing Improvement Act. Mr. Hancock 
did not complain about cheating with illegal substances. He complained 
about the abuse of legally prescribed medications, and the accompanying 
excessive veterinary bills.
    As stated in that hearing's transcript of the 2008 testimony: 
``Arthur Hancock said that after routinely receiving medication bills 
for more than $1,000 per horse,'' he told his vet to give his horses 
drugs only when they were sick.
    `` `You want to win races, don't you, Arthur?' Hancock said the vet 
replied.''
    Mr. Hancock also went on to call for a single central authority to 
manage horse racing on a national scale because he feels that horse 
racing is a ship drifting without a rudder and it is in danger of 
crashing into the rocks.
    Amazingly, owners complained to me that their monthly veterinary 
bills exceed that of the monthly training bills, yet they don't seem to 
question the trainers. If on average a trainer charges $100 a day per 
horse, the veterinary bill can be upwards of $3,000 a month or $36,000 
a year. That is for each horse. For top trainers, the veterinary bill 
per horse can exceed $50,000 annually. No athlete should require that 
level of medical expenses just to compete. The richer the owner, the 
more can be spent on drugs. For the smaller barns or owners with fewer 
horses, the playing field is not level.
    Veterinary prescriptions are not recorded by any system at any 
racetrack, or any state racing jurisdiction, or by any centralized 
national authority. But of course horse racing does not have a 
centralized national authority to effectively deal with these problems.
    Along with the lack of prescription tracking or central oversight, 
veterinarians have an incentive to over-prescribe medications because 
they are paid by the pill, so to speak. Or, as the backstretch saying 
goes, ``needle in money out''.
    Cot Campbell, managing partner of Dogwood Stables, who pioneered 
the modern racehorse partnership concept, once said that the difference 
between his younger trainers today and his older trainers is the size 
of the veterinary bills.
    Most trainers today are too young to have ever worked in a culture 
of traditional horsemanship free of chemical crutches. There are only a 
few trainers still alive who won Triple Crowns, Triple Crown races and 
the greatest stakes races in the world without any legalized race-day 
medications before the days of Lasix and Bute. The famous and revered 
Hall of Fame trainer Elliot Burch said that what he was most proud of 
about his career was that he raced his horses with just hay, oats and 
water.\6\
---------------------------------------------------------------------------
    \6\ ``Run, Baby, Run: What Every Owner, Breeder & Handicapper 
Should Know about Lasix in Racehorses'', The Russell Meerdink Company, 
Ltd. by Bill Heller, 2002.
---------------------------------------------------------------------------
    This year, Mr. Drape brought national attention to the horrific 
spate of catastrophic breakdowns at Aqueduct racetrack during the 2011-
2012-winter meet.\7\ Not one prohibited substance was found in any of 
the dead horses.
---------------------------------------------------------------------------
    \7\ ``Big Purses, Sore Horses, and Death'', New York Times, by Joe 
Drape, Walt Bogdanich, Rebecca R. Ruiz and Griffin Palmer, April 30, 
2012.
---------------------------------------------------------------------------
    Just last year, Allie Conrad (who is executive director of CANTER 
Mid Atlantic \8\) rescued a racehorse named ``Hey Byrn'' who had raced 
against ``Big Brown,'' the winner of the 2008 Kentucky Derby and 
Preakness Stakes. Ms. Conrad had also testified at the 2008 hearing 
about the drug abuses in horse racing--like Mr. Hancock, she did not 
complain about illegal substance abuse. Hey Byrn was rescued after 
racing until his ankle literally began to fall apart from the excessive 
medication of his joints over time. Ms. Conrad intervened when a 
veterinarian attempted to inject Hey Bern yet again in an attempt to 
get one more race out of him.
---------------------------------------------------------------------------
    \8\ CANTER Mid Atlantic is a free service offered to the Mid 
Atlantic racing trainers and owners to help them find non-race homes 
for their retiring racehorses.
---------------------------------------------------------------------------
    Ms. Conrad said, ``I find it almost poetic that Hey Byrn was 
participating in the same Triple Crown races that sparked the 2008 
Congressional hearings to `encourage' the Thoroughbred industry to 
protect its animals and protect the betting public by setting up a 
central governing body and cleaning up rampant drug use. You may 
remember Big Brown and trainer Rick Dutrow in the center of the 
anabolic steroid issue, and the public outcry that followed. Individual 
racing jurisdictions went on to ban anabolic steroids, but as I 
testified at that same hearing, did nothing to curb the use of the 
drugs that were actually causing all of the lasting issues. Here we are 
3 years later, and I am still putting down horses with ravaged joints 
because nothing has been done.'' \9\
---------------------------------------------------------------------------
    \9\ ``The Life-Or-Death Difference Between 35 And 36 Starts'', by 
Allie Conrad, June 11, 2011 http://www.chronofhorse.com/article/life-
or-death-difference-between-35-and-36-starts.
---------------------------------------------------------------------------
    And these drugs are legally prescribed medications--not illegal 
controlled substances.
    Recently, there has been much public debate about the prolific use 
of Lasix on race days. The debates have been intense, and characterized 
by animosity between those who support its use and those who oppose it.
    To get a clear indication of just how distorted the horse racing 
drug culture is, look no further than the definition of performance 
enhancing medications referred in to the ARCI's ``Uniform 
Classification Guidelines for Foreign Substances.'' \10\ More than 900 
drugs are specified by one of five classifications: from Class 1 (the 
highest performance enhancers, narcotics etc.) to Class 5 (therapeutics 
deemed not performance enhancing). The ARCI is the group of people who 
suggest racing rules to the separate state racing jurisdictions.
---------------------------------------------------------------------------
    \10\ ARCI refers to Association of Racing Commissioners 
International, http://arci.com/druglisting.pdf.
---------------------------------------------------------------------------
    All of the drugs on the list have a specified classification except 
one: furosemide, which is marketed under the name Lasix.
    So, incredibly, a collective of veterinarians, racing stewards, and 
state commissioners in horse racing cannot even bring themselves to 
decide what the classification of a particular medicine is relative to 
horse racing.
    Alex Waldrop is President and CEO of the National Thoroughbred 
Racing Association, and he is a member of the Board of Trustees of the 
American Horse Council. Mr. Waldrop made an extraordinary comment at 
the June 2011 ``International Race-day Medication Summit'' at Belmont 
Racetrack. His statement exemplifies this bizarre Lasix situation. In 
his welcome speech at the seminar, Mr. Waldrop stated that because the 
use of Lasix was so difficult to police, the separate state racing 
commissioners decided that it was easier to just legalize its use in 
order to level the playing field.
    Prior to the legalization of race-day Lasix, bettors had realized 
that something was suddenly going on. The bettors had to scramble to 
figure out who was ``juicing'' their horses with whatever it was. 
Mediocre barns and trainers would suddenly get hot over night and start 
winning races. Horses rarely in the money were winning by many lengths. 
Word got out that trainers were using Lasix. The cheaters were 
neutralized over night when all state racing commissions allowed 
everyone to use it. Ironically, the condition and soundness of 
racehorses in the United States has declined ever since.
    The production and aggressive promotion of medications for human 
uses beyond that originally intended has led to numerous lawsuits and 
fines. The Associated Press recently reported that GlaxoSmithKline was 
fined three billion dollars for aggressive promotion to doctors for 
unapproved uses and inducing the doctors to praise those extra uses to 
their medical colleagues and patients.\11\
---------------------------------------------------------------------------
    \11\ ``Record settlement: GlaxoSmithKline to plead guilty, pay $3B 
for illicit promotion of drugs'', by the Associated Press, July 2, 2012
---------------------------------------------------------------------------
    Pfizer Inc., the world's biggest drug maker, paid $2.3 billion in 
criminal and civil fines for improperly marketing 13 different drugs. 
Pfizer was also accused of encouraging doctors to prescribe its drugs 
with gifts such as free golf, massages, and junkets to posh resorts.
    The concept is known as off-label marketing. This is a widespread 
practice in the pharmaceutical industry. The drug companies consider 
the fines as simply a cost of doing business. It is difficult to 
believe that these egregious practices are not occurring in horse 
racing. Pharmaceutical companies are omni-present in trade 
publications, at horse sports and events.
    For a practical and ironic demonstration of the chemical culture of 
horse racing, consider who drives the current organization that 
purports to lobby Congress on behalf of horse racing: the American 
Horse Council that I mentioned above. The sponsor page on the American 
Horse Council's website prominently displays their top three `Gold' 
sponsors with an advertisement for each: \12\
---------------------------------------------------------------------------
    \12\ American Horse Council, Sponsor Page, http://
www.horsecouncil.org/american-horse-council-sponsors.

(1)  Luitpold Animal Health<SUP>TM</SUP>--They make Adequan for 
        ``multimillion-dollar thoroughbreds''. ``You've known and 
        trusted the quality and reliability of Adequan. (polysulfated 
        glycosaminoglycan) for years. Now we invite you to look at the 
---------------------------------------------------------------------------
        joint disease educational program.''

(2)  Pfizer Inc.--``Pfizer Animal Health has partnered with the 
        American Horse Council. . . . The American Horse Council's 
        initiatives to lead and protect all horses through 
        communication, education and legislation align well with Pfizer 
        Animal Health's mission to protect the health and wellness of 
        these animals.''

(3)  Merck--``Merck Animal Health offers veterinarians, farmers, pet 
        owners and governments the widest range of veterinary 
        pharmaceuticals, vaccines and health management solutions and 
        services. Merck Animal Health is dedicated to preserving and 
        improving the health, well-being and performance of animals.''

    It is often said that pharmaceuticals are prescribed and 
administered in safe doses to the horse but that is inconsistent with 
common practices. Today, trainers use numerous legally prescribed 
medications that are now combined into potent cocktails, a procedure 
called ``stacking''. Several medications are combined to circumvent 
medication restrictions and threshold levels on individual specific 
drugs. These combinations create a more powerful effect on the animal 
than would the use of any one of the medications alone. Horses are 
trained, as well as raced, under this form of medication regimen.
    This form of abuse over the last several decades has led to a mass 
plague of gastrointestinal ulcers and alleged increased observations of 
bleeding from the lungs. The response to these maladies has been to 
simply manufacture new drugs that deal with conditions that may have 
been brought on by the original overuse of medications. So horses are 
injected with so many legal drugs that many are used to mitigate the 
side effects of each other.
    Ironically, the number of starts per horse has decreased every year 
since the introduction and legalization of Lasix in horse racing: the 
field size of each race has gotten smaller over time; and yet the 
number of breakdowns has increased. Horses racing in the Untied States 
today have less stamina and have difficulty staying sound, and this 
condition exists within the context of a culture that uses more legally 
prescribed medications than at any previous time in horse racing 
history.
    It is all too easy to give in to temptation and get carried away by 
the sensationalism of snake venom and frog secretions recreated 
synthetically. The good news is that the current system seems to be 
working in detecting and policing these rare illegal activities. But 
while criminal news distracts us, thousands of horses suffer physical 
deterioration and excruciating pain every day from the relatively 
boring day-to-day routine abuse of legally prescribed medications.
    In summary, the horse racing industry and the state and Federal 
authorities attempting to regulate it are in denial about the reality, 
fact, and magnitude of the malpractice of veterinary care and the blind 
eyes that are turned away from it. Horse racing has no central 
authority or legislation empowering it to protect the lives of horses, 
the lives of the jockeys, or offer consumer protection to unsuspecting 
and inexperienced owners and the blind wagering public at large.
    This sorry situation must change. Congress must act by legislating 
radical change. Legally requiring, mandating and empowering a national 
horse racing commission will go a long way toward saving this industry 
from itself.
---------------------------------------------------------------------------
    \*\ Bladerunners is an independent non-profit organization 
unaffiliated with any official horse racing entity in any national or 
international jurisdiction; nor are its members, officers or board 
members serving in any capacity within any official horse racing 
entity; Bladerunners is not funded by any other official horse racing 
entity. 501(c) status is pending.
---------------------------------------------------------------------------
            Thank you,
                                                 Sean Kerr,
                                        Interim Executive Director.
               Bladerunners: National Horse Racing Commission Movement.
                                 ______
                                 
       Prepared Statement of Nancy Perry, Senior Vice President, 
                      Government Relations, ASPCA
    On behalf of the American Society for the Prevention of Cruelty to 
Animals (ASPCA) and our 2.5 million supporters nationwide, thank you 
for the opportunity to submit this written statement. Founded in 1866, 
the ASPCA was the first humane organization in the United States. Our 
mission, as stated by founder Henry Bergh, is ``to provide effective 
means for the prevention of cruelty to animals throughout the United 
States.'' The ASPCA works to rescue animals from abuse, pass humane 
laws, and share resources with other animal protection groups 
nationwide.
    The ASPCA submits this statement in support of S. 886, the 
Interstate Horseracing Improvement Act. This legislation, introduced by 
Senator Tom Udall (D-NM), would improve the safety and integrity of the 
sport by requiring race tracks that provide simulcast or Internet 
wagering to ban performance-enhancing drugs. The bill would also 
implement a ``three strikes'' rule for violators and require racing 
associations to have policies in place that address doping.
The Doping Problem
    Drugging of racehorses is an extremely significant problem. The New 
York Times published a shocking expose into the widespread doping of 
racehorses, ``Death and Disarray at America's Racetracks'' (3/25/12), 
stating that ``trainers experiment with anything that might give them 
an edge, including chemicals that bulk up pigs and cattle before 
slaughter, cobra venom, Viagra, blood doping agents, stimulants and 
cancer drugs.'' A more recent New York Times article, ``Horse Racing 
Discovers New Drug Problem, One Linked to Frogs'' (6/20/12), revealed 
that some trainers are even experimenting with liquids extracted from 
South American frogs to give their horses an unfair advantage while 
racing. Demorphin, the substance collected from these frogs, acts as a 
painkilling drug 40 times more powerful than morphine. A pain-masking 
drug of that strength would enable horses to run despite serious 
injuries.
    Doping leads to catastrophic human and animal injuries and deaths. 
Though the horse racing industry has long promised to restrict the use 
of performance-enhancing drugs, such voluntary measures have been 
largely ignored. Lax or nonexistent oversight allows, and encourages, 
the use of any means possible--even cruel, life-threatening means--to 
win races. The worst offenders can easily circumvent the current 
patchwork of state horse racing commission rules by relocating their 
operations.
Enforcement Patchwork
    This year's Triple Crown brought light to the pervasiveness of 
doping in top-tier horse racing. Douglas O'Neill, trainer of this 
year's Derby and Preakness-winning horse, I'll Have Another, was put on 
suspension by the California Horse Racing Board due to accumulated 
horse doping violations. Last fall, Richard Dutrow Jr., the trainer of 
2008 Kentucky Derby winner, Big Brown, was banned from racing in New 
York for 10 years. Dutrow has been sanctioned 70 times in nine 
different states for various rule violations, including numerous 
violations of drug rules.
    Nevertheless, Dutrow had a horse running in the 2012 Preakness, one 
of the most prestigious horse races in the country. These trainers are 
not just bad apples. A review of Racing Commission International's 
database of drugging violations demonstrates that the whole barrel is 
rotten--only two of the top twenty trainers in the country are without 
drugging violations. Self-regulation by state horse racing commissions 
has failed to protect horses and jockeys from these abusive and 
deceptive drug-abuse schemes. The pervasive pattern of abuse 
underscores an absolute necessity for establishing national standards 
in horse racing and regulation of drug use. Until a Federal ban on the 
use of performance-enhancing drugs in racehorses is the law of the 
land, the lives of thousands more horses and jockeys will be at risk 
and horrific crashes and deaths will continue, day in and day out, at 
tracks nationwide.
Inevitable Abuse
    When winning is the ultimate goal, any system that enables the use 
of shortcuts for enhanced competitiveness without repercussions can 
anticipate that the participants will indulge in those shortcuts. We 
are grateful for the trainers, veterinarians and owners who do not use 
doping to win, but know that they are struggling upstream and foregoing 
opportunity for financial gain and for glory. This fundamental 
unfairness drives out the honest brokers and hampers the sport of horse 
racing, making a farce of its winners. For the sake of the sport 
itself, creating a level playing field will enhance the competition and 
produce a much healthier atmosphere for all involved. The industry 
cannot be expected to make this needed change. History has demonstrated 
that commissions and state-by-state rules cannot overcome the pressure 
for purses.
    It is time to bring an end to this rampant abuse. The ASPCA 
supports passage of the Interstate Horseracing Improvement Act, S. 886, 
to prohibit the use of performance-enhancing drugs in racehorses. This 
Federal ban is necessary to set welfare standards applicable 
nationwide, end the confusion of varying state rules, and create a 
``three strikes and you're out'' penalty for strong enforcement. The 
ASPCA appreciates the Commerce, Science, and Transportation Committee 
holding a hearing on this important issue. We look forward to working 
with the Committee and the racing industry to bring this long overdue 
reform.

                                  <all>

</pre></body></html>
